<html>
<title> - HEARING ON THE PRESUMPTIVE NOMINATION OF GENERAL ERIC K. SHINSEKI, TO BE SECRETARY OF VETERANS AFFAIRS</title>
<body><pre>[Senate Hearing 111-87]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 111-87

               NOMINATIONS OF THE 111TH CONGRESS, PART 1

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                  JANUARY 14, APRIL 1, AND MAY 6, 2009

                               __________

       Printed for the use of the Committee on Veterans' Affairs


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate




                  U.S. GOVERNMENT PRINTING OFFICE
47-057 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                     COMMITTEE ON VETERANS' AFFAIRS

                   Daniel K. Akaka, Hawaii, Chairman
John D. Rockefeller IV, West         Richard Burr, North Carolina, 
    Virginia                             Ranking Member
Patty Murray, Washington             Johnny Isakson, Georgia
Bernard Sanders, (I) Vermont         Lindsey O. Graham, South Carolina
Sherrod Brown, Ohio                  Kay Bailey Hutchison, Texas \3\
Jim Webb, Virginia                   Roger F. Wicker, Mississippi
Jon Tester, Montana                  Mike Johanns, Nebraska \3\
Mark Begich, Alaska \1\
Roland W. Burris, Illinois \1\
Arlen Specter, Pennsylvania \2\
                    William E. Brew, Staff Director
                 Lupe Wissel, Republican Staff Director



----------
\1\ Hon. Mark Begich and Hon. Roland W. Burris were appointed to the 
Committee majority on January 21, 2009, after the nomination hearing of 
General Shinseki.
\2\ Hon. Arlen Specter was recognized on May 5, 2009, as a majority 
Member.
\3\ Hon. Mike Johanns was appointed to the Committee minority on 
January 21, 2009, replacing Hon. Kay Bailey Hutchison.










                            C O N T E N T S

                              ----------                              

                            January 14, 2009
 Hearing on the Presumptive Nomination of General Eric K. Shinseki, to 
                    be Secretary of Veterans Affairs
                                SENATORS

                                                                   Page
Akaka, Hon. Daniel K., Chairman, U.S. Senator from Hawaii........     1
Burr, Hon. Richard, Ranking Member, U.S. Senator from North 
  Carolina.......................................................     3
Specter, Hon. Arlen, U.S. Senator from Pennsylvania..............    10
Tester, Hon. Jon, U.S. Senator from Montana......................    11
Murray, Hon. Patty, U.S. Senator from Washington.................    13
Wicker, Hon. Roger F., U.S. Senator from Mississippi.............    14
Webb, Hon. Jim, U.S. Senator from Virginia.......................    16
Rockefeller, Hon. John D., IV, U.S. Senator from West Virginia...    17
Sanders, Hon. Bernard, U.S. Senator from Vermont.................    18
Isakson, Hon. Johnny, U.S. Senator from Georgia..................    20
Hutchison, Hon. Kay Bailey, U.S. Senator from Texas..............    21

                               WITNESSES

Dole, Hon. Bob, former U.S. Senator from Kansas..................     4
    Prepared statement...........................................     7
Inouye, Hon. Daniel K., U.S. Senator from Hawaii.................     8
    Prepared statement...........................................     9
Shinseki, Eric K., General U.S. Army (Ret.), Nominee to be 
  Secretary, U.S. Department of Veterans Affairs.................    22
    Prepared statement...........................................    25
    Response to pre-hearing questions submitted by:
      Hon. Daniel K. Akaka.......................................    26
      Hon. Richard Burr..........................................    39
      Hon. Patty Murray..........................................    42
      Hon. Bernard Sanders.......................................    46
      Hon. Johnny Isakson........................................    48
    Response to post-hearing questions submitted by:
      Hon. Daniel K. Akaka.......................................    49
      Hon. Richard Burr..........................................    49
    Questionnaire for Presidential nominees......................    51
    Letter from the Office of Government Ethics..................    58
    Letter from General Shinseki to the Office of General 
      Counsel, U.S. Department of Veterans Affairs...............    59

                                APPENDIX

Duckworth, L. Tammy, Director, Illinois Department of Veterans 
  Affairs; prepared statement....................................    75
Berthiaume, Rene, Post Commander, Vietnam Veterans Post 10583 of 
  the Veterans of Foreign Wars (VFW); letter.....................    76
Kawamura, Edward M., A Disabled American Veteran, Member of Kauai 
  Chapter No. 5, Disabled American Veterans, Lihue, Kauai, 
  Hawaii; prepared statement.....................................    77
Nakamoto, Robert, President, Japanese American Veterans 
  Association; prepared statement................................    78
Angapak, Nelson N., Sr., Veteran, U.S. Army; prepared statement..    81
    Attachments:
      Letter introducing the Memorandum of Understanding.........    84
      Memorandum of Understanding between Department of Veterans 
        Affairs and Indian Health Service........................    86
                              ----------                              

                             April 1, 2009
          Nomination of W. Scott Gould to be Deputy Secretary,
                  U.S. Department of Veterans Affairs
                                SENATORS

Akaka, Hon. Daniel K., Chairman, U.S. Senator from Hawaii........    89
Burr, Hon. Richard, U.S. Senator from North Carolina.............   121
Tester, Hon. Jon, U.S. Senator from Montana......................    91

                               WITNESSES

Hon. Jack Reed, a United States Senator from the State of Rhode 
  Island.........................................................    90
Gould, W. Scott, Deputy Secretary-Designate for the U.S. 
  Department of Veterans Affairs.................................    92
    Prepared statement...........................................    94
    Response to pre-hearing questions submitted by:
      Hon. Daniel K. Akaka.......................................    95
      Hon. Richard Burr..........................................   102
    Response to post-hearing questions submitted by Hon. Daniel 
      K. Akaka...................................................   103
    Questionnaire for Presidential nominees......................   105
    Letter from the Office of Government Ethics..................   113
    Letter from Mr. Gould to the Office of General Counsel, U.S. 
      Department of Veterans Affairs.............................   114
                              ----------                              

                             April 1, 2009
 Nomination of L. Tammy Duckworth to be Assistant Secretary for Public 
   and Intergovernmental Affairs, U.S. Department of Veterans Affairs
                                SENATORS

Akaka, Hon. Daniel K., Chairman, U.S. Senator from Hawaii........   125
Burr, Hon. Richard, U.S. Senator from North Carolina.............   126
Burris, Hon. Roland W., U.S. Senator from Illinois...............   129

                               WITNESSES

Durbin, Hon. Richard J., United States Senator from the State of 
  Illinois.......................................................   127
Duckworth, L. Tammy, Designate to be Assistant Secretary for 
  Public and Intergovernmental Affairs, U.S. Department of 
  Veterans Affairs...............................................   132
    Prepared statement...........................................   134
    Response to pre-hearing questions submitted by:
      Hon. Daniel K. Akaka.......................................   135
      Hon. Richard Burr..........................................   139
    Response to post-hearing questions submitted by Hon. Richard 
      Burr.......................................................   140
    Questionnaire for Presidential nominees......................   142
    Letter from the Office of Government Ethics..................   155
    Letter from Ms. Duckworth to the Office of General Counsel, 
      U.S. Department of Veterans Affairs........................   156

                                APPENDIX

Japanese American Veterans Association; letter...................   165
                              ----------                              

                              May 6, 2009
Nominations of Roger W. Baker to be Assistant Secretary for Information 
  and Technology; Will A. Gunn, Colonel (Ret.), U.S. Air Force, to be 
 General Counsel; Jose D. Riojas, Brigadier General (Ret.), U.S. Army, 
 to be Assistant Secretary for Operations, Security, and Preparedness; 
and John U. Sepulveda to be Assistant Secretary for Human Resources and 
          Administration, U.S. Department of Veterans Affairs
                                SENATORS

Akaka, Hon. Daniel K., Chairman, U.S. Senator from Hawaii........   169
Burr, Hon. Richard, Ranking Member, U.S. Senator from North 
  Carolina.......................................................   210
    Prepared Statement...........................................   210
Isakson, Hon. Johnny, U.S. Senator from Georgia..................   252
Burris, Hon. Roland W., U.S. Senator from Illinois...............   256
Johanns, Hon. Mike, U.S. Senator from Nebraska...................   258

                               WITNESSES

Baker, Roger W., Nominee to be Assistant Secretary for 
  Information and Technology, U.S. Department of Veterans Affairs   171
    Prepared statement...........................................   172
    Response to pre-hearing questions submitted by:
      Hon. Daniel K. Akaka.......................................   173
      Hon. Richard Burr..........................................   177
    Response to post-hearing questions submitted by Hon. Daniel 
      K. Akaka...................................................   178
        Follow-up letter.........................................   180
    Questionnaire for Presidential nominees......................   181
    Letter from the Office of Government Ethics..................   187
    Letter from the nominee to the Office of General Counsel, 
      U.S. Department of Veterans Affairs........................   188
Gunn, Will A., Colonel (Ret.), U.S. Air Force, Nominee to be 
  General Counsel, U.S. Department of Veterans Affairs...........   190
    Prepared statement...........................................   191
    Response to pre-hearing questions submitted by:
      Hon. Daniel K. Akaka.......................................   192
        Attachment A.............................................   195
        Memoranda................................................   198
      Hon. Richard Burr..........................................   201
    Questionnaire for Presidential nominees......................   203
    Letter from the Office of Government Ethics..................   208
    Letter from the nominee to the Office of General Counsel, 
      U.S. Department of Veterans Affairs........................   209
Riojas, Jose D., Brigadier General (Ret.), U.S. Army, Nominee to 
  be Assistant Secretary for Operations, Security, and 
  Preparedness, U.S. Department of Veterans Affairs..............   212
    Prepared statement...........................................   213
    Response to pre-hearing questions submitted by:
      Hon. Daniel K. Akaka.......................................   214
      Hon. Richard Burr..........................................   216
    Response to post-hearing questions submitted by Hon. Daniel 
      K. Akaka...................................................   217
        Follow-up letter.........................................   218
    Questionnaire for Presidential nominees......................   219
    Letter from the Office of Government Ethics..................   227
    Letter from the nominee to the Office of General Counsel, 
      U.S. Department of Veterans Affairs........................   228
Sepulveda, John U., Nominee to be Assistant Secretary for Human 
  Resources and Administration, U.S. Department of Veterans 
  Affairs........................................................   229
    Prepared statement...........................................   231
    Response to pre-hearing questions submitted by:
      Hon. Daniel K. Akaka.......................................   232
      Hon. Richard Burr..........................................   236
    Questionnaire for Presidential nominees......................   238
    Letter from the Office of Government Ethics..................   245
    Letter from the nominee to the Office of General Counsel, 
      U.S. Department of Veterans Affairs........................   246
    Response to request for follow-up plan by Hon. Daniel K. 
      Akaka......................................................   261

 
 HEARING ON THE PRESUMPTIVE NOMINATION OF GENERAL ERIC K. SHINSEKI, TO 
                    BE SECRETARY OF VETERANS AFFAIRS

                              ----------                              


                      WEDNESDAY, JANUARY 14, 2009

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:07 a.m., in 
room 106, Dirksen Senate Office Building, Hon. Daniel K. Akaka, 
Chairman of the Committee, presiding.
    Present: Senators Akaka, Rockefeller, Murray, Tester, Webb, 
Sanders, Burr, Specter, Isakson, Hutchison, and Wicker.

     OPENING STATEMENT OF HON. DANIEL K. AKAKA, CHAIRMAN, 
                    U.S. SENATOR FROM HAWAII

    Chairman Akaka. The U.S. Senate Committee on Veterans' 
Affairs hearing will come to order.
    Today's hearing is to consider the nomination of Eric 
Shinseki to be Secretary of Veterans Affairs. I have known 
General Shinseki and his family for many years. Indeed, I had 
the honor and privilege of participating at his promotion 
ceremony, way back when he became a Colonel. I look forward to 
working with him in the latest chapter of his notable career as 
Secretary of Veterans Affairs.
    I am delighted to welcome with much aloha this 
distinguished native of Hawaii. His wife, Patty, is here, and 
Tim, their son-in-law, is here.
    Following the inauguration next week, President Obama 
intends to formally nominate those individuals he has selected 
for cabinet positions, including General Shinseki. The plan is 
for most, if not all of those nominations, to go directly to 
the Executive Calendar and to be voted on later that day. Thus, 
it is my hope that General Shinseki will be confirmed by the 
Senate on January 20. This is the same process that was 
followed in connection with the nominees to head VA during the 
last two changes in Administration.
    My friend, Senator Inouye, and former Senator Bob Dole will 
elaborate on General Shinseki's long and distinguished career 
in the Army, which culminated in his service as the Army's 34th 
Chief of Staff.
    I will simply note that he graduated from the United States 
Military Academy in 1965 and that he served two combat tours in 
Vietnam, where he was wounded twice in combat. It was the 
second injury that could have ended his promising Army career. 
It did not end because then-Captain Shinseki fought to remain 
on active duty, and in an inspired decision, the Army agreed.
    Throughout his 38 years of service in uniform, he gave his 
personal best, serving with great pride and dignity. This 
distinguished and decorated soldier set a new standard for the 
Army. He transformed the Army into an agile, lean, flexible, 
and lethal fighting force. He set a higher standard for those 
to follow, while keeping the spirit of aloha. With his pride 
and dedication to service, he made our Army stronger.
    General Shinseki, you will have tremendous challenges 
facing you. Heading VA is a challenging job, and that is even 
more true in a time of war. VA must not only meet the needs of 
those from prior conflicts, but also quickly adapt to address 
the needs of those newly injured or disabled. Each war brings 
different challenges and different demands.
    With Iraq and Afghanistan, VA is responding to new 
challenges: Veterans needing state-of-the-art prosthetics or 
age-appropriate long-term care for injuries that will last a 
lifetime. The Department must also confront less obvious and 
visible wounds, such as PTSD and TBI.
    Another area that needs prompt attention is the system for 
compensating servicemembers and veterans for in-service injury. 
The frustrating lack of timeliness and the challenge of 
coordinating DOD and VA's systems are some of the areas that 
must be addressed quickly. This Committee stands ready to work 
with the administration on this effort. If you are confirmed, 
this must be one of your highest priorities.
    You will also need to focus on the transition for injured 
servicemembers from active duty to veteran status. A lot of 
work has been done over the last 2 years, and I am hopeful that 
your long experience in the Army will enable you to continue 
these efforts. For returning servicemembers, especially those 
who are seriously injured, there must be a truly seamless 
transition from DOD to VA.
    VA has a strong and dedicated workforce of employees who 
seek to do what is right. The Secretary, with the backing of 
the Congress, must give those employees the leadership, the 
tools, and especially the resources they need to carry out 
their jobs. If confirmed, one of your first responsibilities 
will be to ensure that the 2010 budget is adequate for the 
coming fiscal year.
    When VA is doing its best, few notice. But things are not 
perfect within VA. Few human endeavors ever are. If a veteran 
receives less than what is expected, it can lead to an 
indictment of the entire VA system. Complaints must be 
investigated and problems must be fixed; but, individual 
failings should not lead to the indictment of the entire 
system.
    In closing, I am confident that you have a strong sense of 
empathy for those served by VA and a deep commitment to VA's 
mission. This will serve you well as Secretary.
    I applaud your effort to avoid even the appearance of any 
conflict of interest in connection with your stock portfolio, 
your private consulting firm, and the boards on which you 
serve. I trust that all fair-minded individuals will appreciate 
the steps you have taken to preclude even an appearance of any 
conflict of interest.
    With respect to the rest of your team, this Committee has a 
strong history of bipartisanship and this is especially true 
with respect to nominations. As quickly as the administration 
can send forward other advice and consent positions for VA, I 
promise that the Committee will take action.
    I look forward to your testimony, your responses to 
questions from Committee Members, and to any post-hearing 
questions. It is vitally important that the position of 
Secretary of Veterans Affairs be confirmed as soon as possible.
    There is a roll call vote, by the way, which is scheduled 
to start at 10:30. My hope is that we can continue the hearing 
with some Senators voting at the start of the roll call and 
then returning, at which time other Senators would leave to 
vote. If we reach a point where there is no Senator available 
to continue the hearing process, there will be a brief recess.
    So, let me call on our Ranking Member for his statement.

        STATEMENT OF HON. RICHARD BURR, RANKING MEMBER, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. Good morning, Mr. Chairman. Aloha. And to our 
colleagues, let me say to you and them how much I look forward 
in the 111th Congress--to us working together to improve the 
lives of our Nation's veterans and their families.
    I want to welcome General Shinseki and congratulate you on 
your nomination to serve as the Secretary of the Department of 
Veterans Affairs. I have personally had the opportunity to sit 
down with General Shinseki and to review his extensive 
credentials. It is clear to me, and I think it is clear to all 
Members, that you have the experience, you have the leadership 
skills, you have the determination needed to serve in a very 
important and challenging position as Secretary of Veterans 
Affairs; and I certainly welcome you and your family here 
today.
    Let me take a slightly different tack than what the 
Chairman took. The Chairman has to say, ``if you are 
confirmed.'' Let me say this, General, ``When you are confirmed 
as the head of the VA,'' you would be entrusted with one of the 
most noble missions of the Federal Government, and that is 
caring for the men and women who have served and sacrificed on 
behalf of our entire Nation. That means providing veterans and 
their families with a broad range of benefits and services that 
they need to live full and productive lives and making sure 
that our fallen heroes are honored and memorialized.
    But, as we will discuss today, the next Secretary will face 
many serious challenges in carrying out that mission. With our 
Nation continuing to fight conflicts in Iraq and Afghanistan, 
we have men and women returning home with the physical and 
psychological wounds of war. For those who leave the military, 
the goal must be to ensure they are quickly and effectively 
provided with the benefits and services that they need to 
return to civilian life as closely as possible as to how they 
left.
    Unfortunately, too many wounded servicemembers do not 
experience a seamless transition from active duty to civilian 
life. General, I look forward to hearing your thoughts on how 
we can prevent these wounded warriors from falling through the 
proverbial crack.
    Our Nation is also facing the highest unemployment rates in 
nearly 16 years, which may lead veterans who lose their jobs to 
seek health care from the VA for the very first time. General, 
as Secretary, your charge would be to ensure that as more 
veterans come into the system, the quality of the health care 
provided by the VA does not deteriorate. This challenge will be 
even greater in States like mine of North Carolina, where the 
number of veterans is growing and where VA capacity is already 
stressed beyond its capable means.
    In addition, the next Secretary will be responsible for 
implementing the new Post-9/11 GI Bill. At a minimum, that 
means making sure veterans and their families receive the 
correct amount of benefits on time. But it also means providing 
user-friendly benefits that allow veterans and their families 
to make the educational choices that best meet their needs.
    General, considering all the challenges that lie ahead, I 
appreciate your willingness to serve our Nation in this very 
important role. I congratulate you again on your nomination 
and, more importantly, I look forward to working with you on 
behalf of our Nation's veterans and their families. I thank 
you, General.
    Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Burr.
    Before we continue with opening statements of the 
Committee, I would like to call on our two distinguished World 
War II veterans, my esteemed senior Senator, Dan Inouye, and 
our former colleague, Senator Bob Dole, for their introduction 
of General Shinseki.
    I will leave it to the two of you to decide on the order of 
your introductions.
    [Laughter.]
    Senator Inouye. You are older.
    [Laughter.]
    Chairman Akaka. Senator Dole?

PRESENTATION OF GENERAL ERIC K. SHINSEKI, U.S. ARMY (RETIRED), 
  PRESUMPTIVE NOMINEE TO BE SECRETARY OF VETERANS AFFAIRS, BY 
 HON. BOB DOLE, FORMER UNITED STATES SENATOR FROM THE STATE OF 
                             KANSAS

    Senator Dole. Well, you know, like everybody on this 
Committee, we are all concerned about our veterans. There are 
25 million-plus veterans, so this is no small job that you are 
undertaking. I have read all the material I could find. I don't 
know of anything you haven't done. You have been twice wounded. 
You have been on that side. You have been a patient. You 
understand the needs of patients. You know that, obviously, 
priority number 1 are deserving veterans; and the great 
majority are. But, there are always some who may be gaming the 
system.
    I am honored to be here, not only with you but with my 
former colleague, Senator Inouye. A little trivia. We were 
wounded a week apart, a mile apart, or a hill apart in Italy 
near the close of the war. We wound up in the same hospital, 
along with Colonel Hart, who the Hart Building is named after. 
So, here are three of us--we don't know whether it is politics 
or whatever--who found ourselves together in the U.S. Senate. 
They were both wonderful men; and the Hart Building is named 
after Phil Hart because he was the conscience of the Senate. I 
never heard him utter a bad word about any other colleague on 
or off the board. He was just a great mentor for me because 
before I decided to run, I came to Washington and had a long 
visit with Phil Hart.
    Dan, as an aside, was the best bridge player at Percy Jones 
General Hospital. We had nothing else to do, so we stayed up 
all night, and I think he won the championship. I don't know 
how many entries there were, but he won the championship.
    I think one thing that ought to be noted here, we have 
General Shinseki succeeding General Peake and these guys have 
been long-time friends. It will be a seamless transition and 
they will be working together whenever they need each other. I 
don't know what General Peake has in mind, but I want to 
personally thank him for what he has done. I particularly want 
to thank General Shinseki for all he has done from Vietnam to 
Bosnia to Afghanistan and Iraq to the present day: for his 
willingness, again, to offer his dedication, knowledge, and 
experience to this country.
    I know his assignment will take time away from his 
cherished grandchildren, which is not easy, particularly when 
General Shinseki has already given so much to his country.
    As I said, when Senator Inouye and I had the pleasure of 
introducing the current Secretary, it is good to have a 
Secretary who is impatient and who knows what it is like to 
have been in the system succeeding General Peake. He has lived 
with disability since his service in Vietnam and I cannot 
believe a day does not go by where he is not inconvenienced in 
some way in his life because of the sacrifices he has already 
made for his country.
    He is a West Point graduate, as was General Peake. That 
doesn't mean he won't care for those in the Navy and all the 
other branches----
    [Laughter.]
    Senator Dole [continuing]. But it is just another 
indication that this is a man of quality. We are lucky to have 
him. I think he was--you were the Army Chief of Staff when 
Peake was appointed Surgeon General, which I am certain you had 
something to do with. But anyway, as I said, they are long-time 
friends and this will be one of the easiest transitions there 
is.
    He will be a strong voice for veterans in the new 
administration. He has a profile, and I don't condemn anybody 
who was VA Secretary in the past, but when you have a General 
with a record like his--he is going to have young men and women 
who are patients or looking for help after they are out of the 
hospital knowing that they have confidence in the leader of the 
VA system. This means a lot to people. They may never get to 
meet the General, but they have got to think in their mind, 
``here is a man who has been through it, here is a man who 
understands it, and I feel better about what is going to 
happen.''
    I was on a flight--I think we were going to Kyrgyzstan. I 
wasn't certain I knew where it was. But on the way to the 
flight, a colonel who happened to be from Kansas came over to 
me and said, ``I just want to visit a while.'' When he left he 
said, ``Before you get off the plane or sometime,'' and he gave 
me his card. And on the back was a quote by John Stewart Mill 
and this is a quote. ``War is an ugly thing,'' it read, ``but 
it is not the ugliest of things. The decayed and degraded state 
of moral and patriotic feeling which thinks that nothing is 
worth war is much worse. The person who has nothing to which he 
is to fight for which is more important than his own personal 
safety is a miserable creature and has no chance of being free 
unless made so and kept so by the exertions of better men than 
himself,'' end of quote.
    This is something that I know our friend General Shinseki 
understands. As a free country, America honors its commitments, 
and the first of those commitments is to support men and women 
in uniform and their families who risk everything in most 
cases. We will meet our commitments because we have a committee 
such as we have, and we have men like the new Secretary who 
will serve and do everything that should be done for our 
deserving veterans and promised them by a grateful Nation.
    As the Members of this Committee know, I joined former HHS 
Secretary Donna Shalala on a Presidential Commission examining 
the care we provide our warriors in VA and DOD facilities. I 
think it is fair to say there were nine of us on the Committee, 
of which five had disabilities. And whatever you think about 
President Bush, we had several meetings with the wounded 
veterans and the only thing he ever told us was that he was 
responsible for what happened to each one of these young men 
and young women. He said, ``Do whatever it takes.'' Nobody was 
asked the cost, nobody was asked the politics; and that is the 
way it should be, and that is the way it will be with the new 
Secretary.
    So, I think I was pleased, President Bush was pleased, and 
many Members of Congress were pleased with the recommendations 
of the Dole-Shalala Commission. And if not, I know Congress 
will make changes. We made recommendations where we thought if 
somebody lost an arm, for example, even though it is indirectly 
compensated, there should be a separate compensation because 
that quality-of-life has gone from a ten to a two or three or 
four, and the same for anybody else with a serious injury. It 
doesn't have to be physical. It can be TBI or those very bad 
cases of PTSD. That is just one example that we think Congress 
should take a hard look at.
    When I called General Shinseki to offer help, I learned 
that being Secretary of VA is not considered a political 
appointment, and I compliment President-elect Obama for keeping 
the VA that way. Of any cabinet I can think of in the 
government that should not be political, it is the Veterans 
Administration. Nobody knew when we went to war whether we were 
Democrats, Republicans, Independents. Nobody knows. It doesn't 
make much difference to the veterans today. They are just 
looking for some decent, honest person like General Shinseki to 
provide them leadership.
    The President-elect has made a wise choice and his 
appointment is yet another powerful indicator of how we care 
for and respect our men and women who serve our country. I 
cannot think of a better person to look after our 25 million-
plus veterans than this true American hero, who has done about 
everything one can think of for his country. I wish I were 
still in the Senate so I could vote for his confirmation.
    God bless America, General Shinseki, and our men and women 
whose service has kept us free. I ask that my statement be made 
a part of the record.
    [The prepared statement of Senator Dole follows:]
  Prepared Statement of Hon. Bob Dole, Former U.S. Senator from Kansas
    Thank you, Mr. Chairman and Members of the Committee. I'm pleased 
to be here with my former colleague and dear friend, Senator Dan 
Inouye, to introduce an American hero.
    General Shinseki has an outstanding, impeccable record of service 
and personal sacrifice for our country. I personally thank him for all 
he has done from Vietnam, to Bosnia, to Afghanistan and Iraq, to the 
present day for his willingness again to offer his dedication, 
knowledge and experience to this country. I know he his assignment will 
take time away from his cherished grandchildren, which is not easy, 
particularly when General Shinseki has already given as much as he has.
    As I said when Senator Inouye and I had the pleasure of introducing 
the current Secretary, General James Peake: it is good to have a 
Secretary who has been a patient and who knows what it is like to have 
been in the system.
    General Shinseki has lived with a disability since his service in 
Vietnam. A day does not go by that he is not inconvenienced in some way 
or his life affected because he sacrificed for his belief in his 
country.
    General Shinseki is a West Point graduate as was General Peake. He 
was Army Chief of Staff when the President appointed Secretary Peake 
Army Surgeon General. Both men were wounded twice in Vietnam. They are 
long time friends. With General Shinseki following General Peake the 
President-elect is doing the right thing by ensuring continuity for our 
veterans--who deserve the best and they will get it with this 
appointment.
    General Shinseki will be a strong voice for vets in the new 
administration and an individual who truly knows what our commitment to 
deserving veterans should be.
    About two years ago I was on a flight with a colonel who was headed 
to Afghanistan for a second time. He handed me a card and on the back 
was a quote by John Stewart Mill: ``War is an ugly thing,'' it read, 
``but it is not the ugliest of things. The decayed and degraded state 
of moral and patriotic feeling which thinks that nothing is worth war 
is much worse. The person who has nothing for which he is willing to 
fight, nothing which is more important than his own personal safety, is 
a miserable creature and has no chance of being free unless made and 
kept so by the exertions of better men than himself.'' This is 
something General Shinseki understands.
    As a free country, America honors its commitments, and the first of 
those commitments is support to men and women in uniform and their 
families who risk everything in most cases. We will keep our commitment 
because we have men like General Shinseki who will serve and do 
everything that should be done for our deserving veterans and promised 
them by a grateful Nation.
    As the Members of this Committee know, in 2007, I joined former HHS 
Secretary Donna Shalala on a Presidential Commission examining the care 
that we provide to our warriors returning home from our recent and 
ongoing wars.
    We found excellent care within the DOD and VA systems, but we also 
found many challenges that needed to be addressed so that patients and 
families were not burdened more than they already are when a loved one 
in the service faces serious injury or a lifelong disability.
    I was pleased that President Bush and many Members of Congress in 
both parties took many, if not all, of our recommendations to heart. 
They were recommendations that we constructed through what we believe 
was rigorous examination and broad input from many people that know the 
system inside and out, what its strengths and what its weaknesses are.
    When I called General Shinseki and offered to help, I learned he 
does not consider being Secretary of VA a political appointment and I 
compliment President-elect Obama for keeping the VA that way. The VA 
certainly should be free of politics.
    The President-elect has made a wise choice and his appointment is 
yet another powerful indicator of how we care for, and respect, our men 
and women who serve our country.
    I cannot think of a better person to look after our 25 million plus 
veterans than this true American hero who has done about everything one 
can think of in serving his country. I wish I were still in the Senate 
so I could vote for his confirmation.
    God Bless America, General Shinseki, and our men and women whose 
service has kept us free.

    Chairman Akaka. Thank you. Your statement will be included 
in the record and thank you very much, Senator Dole.
    Now, Senator Dan Inouye.

    PRESENTATION OF GENERAL ERIC K. SHINSEKI, USA RETIRED, 
  PRESUMPTIVE NOMINEE TO BE SECRETARY OF VETERANS AFFAIRS, BY 
  HON. DANIEL K. INOUYE, U.S. SENATOR FROM THE STATE OF HAWAII

    Senator Inouye. Thank you very much, Mr. Chairman, Senator 
Burr, and distinguished Members of this Committee. I am 
grateful for this opportunity to appear before you with my very 
dear friend, Bob Dole, Senate Majority Leader, to present 
General Shinseki, President-elect Obama's nominee to serve as 
Secretary of the VA.
    In Hawaii, our favorite word is aloha, but second to that 
is the word ``ohana,'' and that word means family. But a 
Hawaiian family includes men and women not necessarily of blood 
kinship, but united by shared concerns and shared beliefs. Yes, 
that is ohana.
    I had the great honor of standing with Senator Oren Long, 
Hawaii's first elected Senator, to nominate General Shinseki to 
the United States Military Academy at West Point. Since that 
appointment and his acceptance, I have naturally followed his 
career.
    In his initial tour of duty in Vietnam, he did well, but he 
suffered a grievous injury. Most Americans are not aware of 
this, but he has an amputated foot. Any other man would have 
justifiably resigned himself to civilian life and retired from 
the military. It would have been an honorable thing to do. 
However, General Shinseki pleaded to remain on active duty 
despite the hardship and physical pain.
    Well, this is just one measure of the man who appears 
before you today, an unflinching devotion to our country and to 
his duty. His plea was granted. General Shinseki's service 
encompassed both further study. He got his Master's from Duke 
University and later at the United States Army Command and 
General Staff College and National War College. These studies, 
together with an astute grasp of the pragmatic, and the quality 
of his leadership, supported a steadily spiraling course upward 
through the ranks of the Army. That is another measure of 
General Shinseki: the stamina required for sustained 
excellence.
    During my service as a Senator, I had the occasion to go to 
Kosovo and I was so proud when I met General Shinseki, 
Commanding General of Kosovo Operations. At that time, I was 
certain that his career would blossom further. In June 1999, 
General Shinseki became the Chief of Staff of the United States 
Army.
    His tenure in that high post included the onset of the Iraq 
War. As we move from the emotional frenzy of commencing 
hostilities, Members of Congress began to have questions, most 
notably whether we had adequate resources to succeed in this 
war, and obviously General Shinseki was called upon to testify 
at hearings. I think most of us expected the General to give 
the standard line that any administration would favor. But as 
we all know, he did not. He told the truth. It wasn't easy, and 
in so doing took a position contrary to his Commander-in-Chief.
    His honest assessment that more troops would be needed cost 
him his job, but it is the surest measure of his fitness to 
serve as a member of the cabinet. To speak the truth in the 
face of enormous pressure is not to take the easy way out. This 
is the kind of man I want to see as Secretary of the Department 
of Veterans Affairs.
    Members of the Committee, I am proud to know him, but I am 
prouder still to be in his ohana.
    I thank you very much, Mr. Chairman.
    [The prepared statement of Senator Inouye follows:]
Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii, 
         in Support of the Nomination of General Eric Shinseki
    Mr. Chairman, Senator Burr, Members of this distinguished 
Committee, I am grateful for this opportunity to stand before you with 
my dear friend, Senator Bob Dole to present General Shinseki President-
elect Obama's nominee to serve as the Secretary of Department of 
Veterans Affairs.
    In Hawaii, we use a word almost as frequently as ``aloha,'' and 
that word is ``ohana.'' Ohana means ``family,'' but a Hawaiian family 
includes men and women not necessarily of blood kinship, but united by 
shared beliefs and concerns.
    I had the great honor of standing with Senator Oren Long to 
nominate General Shinseki to the United States Military Academy at West 
Point. Since that appointment and his acceptance, I have followed his 
career.
    In his initial tour of duty in Vietnam he did well, but suffered a 
grievous injury to his foot. Any other man would have justifiably 
resigned himself to civilian life and retired from the military. 
Instead, General Shinseki pleaded to remain in active duty despite the 
hardship and physical pain.
    That is one measure of the man who stands before you today: an 
unflinching devotion to country and duty.
    His plea was granted, and General Shinseki's service encompassed 
both further study--first at Duke University where he received his 
Masters, and later at the United States Army Command and General Staff 
College, and at the National War College. These studies, together with 
an astute grasp of the pragmatic, and the quality of his leadership, 
supported a steadily spiraling course upward through the ranks at the 
Army.
    That is another measure of General Shinseki: the stamina required 
for sustained excellence.
    I was so proud when I met with him face-to-face in Kosovo, where he 
served as the Commanding General. At that time, I was certain that his 
career would blossom further--and in June 1999, General Shinseki became 
the Chief of Staff of the United States Army.
    His tenure in that high post included the onset of the Iraq War. As 
we moved from the emotional frenzy of commencing hostilities, Members 
of Congress began to have questions--most notably whether we had 
adequate resources to succeed. When General Shinseki came to testify at 
Congressional hearings, many expected him to give the standard line the 
Administration favored. He did not. He told the truth, and in doing so 
took a position contrary to the Administration.
    His honest assessment that more troops would be needed cost him his 
job, but it is the surest measure of his fitness to serve as a cabinet 
member.
    To speak the truth in the face of enormous pressure to take the 
easy way out . . . this is the kind of man I want to see as Secretary 
of the Department of Veterans Affairs. This is the kind of man I am 
proud to know--and I am prouder still to be in his Ohana.

    Chairman Akaka. Thank you very much, Senator Inouye, for 
your statement and for presenting with Senator Dole our 
nominee.
    Senator Dole. Mr. Chairman, could I just add one word?
    Chairman Akaka. Senator Dole?
    Senator Dole. I want to agree with the Chairman. There is 
much good about the VA. There have been a lot of negative 
stories, but I think we all agree that in most cases, they do a 
good job. It has just gotten better in the last 10, 15, 20 
years; and it is going to get better because of men like this.
    Chairman Akaka. Thank you. Thank you very much for your 
statements.
    Now I will continue with opening statements from the group 
here. Let me call on Senator Specter, who told me he has to 
leave, for his opening statement.

               STATEMENT OF HON. ARLEN SPECTER, 
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Specter. Thank you, Mr. Chairman. I am pleased to 
be here to join in the accolades for General Shinseki. I was 
interested to hear the opening statements of Senator Dole and 
Senator Inouye. Senator Dole and I have a common heritage, 
coming from the same little town in Kansas--4,998 people. They 
used to have 5,000 until Dole and I left town. I moved there 
when I was 12, and he was away at college. He was a much older 
man at that time, but I have pretty much caught up with him. 
[Laughter.]
    To hear Senator Inouye's recitation of General Shinseki's 
illustrious career really tells it all, a West Point grad. I 
had the opportunity to meet General Shinseki about a decade ago 
in Bosnia. I was very much impressed with his record then and 
impressed to have a chance to sit down and talk to him a few 
days ago.
    He has a very, very difficult job. The United States has 
become a great, powerful Nation because of what our fighting 
men and women have done, from the Revolutionary War on.
    I have a special interest in veterans' affairs which led me 
to select this as a first committee, and I had the honor to 
chair it for some 6 years. My interest arose because of my 
father, who was a veteran of World War I. My dad was born in 
Russia and he was 18 in 1911 and the czar wanted to send him to 
Siberia. He didn't want to go to Siberia. He learned it was 
cold there. He wanted to go to Kansas. It was a close call, but 
he got to Kansas----
    [Laughter.]
    Senator Specter [continuing]. Where I was born, and he 
served in World War I and he was wounded in action. He carried 
shrapnel in his legs from the Argonne Forest until the day he 
died, including the days when he drove a big truck full of junk 
onto the scale of Doran Dole, who ran the grain elevator in 
Russell, Kansas, Bob's father, the only scale big enough to 
weigh the truck.
    But the Federal Government promised the veterans a bonus, 
$500, a lot of money in those days--still a lot of money. The 
government broke the promise--which the government too often 
does to the veterans--and there was a march on Washington. My 
father couldn't participate. He couldn't walk that far. He 
didn't have the train fare. And on that day, they killed 
veterans right out here on the Mall--one of the blackest days 
in American history.
    And when I heard about that as a toddler--I think it is 
hard to know what motivates a person--that made up my mind to 
come to Washington to get my father's bonus, figuratively 
speaking. I haven't gotten it yet, so I am running for 
reelection. [Laughter.]
    But we have a lot of work to do to provide adequate 
funding. We tend to forget about the veterans after they have 
done their job, and I have urged General Shinseki to be a tough 
advocate for the Office of Management and Budget, and I am 
pleased to support you, General.
    We have the Holder hearing tomorrow, so regrettably, I am 
not going to be able to stay, but nothing could change my mind 
anyway.
    Thank you, Mr. Chairman.
    Senator Rockefeller [presiding]. Thank you, Senator 
Specter. There are lots of dots on that clock and I have got to 
go vote and I will be right back. The distinguished Senator 
from Montana--where is Montana?
    [Laughter.]
    Senator Tester. Just west of West Virginia.
    Senator Rockefeller. Just west of West Virginia. He is here 
to act as Chairman, and----
    Senator Dole. It is cold out there, too.
    Senator Rockefeller [continuing]. And I just wanted to say 
that it was very moving to me when General Shinseki walked into 
my office. I was for him before he came in. I was so much for 
him, even more so when he left--just to know the man in the 
sense I sort of knew the man when he came in. But to have both 
of you introducing him--Senator Dole, it was an incredible 
privilege and a very emotional experience for me because of all 
that you have done in your life. Senator Inouye, well, he is my 
boss still, so I have to be nice to him, but it is not very 
hard because he has sacrificed. The only thing I really resent 
about him is the fact that in the movie that Ken Burns did on 
the war--seven minutes left, and I have time to say this--that 
you were so incredibly handsome, and I have always held that 
against you. [Laughter.]
    But times since then have sort of evened things out, so I 
feel better. [Laughter.]
    So I am going to go vote and Senator Tester will chair. I 
will be right back.
    Senator Tester [presiding]. Thank you, Senator Rockefeller.
    Senator Rockefeller. And I still want to give my statement.
    Senator Tester. Without objection.
    Senator Rockefeller. Thank you.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. I appreciate the kind comments. That 
typically isn't always the case, so thank you.
    Senator Inouye and Senator Dole, thank you for being here. 
I appreciate you guys being here and----
    Senator Dole. Thank you.
    Senator Tester [continuing]. Thank you. I think it is 
entirely appropriate as we approach the confirmation of General 
Shinseki to give thanks to General Peake for the work that he 
has done over the last short while that he has been in that 
office. He has done a nice job and we need to thank him for 
that, because this is an important job.
    I want to welcome General Shinseki. From my perspective, 
your reputation, as all have said, is impeccable and your 
biography absolutely is top flight. I quite honestly am very, 
very happy that a man of your capability and your stature is 
willing to tackle this very, very important position as the 
head of the VA; because in Montana, we have about 100,000 
veterans. That might not sound like a lot, but it means that 11 
percent of our State population are veterans. It is a large 
group of people, a very deserving group of people that deserve 
good people working for them, and so you fit that mold in all 
the areas.
    So thank you for being here. I believe you will be 
confirmed. I intend to support you, barring something 
catastrophic that might come up, but that isn't going to 
happen.
    As I said when you came to my office, I appreciate your 
willingness to serve. I look forward to having you come out to 
the great State of Montana to take a peek around about the 
challenges that our veterans face every day. I don't think we 
are different than any other rural State. It is a challenge for 
veterans to get to health care in some cases; and to be honest, 
it is a challenge for them even to navigate through the 
benefits system in others, which we will all try to work 
together to get fixed.
    I have had many, many hearings in the State of Montana over 
the last couple of years and one of the things that a veteran 
told me early on was that he had had some problems with the VA. 
He said, ``It is apparent that they are trying to outlive me 
and they will get it done.'' We need to eliminate that kind of 
frustration as much as possible. These are folks that have 
served this country, in some cases literally put their lives on 
the line for this country, and I know you are committed to 
making things right by them and fulfilling the promises that we 
have made to them. I look forward to this Committee, and 
particularly myself, working with you to make sure that 
happens.
    I am frustrated, to say the least, about the fact that the 
VA and the DOD don't have a seamless electronic medical 
record--record sharing. I have great hopes that with your past 
positions you can have some influence on the DOD. Right or 
wrong, I put most of the focus on them in this particular 
situation. I think the VA has done a great job developing the 
system. We need to get the DOD to buy into it and then we need 
to work together with them--I am saying the VA when I say 
``we''--to see that we can make progress on that front because 
I think it will help down the line in a number of different 
areas.
    We also have the issue of mental health that is the 
signature injury coming out of Iraq and Afghanistan. There are 
some campaigns beyond the Yellow Ribbon Campaign that the 
Montana National Guard has been developing and utilizing, as 
well as a number of other States. I think it is very 
successful--for Guardsmen. Do Reservists have the same kind of 
support? They have the same deployment schedules, for the most 
part, same kinds of issues. Do they have access to those same 
kinds of programs?
    The issue--in more rural areas--of contracting out and how 
we deal with that without destroying the VA, because it does 
provide some of the best health care in the world. But still, 
with distance and economy of scale, it may be good to look at 
that in certain instances.
    And then, finally, with vocational programs for veterans--
how we can work better; how the VA can work better with Labor 
Department programs to help veterans find meaningful employment 
while helping turn the economy around in this country--because 
they are some of the best people on earth.
    Senator Murray has rejoined us, and so I would just say in 
closing--and we will follow up on some of this stuff with the 
questions and answers--but in closing, I would just say I am 
very happy you are here. I had a very good relationship with 
General Peake. I told you that in my office. I anticipate we 
will have a better relationship.
    Thank you very much for being here and I look forward to 
your confirmation.
    Senator Murray?

                STATEMENT OF HON. PATTY MURRAY, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Murray. Thank you very much, Senator Tester.
    General Shinseki, welcome to this Committee and thank you 
for being willing to take on this incredibly important task. 
You have been nominated to what I believe is one of the most 
challenging and rewarding positions in our government and I 
applaud your willingness to take on this critical position. I 
look forward to working closely with you once you are 
confirmed.
    I have always said that we need a VA Secretary who will be 
honest about what our veterans need and have the backbone to 
stand up and ask for it. Too many of the problems that we have 
seen at the VA have been brought to light by GAO reports, news 
organizations, investigations, or whistleblowers. We had a GAO 
report following the VA's $3 billion budget shortfall back in 
2005 that showed that the VA had actually misled Congress, 
concealed funding problems, and based its projections on 
inaccurate models. A television network uncovered disturbing 
veterans' suicide numbers, while an internal e-mail from the 
VA's own head of mental health expressed a desire to cover up 
the data. McCarthy News found that the VA had repeatedly 
exaggerated the past successes of its medical system, and the 
list just goes on.
    General Shinseki, I worked in the Seattle VA during college 
and I have seen the incredible dedication and work of staff and 
doctors and nurses on the ground, and these everyday heroes are 
working very, very hard to make sure that America's veterans 
are receiving the kind of care that they deserve. But both 
veterans and VA staff have been done a disservice by a top-down 
bureaucracy that has failed to be honest with Congress and has 
been very resistant to change.
    Under Secretary Peake's leadership, progress has been made, 
and I am very glad for that. I believe he is leaving the VA a 
better agency than he found it. But there is a lot of work 
ahead of us. Veterans are still waiting too long for benefits. 
Female veterans are returning to a system that is not prepared 
to care for their unique needs. Facilities are in desperate 
need of renovations. And 20 percent of our veterans are 
returning home with serious mental health needs to a VA that 
still doesn't have the mechanisms in place to take care of 
them.
    I know you have been out talking to veterans and VSOs and 
hearing about those challenges and listening to veterans 
themselves. That is a key part of this job. America's veterans 
deserve a truthful advocate who will break through the red tape 
and make veterans, not the bottom line, the priority of VA 
management.
    Having sat next to President-elect Obama when he sat on 
this Committee--right next to me--I know his dedication to 
those who served our Nation and to their families and I very 
much appreciate his pledge to reverse the current 
administration's flawed decision to close the doors of the VA 
to Priority 8 veterans. As you know, I sponsored legislation to 
reopen access for all those who have served and I applaud your 
commitment to achieve that goal responsibly, as well.
    As you wrote in response to one of this Committee's pre-
hearing questions, ``The overarching challenge that the VA 
faces is its transformation into a 21st century organization as 
called for by the President-elect.'' That is no small task. But 
given your history of tackling complex problems and your record 
of speaking truth to power, I think you are up for this 
challenge.
    Change is not going to happen overnight. We know that we 
are going to continue to face challenges at the VA no matter 
who is in charge. But with transparency, with honesty, with 
energy, the next VA Secretary can begin to tackle these 
challenges and make a difference for our veterans.
    I want you to know I stand ready to work with you to make 
that happen with as much energy, honesty, and transparency as I 
can, as well. And I hope that you view Congress as a partner, 
not an adversary, in your work to ensure that our veterans get 
the care and compassion that they have earned.
    Thank you very much. Thank you, Mr. Chairman.
    Chairman Akaka [presiding]. Thank you very much, Senator.
    Now, we will hear from Senator Wicker.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you, Mr. Chairman, and thank you, 
General Shinseki, for your service, for your willingness to 
serve again on behalf of the United States of America.
    I learned this morning when we were shaking hands and 
visiting before the hearing convened that you have a 
distinguished record on the faculty at the United States 
Military Academy. I noticed that Representative John Shimkus of 
Illinois was here to shake hands and enthusiastically greet you 
and wish you well. He was an English student of yours at the 
Academy, and I wanted that to be reflected on the record, that 
Representative Shimkus came over to offer his support from the 
other body.
    General, you have been before the Senate for confirmation 
on five occasions already. You surely must realize that during 
this process, you will eventually be allowed to speak for 
yourself----
    [Laughter.]
    Senator Wicker [continuing]. But we are going to make sure 
that we talk, too. And so, by way of opening remarks, I want to 
thank you for coming by earlier and speaking to most of us in 
our offices. I read with interest your prepared testimony and I 
noticed that you outlined three general principles that you 
would be striving to achieve during your tour of duty in the 
Department of Veterans Affairs.
    One would be that veterans would be the centerpiece, and 
you mentioned in that regard that the workforce in the VA would 
be standard-setters in their field. I very much applaud that. 
Certainly, it is reasonable to expect that the specifics and 
your specific program will come later, but I applaud that as a 
goal.
    Second, you mentioned the timeliness and excellence of 
service by your Department.
    The third general principle is to look for ways to do 
things smarter and more effectively and to use the world's best 
practices. I think that is a very healthy beginning to setting 
principles, Mr. Chairman, and I applaud our nominee for those 
today.
    I would just like to say during my opening statement that I 
hope we can employ those principles when it comes to two 
specific things that I mentioned to you earlier in our private 
conversation. One would be with regard to veterans' nursing 
homes--not only those that are run by the VA alone, but also in 
partnership with the various States. We have close to 300 in 
both categories and there is a proposal to build two more VA 
nursing homes during 2009.
    There is a new concept in the area of nursing homes and it 
is called the greenhouse approach. We haven't used this yet in 
the government. Basically, it strives to put groups of eight or 
ten patients, if you will, in a nursing home together in a pod 
or in a separate building and ask them to participate in the 
decisionmaking as to what sort of activities and what sort of 
food and what sort of other decisions that they are capable of 
making, even though they are housed in a nursing home.
    I am a veteran myself. My father is a World War II veteran. 
My son will soon enter the United States Air Force. I would 
like to think that if it ever came to the point where I had to 
go into a nursing home, I could go into the best, the most 
modern type of nursing home; one that exercises, as you said, 
doing things in the smartest way, that exercises the best 
practices.
    So I mentioned to you privately and I will mention to you 
publicly on the record that I hope in that regard that we can 
work together with this Committee and with the Congress to make 
sure that when it comes time for our veterans to move into a 
nursing home, if that should be required, that they can move 
into the very best possible kind of nursing home care.
    I would also hope that we could apply those three 
principles in the area of electronic medical records. I believe 
it was the Chairman who earlier mentioned the desire of this 
Committee to have a seamless transfer from DOD to the 
Department of Veterans Affairs. Certainly coming from DOD 
yourself and now moving into this new area of responsibility, 
you are uniquely positioned to work in that regard.
    But I know that if it were an easy task--to have this 
seamless process of medical records moving from DOD to VA when 
the time comes for our members to transition--if that were 
easy, we would have done it already. It is difficult and we 
have asked the Departments to do this.
    I hope that the three principles that you outlined: of 
using the best practices in the world; excellence in service; 
and being a standard setter, that--with regard to the 
electronic medical records and also veterans' nursing home 
care--that we can be a standard setter. And I look forward to 
being your teammate in this regard.
    I thank you and congratulate you on your nomination and 
your certain confirmation. Thank you, sir.
    Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Wicker.
    Senator Webb, your opening statement.

                  STATEMENT OF HON. JIM WEBB, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Webb. Thank you, Mr. Chairman, and General, 
welcome.
    I have to say, first of all, it was really moving to see 
you sitting there flanked by Senator Inouye and former Senator 
Bob Dole. First of all, I was thinking about the kind of 
services these individuals have given our country; and the 
other was, you and I are both Vietnam guys and there aren't 
many opportunities left in our lives to be around people who 
are going to look at us and call us ``young fella.''
    And also, Mr. Chairman, if I may, there is an individual 
out here who I would like to personally recognize. John Fales, 
who is over at the press table, was wounded as a Marine in 
Vietnam, lost his sight as a result of his wounds. I have been 
knowing John and working with him for more than 30 years, since 
I was a counsel on the Veterans Committee. General, if you 
don't know him yet, you are going to. He is rather famous as 
Sergeant Shaft in the Washington Times. So John, if you could 
take a quick bow, I would appreciate it. Semper Fidelis and 
thank you for all that you have been doing for veterans over 
the years. [Applause.]
    I think your selection, General Shinseki, is an inspired 
act of leadership by the incoming President. I look forward to 
your tenure.
    When I look at the VA now, having been involved with it in 
a lot of different capacities--as a recipient, as a committee 
counsel, and now here in the Senate, and having spent 5 years 
in the Pentagon--I really believe the greatest challenge for 
the VA is simple leadership. Just getting the right people in 
the positions, understanding how to break the logjams that have 
created so many problems, and getting the benefits that have 
been voted out by the Congress into the hands of the veterans 
who deserve them. And I think that your background, 
particularly as having been Chief of Staff of the Army, is 
particularly suited to trying to solve those problems.
    I have a special interest, as you know, in the G.I. Bill 
and how we are going to put that program online in a timely way 
and in a way that is going to have as few administrative 
difficulties as possible.
    But I would like to make one other point here at the outset 
of your testimony. You are the fourth consecutive Academy 
graduate, by my count, to be serving in this position, as you 
will. On the one hand, that has an up-side, obviously, with the 
type of leadership preparation and the service that goes along 
with that. I say this as someone who also went to a service 
academy. But also, it is a challenge that I have watched in 
some of your predecessors in the sense that I would hope you 
will keep your eye on the notion that veterans' programs really 
do have a different character than military programs and 
sometimes this seems to get lost in how they are administered.
    I hope you will pay special attention to the way that we 
are now going through these disability evaluations. In my mind 
and in my experience, there is a marked difference between 
assigning a disability for someone saying that they are not fit 
for active duty and therefore should leave the military as 
opposed to how that disability is measured throughout someone's 
life as a veteran. And sometimes, that gets lost even in the 
discussions that we have been having over the past couple of 
years with the Dole-Shalala Commission and these other things.
    So the bottom line, really, on this, my personal request to 
you as a leader is I hope you will do everything you can to 
reach out to the veterans' groups. There are people who have 
spent their entire lifetimes, adult lifetimes, working on these 
issues and understanding the different characteristics of them; 
and also the many, many talented people inside the VA who have 
done the same thing--devoted their professional lives to this 
distinct environment of the aftermath of military service--and 
to really be sensitive to the different personality between the 
Department of Defense and veterans' benefits.
    With that, I wish you well. As I said, I think this is an 
inspired choice and my door is always open.
    Thank you, Mr. Chairman.
    Chairman Akaka. Thank you, Senator Webb.
    We will continue with opening statements from Members. Next 
will be Senator Rockefeller, followed by Senator Sanders and 
Senator Isakson. Senator Rockefeller?

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. I sort of gave one, Mr. Chairman, so I 
am cheating a little bit, but there is no way for me to express 
how proud I am that you are the President's nominee. In one 
sense, it shouldn't have surprised me. I am not trying to be 
partisan about this. I am overwhelmed by the people that have 
been nominated for cabinet positions and confirmable positions 
that come to my office and their quality is just beyond belief; 
one after another--scientists, veterans, administrators to be--
all of them.
    Everybody is going to make mistakes and what I've always 
liked about you (before I even met you), was that I had a 
feeling that you wouldn't know how not to tell the truth, 
regardless of the consequences. I got that from television and 
newspapers and I got it full bore yesterday. Like Senator Webb 
was just saying, I think the Veterans Administration--although 
I think it is the best hospital system in the United States of 
America, which most people don't give it credit for--it has so 
many problems still. Two hundred twenty thousand people that 
you have to lead, and then this whole question of how do you 
make veterans--Bob Dole was speaking to that--how do you make 
veterans feel like their future is good in terms of their 
rehabilitation, whether it is physical, psychological, or 
inside the body in some other way.
    I think it is almost simplistic that sometimes just the 
right person at the top becomes a symbol. It just inspires 
people on down the line to do twice the job they were doing.
    I told you yesterday when we were talking about a person 
that Patty Murray will remember very well named Dr. Ken Kizer--
we have these frequent meetings, panels that go on forever, 
members come and go--and he wasn't any different from any other 
Director of Health, it seemed to me as I listened to him, that 
had come before us before. And then suddenly, 4 years after he 
had left, we found that the entire VA system had been 
computerized, everything was databased, unlike DOD. There were 
a lot of problems in syncing with DOD, and he had done it. He 
hadn't said anything about it. We hadn't had the oversight to 
know it, which is our fault. There is so much oversight that we 
have to do in this Committee, which I think needs to be 
constructive and will cause our members to want to come to 
hearings and to listen to testimony and to learn more.
    But I am just--I think you have to start with the guy at 
the top or the woman at the top and I just can't imagine a 
better choice than you. I just absolutely cannot imagine a 
better choice; not just the experience and the wounding and the 
fighting and the commanding and the decisionmaking under, 
quote, fire, your tough stance, standing up for the truth, but 
your nature. You inspire confidence in people and you do in me.
    I am still going to ask you some tough questions, but I 
think you probably have some sense that I am probably going to 
vote for you----
    [Laughter.]
    Senator Rockefeller [continuing]. But I just want you to 
understand that it is going to be--it will be one of the best 
votes I have made in the 24 years that I have been on this 
Committee.
    Thank you, Mr. Chairman.
    Chairman Akaka. Thank you, Senator Rockefeller.
    Senator Sanders?

              STATEMENT OF HON. BERNARD SANDERS, 
                   U.S. SENATOR FROM VERMONT

    Senator Sanders. Thank you very much, Mr. Chairman, and 
welcome, General Shinseki. I know you are going to be a great 
leader and the VA certainly needs the kind of leadership that 
you are going to be providing.
    You know, it is a funny thing in this body. We have 
differences and the American people have differences about the 
wisdom, for example, of the war in Iraq. But what I have been 
very happy to see is that there has been a coming together, 
despite the opinions that one might have about the wisdom of 
Iraq, with the understanding that we do not blame the men and 
women who are fighting that war for the decisions that were 
made here in Washington. That we have a solemn obligation to 
make sure that every man and woman who has fought in that war, 
when they come home, they get all of the care and the benefits 
they have been promised. I think we have made real progress in 
differentiating our differences with regard to the war with our 
understanding that we take care of our veterans and we do for 
them what we promised we would do.
    General, I am happy to say that under Chairman Akaka's 
leadership and Bob Filner in the House, we have made some 
progress in the last couple of years. The good news is we have 
begun to make some progress. The bad news is that we have a 
long way to go, in my view. We have passed, and Senator Webb 
helped us move forward on this, the most comprehensive and 
significant step forward in terms of G.I. education, a real 
step forward for millions of men and women. We have made 
progress on VA funding. We have made progress on Priority 8 
veterans, of mileage reimbursement, of VA counseling for family 
members. That is the good news.
    The bad news is that much remains to be done. Some of the 
issues, General, that I hope we can pay attention to in the 
coming years are advanced appropriations. You can't run a 
system as large as the VA if you do not know what your budget 
is going to be, and it really is a disservice to all of our 
veterans if the VA does not have that knowledge.
    I come from a State where we have suffered very heavily 
from the war in Iraq through our National Guard, and I hope 
very much that we make sure that the VA properly cares for our 
citizen soldiers that have given so much. Let us not forget 
about the Guard and the Reserve.
    Clearly, many of the men and women who are coming home from 
Iraq and Afghanistan are suffering from PTSD and TBI and this 
is a little bit outside of the culture of the VA in placing a 
priority on those needs. I think we can all agree the VA has 
done a tremendous job and it is leading the world in taking 
care of people who have lost arms, lost legs, hearing, eye 
problems, and so forth. But somehow when the issue becomes 
emotional or mental health problems, that has been a little bit 
outside of the traditional culture. But those wounds are as 
real as any other wounds many of our soldiers have suffered and 
we need the research and the treatment to take care of those 
people.
    One of the areas that I have focused on and it is of great 
concern in the State of Vermont is the issue of Priority 8s. 
Now, I think we all agree that the most pressing needs are 
those people who are coming home wounded today. We have to take 
care of our older veterans. That goes without saying. But 
especially in this economic crisis, there are hundreds and 
hundreds and hundreds of thousands of veterans who may make 
$35,000 a year who are pushed out of the VA. I think you can't 
bring them all back in overnight, but I think the goal must be 
that any person who wore the uniform of this country, 
regardless of income, should be able to come back into the VA. 
So, I look forward to working with you to do that.
    I am sure my colleagues have discussed with you the claims 
system. We are somewhere back in the 19th century, I think, in 
that regard. It is just incredible that in this age of computer 
technology that people submit claims, they don't hear for 
months and months, and it goes on and on. That is just grossly 
unfair, so we want to update and improve our claims system so 
that when people put in a claim, they get a timely response.
    One of the real successes of the VA in recent years has 
been the growth of the CBOCs--the community based outpatient 
clinics--which in Vermont work very, very well; and the Vet 
Centers, as well. Vet Centers, as you know, are places where 
there is no bureaucracy; where the veterans run those centers, 
people feel really comfortable walking in. I think that is a 
great investment and I hope we can expand that whole area.
    Last, for many, many years, ever since I first came into 
the Congress in the House, I have been working on Gulf War 
Illness. While we are all dealing with the problems of Iraq and 
Afghanistan and our older veterans, let us not forget those 
people who are still suffering from Gulf War Illness.
    So General, I am going to strongly support your nomination. 
We have a system which is, I believe, the largest provider in 
America. So, what we do impacts the whole health care system in 
our country. It is profoundly important and we have a moral 
obligation to our veterans to make sure we provide them the 
best care that we possibly can. So, I very much look forward to 
working with you and thank you for your years of service to our 
country.
    Chairman Akaka. Thank you very much, Senator Sanders.
    Senator Isakson?

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Thank you, Mr. Chairman.
    General Shinseki, I first of all want to thank you and 
commend you on your service to the country and thank you very 
much for being willing to assume the responsibilities of the 
VA. You are eminently qualified. I have studied your resume and 
we are somewhat contemporaries from my period of service and 
yours. I think we are probably about the same age, and I really 
appreciate your taking it on. You have got a life of 
experiences that will help the VA quite a bit.
    The VA has been making some great progress in some of the 
areas that were mentioned by Senator Sanders and I want to 
comment on two, which I sent some earlier prepared questions to 
you about. One is the Augusta Uptown VA and Fort Gordon's 
Eisenhower Hospital. General Schoomaker established a seamless 
transition there for those soldiers coming home, leaving DOD, 
and going into VA care which has been described as a great 
success by many, including Secretary Peake.
    In a number of places in the country, a lot of our veterans 
who have come home and are released from DOD kind of fall 
through the cracks between DOD and VA. It is very important 
that we see to it that that is a seamless transition.
    What the Department of Defense has done with the Warrior 
Transition Centers has been a tremendous step forward in 
dealing with the types of difficulties, in terms of PTSD and 
TBI, for those who are coming back from Iraq or Afghanistan. 
Equally, we need the transition from DOD to VA to be as 
seamless and easy as possible for our veterans.
    So, I have been able to get Secretary Peake down to Augusta 
to see it firsthand. I know you are going to have a world on 
your plate for the time being, but I hope sometime during the 
next year you can pay a visit to that facility because we can 
replicate it around the country. It will make service to our 
veterans, I think, much, much better than it already is.
    And then second, I want to echo what Senator Sanders said 
about the community based clinics. Those are extremely 
important. Our State has one of the largest veterans 
populations of any State in the country and some of them have 
to go long distances to get to the VA hospital in Atlanta or 
Augusta; and Georgia is the largest State east of the 
Mississippi River geographically. So those clinics, some of 
which we have been able to open in the last 2 years, have made 
it a lot easier for our veterans to get the health care they 
deserve in a much more convenient and accessible way and I look 
forward to working with you in any way I can to support you in 
your efforts to support our veterans who have served our 
country so well and I thank you for the time today.
    Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Isakson.
    Now, for an opening statement, Senator Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman, and welcome, 
General Shinseki. I want to tell you that I admire and respect 
you as much as anyone I have ever known in the Armed Services; 
and I am going to support your nomination. You have been a 
Purple Heart recipient, so you will know what veterans go 
through; and you were a great Army Chief of Staff.
    I also want to say that your predecessor is one of the 
finest Veterans Secretaries we have ever had, and I know you 
worked with him because he was your Surgeon General. I know 
that the transition will be a very good one. His emphasis on 
health care has been so positive. He has understood the 
problems. He has been an action taker, and I just know that you 
will stay on that same track.
    We are opening our fifth trauma center--Class 1 trauma 
center--that has already been authorized and I look forward to 
bringing that to fruition. As you know, I am the Ranking Member 
of the Veterans Affairs and Military Construction Subcommittee 
on Appropriations, as well as serving on this Committee. There 
are a few areas that I know you will address, but I just want 
to point out from my experience what I think are priorities.
    First, the claims processing wait is about half-a-year and 
that is just unacceptable. We started working on it, and with 
the great help from some of our Members here--especially 
Senator Murray and Senator Akaka--we have tried to add the 
supplemental appropriations to add claims processors. But that 
is something that will need your urgent attention to assure 
that people don't have a hiatus when they go from active duty 
to the veteran status in those adjustments.
    Second, electronic medical records. I know that has been 
mentioned. That is an area where the VA has performed 
exemplary. I think it is known that after Hurricane Katrina, 
not one veteran's record was lost. That is what we need to put 
in place that will match the Department of Defense. But 
frankly, it is the Department of Defense that needs to match 
the VA so that that seamless transition of medical records 
occurs, and I hope that--it was started under Secretary Peake--
I hope that you will continue and bring that home.
    I was so pleased that you support the research that we know 
is necessary for the kind of war that we have and the kinds of 
injuries that we have that are somewhat different from past 
wars, and particularly Gulf War research, which my colleague, 
Senator Sanders, also has mentioned. He has been a champion of 
that, as have I. I talked to the researcher at UT-Southwestern 
who is doing that work over the Christmas holidays and he said 
that now that they have the bigger base to test their initial 
results, they are finding that there are effects from 
chemicals. It is showing in the brain scans of people who have 
had these Gulf War Syndrome symptoms. So we are going to be 
able to now take the next step to see how we can add the 
antidote to the lack of an enzyme in a person's brain that 
makes them susceptible to those chemicals. I am very excited 
about it and want to make sure that we go forward with this 
research that is just on the cusp now of showing the results 
that can be verified so we can protect our warriors who are 
going to be potentially subject to those.
    I thank you for taking this job and I look forward to 
working with you.
    Chairman Akaka. Thank you very much, Senator Hutchison.
    Under the rules of the Committee, the testimony of all 
Presidential nominees appearing before the Committee shall be 
taken under oath. General Shinseki, would you now stand for the 
administration of the oath.
    Do you solemnly swear that the testimony you are about to 
give the Senate Committee on Veterans' Affairs is the truth, 
the whole truth, and nothing but the truth, so help you, God?
    General Shinseki. I do.
    Chairman Akaka. Thank you.
    General Shinseki, will you please begin with your 
statement.

  STATEMENT OF GENERAL ERIC K. SHINSEKI, U.S. ARMY (RETIRED), 
    PRESUMPTIVE NOMINEE TO BE SECRETARY OF VETERANS AFFAIRS

    General Shinseki. Thank you very much, Mr. Chairman. 
Chairman Akaka, Senator Burr, and distinguished members of this 
Committee on Veterans' Affairs, I am deeply honored by 
President-elect Obama's nomination for me to serve as the 
Secretary of this Department, this Department of Veterans 
Affairs.
    I want you to know that I am fully committed to doing the 
best I can in this job and of fulfilling the vision--the 
charge--that he passed to me, and that is to transform Veterans 
Affairs into a 21st century organization.
    Over the last several weeks, I have had the opportunity to 
meet with many of you individually and I want to express my 
deep appreciation for sharing your concerns with me, and what 
came very clearly through those conversations were your 
concerns for and your unwavering support both of our veterans 
and the good people who go to work every day in the Department 
of Veterans Affairs. I listened carefully to your concerns and 
your advice and I benefited from your counsel and I look 
forward to delivering on the promises that we arrived at.
    Mr. Chairman, let me just take a moment and thank you for 
the courtesy of--although it has been a little while now--
introducing my family: my wife, Patty; and my son-in-law, Tim 
Heaphy, who are here this morning. The Shinsekis are usually 13 
in strength when we gather as a family and today we are a 
little unrepresented. That is because my daughter, Lori, is 
taking care of her three children in Charlottesville. My son 
and his wife, Barbara, and their four daughters are in New 
Jersey. But the rest of the family is here and we are very 
proud of all of them.
    I just want you to know, 43 years ago, my wife, Patty, 
married a soldier, and that is about all she understood she was 
doing. Not having come from a military background, we weren't 
quite sure where things were going to lead, but here 43 years 
later, we are still sitting side-by-side and looking to serve 
our country.
    She has changed our family addresses 31 times in my 38 
years in the military, something on that order, so she has an 
appreciation for what spouses and families of our military 
personnel go through. She is as caring and as devoted to 
soldiers today as she was when I married her. She has stood at 
my bedside and helped me to learn to walk again and gave me 
back the confidence to put my professional life back on track 
when I faced a service-disqualifying injury.
    And so I just wanted to take a moment to register for all 
of us, as the Members of this Committee know so well, that none 
of us has the privilege of doing what we do without the love 
and support of families who sacrifice far more than most 
understand; who sacrifice so that we have our opportunities to 
serve. It was that way for my 38 years as a soldier and it will 
be that way again, if I am confirmed--to serve both our 
veterans and the good people at the Veterans Affairs Department 
as their Secretary.
    Again, I am playing a little catch-up here, but I would 
like to also express my great honor of having had the rare 
privilege of being introduced to the Committee by two of our 
Nation's premier public servants, Senator Inouye from my home 
State of Hawaii, and former Senator Dole from Kansas, both 
veterans, and both distinguished themselves in battle during 
World War II. Both, as they related, suffered through long and 
painful recoveries under the nurturing care of the VA, and then 
returned to public service to help lead our Nation in its rise 
as a global leader in the last half of the 20th century. I am 
humbled by their presence here this morning, I want you to know 
that, that they took the time to introduce me and to publicly 
display their trust and confidence in this nomination.
    I would also like to acknowledge the presence of 
representatives of many of our Veterans Service Organizations 
here today. They are essential partners to assure the best 
possible service and support for those who, in President 
Lincoln's words, shall have borne the battle, and for his widow 
and for his orphan.
    And so, to all veterans present this morning--those in this 
room sitting either there on the dais with you or those here in 
the audience, and those who may be watching these proceedings 
from distant and remote locations in the country--I want to 
express my thanks for their service, their sacrifice for our 
country. I would be honored to be their Secretary and their 
advocate at the Veterans Affairs Department, if confirmed.
    Mr. Chairman, distinguished Members of the Committee, 
transformation is always challenging for any organization and I 
use the particular term here ``transformation'' rather than 
incremental change, transformation, and looking at all of our 
fundamental and comprehensive processes that make up any 
organization of the size and complexity of the Department of 
Veterans Affairs. So, transformation is always challenging for 
any organization, particularly ones with complex missions which 
are steeped in tradition, as is this particular Department.
    I would suggest that we faced similar challenges about 10 
years ago as we began the transformation of the United States 
Army; a process that continues today. We found that positive 
leadership, dedication, and teamwork on the part of all in the 
organization allowed what was considered to be challenges when 
we began to be redefined for all of us as opportunities for 
innovation and increased productivity, and it is up to 
leadership to help with that redefinition. With your support, I 
am confident we will succeed.
    If confirmed, I intend to articulate a concise strategy for 
pursuing a transformed Department of Veterans Affairs 
reflecting the vision of President-elect Obama. I have much to 
learn about the Department and I look forward to gaining the 
valuable input and insights from its dedicated employees as 
well as from the veterans they serve and the organizations who 
serve those veterans.
    As Senator Wicker mentioned earlier, there are three 
fundamental attributes for me that mark the start point of 
framing a 21st century organization for Veterans Affairs. It 
will be people-centric. It must be results-driven. And by 
necessity, it must be forward-looking.
    First, about people, veterans will be the centerpiece of 
our organization, our clients, as we design and implement and 
sustain programs which serve them. Through their service in 
uniform, veterans have sacrificed greatly, investing of 
themselves in the security, the safety, and the well-being of 
our Nation. They are clients, and I use that term particularly, 
not just customers of our service. They are clients whom we 
represent and whose best interests are our sole reason for 
existence. It is our charge to address their changing needs 
over time and across a full range of support that our 
government has committed to providing them.
    Equally essential, the Department's workforce will be 
leaders and standard-setters in their fields. There is a long 
tradition of the VA having exercised that leadership role, and 
my interest is ensuring that we continue where we lead and 
regain the leadership where we do not today. From delivering 
cutting-edge medical treatment to answering the most basic 
inquiries, we will grow and retain a skilled, motivated, and 
client-oriented workforce. Training and development, 
communications and team building, continuous learning will be 
components of that culture.
    Second, results. At the end of each day, our true measure 
of success is the timeliness, the quality, and the consistency 
of services and support we provide to veterans. We will set and 
meet objectives in each of those performance areas--timeliness, 
quality, consistency. We will all know the standards and 
perform to them. Our processes will remain accessible, 
responsive, and transparent to ensure that the differing needs 
of a diverse veteran population are addressed. Success also 
includes cost effectiveness. As stewards of taxpayer dollars, 
we will ensure that appropriate metrics are included in our 
quality assurance and our management processes.
    Finally, third, forward-looking. To optimize our 
opportunities for delivering best services with available 
resources, we must continually challenge ourselves to look for 
ways to do things smarter and more effectively. We will 
aggressively leverage the world's best practices, its knowledge 
base, its emerging technologies to increase our capabilities in 
areas such as health care, information management, and service 
delivery.
    If confirmed, I will focus on the development of a credible 
and adequate 2010 budget request as soon as I arrive in the 
office, and that will be an immediate priority in the first 90 
days. The overriding priority will be to make the Department of 
Veterans Affairs a 21st century organization, singularly 
focused on the Nation's veterans as its clients.
    I thank this Committee for its long history of unwavering 
commitment to those veterans, and if confirmed, I look forward 
to working closely with you in that commitment.
    Thank you, Mr. Chairman, and I look forward to your 
questions.
    [The prepared statement of General Shinseki follows:]
      Prepared Statement of Eric K. Shinseki, Secretary-designate 
                          of Veterans Affairs
    Chairman Akaka, Senator Burr, Distinguished Members of the 
Committee on Veterans Affairs: Thank you for scheduling this hearing so 
expeditiously. I am honored to be before you today seeking your 
endorsement to become the Secretary of Veterans Affairs. Over the last 
several weeks, I have had the opportunity to meet with many of you 
individually and deeply appreciate the Committee's concern for and 
unwavering support for our Veterans and for the mission of the 
Department of Veterans Affairs. I've listened carefully to your 
concerns and advice, and have benefited from your counsel.
    I deeply appreciate the confidence of President-elect Obama in this 
nomination and am fully committed to fulfilling his charge to me--that 
is, transform the Department of Veterans Affairs into a 21st Century 
Organization. I am acutely aware that transformation is a challenging 
task--particularly in an organization as complex and as steeped in 
tradition as is the Department of Veterans Affairs. We faced similar 
challenges nearly 10 years ago in beginning the transformation of the 
United States Army. Leadership, commitment and teamwork enable the 
challenges of transformation to become opportunities to innovate and 
better serve our Veterans. With your support, I am confident we will 
succeed.
    If confirmed, I will quickly finalize and articulate a concise 
strategy for pursuing a transformed Department of Veterans Affairs, 
reflecting the vision of President-elect Obama. I have much to learn 
about the organization and look forward to gaining valuable input and 
insights from its civilian workforce as well as from the Veterans 
Service Organizations. However, three fundamental attributes mark the 
starting point for framing a 21st Century Organization: people-centric, 
results-driven, forward-looking.

    <bullet> First, Veterans will be the centerpiece of our 
organization--our client, as we design, implement, and sustain 
programs. Our support to veterans and their enrolled family members 
must go beyond that of servicing customers to a relationship based on 
trust and positive results over a lifetime. Through their service in 
uniform, Veterans have sacrificed greatly, investing of themselves in 
the security, safety, and well-being of our Nation. They are clients, 
whom we represent and whose best interests are our sole reason for 
existence. It is our charge to address their changing needs over time 
and across the full range of support that our Government has committed 
to provide to them. Equally essential, the Department's workforce will 
be leaders and standard-setters in their fields. From delivering 
cutting-edge medical treatment to answering the most basic inquiries, 
we will grow and retain a skilled, motivated, and client-oriented 
workforce. Training and development, communications and teambuilding, 
and continuous learning will be key components of our workforce 
culture.
    <bullet> Second, at the end of each day, our true measure of 
success is the timeliness and excellence of services and support 
provided to Veterans. Thus, we will continuously strive to set and meet 
sound performance benchmarks in these areas. Workforce leaders and 
providers alike will know the standards and perform to them. Our 
processes will remain accessible, responsive, and transparent to ensure 
that the many needs of a diverse Veterans population are met. An 
integral part of measuring success includes assessing cost-
effectiveness. As stewards of taxpayer funds, this issue will be 
central to our quality and management processes.
    <bullet> Third, to optimize our opportunities for delivering best 
services with available resources, we must continually challenge 
ourselves to look for ways to do things smarter and more effectively. 
We will aggressively leverage the world's best practices, knowledge, 
and technology, which are providing ever-increasing capabilities in 
health care, information management, service delivery, and other areas. 
We already know that a portion of today's youth will be tomorrow's 
servicemen and women, and the next day's Veterans. Thus, we will seek 
to identify and embed transformational initiatives as part of our 
culture as we care for Veterans, present and future.

    While developing a strategy for transforming the VA into a 21st 
Century Organization, we will address immediately a set of complex, 
near-term challenges that face us, as well:

    1. Successfully implement the New GI Bill (Post-9/11 Veterans' 
Educational Assistance Act).
    2. Streamline the disability claims system, increase quality, 
timeliness and consistency of claims processing, and update the 
Disability Rating Schedule, while maintaining veterans' rights.
    3. Ensure adequate resources and access points to meet the health 
care needs of all enrolled Veterans, as well as those OEF/OIF Veterans 
and Priority Group 8 Veterans, who will be joining the system.
    4. Leverage the power of Information Technology to accelerate and 
modernize the delivery of benefits and services.

    If confirmed, I will focus on these issues and the development of a 
credible and adequate 2010 budget request during my first 90 days in 
office. The overriding challenge, which I will begin to address on my 
first day in office, will be to make the Department of Veterans Affairs 
a 21st Century Organization focused on the Nation's Veterans as its 
clients.

    I thank this Committee for its long history of unwavering 
commitment to Veterans. If confirmed, I look forward to working closely 
with you in fulfilling that commitment.
                                 ______
                                 
Response to Pre-Hearing Questions Submitted by Hon. Daniel K. Akaka to 
General Eric Shinseki, Nominee to be Secretary, Department of Veterans 
                                Affairs
    Question 1. What do you see as the biggest challenges facing VA at 
this time? What will be your emphasis in the first 90 days?
    Response. The overarching challenge that the VA faces is its 
transformation into a 21st Century organization as called for by the 
President-elect. I am acutely aware that transformation is a 
challenging task particularly in a complex organization, steeped in 
tradition; we faced similar challenges in the transformation of the 
United States Army.
    I believe that the biggest challenges the VA faces are:

    1. Successfully implementing the New GI Bill (Post-9/11 Veterans' 
Educational Assistance Act).
    2. Streamlining the disability claims system, increasing quality, 
timeliness and consistency of claims processing and updating the 
Disability Rating Schedule while maintaining veterans' rights.
    3. Ensuring adequate resources and access points to meet the health 
care needs of all enrolled Veterans as well as those OEF/OIF Veterans 
and Priority Group 8 Veterans, who will be joining the system.
    4. Utilizing cost effective Information Technology to improve and 
modernize the delivery of benefits and services.

    If confirmed, I would focus on these issues and the development of 
a credible and adequate 2010 budget request during my first 90 days in 
office. However, the overriding challenge which I will start addressing 
the first day in office is to make the Department a VA for the 21st 
Century, a VA in which Veterans truly are the centerpiece of the 
organization

    Question 2. Former Secretary of Defense Donald Rumsfeld said, in 
describing you and General Jack Keane, ``they say what they believe, 
and they tell the truth.'' Is it safe to expect that you will bring the 
same honest and outspoken forthrightness, about both the good and bad, 
to your role as Secretary?
    Response. Yes. If confirmed, I'll always provide my best, 
professional judgment on the requirements of the Department to the 
President, the Congress, the public, and the Veterans the Department is 
charged to serve.

    Question 3. What is your view on the role of the Secretary of 
Veterans Affairs? If confirmed, would you seek to be an independent 
advocate for veterans or would you be the executor of the 
Administration's policies relating to veterans?
    Response. I do not believe these roles as described in the question 
will be in conflict. If confirmed, I intend to be a forceful advocate 
for Veterans. The President-elect charged me to ensure that Veterans 
receive the benefits and services they earned and that the Nation 
expects.

    Question 4. One of the Secretary's major roles on an annual basis 
is developing and then defending VA's budget for a given year. Do you 
anticipate working within the limits established by the Office of 
Management and Budget or going to the President to advocate for the 
level of funding that is needed to fully fund the Department in the 
coming year?
    Response. I will be an aggressive advocate for the fiscal needs of 
the Department. I anticipate that the OMB will offer advice and 
assistance in fulfilling the vision and direction of the President-
elect with respect to the needs of and promises to the Nation's 
Veterans. It is my expectation that OMB will be prepared to assist me 
in presenting to the President a proposed budget in any given year that 
is consistent with those needs and promises. I will not hesitate to 
inform the President of any serious concerns that I have.

    Question 5. What lessons did you learn as Chief of Staff of the 
Army that you plan to apply to leading VA? Do you anticipate that you 
will have to change your leadership style to manage a civilian 
department?
    Response. The Army taught me the value of leadership and strategic 
thinking. It trains its leaders to focus on goals and measurable 
results, while performing under pressure. I understand that there may 
be inherent differences between military and civilian organizations. 
The President-elect has made very clear the need to modernize the VA 
and to make it an organization that is more effective in meeting the 
needs of all Veterans. I share that view and, if I am confirmed, the 
strategic direction I set for the Department will focus on that goal. 
In order to transform the VA, I will draw on my experience, and I will 
seek the experiences of the professionals in the VA, as well, to 
collaborate on approaches for addressing our most challenging issues 
quickly. Both the VA, as an institution, and I, as its Secretary, will 
go through a period of teambuilding and adaptation. At the end of that 
period, I expect we will be a cohesive organization serving the needs 
of Veterans with an elevated sense of urgency.

    Question 6. Are you more of a ``hands-on'' manager or do you tend 
to rely on significant delegation? Do you seek to achieve consensus 
with those on your management team before making a decision or do you 
generally gather relevant information and input, and then make a 
decision?
    Response. Depending on circumstances, either style might be 
appropriate. I understand that organizations as large as the VA require 
the delegation of certain authorities. I expect the management team to 
exercise initiative, demonstrate competence in doing so, innovate as 
appropriate, and ensure that matters of policy are brought to my 
attention. Again, the President-elect has made very clear the need to 
modernize the VA and to make it an organization that is more effective 
in meeting the needs of all Veterans. In order for any organization to 
achieve the kind of rapid change that approaches being 
transformational, competence, collaboration, and innovation are 
important. More important, however, is trust--trust that is built on 
the integrity and accountability of every member of the team. Trust is 
foundational to achieving the kind of excellence in every aspect of 
organizational performance that aspires to be transformational. For the 
VA, the single focus for transformational change should be the 
Veteran--providing for generations of Veterans, who have done their 
duty, the support and services they have earned and we have promised.

    Question 7. If confirmed, what portion of your time do you expect 
to devote to visiting VA facilities?
    Response. If confirmed, I expect to initially devote a good portion 
of time to visiting facilities to improve my understanding of the VA 
systems and Veterans' needs. Recognizing the importance of face-to-face 
relationships and interchanges, I expect to devote that amount of time 
that is appropriate, necessary and productive. I believe that in 
addition to interactions with facility management and employees, it is 
most important that I have the opportunity to interact with and listen 
to the Veterans the VA serves. My visits to VA facilities will afford 
me the opportunity to gain a first-hand view of the good work being 
done and the challenges managers and employees face, to get feedback 
from the front lines of the VA, and, to begin developing with them a 
shared vision for the Department.

    Question 8. If you were able to have a one-on-one meeting with 
every VA employee, what would you say? If confirmed as Secretary, how 
will you implement this message in terms of policies and actions?
    Response. To transform the VA into a 21st Century service delivery 
organization, as envisioned by the President-elect, I will need to call 
on the support, knowledge, experience, and assistance of every VA 
employee. People are the most important element of any organization; 
the centerpiece of the VA is and always will be people: the Veterans 
the department serves and the employees, who deliver those services. 
The care, compassion, intellect, and dedication of VA employees are 
what enable the Department to uphold President Lincoln's charge. This 
is my message to the VA's employees, and I will ask all senior leaders, 
managers, and supervisors in the Department to reinforce this message, 
not only in words but in deeds.

    Question 9. Do you plan for the Deputy Secretary to be VA's Chief 
Operating Officer?
    Response. Yes. The Deputy will be a significant partner in the 
transformation of the VA to a 21st-Century institution.

    Question 10. How do you plan to work with the General Counsel? Will 
he or she be a key member of your management team?
    Response. The General Counsel will be a principal member of the VA 
leadership team. I will value the legal guidance of the General Counsel 
in all matters and I expect that the General Counsel will be a 
participant in all deliberations on programs and issues and will bring 
to my attention the legal implications that must be considered in the 
design and execution of programs.

    Question 11. Do you have any concerns with the dual responsibility 
of VA Inspector General--answering both to the Secretary, as the head 
of the Department, and to Congress?
    Response. I do not have any concerns. I recognize that impartiality 
is the key to the effectiveness of any Department's Inspector General. 
The dual accountability of the IG helps to ensure and protect the IG's 
independence and objectivity.

    Question 12. VA has long had the reputation of being a ``stove 
pipe'' organization. Please describe how you intend to work with the 
three Under Secretaries and with the Assistant Secretaries to ensure 
that all components of the Administrations and organizations are 
working together to achieve a ``One VA'' focus.
    Response. If confirmed, my first priority will be to understand the 
roles of the Under Secretaries and the Assistant Secretaries and the 
organizations they manage. It will also be important for VA to engage 
other Federal agencies, in particular the Departments of Defense, 
Labor, Health and Human Services, Education, Housing and Urban 
Development, and Small Business Administration to generate the kind of 
collaborative synergy that puts Veterans at the center of its focus. 
Doing so would also facilitate developing that long sought and 
critically important ``One VA'' mindset. Achieving ``One VA'' would be 
an early and continuing priority, if confirmed.

    Question 13. Are you satisfied with the current alignment of 
Assistant Secretaries or do you anticipate proposing any changes to the 
number of Assistant Secretaries or to their responsibilities?
    Response. It is premature for me to make any specific judgments 
until I have had a personal opportunity to see how VA functions. I will 
be pleased to share my views once this review is completed and I will 
certainly bring forward any proposals for changes that I find will 
improve the effectiveness of the Department. I believe that a strong 
and consistent strategic communications plan is critical in the 
Department, and I believe my review of the organization should include 
input from all of the VA's stakeholders--Veterans, spouses, families, 
employees, Congress, Veteran Service Organizations, the media, and 
others, who are committed to seeing Veterans receive the benefits 
they've earned.

    Question 14. Do you anticipate meeting with VSO representatives on 
a regular basis?
    Response. Yes, I intend to meet with them regularly. They are 
important advocates for Veterans, and I will seek their advice, 
counsel, input, and support routinely and when particular needs arise.

    Question 15. What difficulties confronting wounded, injured and ill 
servicemembers transitioning from the military to the VA system are the 
result of DOD policies and practices? Of VA policies and practices? Of 
some combination?
    Response. At this time, I cannot speak to what or whose policies 
and practices specifically may make transitioning difficult for 
wounded, injured and ill servicemembers. However, I can offer an 
observation: it is difficult under any circumstances to navigate health 
care systems and to transition between systems; this can only be made 
more difficult when one is simultaneously dealing with leaving active 
duty and applying for additional benefits. Certainly this is further 
complicated by being wounded, injured, or ill. My focus, if confirmed, 
will be to begin eliminating those obstacles and to ensure Veterans get 
those benefits they have earned.

    Question 16. If confirmed, what do you believe you will be able to 
do to enable VA to ensure that separating servicemembers are made aware 
of the benefits and services that are available to them?
    Response. If confirmed, I believe that I can ensure that VA will do 
everything possible to communicate with separating servicemembers and 
provide them timely, accurate and consistent information about 
available benefits and services. I understand that it will be critical 
for the VA to work very closely with the DOD to determine the most 
effective points in the separation process to communicate with 
servicemembers. This may or may not be at the time of discharge or 
release from active duty.

    Question 17. As part of the effort to respond to the problems 
identified at Walter Reed Army Medical Center and to address the 
recommendations from the President's Commission on Care for America's 
Returning Wounded Warriors (popularly known as the Dole-Shalala 
Commission) and other panels, VA and DOD created the Senior Oversight 
Committee (SOC), which was co-chaired by VA and DOD's Deputy 
Secretaries. As a result of this alliance, the two Departments raised 
the level of collaboration and cooperation between VA and DOD in 
addressing a wide-range of issues affecting wounded warriors. The 2009 
Defense Authorization Act contains a provision directing the 
Departments to maintain the SOC into the incoming Administration. If 
confirmed as Secretary, what would your priorities be for the SOC and 
joint VA/DOD activities affecting wounded warriors?
    Response. Initially, I would expect that the Deputy Secretary--who 
I believe cochairs the SOC with the Deputy Secretary of Defense--and I 
would assess the status of activities which the SOC is overseeing and 
determine whether SOC efforts should be re-prioritized. I am also aware 
that the Joint Executive Council, established by law, helps to identify 
opportunities to enhance mutually beneficial services and resources and 
oversees the Health and Benefits Executive Councils. In short, I would 
explore all opportunities to put Veterans first and maximize 
collaboration with DOD and other departments to expedite delivery of 
earned benefits to those Veterans.

    Question 18. Many recommendations have been made concerning 
modernization of VA's rating schedule. One suggestion is to have an 
organization within the Veterans' Benefits Administration associated 
with a major medical school and with expertise in rehabilitative 
medicine that might develop a rating schedule that reflects modern, 
scientifically-based assessments of impairment, including a quality 
review component for compensation and pension medical examinations. 
What are your views on this suggestion?
    Response. Without a thorough understanding of the disability rating 
schedule and the bases for recommendations that it be modernized, I 
will only say that this suggestion and all others will be fully 
evaluated.

    Question 19. Currently compensation and pension medical 
examinations are done by VA employees, local medical providers who 
contract with local VA facilities, and by providers associated with 
organizations pursuant to national contracts. Please discuss your views 
of the pros and cons of these various approaches to C&P exams.
    Response. The VA has been utilizing both VA and contract exams for 
some time. The important issue in my mind is whether the exams are 
performed in a prompt, thorough, accurate manner that provides all the 
relevant information needed by VBA in order to rate the claim.

    Question 20. The current staffing model used in VBA regional 
offices results in significant handing off of work among separate 
units, individuals, and offices. Additionally, claims files have no 
index and are not organized by subject matter. What modifications would 
you consider to better organize the files, reduce the number of hand-
offs, and prepare the claims adjudication system to move toward an 
electronic environment?
    Response. I would look to my Under Secretary for Benefits for any 
recommendations. It seems to me, however that the important task is to 
reexamine business rules in the context of moving rapidly to a 
paperless processing system in order to best support Veterans.

    Question 21. Current law provides for a relaxed evidentiary 
standard in the case of claims from veterans who served in combat 
areas. VA defines ``combat'' very narrowly when applying this standard, 
requiring a veteran claimant to produce proof of direct combat with an 
enemy. This approach focuses on the exposure to an actual, specific 
engagement with the enemy, in contrast to the impact of serving in a 
location where records are not made, maintained, or transmitted due to 
combat conditions. What steps can be taken to improve recognition of 
areas where combat conditions interfere with record keeping?
    Response. If confirmed, I will ensure that there is sufficient 
guidance given to claims personnel; I am advised that the applicable 
statute requires that due consideration of the places, types, and 
circumstances of any Veteran's service. It is my current view, that if 
a Veteran is shown to have served under circumstances which may have 
interfered with record keeping, that should be taken into account in 
deciding his or her disability claim.

    Question 22. Failure to provide medical examinations and opinions 
before denying claims for service-connected disabilities is a common 
problem noted during Committee oversight visits and in remands by the 
Board of Veterans' Appeals. If confirmed, what will you do to encourage 
regional offices to obtain such examinations and opinions before 
denying a claim?
    Response. I understand that the Department's responsibility for 
providing medical examinations and opinions is specified in the 
statute. If regional offices are not in compliance, that clearly would 
be unacceptable. I look forward to learning more about compliance with 
these requirements and overseeing whatever fixes are necessary. Every 
Veteran's request will get a full and fair hearing in the timeliest 
manner we can provide it.

    Question 23. VHA has had considerable success using electronic 
health records. Social Security has successfully developed an 
electronic file system relying on a significant cadre of inhouse 
programmers with limited contract support. VBA relies almost entirely 
on support from a variety of contractors and has spent years developing 
VETSNET, which is not expected to be completed for several more years 
and by the time it is finished, some of the computer platforms on which 
the system is built will be outdated. What are your views on the proper 
balance between using Federal employees and contractors within VBA in 
order to expedite development of an electronic claims record and 
maintain institutional know-how in this critical area?
    Response. While it may make sense to consider having routine tasks 
and certain highly specialized skills delivered by contractor personnel 
these tasks should be performed under the direction and supervision of 
government employees who are held accountable for their performance. In 
short, the Department needs the ability to clearly define its IT 
requirements and the skills to oversee and manage their execution in 
order to retain the responsibility and accountability for delivering 
the Department's mission and caring for those who have borne the 
battle.

    Question 24. An integral part of the VA's health care system is its 
electronic health record system. As Secretary what steps would you take 
to ensure that VA's electronic health record system is totally 
integrated with DOD records in order to create a truly seamless health 
experience as servicemembers transition from active duty to veteran 
status?
    Response. Fundamentally, this issue is about leadership--leaders 
have to direct the technological handshake. Currently VA doctors, 
nurses and other health care professionals have access to much of the 
available, relevant DOD electronic health care records for active duty 
soldiers. Work continues between the two organizations to identify 
additional data that can be shared. I intend to take an active interest 
in the progress of these efforts; a seamless care experience would be 
one of my top priorities.

    Question 25. Draft legislation presented by the current 
Administration in response to recommendations from the Dole-Shalala 
Commission would create a multi-tiered disability system. This has been 
met with criticism, both from some in Congress and from veterans' 
advocates.

    a. Do you believe that a disability system that treats veterans of 
different generations differently is desirable?
    b. Do you believe that veterans of prior conflicts should be given 
a lower priority in claims processing than veterans of current 
conflicts?
    c. Do you believe that claims resulting from combat versus non-
combat injuries or diseases should be prioritized differently?
    d. How would you ensure that any changes to the current disability 
system are fair, equitable, and uniformly administered for all 
veterans?

    Response. Doing what is right and fair for the Veteran is most 
important. From my perspective, it would seem that as a general rule it 
should be the nature of the disability rather than where or when it was 
incurred that is the primary consideration. I understand that 
appropriate exceptions have been and should continue to be made. It 
seems to me that the VA's practice of providing processing exceptions 
for the very severely wounded and terminal (or otherwise ``in 
extremis'') Veterans is humane and appropriate.

    Question 26. Economic Systems, Inc., recently completed a six-month 
study that addresses transition benefits, loss of earnings, and quality 
of life issues for service-connected veterans. This study was 
recommended by the Dole-Shalala Commission. In connection with this 
study, do you believe that the Secretary has authority to implement 
changes to the disability compensation schedule generally? Do you 
believe that the Secretary has the authority to distinguish between 
multiple systems of compensation and how they are to be applied to 
different groups of veterans?
    Response. Given the importance of disability compensation to 
Veterans and the Nation as a whole, I believe any fundamental change to 
the system should require the involvement and approval of Congress. I 
understand the Secretary is currently authorized to maintain a schedule 
for rating disabilities based upon impaired earning capacity, and to 
pay disability compensation at statutorily determined rates based upon 
the ratings that result from application of that schedule. My further 
understanding is that the Secretary does not currently have authority 
to compensate Veterans on other bases, or to differently compensate 
various groups of Veterans having the same levels of disability.

    Question 27. In October 2007, the Disability Benefits Commission 
(VDBC) released a report on its 2\1/2\-year analysis of the benefits 
and services available to veterans, servicemembers, their survivors, 
and their families to compensate and provide assistance for the effects 
of disabilities and deaths attributable to military service. That 
report contains 113 recommendations. Do you believe that VA's response 
to the VDBC's recommendations thus far has been adequate and 
appropriate?
    Response. I have not had an opportunity to have an in-depth 
briefing on the recommendations of the Disability Commission chaired by 
General Scott. The extensive work that went into this study deserves 
careful consideration by the Department and me. Once the review is 
completed I will be in a position to judge the adequacy and 
appropriateness of the response to date.

    Question 28. VA's vocational rehabilitation and employment program 
is one of the smallest, yet most important, programs within the 
Department. It is the linchpin for helping veterans who incur service-
connected disabilities achieve a fulfilling and gainful future. I am 
deeply committed to making sure that this program lives up to its full 
potential, especially when individuals who have sustained serious 
injuries in combat are concerned. What are your thoughts on the role 
that vocational rehabilitation plays in terms of the total 
rehabilitation of an individual recovering from severe combat-related 
injuries and on how VA's current efforts might be improved?
    Response. From what I know of the VR&E program, I share your view 
of its importance to the successful future of service-connected 
disabled Veterans. I understand that recently enacted Pub. L. 110-389 
requires the VA to study those measures that assist and encourage 
Veterans to complete their vocational rehabilitation as well as to 
conduct (subject to funding) a longitudinal study of certain vocational 
rehabilitation program participants. I assure you that we will 
undertake these studies with an eye toward improving the VR&E program 
and meeting the rehabilitation needs of the severely injured veterans 
who have earned the best services we can provide.

    Question 29. In 2004, a blue-ribbon panel completed an exhaustive 
review of VA's vocational rehabilitation and employment program. In its 
findings, it made more than 100 recommendations. Of those, VA reports 
that nearly all of them have been implemented to some extent. I remain 
concerned, however, that there are far too many eligible veterans who 
do not apply, complete the evaluation process, have a rehabilitation 
plan developed, or complete their plan. No one seems to really know why 
there is such a low completion rate when measured against the number of 
veterans who apply and who are determined entitled. What priority do 
you believe VA should place on determining why the successful 
completion rate for individuals in this program is so low?
    Response. It is my understanding that VA has conducted a survey the 
results of which were to assist in establishing effective procedures 
for reducing the number of Veterans who do not complete their 
vocational rehabilitation program. I will expect to be briefed on this 
effort and the extent to which these procedures are successful. 
Further, I believe that the study required by Pub. L. 110-389 will 
further inform the issue of low completion rates and help VA in its 
efforts to assist Veterans to attain successful rehabilitation.

    Question 30. The active-duty military has become increasingly more 
reliant on the Reserve components to accomplish its missions. What will 
you do, if confirmed, to ensure that governmental services, such as 
pre-, during, and post-deployment services, including transition 
services, are available to National Guard and Reserve veterans in the 
same way as they are available to those who serve in the active forces?
    Response. I expect that VA should better coordinate with the 
States, including Transition Assistance Advisors in many State National 
Guard programs, and with the Departments of Defense, Labor, and 
Education, among others, to find the best opportunity for educating 
Veterans effectively about available benefits and services.

    Question 31. In your view, how long should a veteran have to wait 
to have his or her initial claim for compensation adjudicated?
    Response. If confirmed, my starting point would be the strategic 
goal set by the Department. I understand that most of the claims 
processing time involves evidence gathering or compliance with legal 
procedural requirements over which the VA has little control. Re-
examining business rules as VA transitions to paperless processing 
should also offer opportunities to expedite processing time. Increasing 
the number of claims processed under the Benefits Delivery at Discharge 
(BDD) will result in earlier decisions for those currently leaving the 
service.

    Question 32. VBA has been criticized for the lack of timeliness of 
its claims' processing. While VBA has made progress in improving 
timeliness and accuracy of disability claims processing, further 
improvement is needed. VBA has turned its attention to decreasing the 
amount of time it takes to process a claim, but that improvement seems 
to be at the cost of a decrease in the quality of its decisionmaking. 
Do you have any views on how to better balance the need to timeliness 
with the requirement that decisions be as accurate as possible?
    Response. I have much to learn with respect to the specifics of the 
claims process, but it seems to me that timeliness and quality should 
be primary concerns in the decisionmaking process. If there is a 
growing problem with the quality of decisions, I believe that the 
solution rests with better review and oversight by managers of 
decisions prior to issuance together with increased training to avoid 
future errors.

    Question 33. Accurate forecasting of usage of veterans benefits is 
essential in planning for resources to administer those benefits. If 
confirmed, what would you do to ensure that VA provides accurate and 
timely forecasts of the need for additional staffing resources so that 
Congress is able to appropriate resources in a timely manner?
    Response. It is my understanding that VA continues to enhance its 
actuarial models for forecasting usage of benefits and services. I 
agree with the assertion that accurate forecasts are essential and will 
work to improve VA's efforts to provide such forecasts as well as 
efforts to survey Veterans so as to obtain data to support forecasting 
modeling.

    Question 34. All Federal agencies have certain responsibilities to 
maximize contracting opportunities for veteran-owned small businesses 
and especially service-disabled veteran-owned small businesses. In 
general, it appears that VA has a better record than most other Federal 
agencies. However, there are concerns that, in order to meet the goal 
of increased contracting with these businesses, there has been 
increasing reliance on partnerships between large corporations and 
small service-disabled veteran-owned businesses, in which the 
involvement of the SDVOB is really only on paper. If confirmed, what 
will you do to ensure that VA contracts with small service-disabled 
veteran-owned businesses truly involve and benefit these firms in the 
actual contracted activity?
    Response. It is my understanding that the VA's Center for Veterans 
Enterprise is a unique program serving SDVOBs. Additionally, I'm told 
that VA has a unique buying authority that permits it to set-aside 
requirements for Veteran-owned small businesses and generally provides 
VA with more latitude in non-competitive contracting. Significantly, 
VA's large prime contractors will be required to use businesses that 
have been officially verified to be SDVOBs once pending regulations are 
effective. These factors helps VA to ensure that SDVOBs are both in a 
position to benefit and actually do benefit from contractual 
activities. I would expect to see these programs and efforts to 
continue and to expand appropriately. It is important for the VA to try 
to follow the letter and spirit of the law when it comes to veterans 
preferences.

    Question 35. The Institute of Medicine submitted a report to the 
VDBC entitled Evaluation of the Presumptive Disability Decision-Making 
Process for Veterans in which IOM recommended a new process for VA to 
follow in establishing presumptions. Please comment on the IOM 
proposal.
    Response. I'm aware that a distinguished panel of the Institute of 
Medicine conducted an extensive review of the presumptive disability 
decision process and made several recommendations for improving it, 
including greater transparency in how the Department reached its 
decisions. It's my understanding that the VA has yet to make an 
official response to those recommendations. If confirmed, I intend to 
ensure that the VA seriously considers those recommendations and 
develops an appropriate response to this complex issue.

    Question 36. With respect to presumptive disability decisionmaking, 
IOM recommended a standard of ``causal effect.'' In some cases, 
servicemembers may have been subjected to multiple potential exposures 
of uncertain dosage. If causation is unclear, should evidence of 
increased incidence of certain disabilities be a basis for service-
connection?
    Response. As noted in my answer to question 35, I await the review 
of the IOM recommendations by the Department.

    Question 37. At the present time, military recruiters are actively 
recruiting servicemembers from countries in the Pacific Islands, such 
as the Federated States of Micronesia. Some veterans' benefits, such as 
vocational rehabilitation services, VA home loans, and health care, are 
not normally provided outside of the United States. In your view, what 
obligation does the government have to provide non-citizen disabled 
veterans benefits and services needed to compensate for and overcome 
the disabilities which they incurred after being recruited into United 
States military service?
    Response. I am interested in learning the original reasons for the 
restrictions you identify, and whether they remain valid today. If 
changes are warranted, I would be an advocate for them.

    Question 38. In the last Congress, there was legislation introduced 
that would provide some who were in the merchant marines during World 
War II with a tax-free annual pension of $1,000 a month. This payment 
would be based upon neither disability nor financial need.

    a. What is your opinion about VA providing certain groups with 
entitlement to a monetary payment that is based neither on being 
disabled nor in need?

    b. Should VA provide such special compensation to a group without 
doing the same for similarly situated groups?
    Response. I am not yet familiar with the history of Veterans' 
benefits and services for former members of the Merchant Marine.

    Question 39. Under the Uniformed Services Employment and 
Reemployment Rights Act of 1994 (USERRA), employers--including the 
Federal Government--have certain responsibilities to re-hire 
individuals who are seeking to return to their jobs following a period 
of active service. It is particularly troublesome to me that an 
individual who has been sent into battle by the government would need 
to do battle with that same government for the right to regain a job 
and its associated benefits. However, it does happen and it happens far 
too often. Indeed, according to Department of Labor, more than thirty 
claims of violations of USERRA were lodged against the Department of 
Veterans Affairs in fiscal 2006. This should be embarrassing to the 
agency. If confirmed, what steps do you believe you can take to ensure 
that VA follows USERRA?
    Response. I wholeheartedly agree with the premise that VA must set 
the example among all employers in the hiring and rehiring of Veterans. 
Even one valid USERRA claim against the Department would be 
unacceptable, and I look forward to learning more about VA's 
performance in this regard since 2006. It is imperative that all VA 
managers and human-resources personnel be familiar with the law 
regarding the reemployment of deactivated guard and reserve personnel, 
and follow it to the letter.

    Question 40. What are your views on how technology might be used to 
improve VBA's performance?
    Response. VBA must move to an integrated, all electronic claims 
processing system. If confirmed, I will insist that a plan be developed 
with reasonably aggressive timelines to validate the current benefits 
administration business processes with an eye to the role of rules 
engines. Once the plan is adopted I intend to move expeditiously to 
acquire the technology and systems to support the delivery of benefits 
to Veterans.

    Question 41. Through VA's vocational rehabilitation program, VA 
assumes certain responsibilities for the provision of employment 
assistance to veterans who complete a plan of vocational 
rehabilitation. This assistance can take a variety of forms. I am 
concerned that VA cooperates and coordinates with the Department of 
Labor's Veterans' Employment and Training Service so that duplication 
of effort can be minimized. If confirmed as Secretary, what will you do 
to involve both DOL, and DOD in efforts to ensure that employment-
related issues are addressed seamlessly and without duplication of 
effort?
    Response. I am unaware of the extent of duplication of efforts by 
the Departments but will explore the issue with my counterparts. I 
understand that Job Fairs around the country which bring the three 
Departments together have been generally effective, as has the Coming 
Home To Work program through which servicemembers work with VA, DOD, 
and DOL staff to obtain Government work experience. Further, I'm 
advised that VA has Memoranda of Understanding in place with DOL VETS, 
the Army's Materiel Command, and the Naval Air Warfare Center Aircraft 
Division that provide for effective coordination of expanded employment 
opportunities; I believe that the VA should continue and expand on such 
efforts.

    Question 42. VBA has had some success with improving the efficiency 
of claims processing by consolidating certain services into fewer 
offices. What are your views on such consolidations?
    Response. Increasing timeliness, accuracy and consistency in claims 
processing must be an important objective of the VA. Appropriate 
consolidation of services can, I believe, assist in achieving these 
goals. As we do this, however, it is important to maintain accessible 
services for veterans. The prompt implementation of electronic 
processing would greatly facilitate consolidation as well.

    Question 43. VA currently uses the criteria of 170,000 un-served 
veterans within a 75-mile radius for purposes of establishing new 
national cemeteries. In the past, the Senate has supported this 
standard and has authorized new cemeteries based upon VA's 
recommendations. Do you believe this should continue to be the standard 
practice? In the absence of a VA recommendation, do you believe 
Congress should legislate the location of new national cemeteries?
    Response. VA's current policy was the result of congressionally 
mandated study undertaken a number of years ago. It appears to be 
equitable and working well. I understand that currently 80% of Veterans 
are within 75 miles of a national or State Veterans' cemetery and that 
this will increase to 90% in 2010. The National Cemetery System has 
also been given the highest customer service rating according the 
American Customer Satisfaction Index. I also understand that additional 
studies have been undertaken which suggest further refinements that 
might be made in this successful process I would like to have the 
opportunity to assess and report.

    Question 44. One of the biggest challenges that VA is facing is the 
implementation of the new Post-9-11 GI Bill which was signed into law 
on June 30, 2008. The full effective date of the new program of 
educational assistance is August 1, 2009, which means that VA has less 
than a year to prepare for massive changes. Initially, VA had planned 
to outsource certain components related to the administration of the 
new benefit program but has not decided against that and will instead 
manage with in-house resources.

    a. What are your thoughts on how VA might best prepare for 
implementation of the new program?
    b. How do you intend to monitor the implementation to ensure that 
the transition is as seamless as possible?

    Response. It is absolutely critical that the VA be able to deliver 
the Post-9/11 Veterans' Education Assistance benefits efficiently and 
effectively on August 1, 2009. If confirmed, I will make it one of my 
very first actions to initiate an independent, thorough, but 
expeditious review of the so called short-term solution to assure 
myself that this program is realistic, sufficient, and on time and to 
take whatever remedial actions may be necessary to insure that we 
improve and sustain on the delivery of these benefits to our eligible 
Veterans, as promised.

    Question 45. There is a unique and mutually beneficial relationship 
between VA medical centers and medical schools that improves the 
quality of both systems, as well as the quality of care for veterans 
throughout the Nation. These affiliations draw the best and brightest 
physicians to VA and also help VA fulfill its research and education 
missions. I am concerned, however, about the viability of the 
relationship. Please share your views on the overall value of academic 
affiliations, including the role affiliates play in staffing VA 
facilities.
    Response. I am aware of VA's long standing affiliations with the 
Nation's medical schools. I understand that there are currently 
agreements with 107 medical schools with training in 42 disciplines. 
While those relationships are strong, I believe it is important to 
assess the current successes and challenges and develop a future plan. 
I am aware that Secretary Nicholson appointed a Blue Ribbon Panel on VA 
Medical School Affiliations, and I'm anxious to see the panel's 
findings which are due later this year. In the meantime, I'm informed 
that VA plans to increase the number of residents completing their 
graduate medical education in VA and will continue to seek to employ 
physicians with medical school academic appointments as well as 
continue their participation in VA research programs.

    Question 46. VA faces a growing nursing shortage, as well as 
vacancies for specialty care physicians. What do you believe VA might 
do to improve personnel recruitment and retention at VA health care 
facilities, particularly of nurses? What more can VA realistically do 
to improve recruitment in areas where there are fewer specialty care 
providers overall?
    Response. If confirmed, I will charge the Under Secretary for 
Health for a detailed plan with respect to how we will address these 
issues. I know that the efforts of the Veteran Affairs Committees and 
the recent recommendations of GAO in a report entitled, ``Improved 
Staffing Methods and Greater Availability of Alternate and Flexible 
Work Schedules Could Enhance the Recruitment and Retention of Inpatient 
Nurses'' should be significant considerations in the Under Secretary's 
planning. I am also advised that the issue of recruitment of physicians 
is not limited to problems in recruiting specialists, but also primary 
care providers and geriatricians. I believe many of the factors 
reported about nurse recruitment are similar and I'll seek similar 
solutions to those of nursing and other shortage category occupation 
recruitment efforts. Additionally, it may be appropriate to consider 
programs for physician tuition support and reimbursement in return for 
a service commitment which could be particularly helpful to ensuring 
access to health care in the underserved rural and urban areas.

    Question 47. Many veterans, especially those with complicated 
health issues, rely upon the specialized services of the VHA. Many of 
these services, like spinal cord injury, blind rehabilitation, and 
prosthetics, are not widely available in the private sector. In an era 
of declining budgets and decentralization of funds, please describe 
your views on VA's responsibility to maintain capacity in these 
programs.
    Response. The VA has a longstanding reputation for being a leader 
in the provision of specialized services like spinal cord injury, blind 
rehabilitation and other programs where there is little expertise in 
the private sector. Especially in view of the limited private sector 
expertise, and the continuing demand from Veterans who require these 
services, the VA needs to maintain these capabilities and in some areas 
such as prosthetics needs to regain its position as a world leader.

    Question 48. VA has a history of significant waiting times for 
care, a problem which is particularly acute in specialty care. What are 
your thoughts on the priority that should be accorded to reducing 
waiting times?
    Response. If confirmed, I will need to develop a greater 
understanding about how times are measured, and if there has been any 
benchmarking with other providers with respect to standards. One of my 
first priorities about this issue would be to have assurance that 
urgent and emergent patients are seen on a timely basis. Once I have 
assurance that the VA meets requirements for those patients, I will 
request waiting time policy recommendations about what is appropriate 
for routine follow-up and chronic care treatment to include 
consideration of emerging practices regarding patient provider 
interaction and monitoring using telehealth and other technologies.

    Question 49. In your view, how long should a veteran be expected to 
wait for a non-emergent health care appointment?
    Response. Please see my answer to question 48 above.

    Question 50. President-elect Obama has stated that one of his goals 
for the Department of Veterans' Affairs is to readmit Priority 8 
veterans. What is your opinion of this proposal? If it should be 
pursued, how can it be done most efficiently?
    Response. If confirmed, an immediate assignment will be to develop 
the plan to meet the expectations of the President-elect's goals as 
they pertain to Priority Group 8 Veterans. I believe the prudent 
approach will be to validate the estimated number of these veterans, 
giving appropriate consideration to the potential impact of current 
economic factors, and then assess the capacity of facilities and 
staffing and then quickly create a plan to phase these Veterans into VA 
for care. Overriding considerations must be VHA's ability to ensure a 
transition where demand can be appropriately met without deterioration 
in quality of care.

    Question 51. There has been increasing pressure in recent years for 
VA to contract for services in local--especially rural--communities 
where VA facilities are not easily accessible. Mental health is one 
area of particular emphasis in this regard. What do you believe is VA's 
responsibility for meeting the needs, including mental health needs, of 
rural veterans? If confirmed, what emphasis would you place on this 
issue?
    Response. The VA has a responsibility to treat these Veterans' 
injuries and wounds--regardless of where the Veterans live. It is my 
understanding that the new VA Office of Rural Health will identify 
local initiatives for pilots which are expected to lead to improved 
rural health care. While we await the findings from the pilot projects, 
I would expect a continuing mix of care, the expanded use of telehealth 
for treatment of mental health needs of Veterans in their homes and 
CBOCs, and the continuing development of referral approaches and 
transportation where it is unrealistic to have high level diagnostic 
and treatment capabilities in the most remote rural areas.

    Question 52. Telehealth technologies have proven to be highly 
effective in terms of quality of care delivered, and efficient at 
reaching those in underserved areas. As Secretary, what approach would 
you take to integrating and expanding telehealth capabilities within 
VA?
    Response. I understand the goals for telehealth are for the 
technologies to become a major factor in the evolution of care models 
from episodic care to longitudinal care. The ideas about increasing 
patient involvement in decisions about their care include their active 
participation in transmitting information, with the use of these 
technologies that will contribute to changes in care plans and improve 
care management, as well as producing cost efficiencies and increased 
patient convenience.

    Question 53. Post Traumatic Stress Disorder and other mental health 
conditions are a major concern for the Committee, both in terms of 
compensation and health care.

    a. As a combat veteran, do you personally know any fellow combat 
veterans who continue to suffer from PTSD or other mental health 
conditions related to their service or combat veterans who were 
diagnosed with these conditions but who are now no longer suffering 
from them?
    Response. Yes. I know those who have suffered and still suffer from 
PTSD and related conditions. We did not always have a name for it as we 
do today, but all of us went through our own processes for dealing with 
combat stress, Post-Traumatic Stress, and Traumatic Brain Injury.

    b. Do you believe that it is possible for a non-combat veteran to 
suffer from these conditions?
    Response. Certainly. There are many types of trauma that could play 
a role in development or worsening of a mental health condition, and it 
is my understanding that PTSD is not exclusively a combat-related 
disorder. For example, I understand that the victims of sexual assault, 
firefighters, law enforcement officers, EMTs and others who deal with, 
witness, or are the subjects of trauma may suffer from PTSD.

    c. VA has significantly decreased its inpatient programs for 
veterans with PTSD. What do you view as the role of inpatient treatment 
for PTSD, in particular for veterans with co-morbid substance use 
disorders?
    Response. I applaud the Committee's recognition of the special 
concerns surrounding co-occurrence of PTSD and substance use and of the 
importance of expanding research in this area, as required by Pub. L. 
110-387. It is my understanding that while the VA may have decreased 
the inpatient component of its mental health services, they have 
significantly increased the overall program, particularly outpatient 
services. As I understand it, this strategy is in keeping with the best 
thinking in medical treatment patterns, which reserve inpatient care 
for the most severely ill or those who present a danger to themselves 
or others. I support this position; however, I will make certain we 
continue the development of best practices for care through research, 
and adjust accordingly.

    d. Please describe the priority that you believe VA should place on 
providing care to veterans with PTSD and mental health disorders, or on 
suicide prevention, and how would you ensure that priority is 
manifested in budget requests and programmatic planning?
    Response. Mental health conditions are widely prevalent among 
Veterans, and are very disabling. Yet mental health conditions can be 
treated effectively. Many Veterans are also service-connected for PTSD 
and other mental health conditions, underscoring the special 
responsibility VA has in connection with these very serious health 
problems. Mental health is integral to overall health and mental health 
conditions often co-occur with other chronic health conditions. Mental 
health must be a very high priority for the Veterans' Health 
Administration, and the VA has made significant strides in hiring more 
mental health professionals during the past year with more increases 
planned in 2009 to 2011.

    e. What are your views on the need for more research into the best 
treatments for these conditions?
    Response. The VA has a unique role as a national leader in clinical 
care, medical education, and research on PTSD--these efforts deserve 
strong consideration for additional resources in the future. The VA has 
a special obligation to wounded warriors which underscores the 
importance of its working to advance knowledge on best treatments, as 
well as the best modes of care delivery.

    Question 54. Diagnoses for substance use disorders (SUD) in 
veterans from the current war continue to increase. In your view, does 
combat play a role in increasing the likelihood for developing an SUD?
    Response. I don't know; however, I suspect there may be a 
connection. I will have to seek expert opinions on questions like this 
one.

    Question 55. Public Law 110-387 makes findings about SUDs and 
mandates improved services for those suffering from SUDs. Specifically, 
it contains provisions for the expansion of SUD treatment services, 
treatment of co-morbid SUD and other mental health conditions, and the 
two pilot programs. What is your view on how VA should approach 
treating SUDs?
    Response. I am not a mental health expert, and I will defer to such 
experts and request their advice and recommendations about how to 
comply with Pub. L. 110-387. I am particularly concerned that substance 
abuse treatments have as their goal the full reintegration of the 
patient into society.

    Question 56. What is your view of the correlation between combat 
service and homelessness? Do you believe that VA has a particular 
obligation to aggressively address homelessness among veterans?
    Response. I don't know if there is a correlation between combat and 
homelessness. But, I do believe homelessness among Veterans is a 
national tragedy, and yes, VA has a special obligation to address this 
problem. Combating homelessness among veterans was one of President-
elect Obama's priorities when he was a Member of this Committee, and it 
is one for me.

    Question 57. What do you see as VA's role in working with other 
departments and agencies, especially HUD, through the Interagency 
Council on Homeless or otherwise, to address the needs of homeless 
veterans and their families?
    Response. The VA has a critical role in cooperation and 
coordination with HUD and other Federal programs to address the needs 
of homeless Veterans and to share expertise that is applicable to other 
homeless issues. I want to learn more about my responsibilities and 
resources to deal with this important problem and, if confirmed, look 
forward to meeting with my counterpart at HUD to discuss our shared 
resources and responsibilities, as well as with other leaders of 
departments who work with issues of homelessness.

    Question 58. VA research not only makes a major contribution to 
VA's, and the Nation's, efforts to combat disease, but it also serves 
to maintain a high quality of care for veterans through its impact on 
physician recruitment and retention. VA research has recently been 
troubled by lack of oversight and by human subjects protections 
violations. How do you intend to preserve this valuable VA function 
while ensuring the highest standards of ethics and care?
    Response. I understand that VA research does make a major 
contribution to VA's and the Nation's efforts to combat disease, and is 
a major factor in helping physician recruitment and retention. I am 
aware of a recent disturbing situation at one medical center regarding 
human subjects' protections violations. That incident does require 
there be continuing emphasis and training to prevent such situations 
from happening again. At the same time, I've been informed that this 
incident is not indicative of an overall superb VA research program. I 
will expect any allegations of violations of human subject protection 
policies to be reported immediately to may office.

    Question 59. Women constitute an ever-growing segment of the Armed 
Forces and consequently, the overall veteran population. What do you 
see as the primary challenges to appropriately treating and serving 
women veterans in VA facilities? Are there aspects of your experience 
working with women in the military that can translate into innovative 
solutions for improving care for women veterans?
    Response. I'm advised that the proportion of women serving in the 
Armed Forces is growing and may exceed 15% of the total population of 
VA health services users by 2020. The VA will need to continue to 
respect the different requirements for health care and privacy for 
women, and take steps necessary to ensure those requirements are met. I 
understand that the VA has recently required that the position of Women 
Veterans' Program Manager be full-time at every VA Medical Center and 
that there are efforts underway to implement appropriate clinic and 
service enhancements. I will look to the Advisory Committee on Women 
Veterans to continue to assist VA in appropriately responding to the 
needs of these Veterans.

    Question 60. Restructuring and downsizing in several VA health care 
facilities have led to increased contracting with community providers 
for care. Also, a large number of existing VA community based 
outpatient clinics are run by non-VA providers. What do you believe is 
VA's responsibility for monitoring care furnished by contract providers 
and how should that monitoring be carried out?
    Response. Veterans care provided through the VA should meet the 
highest standards. I am not yet aware of all the details relative to 
VA's health care facilities changes or capital plans. I do know there 
has been increased contracting of care where demand outstripped VA 
capacity. I am also aware of the current consideration of Health Care 
Community Facilities (HCCF) and will be interested in learning more 
about how their implementation would relate to increased contract care 
and how VA will ensure that its performance standards are met. I 
understand that with respect to current contract CBOCs, contractors are 
generally required to meet all VA performance requirements.

    Question 61. Recently, VA has developed a strategy for using a 
combination of long-term facility leases and contract care to provide 
health care to veterans, in place of constructing new facilities or 
performing significant maintenance and upgrades on existing facilities. 
What is your position on this approach, and in general on the role of 
leases and contract care versus VA-owned facilities and VA-provided 
treatment?
    Response. I have not had an opportunity to review VA's capital plan 
strategy. I would be pleased to share my views on the appropriate mix 
of construction and leasing once I've had the opportunity to be briefed 
thoroughly and better understand how all options and opportunities can 
contribute to the best possible care for Veterans.

    Question 62. What, in your view, is the appropriate role for 
Federal funding in the construction of medical facilities for VA on 
land that is leased by the Department? Should VA perform the 
construction, contribute funds to construction done by private 
organizations on VA's behalf, or not be involved in this type of 
situation?
    Response. I look forward to being briefed by VA professionals about 
the pros and cons of various alternatives for developing facilities, 
and the extent of our legal authorities to pursue them. In general, I 
believe VA should employ whichever strategy would result in the most 
fiscally sound delivery of a state-of-the-art facility in a given 
locality. Ideally, VA would have the discretion to elect any of the 
strategies your question poses. The strategy we ultimately pursue 
should be the result of sound business analysis, taking into account 
the timeline for delivery of care, cost, and Veterans' ability to 
access the best possible care.

    Question 63. What is your view of the VA's CARES process and VA's 
overall Capital Plan? How will you involve senior Veterans Health 
Administration leadership, Congress, veterans' service organizations, 
affiliates, and other stakeholders in the remaining decisions related 
to the implementation of the Capital Plan as well as on planning for 
capital facilities generally?
    Response. Again, I will need to learn more about the CARES process 
and the overall Capital Plan before coming to a judgment. I will work 
closely with Senior VA leadership, Congress, Veterans' Service 
Organizations, and other stake holders, including Veterans, to make 
informed decisions about our capital assets.

    Question 64. What is your view of the value of non-institutional 
long-term care? Do you have any personal or professional experience in 
this area? If confirmed, what steps will you take to promote VA's 
development of non-institutional extended care?
    Response. Most Veterans, like most Americans, prefer non-
institutional long-term care, where appropriate to their situation. 
That was my experience with my parents; my father received long-term 
care for more than two years, but my mother was able to live 
independently in her home until her last day. I am aware that VA has 
been making significant efforts to make such home and non-institutional 
care more available and, if confirmed, I will endeavor to expand those 
efforts.
                                 ______
                                 
  Response to Pre-Hearing Questions Submitted by Hon. Richard Burr to 
General Eric Shinseki, Nominee to be Secretary, Department of Veterans 
                                Affairs
    Question 1. With the exception of this past year, Congress has a 
decade-long record of failing to enact an appropriations bill for the 
Department of Veterans Affairs (VA) in a timely manner. In the absence 
of a funding bill VA must operate under a continuing resolution which 
often results in VA managers delaying hiring, maintenance, and other 
operational decisions. One option being considered is to fund VA a full 
year in advance.

    a. What are your thoughts about providing an ``advanced 
appropriation'' for VA medical care?
    b. What do you think of an alternative plan to simply begin passing 
appropriations bills for VA on time, or, if that does not happen before 
the fiscal year begins, putting in place a triggering mechanism that 
would fund VA health care at the level requested by the President?
    Response. I am familiar with the mechanism of advance 
appropriations. It is my understanding this is now widely supported by 
VSOs. Consideration of these mechanisms evolved because of the 
significant management difficulties that result from continuing 
resolutions. Among the difficulties VA experienced were increased 
patient waiting times and treatment delays. For these reasons, the 
President-elect and I support the proposal for advance appropriations. 
With respect to the timely passage of appropriations bills or 
triggering mechanisms, I believe that is a matter for consideration by 
the Congress.

    Question 2. VA has recently been exploring an initiative to use 
construction dollars to deliver more health care closer to where 
veterans live, e.g., the construction of health care center facilities 
(HCCF) with the capability of handling 90 to 95 percent of veterans' 
health care needs in an outpatient setting, such as primary care, 
specialty care, and ambulatory surgery.

    a. What are your thoughts on this initiative?
    b. What do you see as its advantages and disadvantages?
    Response. I will need additional time to fully consider the 
proposals for the HCCF approach to construction. The concept includes 
the idea that inpatient care will be contracted. That approach needs 
careful evaluation and stakeholder input, to include quality 
considerations, evaluation of how out year contracts can be managed to 
assure reasonable costs, and other alternatives. The concept should 
also be evaluated to determine if the current proposals are a ``one 
size fits all'' approach and if such an approach is both practical and 
feasible.

    Question 3. Evidence indicates that disability ratings for those 
with PTSD get progressively worse over time. The Veterans' Disability 
Benefits Commission recommended that Congress create a ``new, holistic 
approach to PTSD . . . coupl[ing] PTSD treatment, compensation, and 
vocational assessment.'' The Disability Commission recommended that 
``treatment should be required and its effectiveness assessed to 
promote wellness of the veteran.''

    a. Since 2000, there has been a 150% increase in the number of 
veterans who are in receipt of disability compensation for Post 
Traumatic Stress Disorder (PTSD). Do you agree with the Disability 
Commission's conclusions and recommendations with regard to PTSD?
    b. Do you believe that PTSD is treatable, and do you believe that 
VA has the effective treatment programs in place to improve a veteran's 
mental illness or, at the very least, stop it from getting worse?
    Response. I have not had an opportunity to have an in-depth 
briefing on the recommendations of the Disability Commission chaired by 
General Scott. The extensive work that went into this study deserves 
careful consideration by the Department and me.
    PTSD can be a profoundly disabling condition. But it can be treated 
effectively. VA has a special responsibility to help properly diagnose 
Veterans suffering from PTSD and to treat them. I am aware that if PTSD 
goes undiagnosed or untreated, there are likely to be significant 
consequences. In this regard, I believe that Mental Health must be a 
very high priority for the Veterans' Health Administration.

    Question 4. VA currently sends to the National Instant Criminal 
Background Check System (NICS) the names of beneficiaries (veterans, 
surviving spouses, children, and parents of veterans) for whom VA has 
appointed a fiduciary. Once on the NICS, beneficiaries are prohibited 
from exercising their Second Amendment right to purchase a firearm. 
There are a number of concerns that have been raised about this 
process: (a) VA decisions about whether to appoint a fiduciary are 
governed solely by whether beneficiaries are able to manage financial 
affairs; (b) at no point in the process is an inquiry made about 
whether the beneficiaries are a danger to themselves or others or 
whether they should be prohibited from purchasing a firearm; (c) 
government employees at VA (and not courts of law) have the power to, 
in effect, take away someone's Constitutional rights; and (d) Social 
Security does not send the names of its beneficiaries with fiduciaries 
to the NICS, and States share names with the NICS but typically only 
after a court of law hears the case.

    a. Do you believe that, before VA beneficiaries' Constitutional 
rights are taken away, they deserve the benefit of an appropriate 
judicial authority to hear their cases?
    b. Do you believe that a veteran who seeks help at VA should be at 
risk of losing his/her right to bear arms solely because of a fiduciary 
appointment, when that same veteran would not be at risk if he/she 
sought help at the Social Security Administration?
    c. Will you pledge to work with the Federal Bureau of Investigation 
and the Bureau of Alcohol Tobacco and Firearms (whose requests for 
information VA is complying with) to review what I believe is an 
arbitrary and unfair process?
    Response. I support equal treatment for Veterans under the Second 
Amendment, but I understand that the Brady Act and regulations issued 
under it by the Department of Justice require VA to send the names it 
does for inclusion on the NICS list. As your question acknowledges, 
having determined that a veteran is unable to manage his/her affairs, 
VA is required to comply with this law and regulations.
    I understand individuals found by VA to be incompetent to contract 
or manage their own affairs can appeal those determinations to the 
Court of Appeals for Veterans' Claims. I am, however, troubled by the 
suggestion that Social Security recipients are treated differently than 
Veterans in this regard. If confirmed I will work with DOJ officials to 
rectify any inequities pertaining to Veterans.

    Question 5. If confirmed, you will have the duty to make enrollment 
decisions affecting veterans' eligibility for health care. President-
elect Obama stated during his campaign that his goal was to reopen the 
VA health care system to priority 8 veterans. It has been suggested 
that reopening the system to priority 8 veterans in the face of a 
health care professional shortage and VA's aging capital infrastructure 
could cause health care for veterans already in the system to suffer, 
especially in states where the veteran's population is growing.

    a. How will you ensure that care for higher priority veterans, such 
as the service-disabled and the poor, does not deteriorate as new 
priority 8 veterans are allowed into the system?

    b. What will govern your decision to allow some, none, or all 
priority 8 veterans to enroll?

    c. What performance indicators will you look at to make sure that 
quality care is still being delivered in a timely way?

    d. If waiting times or quality indicators begin to deteriorate, 
what will be your course of action?
    Response. If confirmed, an immediate assignment will be to develop 
the plan to meet the expectations of the President-elect's goals as 
they pertain to Priority Group 8 Veterans. I believe the prudent 
approach will be to validate the estimated number of these veterans, 
giving appropriate consideration to the potential impact of current 
economic factors, and then assess the capacity of facilities and 
staffing and then quickly create a plan to phase these Veterans into VA 
for care. Overriding considerations must be VHA's ability to ensure a 
transition where demand can be appropriately met without deterioration 
in quality of care.

    Question 6. What will guide your decisionmaking process when 
determining whether new VA ``Centers of Excellence'' should be 
established? Do you have any thoughts about the process now used to 
establish new Centers?
    Response. I am aware of great success with these Centers of 
Excellence, but I have not yet been briefed on the process for 
establishing them. I do believe VA has a duty to be at the forefront in 
treatment and research in programs particularly important to veteran 
care.

    Question 7. After news reports detailed how some seriously injured 
servicemembers at Walter Reed endured a lengthy, hard-to-understand, 
bureaucratic process to try to get their disability benefits, the 
President's Commission on Care For America's Returning Wounded Warriors 
was created to examine these and other problems experienced by 
transitioning servicemembers. In 2007, that Commission, chaired by 
former Senator Bob Dole and former Secretary Donna Shalala, released a 
report in which they recommended completely updating and restructuring 
the VA and Department of Defense (DOD) disability evaluation system to 
better meet the needs of our Nation's wounded warriors.

    a. Do you agree with the Dole-Shalala Commission's findings?
    b. Do you support the Dole-Shalala Commission's recommendations?
    Response. I am aware of the work of the Dole-Shalala Commission, as 
well as the Veterans' Disability Commission and a number of other 
predecessor commissions. I am not yet familiar with all of the findings 
and recommendations. I would note that any fundamental changes in the 
disability system would require the involvement and approval of 
Congress. I look forward to working with the Committee in our efforts 
to harmonize the recommendations of these several studies and improve 
the overall system for serving the needs of the Wounded Warriors.

    Question 8. Last summer, Congress approved the Post-9/11 Veterans 
Educational Assistance program. Recently, concerns have been raised 
about whether VA will be prepared to begin paying benefits when the new 
program becomes effective in August 2009.

    a. If you are confirmed, would you immediately advise Congress if 
it becomes evident that the new education program will not be up-and 
running by that deadline?
    b. Would you advise Congress if any modifications are necessary to 
ensure that veterans receive timely, fair benefits under this new 
program?
    Response. It is absolutely critical that the VA be able to deliver 
the Post-9/11 Veterans' Education Assistance benefits efficiently and 
effectively on August 1, 2009. I will make it one of my very first 
actions, if confirmed, to initiate an independent, thorough, but 
expeditious review of the so called short-term solution to assure 
myself that this program is realistic, sufficient, and on time. 
Further, I will also take whatever remedial actions may be necessary to 
insure that these benefits are delivered, as promised, to our eligible 
Veterans and sustained over time. I will identify and appoint a senior 
executive to monitor this program full time and report to me regularly 
until I am assured that this benefit will be delivered efficiently, 
effectively, and on time. I will advise Congress promptly, if 
modifications are necessary.

    Question 9. For many years, there have been serious concerns about 
the backlog of claims at VA, the length of time it takes to process 
claims, and the accuracy of VA's decisions. In recent years, Congress 
has responded to this problem by providing more money so that VA can 
hire more employees. Since 1997, this funding increase has allowed VA 
to more than double its claims-processing staff. Unfortunately, it is 
still taking on average about 6 months to get decisions to veterans, 
which is among the longest processing times since 1997, and the number 
of pending claims is around 390,000, which is among the highest levels 
in the past 10 years.

    a. If confirmed, will you support and encourage efforts to find 
better answers and new ideas to solve the backlog problem?

    b. If confirmed, will you provide Congress with a candid assessment 
of the level of productivity that should be expected of the claims 
processing staff?
    Response. VBA must move to an integrated, all electronic claims 
processing system. While I appreciate that this will not be easy, I 
also understand that it is essential if we are to modernize and 
streamline the benefit application, eligibility determination, and 
benefit administration processes; reduce wait times and backlogs; and 
deliver the benefits that our Veterans have earned. I will insist that 
a plan be developed with reasonably aggressive timelines to validate 
the current benefits administration business processes with an eye to 
the role of rules engines. Once the plan is adopted, I intend to move 
expeditiously to acquire the technology and systems to support the 
delivery of benefits to 21st Century Veterans. Additionally, as the 
system changes, it will be necessary to reassess current productivity 
and quality standards, and I will ensure that the Congress is 
appropriately apprised of those efforts.

    Question 10. For many years, veterans' service organizations have 
expressed concerns that a lack of accountability among VA employees 
contributes to large backlogs of claims and deficiencies in the quality 
of decisions that are rendered.

    a. Do you believe more steps need to be taken to ensure that 
employees at all levels are held accountable if quality and timeliness 
standards are not being met?
    b. If so, what changes would you recommend to ensure true 
accountability?
    Response. Accountability is critical, and I believe that the 
solution rests with better review and oversight by managers of 
decisions prior to issuance, together with increased training to avoid 
future errors. It would be my expectation that all managers and 
employees will be held accountable for adherence to statutory and 
regulatory provisions. Further, as we have seen used effectively in 
health care delivery, electronic systems will generally be designed to 
raise flags for adjudicators and ``guide'' their actions so as to 
assist in ensuring compliance.

    Question 11. Since the end of the Gulf War in 1991, the Federal 
Government has spent over $340 million studying Gulf War illnesses, yet 
no effective treatments have been identified for the symptoms 
experienced by many Gulf War veterans. Rather, many of the studies 
conducted over the years have focused on attempting to identify the 
causes of those symptoms. But whatever the cause of the health problems 
experienced by Gulf War veterans, we know they are real.

    a. Do you believe that improving the health of these Gulf War 
veterans should be a priority?
    b. Would you support heavily focusing further research on the 
treatment of Gulf War veterans?
    Response. I believe that more research into the Gulf War Illness, 
particularly treatment, is called for and understand that VA has 
referred the Research Advisory Committee on Gulf War Illnesses' report 
to the Institute of Medicine for review and comment. I will be 
interested in the IOM response. Generally, I would like to see more 
resources devoted to treatments of Gulf War related illnesses.

    Question 12. North Carolina has a number of VA medical centers and 
outpatient clinics throughout the state, yet it is my understanding 
that VA-provided medical examinations for purposes of disability 
compensation are generally provided only at the Winston-Salem VA 
outpatient clinic. It is my understanding that this may require 
veterans to drive as many as 4 hours to obtain an examination.

    a. If confirmed, will you explore ways that North Carolinian 
veterans can obtain quality disability examinations closer to their 
homes?
    b. Will you conduct a similar examination on a national level, if 
confirmed?
    Response. If confirmed, I will explore how to ensure that 
disability exams are reasonably accessible. The VA has been utilizing 
both VA and contract exams for some time. The important issue in my 
mind is whether the exams are performed in a prompt, thorough, accurate 
manner that provides all the relevant information needed by VBA in 
order to rate the claim.

    Question 13. The effective use of information technology will help 
VA continue to deliver high quality medical care to veterans and can 
help in the administration of benefits programs for veterans. The 
challenges VA faces in this area are enormous, both in its 
intergovernmental operations, such as the development of an 
interoperable patient record between VA and DOD, and in its internal 
operations.

    a. What is your assessment of the progress VA is making toward an 
interoperable patient record with the Department of Defense? If 
confirmed, what will you do to ensure that progress continues to be 
made in this critical area?
    b. What is your assessment of the other key information technology 
issues confronting VA, e.g., VETSNET; VA's paperless claims initiative; 
HealtheVet; and the department's efforts to use information technology 
to administer the new Post-9/11 Veterans Educational Assistance 
program? What, if anything, would you do differently, based on the 
plans for these initiatives that you have viewed?
    Response. It is my understanding that VA doctors, nurses and other 
health care professionals currently have access to much of the 
available, relevant DOD electronic health care record for active duty 
soldiers. Work continues between the two organizations to identify 
additional data that can be shared. If confirmed, I intend to take an 
active interest in the progress of these efforts and to insist that 
data sharing and a seamless experience for the Veteran be top 
priorities of the Office of Information and Technology.
    I will certainly be reviewing the Department's information 
technology planned initiatives both in health and benefits, but it is 
premature to provide an assessment at this time.
                                 ______
                                 
  Response to Pre-Hearing Questions Submitted by Hon. Patty Murray to 
General Eric Shinseki, Nominee to be Secretary, Department of Veterans 
                                Affairs
    Question 1. What do you see as the biggest challenges facing the VA 
and how do you plan to tackle them?
    Response. The overarching challenge that the VA faces is its 
transformation into a 21st Century organization as called for by the 
President-elect. I am acutely aware that transformation is a 
challenging task particularly in a complex organization, steeped in 
tradition; we faced similar challenges in the transformation of the 
United States Army.
    I believe that the biggest challenges the VA faces are:

    1. Successfully implementing the New GI Bill (Post-9/11 Veterans' 
Educational Assistance Act).
    2. Streamlining the disability claims system, increasing quality, 
timeliness and consistency of claims processing and updating the 
Disability Rating Schedule while maintaining veterans' rights.
    3. Ensuring adequate resources and access points to meet the health 
care needs of all enrolled Veterans as well as those OEF/OIF Veterans 
and Priority Group 8 Veterans, who will be joining the system.
    4. Utilizing cost effective Information Technology to improve and 
modernize the delivery of benefits and services.

    If confirmed, I would focus on these issues and the development of 
a credible and adequate 2010 budget request during my first 90 days in 
office. However, the overriding challenge which I will start addressing 
the first day in office is to make the Department a VA for the 21st 
Century, a VA in which Veterans truly are the centerpiece of the 
organization

    Question 2. What are your personal criteria for assembling your VA 
management team?
    Response. If the transformation of the VA is to be successful it 
must be accomplished through the efforts of the entire leadership team. 
I expect my leadership team at VA to be comprised of highly qualified 
and dedicated leaders who fully understand and will promote the 
President-elect's and my transformational vision for the VA. They will 
be competent and disciplined individuals who wholeheartedly believe in 
the mission of the VA. These will be individuals who have an unmatched 
work ethic, who have a strong sense of values, who treat others with 
dignity and respect, who are accustomed to hard work, who are 
courageous, who thrive on responsibility, who know how to build and 
motivate teams, and who are positive role models for all around them. 
These will be individuals who believe as I do that ``If you don't like 
change, you will like irrelevance even less.'' The VA mission is too 
important to ever be seen as irrelevant.

    Question 3. To what extent will you be looking to former military 
officers as candidates for key VA positions?
    Response. If confirmed, I'll look for the best qualified people who 
understand Veterans' and Veterans families' needs and are willing to 
work hard to support them; if they happen to be former military 
officers that would not disqualify them.

    Question 4. During the lead up to the Iraq War, you famously said 
that our military would need something on the order several hundred 
thousand soldiers to stabilize post-invasion Iraq, and you were 
tragically proven right. With the expected withdrawal of US troops from 
Iraq in the next three years, we need to ensure that the VA is prepared 
to care for all of the returning veterans who need access to the 
healthcare and benefits they have earned.

    a. If confirmed, what will you do will you do to prepare the VA 
system to care for the many returning Iraq veterans?
    Response. I will promptly validate the VA's information needs to 
develop a budget that will ensure that the 2010 budget proposal 
realistically identifies the VA's needs to provide these Veterans the 
health care they deserve. Further, we will work with the Department of 
Defense to assess the opportunities to simplify and smooth the 
transition from active duty to Veteran status of OIF/OEF 
servicemembers.

    b. Have you had the opportunity to sit down with Iraq and 
Afghanistan veterans to hear about their problems accessing healthcare 
and getting their benefits?
    Response. Anecdotally, yes--not formally. I have had the 
opportunity to meet with men and women who have served in Iraq and 
Afghanistan. I have heard from OIF & OEF Veterans and am well aware of 
their concerns and issues with respect to their health care needs and 
their issues with the VA.

    Question 5. Secretary Peake has spent a great deal of time working 
to make the transition to the VA truly seamless for servicemembers 
leaving the military. One of the most critical ways this has been 
achieved is through the Senior Oversight Committee--the organization 
that brings the Deputy Secretaries of the DOD and the VA together to 
tackle transition challenges.

    a. If confirmed, will you keep in place the Senior Oversight 
Committee?
    Response. It is my understanding that the 2009 Defense 
Authorization Act contains a provision directing the Departments to 
maintain the SOC into the incoming Administration. Together with the 
Deputy Secretary, I will assess the status of activities which the SOC 
is overseeing and determine whether SOC efforts should be re-
prioritized. Clearly, the SOC is performing a critical function and I 
am advised that it has been successful in advancing VA/DOD joint 
efforts. This is in the interest of providing the best service to our 
wounded warriors. I am also aware that the Joint Executive Council, 
established by law, helps to identify opportunities to enhance mutually 
beneficial services and resources and oversees the Health and Benefits 
Executive Councils.

    b. Do you have any ideas on how to improve the transition from the 
military to the VA?
    Response. My ideas, at this point, are formative. It is clear to me 
that Secretary Gates and I will need to provide significant leadership 
to the issue of VA & DOD information sharing and technology 
integration. I intend to speak with Secretary Gates about this. 
Further, I understand that there is a need to identify appropriate 
times for effectively conveying benefits information to demobilizing 
National Guardsmen/women and Reservists. I believe that we will be 
successful in determining a resolution to this. In addition to the 
transition issues I would discuss with Secretary Gates, I would also 
engage other secretaries and departments regarding employment, housing, 
education, PTSD, and a range of issues that bear on our Veterans.

    c. What are your views on Post Traumatic Stress Disorder?
    Response. PTSD can be a profoundly disabling condition. But it can 
be treated effectively. VA has a special responsibility to help 
properly diagnose Veterans suffering from PTSD and to treat them. I am 
aware that if PTSD goes undiagnosed or untreated, there are likely to 
be significant consequences. In this regard, I believe that Mental 
Health must be a very high priority for the Veterans Health 
Administration.

    d. Do you see PTSD as a particularly troubling problem of veterans 
coming back from Iraq and Afghanistan?
    Response. I am aware of the RAND Corporation study that has been 
widely reported that indicated that nearly as many as 20 percent of the 
returning OIF/OEF servicemembers report symptoms of PTSD. That is a 
significant finding. I am also aware that VA has reported that it has 
diagnosed about 120,000 Veterans of OIF/OEF as having mental health 
problems and about 60,000 of them are receiving PTSD treatment. I 
recognize that much must be done to eliminate the stigma that many 
servicemembers believe is associated with this disorder and I am 
advised that the leadership of the armed services is taking steps to 
encourage servicemembers to seek help.

    e. What are your views on Gulf War-related Illnesses?
    Response. Generally, I would like to see more resources devoted to 
treatments of Gulf War related illnesses than in continued explorations 
of causes. I am aware that a Congressionally-mandated Research Advisory 
Committee on Gulf War Veterans' Illnesses reported to the VA in 
October. The report includes findings that nearly a quarter of the 
700,000 servicemembers who served in the 1990-1992 Gulf War have 
experienced a complex of difficult and persistent health problems since 
their return home. The Research Advisory Committee further reported 
that ``scientific evidence leaves no question that Gulf War Illness is 
a real condition with real causes and serious consequences for affected 
Veterans.'' I understand that the VA has sent the report to the 
Institute of Medicine for its review and recommendations. If confirmed, 
I will be most interested in IOM's recommendations and determining 
appropriate actions.

    f. Are you aware of the most recent IOM report that links exposures 
in the Gulf War to later onset of Gulf War illnesses?
    Response. I am not currently aware of this IOM report but will look 
into the matter.

    g. What are your views on the needs of family-member caregivers 
(including spouses and parents) of severely injured veterans from Iraq 
and Afghanistan (those with poly-trauma, serious brain injuries, 
multiple amputations, etc.)?
    Response. This is an issue I am very concerned with; if confirmed, 
I'll take a hard look at whether additional legislative authorities are 
needed to support family involvement in treating, rehabilitating, and 
reintegrating wounded Veterans. The consequences of these serious 
catastrophic disabilities require VA and the Nation to support the 
families of these heroes in every possible way to give severely wounded 
Veterans the services they deserve. We also need to explore the need to 
provide training and assistance to those family members who provide 
long-term care to these Veterans and address the mental health issues 
that those care givers deal with.

    h. Do they need services and support from VA they aren't getting 
now, and what would you propose to do about it?
    Response. I understand that VA often provides various counseling 
services to family members and VA also has caregiver support groups for 
spouses of Veterans with disabilities and chronic illnesses. Those 
services are in support of the treatment of the veteran. I am also 
aware of VA's operation of Fisher Houses at a number of VA facilities. 
As I understand it, VA initiated eight caregiver assistance pilots 
across the country last year. If confirmed, I look forward to learning 
about these pilot programs and the extent to which these services and 
others meet the needs of the Veterans' family members and what can be 
done to expand these services.

    Question 6. A former VA Secretary centralized all information 
technology to one Chief Information Officer. While well intentioned, 
this has created difficulties for the VA health care system--one that 
internally developed and managed a remarkable health IT system and 
network over the past 30+ years. Health IT is one of the key reasons VA 
health care is so high quality and safe for veterans. Over 6,000 VHA IT 
personnel were swept up in the centralization, along with IT budget, 
governance, development and planning. What are your views on 
centralization, and will you commit to examining the impact of IT 
centralization on VA health care?
    Response. The ability to communicate and exchange information 
effectively in the 21st Century is critical to any organization's 
success. It is my understanding that the issue in VA's reorganization 
of its IT functions is how best to optimize the very significant 
resources that are devoted to meeting the information technology needs 
of the entire Department. In order for the Department to meet the needs 
of the 21st Century Veteran it must effectively and efficiently manage 
the IT resources we have. I will always be open to adjustments and 
reasonable compromises to ease the transition of the new IT 
organization or address safety or quality of care issues. Further, I 
will want to ensure that the governance structure and practices adopted 
by the IT organization is consistent with the service role that IT must 
practice.

    Question 7. In 2003, the VA blocked enrollment of new Priority 8 
veterans in the VA Healthcare system. Legislation has been introduced 
in Congress to overturn that decision and Congress recently provided 
the VA with money to bring more Priority 8 veterans into the VA health 
care system. During the campaign, President-elect Obama pledged to 
overturn the Bush Administration's executive order banning enrollment 
of new Priority 8 veterans.

    a. Have you explored this issue and if so, can you share your 
thoughts on this issue?
    b. Will you follow through on Obama's campaign pledge to overturn 
the ban on new Priority 8 veterans from enrolling, or will you have to 
study the issue before taking action?
    Response. If confirmed, an immediate assignment will be to develop 
the plan to meet the expectations of the President-elect's goals as 
they pertain to Priority Group 8 Veterans. I believe the prudent 
approach will be to validate the estimated number of these veterans, 
giving appropriate consideration to the potential impact of current 
economic factors, and then assess the capacity of facilities and 
staffing and then quickly create a plan to phase these Veterans into VA 
for care. Overriding considerations must be VHA's ability to ensure a 
transition where demand can be appropriately met without deterioration 
in quality of care.

    Question 8. Like the military, the VA is facing a shortage of 
mental health providers across the country. What do you think can be 
done to effectively recruit more personnel into the system?
    Response. I have been advised that VA has added over 4,000 mental 
health professional FTE in the last two years. Such successful 
recruitment efforts suggest on the surface that VA has been effective, 
to date, in recruiting mental health staff. But as VA seeks to add even 
more mental health professionals I will closely monitor the recruitment 
efforts and keep you apprised of any problems encountered.

    Question 9. Over the past few years, senior VA leadership has been 
unwilling to stand up to OMB when the Administration has tried to low-
ball the cost of care for our veterans. I am really looking for an 
independent advocate to take the helms of the VA and be honest with 
Congress about what the agency needs to fully meet the mission of the 
VA. Can you give me a sense of how you will react if the OMB tries to 
make you request less funds than you think the VA needs to provide an 
adequate level of care for our veterans?
    Response. If confirmed, I will be an aggressive advocate for the 
fiscal needs of the Department and will not hesitate to inform the 
President of any serious concerns that I have. I anticipate that the 
new OMB Director will be offering advice and assistance in the 
fulfilling the President-elect's vision and direction with respect to 
caring for our Nation's veterans. It is my expectation that OMB will be 
prepared to assist me in presenting to the President a proposed budget 
in any given year that is consistent with those needs and promises.

    Question 10. During the campaign, President-elect Obama advocated 
changing the way Veterans'' healthcare is funded by supporting a 
legislative mechanism known as ``advance appropriations,'' which 
provides funding a year in advance. Are you familiar with this concept 
and will you push for the change if confirmed?
    Response. I am familiar with the mechanism of advance 
appropriations. It is my understanding this is now widely supported by 
VSOs. Consideration of these mechanisms evolved because of the 
significant management difficulties that result from continuing 
resolutions. Among the difficulties the VA experienced were increased 
patient waiting times and treatment delays. For these reasons, the 
President-elect and I support the proposal for advance appropriations. 
With respect to the timely passage of appropriations bills or 
triggering mechanisms, I believe that is a matter for consideration by 
the Congress.

    Question 11. What are your plans to reduce the backlog of claims 
and fix the adjudication problems?
    Response. It is critical that we reduce the claims backlog as 
quickly as possible. We must simultaneously ensure that efforts to make 
the adjudication process paperless are successful and timely. VBA must 
move to an integrated, all electronic claims processing system. While I 
appreciate that this will not be easy I also understand that it is 
essential if we are to modernize and streamline the benefit 
application, eligibility determination and benefit administration 
processes, reduce wait times and backlogs and deliver the benefits that 
our Veterans have earned. I will insist that a plan be developed with 
reasonably aggressive timelines to validate the current benefits 
administration business processes with an eye to the role of rules 
engines. Once the plan is adopted I intend to move expeditiously to 
acquire the technology and systems to support the delivery of benefits 
to 21st Century Veterans.

    Question 12. As you may know, legislation has been introduced to 
improve the VA's capacity to care for the increasing number of female 
veterans who are entering the VA healthcare system. Will you work with 
the Committee to help make the VA a welcoming place for female 
veterans; a place that is prepared to meet their unique needs?
    Response. I look forward to working with the Committee on this 
important service component of a transformed veteran-centric VA. I know 
that the proportion of women serving in the Armed Forces is growing. 
The active duty OIF/OEF military force is 14% women. I am advised that 
the proportion of women Veterans using VA services is also growing and 
is projected to possibly exceed 15% of the total population of VA 
health services users by 2020. VA will need to continue to respect the 
different requirements for healthcare and privacy for women, and take 
steps necessary to ensure those requirements are met. I understand that 
VA has recently required that the position of Women Veterans Program 
Manager be full-time at every VA Medical Center and that there are 
efforts underway to implement appropriate clinic and service 
enhancements. I will look to the Advisory Committee on Women Veterans 
to continue to assist VA in appropriately responding to the needs of 
these veterans.
                                 ______
                                 
Response to Pre-Hearing Questions Submitted by Hon. Bernard Sanders to 
General Eric Shinseki, Nominee to be Secretary, Department of Veterans 
                                Affairs
    Question 1. Can you tell me your view on providing advanced year 
appropriations for the VA so that it has sufficient, timely, and 
predictable funding to hire the staff and provide the services our 
veterans need?
    Response. I am familiar with the mechanism of advance 
appropriations. It is my understanding this is now widely supported by 
VSOs. Consideration of these mechanisms evolved because of the 
significant management difficulties that result from continuing 
resolutions. Among the difficulties the VA experienced were increased 
patient waiting times and treatment delays. For these reasons, the 
President-elect and I support the proposal for advance appropriations. 
With respect to the timely passage of appropriations bills or 
triggering mechanisms, I believe that is a matter for consideration by 
the Congress.

    Question 2. Do you think the VA should rescreen or contact veterans 
that returned from Iraq and Afghanistan before the VA had a Traumatic 
Brain Injury (TBI) screening tool in place?
    Response. I believe that could be a good idea, but would solicit 
the advice of the Under Secretary of Health as to how to proceed in 
this matter

    Question 3. Do you think the VA has done enough research on 
treating mild or moderate TBIs as well as its co-occurrence with PTSD?
    Response. I believe there needs to be more research in this area 
and have been advised that recent reports, including one by the 
Institute of Medicine, recommend increased research in this area.

    Question 4. What plans do you have to make sure the VA is prepared 
to handle the surge in veterans that will be coming home due to the 
redeployment from Iraq?
    Response. Accurate forecasting models are the key to correct 
estimates of the resources needed to treat our Veterans. While 
returning OEF/OIF Veterans will constitute a relatively small 
percentage of all Veterans enrolled in VA's health care system, I'm 
informed that the estimating model has improved in the ability to 
forecast demand more accurately. Implementation of the new GI Bill is a 
primary concern of mine, which will receive priority attention. The 
substantial addition of personnel to disability claims processing and a 
concerted move to paperless processing should also assist in meeting 
the needs of those returning home.

    Question 5. What steps will you take to improve access to care for 
veterans in rural areas, such as in my home state of Vermont? Do you 
support the use of Community Based Outpatient Clinics and Vet Centers?
    Response. Thanks to this Committee and others, I believe the VA has 
a greater understanding of the needs of Veterans in rural areas. The VA 
has a responsibility to treat these Veterans' injuries and wounds--
regardless of where the Veterans live. It is my understanding that the 
new VA Office of Rural Health will identify local initiatives for 
pilots which are expected to lead to improved rural health care. While 
we await the findings from the pilot projects, I would expect a 
continuing mix of care, the expanded use of telehealth for treatment of 
mental health needs of Veterans in their homes and CBOCs, and the 
continuing development of referral approaches and transportation where 
it is unrealistic to have high level diagnostic and treatment 
capabilities in the most remote rural areas.

    Question 6. What steps do you plan to take to ensure the VA can 
handle the needs of both existing and new veterans?
    Response. If confirmed, it is my intention to transform the VA into 
a 21st Century institution, as promised by the President-elect, one 
that effectively and efficiently delivers benefits and services to 
Veterans in an accessible manner. I will seek whatever resources are 
needed to accomplish this transformation.

    Question 7. Are you committed to bringing the VA into the 21st 
Century my moving to an electronic claims processing system to help 
raters determine claims more quickly and make it easier for veterans to 
submit claims?
    Response. Yes, as indicated in question 6, above, VBA must move to 
an integrated, all electronic claims processing system. If confirmed, I 
will insist that a plan be developed with reasonably aggressive 
timelines to validate the current benefits administration business 
processes with an eye to the role of rules engines. Once the plan is 
adopted I intend to move expeditiously to acquire the technology and 
systems to support the delivery of benefits to Veterans. But, I would 
add the rating system is only one step in a process that we need to 
review.

    Question 8. Do you support Congress' efforts to bring Priority 8 
veterans back into the VA health care system? If so, how do you 
envision this process taking place?
    Response. If confirmed, an immediate assignment will be to develop 
the plan to meet the expectations of the President-elect's goals as 
they pertain to Priority Group 8 Veterans. I believe the prudent 
approach will be to validate the estimated number of these veterans, 
giving appropriate consideration to the potential impact of current 
economic factors, and then assess the capacity of facilities and 
staffing and then quickly create a plan to phase these Veterans into VA 
for care. Overriding considerations must be VHA's ability to ensure a 
transition where demand can be appropriately met without deterioration 
in quality of care.

    Question 9. What will you do to ensure the VA is providing 
appropriate services to our women veterans?
    Response. I look forward to working with the Committee on this 
important service component of a transformed veteran-centric VA. I know 
that the proportion of women serving in the Armed Forces is growing. 
The active duty OIF/OEF military force is 14% women. I am advised that 
the proportion of women Veterans using VA services is also growing and 
is projected to possibly exceed 15% of the total population of VA 
health services users by 2020. VA will need to continue to respect the 
different requirements for health care and privacy for women, and take 
steps necessary to ensure those requirements are met. I understand that 
VA has recently required that the position of Women Veterans Program 
Manager be full-time at every VA Medical Center and that there are 
efforts underway to implement appropriate clinic and service 
enhancements. I will look to the Advisory Committee on Women Veterans 
to continue to assist VA in appropriately responding to the needs of 
these Veterans.

    Question 10. Do you support making the VA a leader in the use of 
green technologies, energy efficiency, renewable energy, and green 
building design in VA facilities nationwide?
    Response. With an extensive infrastructure including 153 medical 
centers, 745 Community Based Outpatient Clinics and 225 Vet Centers, it 
is important for the VA to be an aggressive advocate of green 
technologies. It is my understanding that VA has for many years been 
active in efforts to achieve energy efficiency. I'm also informed that 
$120 million will be spent in this fiscal year on traditional 
renewables, cogeneration, and replacement of infrastructure (energy 
efficient boilers, windows, switches, etc).

    Question 11. Will you encourage VA medical centers across the 
country to use the new authority granted by Congress for the VA to 
provide mental health services to families of veterans?
    Response. I am familiar with the provisions of Public Law 110-387 
which extends counseling services to family members. As soon as the 
necessary regulations are in place, VA facilities will provide these 
services as appropriate to the treatment needs of Veterans. I believe 
this issue needs further examination and additional authorities and 
resources may be required.

    Question 12. As you may know, a recently released report by the 
Research Advisory Committee on Gulf War Veterans' Illnesses, pointed to 
ingestion of pyridostigmine bromide pills and exposure to pesticides as 
two causes for the host of illnesses veterans returning from the first 
Persian Gulf War experience. Given this report and the fact there is 
still no real treatment for one-fourth of the 697,000 veterans who 
served in this conflict 17 years later, what steps will you take to 
develop treatments and open the doors of the VA to these veterans 
without onerous service-connection requirements?
    Response. I strongly agree that more research into the causes and 
treatment of Gulf War Illness is called for and understand that VA has 
referred the report you mentioned to the Institute of Medicine for 
review and comment. I will be interested in the IOM response. With 
respect to those Gulf War veterans who are seeking medical treatment 
from VA, it is my understanding that provisions in the National Defense 
Authorization Act for Fiscal Year 2008 provide that Gulf War Veterans 
have until January 28, 2011 to enroll in VA's health care system.
    Question 13. What role do you think the VA, working in partnership 
with State Veterans Departments, Veteran Service Organizations, and 
other entities, including veterans themselves, can play in helping 
personally contact veterans and their families to make sure they know 
about and can access VA services?
    Response. I believe that VA should take a leadership role in 
seeking out Veterans and their families concerning VA benefits. If 
confirmed, I anticipate developing a strategic communications program 
for VA that will involve more aggressive and innovative outreach 
utilizing all available technologies including the internet.

    Question 14. What steps will you take to make sure that VA 
employees are paid competitive wages that are so crucial to attracting 
workers to rural areas, such as in many parts of my State of Vermont?
    Response. I will ensure that the VA Human Resources program 
continues and enhances efforts to evaluate competitive pay and 
benefits. I understand that VA has special authorities in Title 38 to 
ensure that it has the ability to pay appropriately competitive 
salaries for physicians, nurses, and other health care professionals 
and local labor markets are taken into consideration in those 
determinations.
                                 ______
                                 
 Response to Pre-Hearing Questions Submitted by Hon. Johnny Isakson to 
General Eric Shinseki, Nominee to be Secretary, Department of Veterans' 
                                Affairs
    Question 1. As Secretary of Veterans Affairs, how will you continue 
the progress that has been made in the area of seamless transition 
between VA and DOD? What programs and efforts have you seen to be 
successful and which would you expand upon?
    In Georgia, the Uptown Augusta VA Medical Center and the Eisenhower 
Army Medical Center at Fort Gordon seem to have perfected the model for 
seamless transition between VA and DOD. For example, the Augusta VAMC 
houses an Active Duty Rehab Unit where our active duty servicemembers 
are receiving state-of-the-art rehabilitation and therapy. Soldiers at 
the nearby Warrior Transition Unit located at Ft. Gordon are provided 
transportation to the VAMC, providing soldiers an opportunity to move 
and transition seamlessly between the two facilities and organizations. 
I would like to see this model expanded, not only in Augusta, but 
around the country. I would appreciate your view on seamless transition 
between VA and DOD, and in particular how the ``Augusta Model'' can be 
expanded.
    Response. I have been advised that substantial progress has been 
made in the transition of patients from DOD to VA. I am aware of the 
programs that established the Federal Recovery Coordinators, the 
Recovery Care Coordinators, Transition Patient Advocates, and case 
management improvements. I've also heard all is not done, and if 
confirmed, I will personally emphasize the importance of these 
programs. While I am not familiar with the specifics of the Augusta 
program, I do know that there is a very good relationship between the 
Augusta VAMC and Fort Gordon, and I assure you that, if confirmed, I 
will seek more details about it and the feasibility of its expansion 
and perhaps emulation in other areas.

    Question 2. As Secretary of Veterans Affairs, what are your plans 
on the implementation of electronic medical records sharing between VA 
and DOD? Do you see a need for this type of record sharing between the 
two Departments, and if so, what do you think is the best way to 
achieve this?
    Response. I am aware that significant progress has been made in the 
electronic sharing of medical record information between DOD and VA. I 
am troubled by reports about some continuing barriers. If confirmed, I 
intend to discuss the importance of these information sharing and 
integration efforts with Secretary Gates, mindful of the requirement to 
always appropriately protect the privacy and security of Veteran's 
medical and personal information.

    Question 3. Over the past year, Georgia has been fortunate enough 
to receive several new Community Based Outpatient Clinics, with another 
one scheduled to come online next year. How do you view the services 
offered at these sometimes remote facilities? Looking at the types of 
mental and physical wounds our returning OIF and OEF vets are coping 
with, do you feel these CBOCs offer adequate and appropriate services? 
Should more of these clinics be constructed or should the Department be 
focused on building more medical centers OR BOTH?
    Response. It is my understanding that the strategy behind the 
development and expansion of Community Based Outpatient Clinics was to 
provide Primary Care and Mental Health Services in locations that would 
reduce veteran travel time for routine care. This seems to be an 
effective strategy for improving access to health care. With respect to 
the specialized needs the many OIF/OEF Veterans have, I will need to 
learn more about the extent to which the more complex services are 
available to meet these needs.
                                 ______
                                 
Response to Post-Hearing Question Submitted by Hon. Daniel K. Akaka to 
 General Eric Shinseki to be Secretary, Department of Veterans Affairs
    Question. Your notable service in the military includes Schofield 
Barracks and Fort Shafter in Hawaii. I am certain that you would be 
aware of the healthcare needs of our veterans in the Pacific region. 
Considering the geographic location and limited healthcare access in 
the Pacific, can you share with us your views on how you can reach out 
to provide and to enhance the quality of healthcare services to our 
veterans in the Pacific?
    Response. Yes, I am aware of the challenges facing the provision of 
healthcare services to veterans in the Pacific. I intend to learn more 
about the number and needs of these veterans. I have already learned 
that progress has been made in recent years to improve those services. 
The VA Pacific Islands Health Care System serves veterans in the 
Pacific Basin, a geographic service area of 4.8 million square miles. 
Affiliated with the University of Hawaii and Tripler Army Medical 
Center (TAMC), the Spark M. Matsunaga Medical Center is a state-of-the-
art facility, providing diagnostic, medical, mental health, and 
specialty care outpatient treatment. Care is provided from its main 
clinic on Oahu and through five community based outpatient clinics 
(CBOCs) in the Hawaiian Islands and Guam. Additionally, at a 16-bed 
Post Traumatic Stress Disorder (PTSD) residential rehabilitation 
center, veterans receive unique PTSD treatment and education. VA also 
operates a 60-bed Center for Aging (nursing home) in Honolulu. 
Currently, hospitalization is provided through a sharing agreement with 
TAMC and community hospitals. A 19-bed VA-staffed psychiatric ward 
operates at TAMC facility.
    Challenges remain however which may require new approaches and 
increased use of telehealth and contract care for these veterans. It is 
my understanding that the new VA Office of Rural Health will identify 
local initiatives for pilots which are expected to lead to improved 
rural health care. While we await the findings from the pilot projects, 
I would expect a continuing mix of care, the expanded use of telehealth 
for treatment of mental health needs of Veterans in their homes and 
CBOCs, and the continuing development of referral approaches and 
transportation where it is unrealistic to have high level diagnostic 
and treatment capabilities in the most remote areas.
                                 ______
                                 
  Response to Post-Hearing Question Submitted by Hon. Richard Burr to 
 General Eric Shinseki to be Secretary, Department of Veterans Affairs
    Question. You are well aware of the focus that has been placed on 
ensuring that our wounded servicemembers have a ``seamless transition'' 
from military to civilian life. That phrase has been used so often that 
it's important to come back to exactly what it means. So let me ask: 
What does ensuring a seamless transition for our wounded men and women 
mean to you? What would a seamless transition look like under your 
leadership? And how do you plan to bring it about? Do you support 
providing expedited claims development for transitioning servicemembers 
who file disability claims shortly after their return from a combat 
theater?
    Response. ``Seamless transition'' can be an elusive term, but at 
its core I believe that it aims at facilitating the service person's 
transfer to civilian life and to the earned benefits and services 
provided by the Nation in a manner that is prompt, comprehensive and as 
effortless as possible. The details can be complex and I look forward 
to reviewing and, if necessary, revising the efforts of the Senior 
Oversight Committee and Joint Executive Council process. Because I 
believe leadership is a key element of achieving this goal, I plan to 
meet personally with Secretary Gates in the immediate future to explore 
how these efforts may be improved and accelerated. I understand that 
the Disability Evaluation System (DES) pilot program in VA & DOD has 
recently been expanded to 19 military installations. I am very 
interested in learning of the effectiveness of this single disability 
examination pilot. I am also particularly interested in increasing the 
utilization of the Benefits Delivery at Discharge (BDD) program. It is 
through programs such as these that VA and the Department of Defense 
will be able to ensure that seamless transition is a reality.
                                 ______
                                 
    [The Committee questionnaire for Presidential nominees 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [A letter from the Office of Government Ethics follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    [Letter from General Shinseki to the Office of General 
Counsel, U.S. Department of Veterans Affairs:] 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Akaka. Thank you very much, General Shinseki.
    I am tremendously pleased that you are committed to 
transforming VA. During your tenure as Army Chief of Staff, you 
were able to successfully transform the Army to become more 
agile to meet a variety of challenges while dealing with a 
legacy of technologies that already existed and an institution 
that was wedded to how things were done in the past. I can see 
clear parallels to VA.
    My question to you is, what will be your first order of 
business to begin VA's transformation, and what do you believe 
will be the biggest challenge you will have to overcome?
    General Shinseki. Well, thank you, Senator. I think I would 
describe the biggest challenge being the process by which we 
begin and sustain transformation of this Department into a 21st 
century organization, focused on the things that I have just 
mentioned--people-centric, results-oriented, and forward-
looking. I need to fill in the details on exactly what those 
priorities will be.
    But while that becomes the overarching and long-term 
objective, there are some near-term issues that I know I will 
have to deal with. I can't get to the long-term issue unless I 
deal with these near-term ones.
    First, implementation of the new G.I. Bill. There is an 
August 1 implementation date and I know that there are 
assurances that the Department is prepared to execute that. I 
need to find out for myself, get an assessment, seek 
independent advice, if necessary, but be able to assure you 
that August 1 we will have checks in hands of veterans who are 
looking forward to spending the next year in an academic 
environment. So that is one of the near-term issues.
    Another near-term issue is this, however it is quantified, 
the size of the backlog that was mentioned here several times 
and by Senator Murray, as well. I don't understand why 6 months 
is what we live with. I need to get inside of this. There is, 
in my opinion, no reason why a veteran submits a claim and then 
takes a number and waits for 6 months. We need to do something 
about this. Some of this has to do with business processes and 
the applications that are currently in place, and if necessary, 
we must change them. We will.
    Along with that is the transition of currently-serving 
young men and women who are coming back from a combat zone, 
many of them bearing scars of battle, some visible, many others 
invisible. We need not add them to the backlog. There must be 
this seamless transition that we have talked about and has been 
suggested. If it were easy, I think it would have been 
accomplished.
    Normally when I have run into situations like this, it is a 
leadership issue. One of my early meetings I am going to 
request is with Secretary Gates in Defense and seek to continue 
the partnership that has already been established through the 
Senior Oversight Committee, where both Deputy Secretaries from 
our two Departments--Defense and Veterans Affairs--have made 
significant progress in trying to solve this problem in the 
last year or so.
    I intend to go after this and find a way to approach the 
seamlessness of the transition. It just seems to me that the 
technology is there. This is a matter of getting the technology 
to do the right handshakes.
    Even as we do this, we have a requirement to address the 
issue of Priority 8s who are going to be joining us in our 
rolls. I need to understand just the size of the population, 
and I know that with the economic downturn, the size of the 
population is probably growing. I need to have some good 
numbers on what the estimates are and to be able to quantify 
what the resourcing requirements are so that I can make some 
assessments.
    And within the group of Priority 8s, there may be 
subcategories that are more critical and should be moved 
forward in the category of Priority 8 veterans, but we need 
more information. I certainly need more information than I have 
today. But that is a priority.
    Undergirding all of these near-term challenges is a 
movement to an information technology electronically-based set 
of business practices and applications that makes us as 
paperless as possible. I don't know that we will achieve true 
paperlessness, but there is a lot more that needs to be done 
that will support our decisionmaking, our accuracy, our ability 
to identify veterans and keep them in the system once they are 
there--all the benefits that now we seem to struggle with.
    To do that, very shortly, I have a 2010 budget requirement 
and so a lot of assessment and a lot of information gathering, 
decisions in which I have to craft a credible and an adequate 
2010 request that achieves the vision that the President-elect 
has asked me to execute.
    Chairman Akaka. Thank you, General.
    We will continue with a 5-minute questioning period and I 
will call on Senator Hutchison for her questions.
    Senator Hutchison. I think you have covered everything well 
on the priorities and I particularly appreciate that you are 
going to jump in on those claims times, because I think it is 
one of the hardest issues that Senator Akaka and Senator Murray 
and I have worked on. We have given the money to do that, so we 
will look forward to a progress report.
    I would like to have your thoughts on the research that is 
being done on Gulf War Syndrome--because I do think that has a 
great potential for protection of future warriors--and also the 
other areas that you would stress in research for the kinds of 
injuries and rehabilitation that we want for our veterans of 
today.
    General Shinseki. Senator, my impression is there has been 
significant money already invested in research about Gulf War 
Illness. A good portion of that, my sense is, has been causes. 
I think that research probably needs to continue, but at this 
point, I think I am more interested in research that will 
develop treatment for the symptoms that are clearly evident 
among the population of veterans who went to the Gulf the first 
time. We may not know exactly the causes, but I think we have 
enough information that validates that there are symptoms that 
must be treated; and I am more interested in understanding how 
we get on with that.
    So I look forward to the reports that I will be provided. I 
don't have the details now, but the reports that are already 
provided regarding the research, and even the more recent 
affidavit that you received over the holidays, and I want to 
see how we can put together treatment for these veterans.
    Senator Hutchison. Thank you. I agree with you. And I think 
as this goes forward, we are close to now determining that it 
is lack of a particular enzyme in the blood and in the brain, 
so I know that with the great knowledge that we are getting, we 
could probably have the ability to give that enzyme to people 
who are going in--or not allow people who don't have it to 
enter into--an area where there might be chemicals. So, I think 
we have made the commitment with the funding over a period of 5 
years to be able to take that next step and I will look forward 
to working with you on that.
    The other areas that I am interested in: we now have so 
many more survivors who have lost limbs because of the IEDs; 
the trauma research; and just to reaffirm that those would also 
be priorities. And if there are any others that you would like 
for us to also look at, I would be interested in knowing.
    General Shinseki. I think really the pace setter right now, 
in terms of traumatic injuries to our veterans who are 
currently serving, is probably the Department of Defense, just 
because they have had that initial return of veterans and they 
have done tremendous work in terms of--certainly with the 
amputees on prosthetic research.
    I don't know exactly how the Veterans Affairs Department is 
set in terms of comparable capabilities, but my sense is there 
is a little catch-up required here. We have a terrific 
opportunity to partner with what has already been achieved in 
the Department of Defense and then to take it the next step as 
those veterans come under the care of the Department; and if 
confirmed, that will be one of the things that I will be 
interested in making an assessment on.
    I think there is a requirement for research into brain 
trauma that we are dealing with--PTSD and TBI. My sense is that 
there was some level of these injuries in earlier conflicts. 
They have been pronounced in this one because of the size and 
the signature of the kinds of weaponry being used to attack 
individual soldiers. We probably didn't do enough in previous 
conflicts, and we need to ensure we don't miss this 
opportunity. More research is necessary in this area, as well.
    Senator Hutchison. We will support that.
    Thank you, Mr. Chairman.
    Chairman Akaka. Thank you, Senator Hutchison.
    And now, Senator Rockefeller.
    Senator Rockefeller. Thank you, Mr. Chairman.
    General Shinseki, one of the tragedies of the care of 
people, generally, in this country is the lack of understanding 
of mental illness; and it always strikes me when I watch TV 
advertisements, they are being pushed. They are considered to 
be a part of the American situation, and some people say as 
much as 25 percent of people are dependent upon some kind of 
mental illness help and treatment.
    It seems to me that the work that could be done in the 
veterans' hospitals--and there is already work being done--
strikes me as the model of the way to help educate not just 
physicians, but the American people, because people understand 
that when people go to war and they come back, they don't come 
back unwounded one way or another, and particularly when they 
have been on two or three----
    General Shinseki. Sure.
    Senator Rockefeller [continuing]. Tours. So I am interested 
in how you see that problem.
    America, we are a Nation of such optimism that nobody wants 
to admit that--because of circumstances or trauma or exhaustion 
or other matters--that they just get depressed and they can't 
perform to their ordinary ability. This is a huge matter for 
the military and for veterans returning, not just the recent 
veterans, but going back many years. I am interested in your 
approach to that, because I think that you cannot only help 
veterans, but you can help the American people come to terms 
with what people are still reluctant to talk about.
    General Shinseki. Well, Senator, I think you know that in 
the active military, we wrestle with that stigma and have for 
some time. Of late, as much work has been done, there is still 
the reluctance of young men and women to self-refer. We need 
better tools in how we reduce that stigma, and I do know that 
in the Department of Defense, this is a continuing discussion.
    A serving general officer who recently described himself as 
having the effects of PTSD very publicly self-referred himself, 
and I think that is a tremendous step in being able to deal 
with the stigma for others.
    In the VA, that stigma shouldn't be the same. I mean, we 
have now transitioned people out of serving units where an 
upcoming mission may be of concern. Now that they are with the 
VA, we should be able to deal with this and address the stigma 
and have people comfortable in being referred or referring 
themselves for treatment.
    What is clear about PTSD is that it is a debilitating 
condition, but if treated early, recognized and treated, it 
responds to that treatment. The alternative is to let these 
things go unaddressed and more significant problems, maybe even 
catastrophic problems, occur. And so, I think more research 
needs to be done in this area, but certainly along with that, 
to reinforce the treatment we know that works and then to 
address this issue of making people comfortable with dealing 
with PTSD and TBI as we deal with other injuries, physical, 
visible injuries that result from combat, gunshot wounds and so 
forth. This is one that will have my attention.
    Senator Rockefeller. Thank you. I have another question, 
but my time is up.
    Chairman Akaka. Thank you very much, Senator Rockefeller.
    Senator Wicker?
    Senator Wicker. Thank you.
    General, a Priority 8 veteran is any veterans who received 
an honorable, general, or under honorable conditions discharge 
with zero percent disability who earns greater than $29,402. 
There are currently eight million veterans enrolled in the 
system today, of all priority categories. I am told that there 
are ten million Priority 8 veterans not currently in the system 
now. Two-point-two million Priority 8 veterans are already 
enrolled and 1.2 million are actually using the system.
    I would just say that I appreciate your statement that in 
trying to get your arms around this issue, one of the things we 
are going to have to learn is what resources are available to 
you, because to move twice as many people into the system in 
Category 8 is going to be more demanding on the taxpayers than 
I think some people realize. So I would just offer that.
    Let me let my one question be about electronic medical 
records, and these are statistics provided to me by the VA. 
Ninety-eight-thousand Americans die each year from medical 
records errors. One-in-seven hospital admissions occur because 
a medical record is not available. Twelve percent of physician 
orders are not executed as written; and 20 percent of 
laboratory tests are requested because previous studies are not 
accessible. Now that is society-wide, General. But back to your 
goal of excellence and cutting-edge leadership to be received 
by the Department, I would submit to the Members of the 
Committee and to you that these sorts of statistics are not 
acceptable.
    Now, we have in the DOD/VA a plan called the Information 
Interoperability Plan, IIP. It has 22 different initiatives 
with three sets of goals. The IIP describes a path for DOD and 
VA medical information systems to be shared. What it does not 
include is a system for a single electronic medical record, 
which has been a goal that I personally have embraced.
    And I realize that you are going to have to go back and 
familiarize yourself with the details of this, but there are 
some people who think it is unrealistic to expect this out of 
DOD and VA. I think if two major corporations in the United 
States were merging, it wouldn't be at all unrealistic to think 
that the electronic information systems of both of those 
corporations would soon be merged and that we would be able to 
make it work somehow. Some people think that doctors and 
providers in DOD and in VA would not use such a system. It 
would seem to me that, in particular, physician employees of 
DOD and VA could be required perhaps more easily than other 
physicians to enforce this sort of thing.
    So I would ask you your thoughts about this at this point 
in time in your education into this new Department. Does a 
series of systems that will supposedly be interoperable, does 
that truly benefit the servicemember and his family? Do we 
need, indeed, a single electronic medical record that you start 
with in the Army and you continue with in the VA, or are we 
going to have simply a patchwork of antiquated systems that we 
try to get to talk to each other?
    General Shinseki. Senator, that is a great question. I 
don't know. I am not familiar with the IIP to begin with. I am 
assuming it is the result of the SOC, the Senior Oversight 
Committee's work between the two Deputy Secretaries. But I will 
find out more about it.
    To me, it is not a technical or technological issue. It is 
a leadership issue of agreeing what will serve either or both 
systems or the individuals within that system.
    Just an anecdote. I just happened to have a recent visit to 
the Walter Reed Army Medical Center here a few weeks ago in 
preparation for, if confirmed, being transferred over to the 
VA. I happened to ask two, maybe three of the doctors who 
looked at me that day and if they knew about the electronic 
medical system used by the VA, and each one of them said they 
did and they thought it was an excellent system and they wished 
they had it. So, maybe there is some hope for some kind of 
agreement here between the two Departments, and I say that 
before I go over to make my initial visit with the Secretary of 
Defense.
    But I will look for a way to create this technological, 
seamless transfer of information. It is not the technology. It 
is about leadership, in my opinion.
    Chairman Akaka. Thank you, Senator Wicker.
    Senator Murray?
    Senator Murray. Thank you, Senator Akaka.
    Thank you very much, General, for your opening statement. I 
very much appreciated what you called your three fundamental 
attributes and I look forward to your implementation of that.
    I did want to just say I want to thank your family for 
their tremendous patience sitting here. I don't know who the 
young gentleman is who is listening very carefully, but he is 
doing a better job of sitting than most of us up here. I just 
wanted to tell you I 
appreciate his willingness to be there and support you, so thank
 you.
    General Shinseki. They are family friends, the Fritchey 
family from Virginia, and John has his two sons here to expose 
them to the workings of government in a democracy. He thought 
this was a great way for them to spend the day.
    Senator Murray. Excellent. Excellent.
    General, I wanted to ask you, over the past 8 years, the VA 
has developed sort of a track record and culture of downplaying 
some very potentially embarrassing internal issues, whether it 
is the budget shortfalls that we saw or inaccurate suicide 
data, really at the expense of the veterans that we are all 
serving. I wanted you to share with this Committee how you, as 
Secretary, can build within the VA a culture that focuses on 
providing for veterans' needs rather than sort of avoiding 
public relations disasters. How do you change that culture and 
what will we see under your administration?
    General Shinseki. Well, Senator, a good question, and I do 
think it is about leadership and it is something I will go to 
work on the day of my arrival, if confirmed by the Senate.
    As I said in the beginning, good people go to work every 
day in the VA, and that is my expectation. So if I were to send 
a message to the good people who are dealing with the veterans 
who are our clients, my message would be this, ``Treat our 
veterans with respect and dignity. They are not here begging 
for a handout.''
    I am reminded of this statement by a good friend of mine 
who happens to work for McClatchy newspapers, a fellow named 
Joe Galloway. Simple message. We serve veterans. Maybe even 
simpler. The answer is yes. What is the question? Not to 
oversimplify, but it is to change the attitude by which 
veterans are treated when they come to us to request that we 
provide the benefits and services we promised and they have 
earned.
    They are truly our clients. They don't have anywhere else 
to shop. They are our clients. They retained us to do this and 
we are going to deliver on that. Treat them with respect. And 
asking them to take a number and wait; or put up with records 
that are lost or take 6 months to adjudicate; or even worse, 
records that are thrown out and destroyed, is not part of the 
culture that I expect governs what will happen at Veterans 
Affairs.
    You have got to come to work with a passion to do what we 
are asked to do, as difficult as it is. That is why I took this 
job. My hopes are that, very quickly, we can go through the 
period of adaptation and team building and come out the end of 
that transition with a cohesive organization that is serving 
veterans.
    Senator Murray. Well, I look forward to that and I hope 
that as part of that, your message to all of your team members 
within the large bureaucracy of the VA is that when potential 
issues come to light, that sharing them openly and honestly is 
a better way of treating veterans than to try and figure out 
how to keep it from coming out.
    General Shinseki. I agree. I would just add to that, 
Senator, that not only are we trying to create this much-
described ``One VA,'' which is team building and also cohesion, 
but I think we as a Department have an opportunity to reach 
beyond our own walls and look to work with Health and Human 
Services, with the Department of Labor, with Housing and Urban 
Development, Education, Small Business, to put together 
comprehensive solutions for what we know our veterans are 
wrestling with.
    In the veteran population, there is this microcosm of all 
of the other issues that are being handled by other Departments 
and we need to be smart about how we engage one another and 
come up with partnering solutions that husband resources and 
get better results for all of us.
    Senator Murray. Yes. One issue I wanted to bring to your 
attention quickly is the issue of suicides and suicide 
prevention, and the VA has made a little bit of progress on 
this, but we still aren't able to get a true handle on that. I 
have been exploring how we can help get a Memorandum of 
Understanding or agreement with the Centers for Disease Control 
and Prevention so that we can get a better handle on numbers. 
Could I get your willingness to work with me on making sure we 
understand what the scope of the problem is so we can deal with 
this in a much better way?
    General Shinseki. I will, Senator.
    Senator Murray. Thank you. I have additional questions, but 
I will wait for the second round.
    Chairman Akaka. Thank you very much, Senator Murray.
    Senator Tester?
    Senator Tester. Thank you, Chairman Akaka.
    You know, it is interesting. Not only can they see you on 
the cameras in their homes today, but I understand the Iraqi 
and Afghanistan Veterans of America are also blogging this. 
This is good stuff for the information technology world.
    I just want to touch on electronic medical records, and you 
don't need to make your answers very long, just to the point. 
We have had several hearings on this seamless transition 
between DOD and VA, as I mentioned in my opening remarks. Do 
you think it is important? What kind of urgency are you going 
to place on it? Is it high on your list, is it moderate or low?
    General Shinseki. Senator, it is high on my list. I don't 
think I can address those near-term issues about backlog, about 
Iraq and Afghanistan veterans being moved from one Department 
to the next without the electronic records and the information 
technology backbone that supports that.
    Senator Tester. You said you think it is basically as 
simple as a leadership issue. I mean, I think that is good 
news. Do you have people in mind that you can influence in the 
DOD to make this happen? It is not within our purview.
    General Shinseki. I am going to begin with my counterpart 
and then take his lead on that.
    Senator Tester. Super.
    General Shinseki. My reason for saying it is a leadership 
issue is that technology--the power of the microprocessor--
solves that.
    Senator Tester. I should say it, but when confirmed, what 
actions would you take to enhance medical, and maybe more 
importantly, mental health outreach to veterans in rural 
communities, because we are so short on the mental health 
stand, especially in rural America?
    General Shinseki. I know that the delivery of services and 
benefits in the rural parts of the country is a challenge and 
will continue to be. I also know that there are some 
telemedicine opportunities. I am led to believe that there is 
some promising work maybe even in the mental health arena here. 
I would rely on our mental health professionals to give me a 
comfort level that says you can do some, a lot, maybe all of it 
in this manner.
    I do know that in the last 2 years the Department has 
hired, I think, 4,000 additional mental health professionals 
with plans to hire several thousand more in the next 2 years, 
all indicating that there is the understanding this is a huge 
area for work to be done.
    Senator Tester. Good. We have a large number of veterans 
who are Native Americans in Montana and they have some health 
care issues in Indian Country. There has been some 
collaboration about potentially working together with the 
Indian Health Service. What are your views on those kind of 
issues? Give me an idea if you think that is possible or if it 
is something that you would work 
toward.
    General Shinseki. I would say it is something I probably 
need to find out more about, Senator. But I don't think I would 
turn away any opportunity to partner with other agencies as 
long as the quality that has been established in the VA is met 
and that timeliness and accessibility for veterans is the 
benefit.
    Senator Tester. I appreciate that. There is a Rural 
Veterans Health Advisory Committee. They have met once already, 
last fall. They meet again in the spring, I believe, in 
Arizona. Would you commit to giving those folks the resources 
they need to finish their work as far as making some 
recommendations on how we can better address----
    General Shinseki. I will find out a little bit more, but I 
will commit to supporting the rural health--I think you are 
referring to the Rural Health Office that has been established?
    Senator Tester. It is a Rural Health Advisory Committee 
that General Peake appointed, I think it has been about a year 
ago.
    General Shinseki. I think we are speaking about the same 
thing.
    Senator Tester. And then the other thing is, once they get 
a report, would you commit to actually taking a hard look at 
it? I am not saying implementing it, but certainly take a hard 
look at it----
    General Shinseki. I will.
    Senator Tester [continuing]. To make sure it just doesn't 
end up another report on the shelf.
    General Shinseki. I will.
    Senator Tester. Thank you very much.
    Chairman Akaka. Thank you very much, Senator Tester.
    General Shinseki, you indicated in response to pre-hearing 
questions that you would be an aggressive advocate for the 
fiscal needs of the Department. I am most gratified to hear 
this. Along with President-elect Obama, you indicated that you 
would support advanced funding for VA. My question to you is, 
will the fiscal year 2010 budget contain this funding 
mechanism?
    General Shinseki. Good question, Senator. I don't know, but 
I intend to find out. If confirmed, that will be an initial set 
of questions that I deal with as we begin to put together that 
budget.
    Chairman Akaka. There is an interest in the Committee that 
was mentioned.
    General Shinseki. I do support the advanced appropriation 
mechanism. Having lived with continuing resolutions in another 
life, I know that there is impact, and especially when we are 
dealing with health care and other issues for veterans. I would 
prefer to have a mechanism that allows that to continue without 
interruption.
    Chairman Akaka. Given the IG's dual responsibility to the 
Secretary as the head of the Department and to Congress, do you 
believe you will be able to support the IG's work even if a 
particular job might bring adverse publicity to VA?
    General Shinseki. I have absolutely no problem with that, 
Senator. I have lived with the dual reporting responsibility of 
the Inspector General. I have always seen the Inspector General 
as part of my team, helping me to find and solve problems that 
might not ordinarily come to my attention. So the dual 
reporting chain does protect the independence and impartiality 
here, and I think that is important in any organization.
    Chairman Akaka. General Shinseki, I want to follow up on 
your comments about creating a trusting and positive 
relationship with veterans and their families. Given missteps 
in the past on health care matters and the dismal performance 
in claims processing, how do you begin to foster trust in that 
relationship?
    General Shinseki. Senator, that is just a process that 
begins with me and begins with my opportunity to build a good, 
strong, and supportive team inside the Department of Veterans 
Affairs. My experience is that there is nothing that builds 
trust faster than performance and delivering on promises, and 
that is what we intend to do. If confirmed, that is what we 
intend to do.
    Chairman Akaka. Well, thank you very much for your 
responses.
    Let me call on Senator Rockefeller for his further 
questions.
    Senator Rockefeller. One of the great tests of who I know 
you to be because of what you did in terms of the Armed 
Services Committee and the effect that that had on the American 
people was magical. It brought the whole concept of truth and 
need into a kind of convergence which--maybe that over-
dramatizes it a bit--it kind of electrified the Nation. It 
certainly electrified us here in Washington.
    You are going to be Secretary of Veterans Affairs, and that 
means that every single piece of testimony that you give is 
going to have to be vetted by the Office of Management and 
Budget. Peter Orszag is one of the finest men I know. He really 
is good. He is a lot more than a numbers cruncher. But there 
will come a time, and I remember when I was Chairman, I used to 
have real brawls with the White House on funding levels, and 
won one once, and they told OMB to change their view.
    But you are constrained in what you can say and that 
presents a problem, I think, for a man of your nature and your 
truthfulness, because as Senator Murray, who is always spot-on, 
says, telling the truth about the needs is part of what builds 
confidence in veterans. It also builds confidence in the 
220,000 people who will be working for you, many of whom have 
been there for many, many years and have not changed their ways 
in many, many years; and that is another subject which I won't 
get into. How do you establish that you really mean it in a 
large bureaucracy, and sometimes you have to do that by getting 
rid of people who are simply unwilling to adhere to what the 
President-elect and the Secretary of Veterans Affairs wants.
    But I really think the business of truthfulness on 
veterans, I think Senator Murray and Senator Akaka would agree 
with me that there were two things, and we discussed this in 
our conversations, two tectonic changes that occurred last 
year. One was as a result of the Walter Reed Army Hospital 
Building Number Nine situation, when all of a sudden it came 
crashing down upon us that we had not been serving veterans, 
and I have been on this Committee for 24 years and it was just 
a crushing realization to me, but on the other hand an 
inspiring one, too, that sometimes you have to pay for what you 
are going to get, and when you are dealing with veterans, that 
puts you into a whole different category of obligation. But the 
Nation understands, even if the bureaucracy of government does 
not.
    So what I am asking you, and please don't answer because I 
do want you to get confirmed----
    [Laughter.]
    Senator Rockefeller [continuing]. Is to say that this is 
not enough. Thanks mostly to the work of Senator Murray, who 
you will find is one of the best friends you will ever have, 
she just got us a whole bunch more money and we all felt pretty 
good about it--$2 billion. It actually was more than that--$3 
billion--then when we looked at it, it was wholly insufficient. 
It was just better than it had been before.
    Well, you are not interested in just what is better than it 
has been before, but you are interested in what is sufficient 
to make you and 220,000 people roar out of bed every morning 
and charge off to work because they know they are going to be 
changing the lives of people in a permanent way.
    So I just make that comment to you, that you will soon find 
yourself, I think, in a trap; and I think it is going to be a 
particularly hard trap for a man of your integrity and stature. 
I always make this point before vital testimony so people know 
that they have to ask themselves the question, am I listening 
to General Shinseki or am I listening to the Office of 
Management and Budget. There is not much money around these 
days after we finish doing whatever we have to do. But I just 
pray that you will level with us--maybe it doesn't even have to 
be in a public setting--you will level with us about where you 
are being shortchanged and where you really want to get things 
done and the money just is not there.
    Government is capable of changing. I think we have a very 
gutsy new President-elect and I think he wants to see results 
in the work that you are doing. So I just make that comment and 
ask you not to comment on it.
    Chairman Akaka. Thank you very much, Senator Rockefeller.
    Now we will have Senator Murray.
    Senator Murray. Senator Rockefeller, thank you very much 
for that statement. I think we all agree with that and look 
forward to seeing you implement a real change of culture and 
heart.
    Let me ask you about women veterans because it is an issue 
that I feel very passionately about. Women make up about 14 
percent of the current active-duty force, but women still are 
such a minority at the VA. A lot of women don't see themselves 
as veterans. They don't get adequate care when they go in. The 
VA wasn't built for women, but they now have to be part of 
that, and I wondered if you could share a little short answer 
with us about what you hope to do on that front.
    General Shinseki. Sure. Senator, I watched the Army go 
through the same process of adjustment and we may be playing a 
little bit of catch-up, as well, here in Veterans Affairs. When 
I entered the service, we were primarily male, a draft Army, 
and I watched the changes for the better that occurred over 
that time. But we were always playing catch-up. I understand 
that today, women account for about 14 percent of our deployed 
formations. Estimates, I am told, is that the VA by 2020 is 
going to be 15 percent women. Now is the time for us to 
anticipate that coming change that we know is going to occur 
and put in place the kinds of programs so that we will 
accommodate those changes without playing catch-up. So it is a 
good time.
    I do know that the VA has directed a full-time Women's 
Veteran Program Manager at each of its 153 hospitals, and so 
that is recognition. There is also--serving the Secretary--a 
Women's Advisory Committee, as well, and I look forward to 
meeting them and getting them----
    Senator Murray. We look forward to working with you on 
that.
    Over the past 8 years, we have seen the Bush administration 
propose new health care user fees and increase copays. I saw 
recently a study by the University of Pennsylvania that found 
that the VA's pharmaceutical copay increase back in 2002 
actually caused a 19 percent drop in medication adherence by 
our veterans. So it had a very negative effect, and I am 
hopeful that we don't see from this administration those kinds 
of proposals for increased copays and fees.
    I know it is premature to ask you what your budget is going 
to look like, but can you tell us what you are planning to do 
in terms of copays and fees for our veterans?
    General Shinseki. Well, Senator, I just need to learn more 
about this. I do know under these economic conditions all of 
our veterans are under stress, and so I need to get in and 
understand where we are----
    Senator Murray. OK. Just as a heads-up, this Senate has 
turned down those requests every time, so if you want an honest 
budget, it might be better to come to us without those in them.
    Thank you for coming to my office and chatting with me 
about a number of issues that we talked about, in particular 
the Walla Walla Outpatient Clinic, which we had a great 
discussion on. We have made a lot of progress there. We want to 
keep going and I appreciate your commitment to that.
    I did also want to invite you out to my State in 
particular. We have a number of VA facilities. I noticed that 
in your responses to pre-hearing questions you said that you 
wanted to get out to see some of the VA facilities. And I think 
if you have the time, and once you get settled, I would love to 
have you come out and see some of the work that we are doing. I 
know our veterans would appreciate your being out there on the 
ground.
    I did want to ask one last question that I think is 
important. The VA has been a very passive organization. We are 
here. You can come to us. It seems to me, particularly with our 
Iraqi and Afghanistan veterans who are coming home--a different 
generation--looking at the world differently and how they 
perceive it, that we are losing a lot of our veterans, 
particularly with PTSD and TBI--not those visible wounds of 
war--because it has been a passive organization, and I am 
concerned about the outcome of that.
    Do you share my view that VA needs to start being more of a 
proactive organization rather than just a passive organization; 
and if so, how do we get there?
    General Shinseki. Senator, we can't transform unless we are 
proactive, and so I think this is part of that larger 
overarching vision that I have been provided. In order to get 
there, the Veterans Affairs Department is going to have to 
change a bit of the culture and the way that it has been doing 
business, all for the good. But my responsibility is to lead 
that change, and proactivity is something I am usually 
comfortable with.
    Senator Murray. OK. Well, General, I really do appreciate 
you taking on being the head of this agency. We want it not to 
be business as usual. We want to not hear just about a 
bureaucracy, but about a people organization. You have set that 
vision out for us and I assure you if you move forward with 
that aggressively, openly, and honestly with this Committee, we 
will work as hard as we can with you to make sure our veterans 
get the care they need. So thank you very, very much.
    Chairman Akaka. Thank you very much, Senator Murray.
    Thank you, and mahalo, General Shinseki, for your full and 
open participation in today's hearing. Every organization needs 
an unquestioned leader and I am anxious to have you assume that 
role at VA as soon as feasible.
    As I mentioned in my statement, the plan is for your 
nomination to go directly to the Senate Calendar on 
Inauguration Day and for the Senate to act on it the same day. 
If there is no objection, I ask that any member who wishes to 
submit any post-hearing questions to General Shinseki to do so 
today and that the nominee return them by close-of-business 
tomorrow. So we look forward to this speedy action and look 
forward to your being confirmed.
    Again, I want to say thank you to you and your family. We 
want to wish you well in the future and in the future of our 
country. We ask God's blessing upon you, your family, and, of 
course, our country and our new administration.
    With that, this hearing is adjourned.
    General Shinseki. Thank you, Mr. Chairman.
    [Whereupon, at 12:24 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


          Prepared Statement of L. Tammy Duckworth, Director, 
                Illinois Department of Veterans Affairs
    Mr. Chairman and Ranking Member Burr, Thank you for allowing me the 
opportunity to submit testimony to this Committee in support of 
President-elect Barack Obama's nomination of General Eric K. Shinseki 
to Secretary of Veterans Affairs. I have had the great privilege of 
testifying several times before you and know that this Committee and 
its members have often been the final line of defense for Veterans. 
This Committee has pushed for better benefits for Veterans while 
understanding the importance of efficiency and expediency in delivering 
care. In the last several years, it was this Committee, in a bipartisan 
effort, which led the efforts to allocate the budget truly required by 
the Dept. of Veterans Affairs to care for our Nation's Veterans, 
instead of the grossly inadequate levels requested by the 
administration.
    I believe that you will find GEN Shinseki to be exactly the kind of 
tough, innovative and insightful Secretary that the Department of 
Veterans Affairs needs at this extremely critical time. The VA is 
facing increasing demand for its services from Vietnam-era Veterans, 
returning to the VA as they enter retirement and lose employer-provided 
health care or have developed service-connected illnesses, such as 
cancers, which often develop decades after exposure to battlefield 
conditions. Additionally, after seven years of war, the younger 
generation of Veterans entering the VA today have demographics rarely 
seen by the USDVA in its past. The incredible, world-class military 
medical system has resulted in many more Veterans returning from war 
having survived severe injuries that were life-ending in the past. 
Traumatic Brain Injury and Post Traumatic Stress Disorders as well as 
exposure to contaminants have emerged as significant health issues of 
the OIF/OEF generation Veteran. We have the first ever generation of 
young female combat Veterans in our nations' history. Homelessness is 
also a critical threat. In Illinois, we are already caring for homeless 
Iraq and Afghanistan Veterans in shelters across the state. When the 
homeless Veteran is female, there is a much higher likelihood that 
children will accompany their single parent Veteran into homelessness. 
Our Nation's Veterans need a Secretary of Veterans Affairs who will be 
able to address each of these issues while transforming, modernizing, 
and cutting through the entrenched bureaucracies of the USDVA.
    I am very familiar with GEN Shinseki's service to this country, 
considering I served during his tenure as Army Chief. He is also a 
combat-wounded disabled Veteran. Most importantly, his military service 
gives us clear evidence that he will be the innovative, future-looking 
Secretary of Veterans Affairs that our Nation's Veterans need as we 
leave behind antiquated systems and embrace new technologies and 
processes such as electronic medical records that can be shared between 
DOD and USDVA. As Army Chief of Staff, Gen Shinseki showed his ability 
to be aggressive and forward-thinking. He is responsible for the 
Stryker Interim-Force Brigade Combat Teams that have been crucial in 
combat actions in Iraq and Afghanistan. Additionally, his long-term 
strategic programs included the Future Combat Systems (FCS) of which 
various systems emerged, including the Unmanned Aerial Vehicles (UAVs) 
deployed to Brigade and Battalion levels that protect and serve our 
troops today in Operations Iraqi and Enduring Freedoms.
    Members of the military, and I am sure the Nation, are by now aware 
that GEN Shinseki is not afraid to stand up for what he believes is the 
truth. He has testified difficult realities to the U.S. Congress before 
and our Veterans trust in his ability to do the same in the future. In 
2001, he successfully fought against reductions in troop strength in 
the Army. In fact, General Shinseki has been in the Veterans Affairs 
business throughout his long career as taking care of your Warriors is 
one of the cornerstones of an effective military commander.
    The treatment and care we give our Veterans is also an issue of 
military readiness, something that every military commander 
understands. It is vital to our Nation's missions that the Warrior on 
the front line knows that should he be hurt or killed, he and his 
family will receive every benefit promised to him by the United States. 
We do not want the Soldier kicking down doors on a house-to-house 
search for the enemy to hesitate because he is concerned that he or his 
family will not receive the proper care should he be injured. In 
combat, a moment of hesitation can literally be the difference between 
life and death. When our Nation's mothers and fathers are approached by 
their brave young son or daughter, looking to join the military, they 
must know without a doubt that their child will be cared for, that this 
Nation will not renege on its promise to our Veterans. President 
Washington himself addressed this need when he said ``The willingness 
with which our young people are likely to serve in any war, no matter 
how justified, shall be directly proportional as to how they perceive 
the Veterans of earlier wars were Treated and Appreciated by their 
Nation.'' Simply put, giving Veterans the benefits that they have 
rightfully earned is more than just a matter of the right thing to do, 
although that alone should be enough.
    Living up to our promises to Veterans is an important component of 
the readiness of our military to carry out the mission we the people of 
the United States assign it to complete. I believe that General 
Shinseki has the skills and commitment to this country and its Veterans 
we so desperately need in the USDVA. I believe we must jealously guard 
our Warriors who are our Nation's greatest treasure. Together, by 
serving those who have served, we can continue to make sure that our 
Nation keeps its promise to our Veterans.

    I thank this Committee and its Members for your effort to improve 
the lives of those who have served. I urge you to support the 
nomination of GEN Eric K. Shinseki to Secretary of Veterans Affairs.
                                 ______
                                 
                       Vietnam Veterans Post 10583,
                                   Veterans of Foreign Wars
                                     Waipahu, HI, January 12, 2008.
Hon. Daniel K. Akaka,
Chairman,
Committee on Veterans' Affairs,
U.S. Senate, Washington, DC.

            Re: Support of Nomination for General Eric 
            Shinseki
            

    Dear Mr. Chairman and Members of the Committee: The Vietnam 
Veterans Post 10583 of the Veterans of Foreign Wars, Honolulu, HI, 
strongly supports the nomination of General Eric Shinseki as the 
Secretary of the Department of Veterans Affairs.
    General Shinseki has earned the respect and admiration of veterans 
by his demonstration of courage and ability as a soldier both on and 
off the battle field. General Shinseki is well known to the veterans of 
Hawaii. We feel General Shinseki is an excellent choice for the 
Veterans Affairs Secretary.
    It is very important that veterans accessing services from the VA 
have confidence in the leadership, especially the Secretary. Being 
active in veterans' affairs and having knowledge of the programs and 
services our veterans receive, I am aware of some of the shortcomings 
that still seem to prevail at the VA. While most of our veterans have 
been very appreciative of your support and efforts in providing the 
resources and funding necessary for the delivery of these services, 
there is always room for improvement.
    We feel General Eric Shinseki is the right person at the right time 
who will be able to achieve the level of support necessary to continue 
and improve VA services. We feel with you as Chair of the Veterans 
Affairs' Committee and General Shinseki as Deptartment of Veterans 
Affairs' Secretary, will provide for the best opportunity for the 
welfare of our veterans.
    The veterans of Hawaii stand in solidarity with all of our Nation's 
veterans, as there are two of our own veterans serving in the highest 
levels of veterans affairs. This gives us a special sense of pride and 
confidence that our needs are understood at the highest level. 
Therefore, we highly recommend the confirmation of General Eric 
Shinseki as Secretary of the Department of Veterans Affairs.
            Respectfully Submitted,
                                           Rene Berthiaume,
                                                    Post Commander.
                                 ______
                                 
Prepared Statement of Edward M. Kawamura, A Disabled American Veteran, 
  Member of Kauai Chapter No. 5, Disabled American Veterans, Lihue, HI
                              introduction
    Honorable Senator Daniel K. Akaka, Chairman, and honorable Members 
of this distinguished Committee, Thank you for this opportunity to 
discuss the nomination of General Eric Shinseki to be Secretary of 
Veterans Affairs.
    I, Edward M. Kawamura, a retired U.S. Army Veteran of the Vietnam 
War, Disabled American Veteran, of the Department of Hawaii, and a 
member of Kauai Chapter No. 5, humbly address your august body, to 
consider favorably, this nomination.
                          historical overview
    General Eric K. Shinseki, was born and raised on Kauai, Hawaii, 
from humble beginnings and was inspired in his teens by his uncle, who 
was a veteran of the distinguished 100th Infantry Battalion and the 
veterans of the 442nd Infantry Regimental Combat Team of World War II, 
who were invited to his parent's home and who talked about their 
experiences on the battlefield of Italy and France. Inspired by these 
veterans he applied and was appointed as a cadet at West Point. After 
graduation from West Point he went on to complete a distinguished 42 
year career in the Army, from cadet to a 4-star General and Chief of 
Staff of the United States Army.
    General Shinseki has an outstanding combat record. He served as a 
commander in the Vietnam conflict and was wounded twice in combat. He 
was severely wounded the second time and lost part of his foot, which 
ordinarily would have resulted in automatic retirement from the 
service. But General Shinseki was determined to continue his Army 
career and with prosthetics, which he wears to this day, and with 
determination, rehabilitation and exercise, he proved to his superiors 
that he was in physical and mental condition and he could perform as 
good as any soldier in the U.S. Army.
    From Vietnam he had commands in the United States, in Europe and 
Bosnia-Herzegovina. He was leading the U.S. Army in the initial 
incursions in Afghanistan and Iraq. He was later appointed as the Army 
Chief of Staff and during his tenure; he was instrumental in the 
transformation and modernization of the United States Army.
                               conclusion
    General Shinseki has shown that he is a true patriot who has 
experienced the stress and strains of warfare and understands the needs 
of the veterans of our Armed Forces.
    We, the Disabled American Veterans, Kauai Chapter 5, support the 
nomination of General Eric K. Shinseki and humbly request your support 
for his confirmation as Secretary of Veterans Affairs.
            Respectfully yours,
                                        Edward M. Kawamura,
                                          Veteran Helping Veterans.
                                 ______
                                 
  Prepared Statement of Robert Nakamoto, President, Japanese American 
                          Veterans Association

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
    Prepared Statement of Nelson N. Angapak, Sr., U.S. Army Veteran

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
           Letter Introducing the Memorandum of Understanding

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

       Memorandum of Understanding Between the VA/VHA and HHS/IHS

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



  THE NOMINATION OF W. SCOTT GOULD TO BE DEPUTY SECRETARY OF VETERANS 
  AFFAIRS AND THE NOMINATION OF L. TAMMY DUCKWORTH TO BE AN ASSISTANT 
 SECRETARY OF VETERANS AFFAIRS FOR PUBLIC AND INTERGOVERNMENTAL AFFAIRS

                              ----------                              


                        WEDNESDAY, APRIL 1, 2009

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:34 a.m., in 
room 418, Russell Senate Office Building, Hon. Daniel K. Akaka, 
Chairman of the Committee, presiding.
    Present: Senators Akaka, Rockefeller, Murray, Brown, Webb, 
Tester, Begich, Burris, Burr, Specter, Isakson, Wicker, Johanns 
and Graham.

     OPENING STATEMENT OF HON. DANIEL K. AKAKA, CHAIRMAN, 
                    U.S. SENATOR FROM HAWAII

    Chairman Akaka. The United States Committee on Veterans' 
Affairs will come to order.
    Welcome and aloha to all of you.
    This morning's hearing is to consider the President's 
nomination of W. Scott Gould to be Deputy Secretary of Veterans 
Affairs. Following Mr. Gould's testimony and questions from the 
Committee, we will then turn to Tammy Duckworth's nomination 
for the position of Assistant Secretary of Public and 
Intergovernmental Affairs.
    I am delighted that we are finally moving forward on 
additional nominees for VA. It is critical that VA's leadership 
team be put in place as quickly as possible. Secretary Shinseki 
has been the lone representative of the Administration at VA 
for over 2 months. I am hopeful that this Committee and then 
the full Senate will move quickly to consider Mr. Gould for 
Deputy Secretary.
    Senator Reed will give more details on Mr. Gould's work and 
military experience. For my part, I note that he has expertise 
in information technology, acquisitions, budget, human 
resources and the management of large organizations. I have 
received every indication that his combined service in the 
public sector, private sector and military are well regarded 
and will support his work at VA.
    Last week, I asked Mr. Gould why he would say yes to such a 
difficult job, especially during this difficult time. Without 
hesitation, he answered that he welcomed the opportunity to 
work for veterans. He also expressed a deep willingness to give 
VA's 280,000 plus employees the tools they need to do their 
jobs.
    The Deputy Secretary has traditionally been VA's Chief 
Operating Officer, and Mr. Gould has advised the Committee 
that, along with Secretary Shinseki, he will strive to create 
an organization focused on giving veterans results.
    Mr. Gould, I tell you the same thing I told Secretary 
Shinseki during his confirmation hearing. Assuming your 
confirmation as the next Deputy Secretary of Veterans Affairs, 
you will face tremendous challenges. In my view, leading VA is 
one of the most challenging jobs in or out of government, and 
that is especially true in a time of war.
    I look forward to your testimony today and your responses 
to questions from the Committee Members and to any post-hearing 
questions. It is vitally important that the position of Deputy 
Secretary of Veterans Affairs be filled as soon as possible.
    Before I move on, I note that Mr. Gould is accompanied by 
his family and friends as well. We are especially glad to have 
your wife here since she is scheduled to testify before the 
Senate Armed Services Committee at this very moment.
    Mr. Gould, please introduce your family members to the 
Committee.
    Mr. Gould. I would be delighted to do that, and I thank 
Michele for making the effort to be here this morning. We try 
to share events like this together, and, as you just noted, she 
is due to testify before the SASC this morning.
    Sweetheart, I am glad you are here.
    Seated to my left are my children: Alec; youngest son, 
Aidan; and Victoria. Between Victoria and Aidan is Mireya 
Vargas, our nanny, with whom our professional lives would not 
be possible.
    And, finally, directly behind me, my mom and cherished 
grandmother who, at age 80, has made the effort to be here 
today with us. Welcome.
    Chairman Akaka. Well, Secretary Flournoy, you are, of 
course, excused to attend your pressing commitment, but thank 
you so much for coming this morning to this Committee hearing.
    Ms. Flournoy. Thank you, sir.
    Mr. Gould. Thank you, Senator.
    Chairman Akaka. I would like to recognize the Senior 
Senator from Rhode Island who is joining us this morning to 
introduce the nominee to the Committee.
    Senator Reed, aloha and welcome to the Committee.
    Senator Reed. Thank you, Mr. Chairman.
    Chairman Akaka. It is always good to have you and this 
morning, particularly. I would like to ask you to give the 
introduction of Mr. Gould.

 STATEMENT OF HON. JACK REED, A UNITED STATES SENATOR FROM THE 
                     STATE OF RHODE ISLAND

    Senator Reed. Chairman Akaka, Senator Tester, it is a great 
privilege for me to be here today to introduce Scott Gould to 
this Committee as President Obama's nominee for Deputy 
Secretary of the Veterans Administration.
    I have known Scott and his wife, Michele, and his family 
now for many years. We have grown, I think, to appreciate the 
great service that both Michele and Scott are going to render 
to the United States. I certainly do.
    I am glad his mother is here. She continues the proud 
tradition. His dad was a school teacher and a stock broker 
around the Boston area and was a naval officer.
    Scott followed in that very proud naval tradition. He won 
an ROTC scholarship to Cornell University, served as an Active 
or Reserve Naval Officer for 26 years. His first assignment was 
aboard the Destroyer, U.S.S. Richard E. Byrd. He was a Surface 
Warfare Officer.
    He continued to serve and was mobilized in 2001, in fact, 
for operations in Afghanistan. So he brings to the task of 
being the Deputy Secretary of Veterans Affairs, I think, a 
major qualification: He is a veteran and an extensive veteran--
unusual for a Navy guy. He got his jump wings at Ft. Benning, 
GA. So it shows more enthusiasm than intelligence, but anyway. 
[Laughter.]
    I say that as a senior parachutist.
    Scott has worked in private industry. Currently, he is 
working at IBM in their Global Leadership Initiative. He has 
extensive experience in industry, in management, but he has a 
particular wealth of experience when it comes to public 
management, which is going to be the focus of his activities. 
He was the Director of Operations for the city of Chelsea 
outside of Boston, which was bankrupt; and he and his 
colleagues--a three-person team--really put that city back on 
its feet, curing a 25 percent structural deficit, and getting 
it functioning again.
    He was a Deputy Assistant Secretary for Finance and 
Management at the Department of the Treasury. He has also 
served as the Chief Financial Officer at the Commerce 
Department. In all of these activities, he has been recognized, 
having been awarded the Department of Commerce and Department 
of Treasury Gold Medals for Distinguished Public Service.
    He is superbly prepared for the daunting task you outlined, 
Mr. Chairman. Part of his preparation is the fact that he has 
this strong, devoted and loving family: his mother, his wife--
Secretary Flournoy, who I will join in a moment at Armed 
Services--and his children, Alec, Victoria and Aidan. So, I 
want to commend and thank them all and thank Scott particularly 
for a willingness to serve the Nation once again.
    Thank you, Scott.
    Mr. Gould. Thank you very much.
    Chairman Akaka. Thank you very much, Senator Reed.
    Now let me call on Senator Tester for any opening remarks 
he may have.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Chairman Akaka. I will make mine 
very short.
    First of all, thank you, Dr. Gould. Thank you for your 
service and for the service you are about to move forward into. 
I want to welcome your wife and your mother and, more 
importantly, your children.
    If I have my way about it, kids, your dad is going to be 
doing a very, very important job for the veterans of this 
country.
    You know we met with General Shinseki several times. He is 
putting together a top-flight team, yourself included in that. 
I think that your experiences in life bring some important 
qualities to this job that are necessary.
    Your challenge is to move this Agency forward and to ensure 
that our veterans receive first-rate health care, that claims 
are cleaned up and expedited, and that we utilize the latest 
technology, staffing and resources to manage our 
servicemembers--what we have promised.
    We are partners in this--you, me, the Administration, this 
Committee on both sides of the aisle and the Chairman. I hope 
that you know that we will be supporting you in your efforts to 
make this Agency all it can be to support the veterans that 
served this country so very, very well.
    So, with that, Mr. Chairman, I just want to welcome Dr. 
Gould, and I look forward to your confirmation. I look forward 
more so to the work you do once you are confirmed.
    Mr. Gould. Thank you, Senator.
    Chairman Akaka. Thank you very much, Senator Tester.
    Mr. Gould, I will pronounce the oath here and ask you to 
now stand and raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give the Senate Committee on Veterans' Affairs, as 
well as any answers to any pre- or post-hearing questions, will 
be the truth, the whole truth and nothing but the truth, so 
help you God?
    Mr. Gould. Yes.
    Chairman Akaka. Let the record note that the witness 
answered in the affirmative.
    Mr. Gould, please proceed with your statement.

STATEMENT OF W. SCOTT GOULD, DEPUTY SECRETARY-DESIGNATE OF THE 
                 DEPARTMENT OF VETERANS AFFAIRS

    Mr. Gould. Thank you, Senator, Mr. Chairman.
    I would also like to thank Senator Reed for his kind 
remarks and, obviously, for the example that he brings to us as 
a tireless advocate for veterans.
    Chairman Akaka, in his absence, Senator Burr, distinguished 
Members of the Committee--and Senator Tester--on Veterans 
Affairs, thank you for scheduling this hearing so 
expeditiously. I am honored to be before you today, seeking 
your endorsement to become the Deputy Secretary of VA.
    During the past several weeks, I have had the opportunity 
to benefit from the Committee's advice and guidance about how 
to better serve our veterans and accomplish the mission of the 
Department. Your support for strong leadership, open 
communication and positive results for veterans came across in 
a bipartisan 
manner.
    With your permission, I would like to submit full testimony 
for the record that is well aligned with that guidance and, 
instead, make a few brief remarks before taking your questions.
    Chairman Akaka. Your full statement will be in the record.
    Mr. Gould. Thank you, Mr. Chairman.
    I am deeply honored by President Obama's nomination to 
serve as Deputy Secretary at VA, and I deeply appreciate the 
confidence that President Obama and Secretary Shinseki have in 
me to help transform the VA into a 21st Century organization. I 
am acutely aware that transformation is a challenging task, 
particularly in an organization as large, as complex, and as 
steeped in tradition as Veterans Affairs.
    We faced similar modernization challenges when I was at 
Treasury and at Commerce in the 1990s. We have dealt with the 
challenges of transformation and innovation in the private 
sector at IBM--challenges still ongoing today because, in 
truth, transformation of large organizations is hard work 
rarely ever complete. It is an ongoing effort to serve, to 
improve, and to meet the needs of clients.
    My previous experiences, however, give me great confidence 
that the goal of transformation can be achieved by VA employees 
with strong leadership, teamwork, and especially the continued 
help of this Committee.
    I feel especially privileged to be considered for this role 
not only as a veteran of 26 years of Active and Reserve service 
but for three very personal reasons:
    I earned my master's and doctoral degrees with the help of 
VA benefits. It is my view that educational programs like the 
new GI Bill can change lives. It changed mine.
    I was mobilized to support the war in Afghanistan on short 
notice. It was my experience that rapid transition from Active 
to Veteran status is challenging for families. We need to take 
care of our military families.
    And, most importantly, I have experienced what it is like 
to have my father, a Navy veteran of World War II and Korea, 
spend the last 11 years of his life as a patient in a VA 
hospital. This last experience is central to my motivation for 
serving at the VA.
    I would like our veterans to know that my family 
understands the challenge of dealing with an imposing 
bureaucracy and wanting the very best for your loved one. 
Nothing less will do.
    I want VA employees to know that I appreciate that much of 
patient care is given not by doctors but by nurses and nurse 
assistants who do the bathing and the feeding, who clean the 
rooms, who offer a kind word. They did a great job caring for 
my dad and, in so doing, they cared for his family as well.
    And, finally, I want to say what we rarely say as veterans, 
that all through our lives there is a connection with the 
country, its history and our expectations of each other that 
comes from military service. My father expressed it just before 
Alzheimer's took his ability to speak altogether. Long after he 
had forgotten many things, he remembered a few very important 
things: my mother's face, fragments of prayers and the belief 
that somehow the Navy would come to save him.
    I believe that the VA carries this elemental trust between 
veterans and the country on behalf of all of us to their last 
day.
    If confirmed, I will join a leader in Secretary Shinseki 
who feels the same way. If confirmed, I will work to refine and 
implement a basic strategy: to create a people-centric, 
results-oriented, forward-looking organization. As the 
Secretary has already said before this Committee, the VA will 
make veterans the centerpiece of the Organization, invest in 
our civil service to help them serve veterans, continuously 
improve the timeliness and quality of services and support to 
our veterans and embed transformational initiatives as part of 
the culture as the VA cares for veterans, like my father, 
present and future.
    If confirmed as Deputy Secretary, I will help lead the VA 
as Chief Operating Officer to accomplish this vision in three 
ways: first, by synchronizing implementation of the strategy; 
second, by transforming the management infrastructure that will 
enable modernization; and, third, by overseeing the main 
operating units of VA.
    This will require leadership, good communication, 
investment in our civil service and teamwork among the VA's 
many internal and external stakeholders. It will also require 
attention to a range of important near-term initiatives. These 
include successfully implementing the new GI Bill, streamlining 
the disability claims process that Senator Tester just 
mentioned, ensuring adequate resources and access points to 
meet the health care needs of all enrolled veterans and, as you 
mentioned, Mr. Chairman, leveraging the power of information 
technology to accelerate and modernize the delivery of benefits 
and services. And, it will require accountability for our 
actions to the public and to veterans.
    In conclusion, if this Committee chooses to confirm me, I 
will join a team that shares a strong desire to serve veterans, 
a team committed to transform the Department into a 21st 
Century organization, focused on the Nation's veterans as its 
clients.
    I thank this Committee for its long history of unwavering 
bipartisan commitment to veterans. If confirmed, I look forward 
to working closely with you to fulfill that commitment.
    Mr. Chairman, I am ready to respond to any questions this 
Committee may have.
    [The prepared statement of Mr. Gould follows:]
                 Prepared Statement of W. Scott Gould, 
             Deputy Secretary-designate of Veterans Affairs
    Chairman Akaka, Senator Burr, Distinguished Members of the 
Committee on Veterans Affairs: Thank you for scheduling this hearing so 
expeditiously. I am honored to be before you today seeking your 
endorsement to become the Deputy Secretary of VA.
    During the past several weeks, I have had the opportunity to 
benefit from the Committee's advice and guidance about how to better 
serve our Veterans and accomplish the mission of the Department. Your 
support for strong leadership, open communication and positive results 
for veterans came across in a bipartisan manner.
    I am honored by President Obama's nomination to serve as the Deputy 
Secretary of the Department of Veterans Affairs. And I deeply 
appreciate the confidence that President Obama and Secretary Shinseki 
have in me to help accomplish their vision of transforming the VA into 
a 21st century organization.
    I am acutely aware that transformation is a challenging task--
particularly in an organization as large, complex and steeped in 
tradition as is Veterans Affairs. We faced similar challenges when I 
was at Treasury with Internal Revenue Service modernization and at 
Commerce with National Weather Service modernization efforts in the 
1990s. We have dealt with the challenges of transformation and 
innovation in the private sector at IBM--challenges still ongoing 
today, because, in truth, transformation of large organizations is hard 
work rarely ever complete. It is an ongoing effort to serve, to improve 
and to meet the needs of clients. My previous experiences, however, 
give me confidence that the goal of transformation can be achieved by 
VA employees with strong leadership, teamwork and especially the 
continued help and support of this Committee.
    If confirmed, I will join Secretary Shinseki in the Department's 
efforts to refine and implement a basic strategy: to create a people 
centric, results oriented, forward looking organization. As the 
Secretary has already articulated before this Committee, VA will:

    <bullet> make Veterans the centerpiece of our organization;
    <bullet> invest in our civil service to help them better serve 
veterans;
    <bullet> continuously improve the timeliness and quality of 
services and support provided to Veterans; and
    <bullet> imbed transformational initiatives as part of our culture 
as we care for Veterans, like my father, present and future.

    If confirmed as Deputy Secretary, I will help lead the VA to 
accomplish this vision in three ways. First, by synchronizing the 
people, process and technology necessary to implement the strategy. 
Second, by transforming the personnel, budget, acquisition and IT 
systems that will enable modernization. And third, by overseeing the 
planning, execution and results of modernization by the main operating 
units including VHA, VBA and NCA. This will require leadership, good 
communication, investment in our civil service and team work among the 
VA's many internal and external stakeholders--including the VSOs. It 
will also require attention to a range of important near-term 
initiatives. These include:

    <bullet> Successfully implementing the New GI Bill (Post-9/11 
Veterans' Educational Assistance Act).
    <bullet> Streamlining the disability claims system--increasing the 
quality, timeliness and consistency of claims processing, and updating 
the Disability Rating Schedule, while maintaining Veterans' rights.
    <bullet> Ensuring adequate resources and access points to meet the 
health care needs of all enrolled Veterans, as well as those OEF/OIF 
Veterans and Priority Group 8 Veterans, who will be joining the system.
    <bullet> Leveraging the power of Information Technology to 
accelerate and modernize the delivery of benefits and services.

    And it will require accountability for our actions to the public.
    In conclusion, if this Committee chooses to confirm me, I will join 
a team that shares a strong desire to serve veterans and is committed 
to transform the Department into a 21st century organization focused on 
the Nation's Veterans as its clients. I thank this Committee for its 
long history of unwavering, bipartisan commitment to Veterans. If 
confirmed, I look forward to working closely with you to fulfill that 
commitment.
                                 ______
                                 
Response to Pre-Hearing Questions Submitted by Hon. Daniel K. Akaka to 
   W. Scott Gould, Nominee to be Deputy Secretary of Veterans Affairs
    Question 1. Have you discussed with Secretary Shinseki the duties 
he would like you to perform, or the role he would like you to assume, 
as Deputy Secretary if you are confirmed?
    Response. Yes. Secretary Shinseki and I both believe that the 
Deputy Secretary should serve as the Department's Chief Operating 
Officer, managing day-to-day activities and overseeing the Department's 
business systems, which are key to transforming VA into a 21st century 
organization.

    Question 2. Will you have a policymaking role at VA independent 
from the Secretary?
    Response. No, except when the Secretary has specifically tasked me 
to take the lead on a particular issue. My role would be to support the 
Secretary's policymaking as his partner in the Office of the Secretary. 
I would owe him my honest opinion based on my own best understanding of 
the issues, but the authority to make policy resides with him. Once a 
decision has been made, my job would be to see that it is clearly and 
consistently communicated to all stakeholders and implemented 
throughout VA.

    Question 3. Will you be VA's Chief Operating Officer? If so, please 
describe in detail what you understand the position of COO to be, both 
generally and with specificity as to VA.
    Response. Yes. I would be responsible to the Secretary for (1) 
synchronizing the people, process, and technology necessary to 
implement the strategy; (2) transforming the personnel, budget, 
acquisition, and IT systems that will enable the modernization; and (3) 
overseeing the planning, execution, and results of modernization by the 
operating units including VHA, VBA, and NCA. I would be a principal 
partner of the Secretary in defining the vision, determining the 
strategy, and communicating the vision, the strategy, and the policy to 
stakeholders. I would report to the Secretary on the results of our 
efforts.

    Question 4. Apart from what you and the Secretary have discussed 
with respect to your duties, have you formulated any thoughts on what 
your specific responsibilities will be as Deputy and how you will 
approach them? What is your motivation to seek this position?
    Response. My motivation for seeking this position is my desire to 
help the Nation fulfill its commitment to Veterans. I spent 26 years as 
a Naval Reserve officer, including service in support of the war in 
Afghanistan. In addition, VA helped pay for my MBA and Ed.D. My father 
served in World War II and Korea, went to college on the G.I. Bill, and 
spent his last 11 years in a VA hospital. I believe in the value of 
public service and have served before in the Federal Government. In the 
1990s, I helped modernize the Internal Revenue Service while at the 
Department of the Treasury and the National Weather Service while at 
the Department of Commerce. I have dealt with similar transformational 
challenges in the private sector at IBM. I also recently co-authored a 
book on the need to strengthen the civil service. As Deputy Secretary, 
my chief responsibility would be to make transformation happen at VA, 
so as to fulfill the President's vision of VA as a 21st century 
organization.

    Question 5. What do you see as the biggest challenges facing VA at 
this time--as to the Department as a whole, and specifically in VBA, 
VHA, and NCA?
    Response. Transformation is a challenging task for any 
organization, requiring changes in culture, systems, and training that 
can only come about through strong leadership, commitment, and 
investment. VA's biggest challenges are successfully implementing the 
Post-9/11 GI Bill; streamlining and updating the disability claims 
system; applying Information Technology in cost-effective ways to 
improve the delivery of benefits and services; and maintaining the same 
level of high-quality care to Veterans currently in the system while 
extending care to Priority Group 8 Veterans and reaching out to the 
Veterans of Iraq and Afghanistan. To meet these challenges, VA will 
need to modernize its use of people, process, and technology, with 
Veterans first in mind.

    Question 6. What will be your top three priorities after assuming 
the role of VA Deputy Secretary?
    Response. My first need as Deputy Secretary would be to learn more 
about the Department. My top three personal priorities would therefore 
be (1) ensuring that the 2010 budget includes adequate funding for 
Veterans' needs, (2) getting out to the field to learn from VA 
employees and Veterans themselves about the quality of front-line 
operations, and (3) reaching out to VA people--labor, front-line 
employees, mid- and senior-level managers--to assess and build an 
effective team.

    Question 7. What specific experiences from your prior professional 
positions do you believe have prepared you to manage VA?
    Response. My military career and family background instilled in me 
a spirit of service and personal experience of VA benefits and 
services. My government career focused on public-sector management in 
the areas of strategy, budget, financial management, acquisition, and 
personnel. My corporate career has served public-sector clients in the 
areas of strategy and change, organizational performance, large-scale 
IT system implementation, and human capital. I have served as both a 
COO and CEO of private firms and as a CFO of a major Federal agency, 
the Department of Commerce. I have also served on the Board of 
Overseers for the Malcolm Baldrige National Quality Award. In summary, 
most of my professional career has been spent working on the business 
end of government. These are the areas where VA needs to modernize to 
effect the transformation envisioned by President Obama and Secretary 
Shinseki.

    Question 8. What was your experience with respect to VA prior to 
the election of President Obama, and what have been your efforts to 
learn more about VA since the election?
    Response. Besides being a Veteran and VA beneficiary, I served on 
three of the Obama campaign's agency teams (VA, OPM, and DHS) and 
provided briefing memos on these agencies to then-Senator Obama. I also 
co-chaired the campaign's National Veterans Policy Committee. After the 
election, I co-chaired the Veterans Agency Review Team for the 
Presidential Transition Team. As co-chair, I conducted a number of 
interviews with political and career VA personnel and wrote strategy 
memos for the President-elect. I also helped prepare Gen. Shinseki for 
his confirmation hearings. Since the inauguration and intent to 
nominate, my involvement with VA has been minimal. I have continued 
with my responsibilities as an executive at IBM while awaiting vetting 
and the results of the confirmation process.

    Question 9. What were the key areas that you addressed in your 
report to the President-elect as a result of your work as the co-chair 
of the VA Agency Review Team?
    Response. The VA Agency Review Team apprised the President-elect of 
key areas to assist him in his early days in office. They include: (1) 
an overview of VA; (2) a list of high-priority issues to modernize and 
build a 21st century organization, provide Veterans with better 
services, and provide resources to match demand for services; and (3) 
an analysis of management, personnel, organizational, and interagency 
issues.

    Question 10. If confirmed, what efforts will you undertake to make 
certain that VA is aware of, and responsive to, the needs of the 
Veterans' community? Do you plan to meet regularly with Veterans' 
organizations?
    Response. Yes, I intend to meet with them regularly. They are 
important advocates for Veterans, and I value their advice and support. 
Outreach to Veterans, Veterans Service Organizations, and the full 
range of VA stakeholders is essential to creating a people-centric, 
results-oriented, forward-looking VA. Insight into what we must do 
together and the extent of our success will be known largely by the 
response of Veterans to VA's care and services. Outreach would not be 
my principal duty, but I would expect to represent the Secretary on 
occasion as a member of the VA leadership team, and I would be 
responsible for overseeing effective outreach by the relevant VA 
offices.

    Question 11. How would you, as Deputy Secretary, work with the 
Office of Inspector General? The Office of the General Counsel?
    Response. I would view the Inspector General and General Counsel as 
welcome partners in the process of identifying and mitigating risk to 
improve VA performance. I would meet with each immediately upon my 
arrival and regularly thereafter. I would respect the IG's impartiality 
and value the General Counsel's advice. With Secretary Shinseki, I 
would ensure that the Department upholds the high legal and ethical 
standards set by the President.

    Question 12. Are you more of a hands-on manager or do you tend to 
rely on significant delegation? Do you seek to achieve consensus with 
those on your management team before making a decision or do you 
generally gather relevant information and input, and then make a 
decision?
    Response. I regularly adjust my approach to meet the needs of the 
organization and its mission. My preference is to collaborate with a 
team to define the problem, organize the solution, delegate 
implementation, and follow-up using measurable results and personal 
inspection. I value consensus as a way to arrive at the best answers 
and to solicit buy-in by stakeholders, and I believe that top-down 
bureaucracy is one aspect of the public sector that can keep it from 
achieving its potential. At the same time, I recognize the 
responsibility placed on senior leadership for ensuring that the 
mission is accomplished, and I would make serving Veterans through 
transformation my governing concern. The single focus for 
transformational change should be the Veteran--providing those of every 
generation who have done their duty the benefits and services they have 
earned and we have promised.

    Question 13. VA has long had the reputation of being a stovepipe 
organization. Please describe how you intend to work with the three 
Under Secretaries and with the various Assistant Secretaries to ensure 
that all components of the Administration and organizations are working 
together to achieve a ``One VA'' focus.
    Response. Stovepipe organizations aren't around for long in the 
private sector. They are irritating and costly to clients, and so their 
clients go elsewhere. VA's clients can't go elsewhere and shouldn't 
have to put up with the extra cost and frustration of a stovepipe 
system. The remedy is an integrated approach by the organization that 
puts serving the client first and organizes delivery systems around the 
principle of creating a high-quality client service experience. This 
can be achieved by organizing people and tasks in support of a new 
design and disciplining key managers to break down stovepipes, 
coordinate activities among operating units, and modernize. VA could 
benefit from elements of this approach. Leadership, new processes, and 
training will be required to do it. A cultural change at VA will be 
required to develop and deliver integrated services to Veterans.

    Question 14. If confirmed, do you expect to bring any new staff 
from outside VA to work with you in the Deputy Secretary's office? If 
yes, how many new staff do you anticipate bringing on?
    Response. The Office of the Secretary operates as one team, with 
the Secretary and Deputy Secretary sharing many of the same staff. Not 
being a part of the team yet, I can't say now what additional staff I 
might need, but any need that might occur would be identified and 
validated with the concurrence of the Secretary and the Chief of Staff.

    Question 15. What is your view on the role of outside consultants 
in the management of VA? Do you anticipate relying on direct consultant 
services if you are confirmed?
    Response. At present, I don't know enough about VA's consulting 
relationships to have an opinion as to what is needed. But my 
experience in the public and private sectors tells me that I would 
first need to connect with the career team before leveraging outside 
consultants as needed. Outside consultants can sometimes help in 
bringing fresh eyes and extra hands to a problem, but managers must 
always keep inherently governmental responsibilities and cost-
effectiveness in mind when considering consultant services.

    Question 16. Do you anticipate having a role in selecting other 
political appointees to VA? What are your views on the key 
qualifications for such individuals?
    Response. Yes, I would have a role in selecting political 
appointees. My chief considerations in selecting political appointees 
would be leadership, competence, and passion to serve Veterans. VA 
needs the best, the brightest, and the most motivated leaders to work 
with the career team and tackle the challenge of transformation.

    Question 17. While VA did receive its appropriations for FY 2009 
prior to the start of the fiscal year, in 19 of 22 years prior to that, 
VA began the fiscal year without a budget. With that in mind, do you 
support appropriating funds for two years rather than annually?
    Response. I am aware of the interest in advanced appropriations as 
a way to mitigate management difficulties that result from continuing 
resolutions. My preference would be for timely enactment of annual 
appropriations for all VA accounts. I am committed to working with 
Congress to ensure that timely delivery of quality care and other 
services is not interrupted.

    Question 18. In light of the highly publicized problems with 
specific VA health care issues over recent months and years, how would 
you communicate to returning Veterans that, despite these issues, VA as 
a health care system is still among the best in the world?
    Response. It is important for our Veterans to know about the 
quality of health care available to them. Objective measures by 
independent bodies such as the Institutes of Medicine and the National 
Committee for Quality Assurance rate VA health care equal to or better 
than care provided by the best private health care systems. The New 
England Journal of Medicine lauds overall VA health care when compared 
to Medicare, and the Annals of Internal Medicine rates VA care for 
diabetes better than commercial managed-care systems in seven out of 
seven quality measures. Veterans themselves say they are satisfied with 
VA medical care at rates higher than their non-veteran counterparts 
using private health care, according to the American Customer 
Satisfaction Index (ACSI).
    In my view, the best advocate and most effective communications 
medium is a satisfied Veteran. Working with the Department of Defense, 
VA has many opportunities to create satisfied Veterans among the 
National Guardsmen and Reservists who are eligible for VA medical care 
upon demobilization. VA is actively reaching out to these returning 
Veterans, enrolling them in VA medical care, and making special efforts 
to meet the unique needs of their recent combat service. The goal 
should be to return these Veterans to their communities and to their 
units as satisfied clients who can attest to the quality of VA medical 
care. This is one facet of Secretary Shinseki's approach to creating a 
client-relationship management system and culture at VA focused on 
veterans.

    Question 19. There is widespread agreement that there must be real 
progress in improving the timeliness and quality of VA's claims 
adjudication process. What changes would you recommend? How would you 
propose to measure success in this effort?
    Response. VA faces real challenges in processing disability claims 
fairly and compassionately. Disability claims processing has been 
studied many times inside and outside VA. All of the studies with which 
I am familiar assert that change is necessary, but not enough change 
has occurred. I would want to know why this is the case and would work 
with the Under Secretary for Benefits to overcome the barriers to 
improvement in disability claim processing. The real standard of 
success is that each Veteran is satisfied that the process used to 
adjudicate his or her claim is transparent, responsive, fair, accurate 
and timely.

    Question 20. Despite many efforts, there appear to be continued 
challenges in communicating effectively with returning OEF/OIF Veterans 
on the availability of VA services and benefits. What do you believe VA 
can do to help ensure that transition from active duty is as seamless 
as possible and that returning servicemembers know about what VA has to 
offer them?
    Response. Fundamentally, these communications challenges are a 
leadership issue. I am convinced that VA needs a more effective 
approach to client relationship management and would work to integrate 
related strategies, policies, and processes to create such an approach. 
Building a client relationship with Veterans needs to start when young 
Americans join the Armed Forces and continue throughout their military 
careers. Education and training on VA, from both their military leaders 
and VA experts, using methods we can test and improve, will increase 
awareness of VA benefits and services among all servicemembers. It will 
also ensure they know where to go when they need these services as 
Veterans.
    An example of building this client relationship is the initiative 
by Secretary Shinseki and Secretary Gates to develop a ``uniform 
registration'' plan to automatically enroll all military personnel into 
VA upon entry into the Armed Forces. This is an initiative I hope to 
implement should I be confirmed.

    Question 21. One of the biggest challenges that the VA is facing is 
the implementation of the Post-9/11 GI Bill, which was signed into law 
on June 30, 2008. The full effective date of the new program of 
education assistance is August 1 2009, which means that now VA has less 
than five months to prepare for massive changes. What role will you 
play as VA prepares for implementation of the program?
    Response. I am aware of the challenge to meet the deadline set by 
the Post-9/11 GI Bill, and I would want to take a close look at our 
implementation plan and progress to ensure that VA is on the right 
track for timely completion. Should I be confirmed, the compressed 
timeline and scope of the program necessitates my active involvement. I 
intend to fully support the Under Secretary for Benefits in his role as 
the principal architect of this important benefits program. My 
contribution to his efforts would be to anticipate problems from the 
veteran's perspective, identify risks to meeting their needs, 
systematically manage risk out, and explore complementary strategies in 
a collaborative and transparent way.

    Question 22. VA does not track decisions made on individual 
disabilities for which a Veteran files a claim or claims. Data is 
provided in the aggregate which makes it appear that many more 
decisions are made to grant benefits than is actually the case when 
individual claims files are reviewed. For example, a Veteran may file a 
claim for 12 separate disabilities and be granted benefits on one at a 
rate of 10 percent, with the other 11 denied. In aggregate reports, 
this will appear as a grant of the claim, even though 90 percent of the 
separate disabilities claimed were denied. Data is not readily 
available at the grant and denial rate for the separate disabilities 
contained in an overall claim. What actions could be taken to improve 
VA's ability and support policy initiatives to improve accuracy?
    Response. I believe this is a clear case where a small and 
seemingly subtle difference in what we measure and how we measure it 
can significantly change our Veterans' perceptions of the fairness and 
transparency of VA processes. As you know, VA uses many objective 
measures to monitor the disability claims process, to include accuracy 
rate, average days to process, and average days pending. In my view, 
the value of any of these measures is two-fold: first, how do they 
advance VA's ability to serve Veterans more effectively by creating 
better outcomes for them; and, second, how do they advance Veterans' 
satisfaction with the transparency, responsiveness, and timeliness of 
VA processes. Both of these are keys to VA's client-relationship 
management challenge.

    Question 23. Information from VA's Rating Board Automation (RBA) 
2000 provides specific information that the Committee has been able to 
use effectively in conducting oversight visits to VA regional offices. 
However, it appears that VA does not routinely compile data on the 
separate issues decided in a given claim. How can RBA 2000 be modified, 
or another system created, that would provide such information on 
separate issues?
    Response. In the private sector, when management information tools 
do not meet the needs of executive decisionmakers, they are modified to 
provide the desired information cost effectively. Typically, this would 
begin with an assessment of the information required, the cost to 
collect it, and its value in use. Then the business process used to 
collect the information would be modified and agreed to by the 
participants. As a last step, a software application would be modified 
or created.
    I understand that RBA 2000 is one of our current management 
information tools used by VBA in the claims adjudication process. 
Should it need to be modified, I would envision following such a 
process to achieve the desired goals.

    Question 24. VBA has produced an Annual Report that contains 
helpful information to assist the Committee in evaluating various 
legislative proposals. Unfortunately, these reports have been 
considerably delayed in the last several years and the most current 
versions contains FY 2006 data. The delay is reportedly due to the 
difficulty of matching Veterans Service Network (VETSNET) data to the 
Benefits Delivery Network (BDN) data that historically was used to 
prepare the reports. What steps would you take to improve the accuracy 
and timeliness of this report?
    Response. Good data are important to congressional members, their 
staff, and VA managers to help inform policy decisions. I infer from 
this question that the Annual Report is particularly useful to 
Congress. If confirmed, I would like to understand more fully the 
technical problems with producing the VBA Annual Report and the 
requirements to produce a timely and accurate report in order to 
address this issue.

    Question 25. VA's Deputy Secretary currently serves as the Co-
Chairman of the VA/DOD Joint Senior Oversight Committee along with the 
Deputy Secretary of Defense. How would you view your role as Co-
chairman? What would be your priorities for improving the level of 
collaboration and cooperation between VA and DOD?
    Response. I know that Secretary Shinseki and Secretary Gates have 
agreed to chair the first few meetings of the Senior Oversight 
Committee, and I think the involvement of both Secretaries is an 
auspicious beginning to results-oriented collaboration and cooperation 
between VA and DOD in the present Administration. As Deputy Secretary I 
would certainly follow Secretary Shinseki's lead in working closely 
with DOD. Joint VA/DOD collaboration is key to solving the problems 
that develop when active duty personnel transition to veteran status. 
The SOC is well positioned to address these problems through 
initiatives like uniform registration and single electronic health 
records.

    Question 26. Recently, it has been reported that there is a high 
rate of suicide among active duty soldiers. What role do you believe 
the VA/DOD Senior Oversight Committee could play in bringing VA's 
expertise in suicide prevention to DOD?
    Response. Nothing underscores the need for better outreach and 
transitioning programs than suicide among Veterans and servicemembers 
The Senior Oversight Committee (SOC) can provide an effective structure 
for leveraging the expertise, capabilities, and resources in DOD and VA 
to address this problem. The SOC provides a joint governance mechanism 
that can focus the attention of senior leaders on suicide, access data 
from both organizations, and coordinate efforts to identify at-risk 
personnel to provide information and treatment.

    Question 27. What is your view of the effectiveness of the 
centralization of information technology programs and operations under 
VA's Chief Information Officer? What would be your priorities for 
improving the integration and use of information technology to improve 
the delivery of VA benefits and services?
    Response. This Committee acted wisely by centralizing IT services 
at the VA. Like Secretary Shinseki, I am a strong supporter of 
centralized IT services as a means to break down stovepipes within VA 
and address obvious shortcomings in performance. My experience in the 
private and public sectors indicates that the decision to centralize is 
just the first step. IT policies, priorities, and resources require a 
disciplined governance process, and sound program management is needed 
as well. This is achieved through collaboration between the IT 
organization and the line units they serve. It requires measurement of 
services provided and accountability for results. It also requires 
substantial investment in people in the form of training and 
recruiting. A disciplined governance process provides a systematic way 
to develop a common understanding of the problem. Centralization, when 
combined with these steps, will improve mission performance and ensure 
more cost-effective solutions.

    Question 28. If confirmed, what would your role be as Deputy 
Secretary in brokering differences in priority, policy, and resources 
between VA's CIO and the Under Secretaries?
    Response. My responsibilities as Deputy Secretary would include 
overseeing the disciplined governance and program management of VA's 
centralized IT process. But even the most vigorous application of the 
steps mentioned in my answer to question 27 above can grind to a halt. 
That is when a trusted point of appeal like the Deputy Secretary can 
help reach openly a favorable compromise that meets the investment 
criteria to which the parties have agreed. Centralized control of the 
VA IT system is already a VA policy. The hard work of implementing the 
policy has begun. The systems that will deliver substantial benefit to 
VA in the future will require cooperation, collaboration, and teamwork 
to make them work and accomplish the mission.

    Question 29. Outsourcing was a priority of the previous 
Administration. What is your view of outsourcing as it applies to VA?
    Response. I do not know enough yet about outsourcing at VA to say 
where we should and where we should not outsource. I can say that 
inherently governmental services should be provided by government 
agents, and that Federal employees should be able to compete on a level 
playing field with contractors. Outsourcing can make sense in some 
cases, especially where new skills, knowledge, and technology are 
available to improve government performance. But we should not be 
outsourcing for outsourcing's sake, and we need to invest in training 
and skilling our Federal workforce to ensure that when government does 
outsource, it has capable oversight and achieves desired results.

    Question 30. President Obama has stated that one of his goals for 
VA is to readmit Priority 8 Veterans. What is your opinion of this 
proposal? If it should be pursued, how can it be done more efficiently?
    Response. I strongly support readmitting Priority Group 8 Veterans 
and commend Congress for its part in prompting this change. At the 
President's direction, Secretary Shinseki has begun the process of 
readmitting Priority 8 Veterans, which I would oversee if confirmed. I 
believe the challenge now is to monitor VA health-care delivery to 
ensure that VA continues to provide world-class health care to all 
Veterans enrolled in the system even as we expand the rolls.

    Question 31. President Obama has stated that prosthetics in a 
priority area for his Administration. What do your believe VA might do 
to improve the developments and delivery of prosthetic devices to 
Veterans.
    Response. Like President Obama and Secretary Shinseki, I understand 
how important this service is for our Veterans. I believe this area 
should be a ``strategic differentiator'' for VA and that VA should be 
the ``Nation's best'' in this field. Achieving this goal requires that 
we ensure quality, foster innovation, and invest in research, highly 
qualified personnel, and cutting-edge prosthetic and sensory aid 
equipment for our Veterans. If confirmed, I will work to learn more 
about the details of the Prosthetics and Sensory Aids Service and the 
requirements to keep VA at the forefront of quality, technology, 
innovation, and service.

    Question 32. Over one-third of Veterans live in a rural or highly 
rural areas. How do you believe VA might expand the services available 
to Veterans in these areas?
    Response. VA has a responsibility to treat Veterans' injuries and 
wounds regardless of where they live. It is my understanding that the 
new VA Office of Rural Health will identify local initiatives for 
pilots expected to lead to improved rural health care. In the meantime, 
I would expect a continuing mix of care, the expanded use of telehealth 
for treatment of mental health needs of Veterans, and the continuing 
development of referral approaches and transportation where needed. If 
confirmed, I will work to develop and maintain a dialog with Veterans 
so that we understand their needs and expectations. Where possible, I 
will focus VAs efforts to provide innovative solutions that mitigate 
the challenges presented by remote and isolated locations.

    Question 33. VA spent billions of dollars last year on contracted 
or fee basis health care. How can VA ensure the quality of the health 
care delivered in those settings?
    Response. I fully support VA's obligation to meet the health care 
needs of Veterans. I understand that, in some situations, the Veteran's 
health care needs will be best served through contracted health care. 
If confirmed, I will ensure that any such health care contract has the 
proper legal review and includes the appropriate quality controls 
approved by VA. In addition, getting the right data to determine when 
fee-basis is the optimal solution and on the quality of the fee-basis 
care provided will be essential to providing our Veterans with the 
high-quality health care they deserve.

    Question 34. On any given night, 154,000 Veterans are homeless. How 
will you, if confirmed as Deputy Secretary, work with the Department of 
Labor and other agencies to help address this problem, including by 
finding work and housing for these Veterans?
    Response. VA has a critical role in cooperation and coordination 
with HUD and other Federal programs to address the needs of homeless 
Veterans and to share expertise that is applicable to other homeless 
issues. I want to learn more about my responsibilities and resources to 
deal with this important problem and would look forward to meeting with 
my counterparts at HUD, HHS, SBA, and DOD to discuss our shared 
resources and responsibilities, as well as with other leaders of 
private and non-profit organizations who work with issues of 
homelessness.

    Question 35. What is your view of VA's CARES process and VA Capital 
Plan Overall? How will you involve senior Veterans Health 
Administration leadership, Congress, Veterans service organizations, 
affiliates, and other stakeholders in the remaining decisions related 
to VA capital infrastructure?
    Response. It is essential that we have common processes and 
decision criteria to which we can all agree. There is more demand than 
resources, and we must have effective processes and measures to 
prioritize the expenditure of resources. I need to learn more about the 
CARES process and the overall Capital Plan before forming an opinion, 
but I would work closely with Secretary Shinseki, Senior VA leadership, 
Congress, Veterans' Service Organizations, and other stakeholders, 
including Veterans, to make informed decisions about our capital assets 
and modify the CARES system if needed.

    Question 36. In light of the national shortage of nurses and 
doctors, what do you believe VA should be doing to ensure that 
Department can recruit and retain high quality health care providers?
    Response. I support the Secretary's charge to the Under Secretary 
for Health for a detailed plan to address the issues of recruiting and 
retaining high-quality health care providers. VA must acquire and 
retain its fair share of talent. To do this, we must streamline the 
hiring process, improve flexibility in hiring and retention programs, 
and create incentives that drive retention and performance. We must 
also improve the work environment through, for example, training for 
our managers and cooperation in labor-management partnerships, so that 
our valued employees look forward to coming to work.

    Question 37. Do you agree to supply the Committee with such non-
privileged information, materials, and documents as may be requested by 
the Committee in its oversight and legislative capacities for so long 
as you serve in the position of Deputy Secretary?
    Response. Yes. With Secretary Shinseki and his Chief of Staff, I 
would work to make sure that any information requested by the Committee 
would be provided in a timely manner. I can promise to be forthright 
and direct with you in our joint efforts to put Veterans first.

    Question 38. Do you agree to appear before the Committee at such 
times and concerning such matters as the Committee might request for so 
long as you serve in the position of Deputy Secretary?
    Response. Yes. VA's chief concern is the Committee's chief 
concern--taking care of Veterans. I would look upon the Committee as 
VA's partner in that sacred trust, and I would be forthright and 
forthcoming with any such request from the Committee.
                                 ______
                                 
  Response to Pre-Hearing Questions Submitted by Hon. Richard Burr to 
   W. Scott Gould, Nominee to be Deputy Secretary of Veterans Affairs
    Question 1. According to the questionnaire you submitted to the 
Senate Committee on Veterans' Affairs, you have been serving as the 
Vice President of Public Sector Strategy for IBM Global Business 
Services since 2004.

    A. In that capacity, what interactions, if any, have you had with 
the Department of Veterans Affairs (VA)?
    Response. None.

    B. Do you anticipate that, if confirmed as Deputy Secretary, you 
would have involvement in any decisions regarding IBM?
    Response. I will not participate in any matters involving IBM for a 
period of one year as required in my agency ethics agreement. In 
addition, I will abide by the requirements in the Executive Order 
entitled ``Ethics Commitments by executive branch Personnel,'' issued 
by the President on January 21, 2009.

    C. If so, do you see a conflict between your previous job and the 
one you are being considered for (other than what the Office of 
Government Ethics identified)?
    Response. I see no conflict between my current role as an IBM 
executive and my prospective role as Deputy Secretary of the VA. 
Further, I am required to divest all of my IBM holdings under the terms 
of my agency ethics agreement.

    Question 2. In disclosure documents submitted to the Committee, you 
noted that you are ``a non-managing member of Aegis Capital Corp, LLC, 
a company established to make private equity investments that will 
support the growth of homeland security-related enterprises in foreign 
countries.''

    A. Would you please clarify whether you intend to remain a non-
managing member of Aegis if confirmed as Deputy Secretary?
    Response. I intend to remain a non-managing member--i.e., a passive 
investor in Aegis Capital Corp, LLC.

    B. If so, would you please explain what your role would be in that 
firm?
    Response. I have no management or fiduciary responsibilities. This 
is not considered an outside position for the purposes of the financial 
disclosure report.

    Question 3. In your disclosure documents, you noted that, if 
confirmed, you ``will retain, in name only, [your] position as a fellow 
in the National Academy of Public Administration'' and that you ``will 
not participate personally and substantially in any particular matter 
involving specific parties in which the Academy is a party or 
represents a party,'' unless you are first authorized to do so.

    Would you please clarify what types of matters you would not 
participate in? For example, do you anticipate that you would be 
involved in implementing recommendations from the National Academy of 
Public Administration's recent report, entitled ``After Yellow Ribbons: 
Providing Veteran-Centered Services''?
    Response. I will not be involved in any contract or other specific 
party matters involving NAPA. I have been briefed on the results of the 
NAPA report, which contained a number of insightful recommendations. It 
is my understanding that I can make use of the content in these reports 
without conflict under the terms of my ethics agreement.
                                 ______
                                 
Response to Post-Hearing Questions Submitted by Hon. Daniel K. Akaka to 
   W. Scott Gould, Nominee to be Deputy Secretary of Veterans Affairs
    Question 1. In your book, ``The People Factor,'' you stated that 
the government has a hierarchical organizational structure that 
inhibits ``innovation and rapid activity.'' You recommended the 
government to adopt the core-ring approach and the matrix structures. 
Can you explain how and where you would incorporate the two models to 
improve the Department's efficiency and management of its workforce?
    Response. The People Factor discusses a range of options for 
governmentwide organizational structure that could be used to improve 
organizational performance in the Federal Government. Structure alone 
is not sufficient to transform a government agency: strategy, people, 
process and technology changes are required as well. Consequently, a 
decision to incorporate a particular option like the core-ring model or 
matrix structures is highly dependent on the specific VA mission and 
the strategy, people, processes and technology already in place. If 
confirmed, I look forward to evaluating which of these options might 
help improve organizational performance at VA. There is no formula here 
that could encompass all of the unique needs of VA. Nor is there an 
option to choose without the opportunity to consult with VA 
stakeholders, evaluate alternatives and reach an informed decision on 
whether--and if so how--to employ these organizational options at VA.
    Question 2. According to your book, you claim that Chief Human 
Capital Officers (CHCO) do not participate in key agency decisions in 
planning and recommended that CHCOs be made full partners in senior 
management teams of every agency. If confirmed, how would you ensure 
that the Department's CHCO would have a central leadership role in 
planning?
    Response. When Secretary Shinseki made ``people centric'' the first 
element of his strategic vision for VA, he aligned the organization 
with a key success factor for transformation of large agencies. People 
are essential to successful change management in any agency. This means 
not only involving them in decisionmaking but communicating the case 
for change and their role in it. The VA Chief Human Capital Officer can 
help make this happen by developing the workforce; anticipating new 
knowledge, skills and abilities for employees; and developing plans to 
hire, train, develop and recruit personnel to transform VA. Enabling 
the VA CHCO to make this unique contribution to transformation would 
require knowledge of sound practice in the field; a ``seat at the 
table'' in important governance committees; access to enterprise-wide 
data on personnel to inform policy decisions; the authority to make 
department-wide policies; and the obligation to provide prompt, high-
quality service that supports VA line units.
    Question 3. You recommended de-layering government agencies of its 
hierarchical organization to help speed up decisionmaking. You claimed 
that a flatter organizational structure would improve the process of 
decisionmaking because employees that are closer and more familiar to 
the issue can act quickly without going through the layers of 
management.

    a. Do you think that de-layering the Department is the most 
appropriate means of improving decisionmaking?
    Response. As I mentioned in my response to question number one 
above, The People Factor discusses a range of options for 
governmentwide organizational structure that could be used to improve 
organizational performance in the Federal Government. Structure alone 
is not sufficient to transform a government agency; strategy, people, 
process and technology changes are required as well. Consequently, a 
decision to incorporate a particular option like delayering is highly 
dependent on the specific mission of the organization and the strategy, 
people, processes and technology already in place. If confirmed, I look 
forward to evaluating whether--and if so how--delayering could be used 
to improve performance at VA.

    b. If not, what steps would you take to improve the speed of the 
decisionmaking process?
    Response. Many things could be done to improve the relative speed 
of decisionmaking at VA. Much depends on the type of decision being 
made: which issue, with what information, who will make it and on what 
authority. And all depend on the quality of information, knowledge and 
responsibility of the decisionmaker.
    But as a general principle, where there are knowledgeable and 
responsible employees in place, decisions that can be made on the front 
line should be made on the front line. This empowers VA employees to 
serve Veterans more effectively. Within the limit of law and 
regulation, employees should have the discretion to make decisions that 
serve Veterans on the spot. Empowering the front line and middle 
management to make--and be held accountable for, these decisions can 
reduce the volume of decisions and eliminate bottlenecks for 
decisionmaking at the top level of the organization.
    In general, there are several potential ways to improve 
decisionmaking at VA. For example, the decisionmaking process could be 
streamlined in several ways including the following. First, the 
leadership team can set higher standards for fast, informed and 
transparent decisions. Second, the agency can create a governance 
process that it can use to identify and analyze risks, discuss options 
and make recommendations on a repeatable basis that bring the parties 
together to air and settle issues. Third, the agency can use data to 
track progress on performance and share it with other decisionmakers 
thereby creating a trusted basis for sound decisions. This ensures that 
decisions are based on the same information, which tends to focus 
disagreement on differences in other assumptions or desired outcomes. 
Fourth, based on common data, the agency can conduct performance 
reviews of decisions and their outcomes to learn how to make better 
decisions over time. Making better decisions and making them faster is 
a skill that organizations can develop.
    If confirmed, I look forward to evaluating which of these 
approaches to speed decisionmaking might be applicable to VA.

    [The Committee questionnaire for Presidential nominees from 
Mr. Gould follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [A letter from the Office of Government Ethics follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    [Letter from Mr. Gould to the Office of General Counsel, 
U.S. Department of Veterans Affairs:] 


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Akaka. Thank you very much for your statement, Mr. 
Gould.
    Mr. Gould, you spent some time immersing yourself in VA's 
inner workings during the President's transition, but you are 
not a VA insider nor are you coming from a veterans advocacy 
group. How can you begin to establish your credibility and gain 
trust and acceptance--elements that we consider critical to 
success?
    Mr. Gould. Senator, I think that is an age-old process of 
listening, of treating people with unfailing positivity and 
respect, and reaching out to the many stakeholders in the VA 
community: the veterans service organizations; the veterans 
themselves; and, I think as importantly, our front-line 
employees who have a lot to tell us.
    Chairman Akaka. Thank you. If confirmed, you will be at the 
top of Secretary Shinseki's leadership team. How will you tap 
the obvious knowledge and policy strength that is already in 
place and will indeed exist long after you have moved on?
    Let me just say that I raise this in light of the recent 
proposal to bill insurance companies for service-connected 
care. I cannot imagine any of the long-time policy experts in 
VA proposing such a thing.
    Mr. Gould. No, sir, and they did not. And I know that 
Secretary Shinseki vigorously worked to avoid that 
announcement. And, I am pleased to say that I think at our 
final point the Administration reached out to the veterans 
service organizations, to the community, tested those ideas, 
found them lacking and quickly withdrew them.
    But your overall point, sir, is that we need to be 
listening to our career civil servants, our team there: over 
280,000 employees, 20,000 physicians, 60,000 nurses. This is a 
core team with deep knowledge. We need to be approaching them 
with respect and as members of the team, and listen to their 
advice and counsel.
    Chairman Akaka. In your recently released book--we chatted 
about this--you argue that VA employees should be seen as 
strategic resources with ability to seek new solutions by 
reaching out to fellow government employees, VSOs and vendors 
in the private sector. I am wondering how practical this 
suggestion would be. For example, if Jim, the claims processor 
in your book, stops what he is doing and does what you suggest, 
who does his work in the meantime and what happens to the 
claims backlog?
    Mr. Gould. I just, Mr. Chairman, believe so strongly that 
we need to stop thinking about civil servants and government 
employees as a cost and start thinking of them as an 
investment.
    And the point that my co-author, Linda Bilmes, and I were 
raising in the book is a simple one: that change--that the 
opportunity to transform, the opportunity to advance the cause 
of veterans at the VA--I believe, will come in large part from 
the men and women who are serving veterans every day. What that 
means, practically, is that we need to have mechanisms that 
will allow them to contribute their ideas and their creativity.
    Now does that mean, practically speaking, everybody takes a 
6-month holiday and we go figure out a new strategy for the VA? 
No. I think what is does mean is that you look to the civil 
servant population. You ask for volunteers and you hope to find 
those few bright sparks who say I want to lend some ideas, I 
want to create some new forward momentum in this organization. 
And you engage them and bring them in that process. And you 
listen and come to good decisions and then move forward.
    Chairman Akaka. Well, thank you for all your responses. I 
have questions also based on your book, but let me call on 
Senator Tester for any questions he may have.
    Senator Tester.
    Senator Tester. Thank you, Mr. Chairman. Thank you very 
much.
    Dr. Gould, the new GI Bill takes effect August 1st. This is 
April 1st. How will you ensure that those benefits are 
delivered on time over the next 4 months?
    Mr. Gould. With only 4 months to go, it is, as they say, a 
sporty course. The bill was enacted almost 7, 8 months ago now, 
and the VA, to the best of my knowledge, has been working 
vigorously and with all seriousness to make sure that the 
organization meets the August 1, 2009, deadline.
    In my work as Co-Chair of the Agency Review Team, I had an 
opportunity to do a lot of analysis on the program at that 
point. I have to say that in the last 60 days I have not had 
that same level of access nor opportunity to delve into the 
progress of the GI Bill.
    I think it is fair to say that it is a high-risk project, 
that it has presently the full attention of the leadership 
team, and, if given the opportunity to be confirmed, I will 
delve into that program and project immediately to satisfy 
myself that we will meet that deadline.
    Senator Tester. Do you support advance appropriations for 
the VA?
    Mr. Gould. I support a steady, predictable source of 
funding for an Organization that badly needs to know when it 
can hire people and when it will get the money to serve our 
veterans.
    Senator Tester. OK. So does that mean you support advance 
appropriations?
    Mr. Gould. Senator, as I mentioned earlier, just a moment 
ago, it means that the outcome of a process I think 
traditionally owned by Congress is one that needs to play out 
here, and what I would envision is the need for a stable and 
consistent funding that we can predict.
    Senator Tester. OK. So let's assume that taking all the 
politics out of it, that we go forth with an advanced 
appropriation budget for the VA, how will you project that 
budget to ensure it meets the needs of our veterans?
    Mr. Gould. Senator, thank you for the opportunity to answer 
the question in that way. Very carefully, we will work to make 
it work. We have a very fine budget team and career civil 
servants who will help us work with the models, a Milliman 
Model as an example, to develop the best predictor of 
utilization at the VA.
    I must share with you that that is a model that has some 
weaknesses in it, and the further out in time that you endeavor 
to predict, the higher likelihood there will be a gap between 
what you predict and what you need. So that process of 
projecting now, not just 12 or 18 months but double that period 
of time, is the challenge that I think everyone is most 
concerned about.
    Senator Tester. All right. Disability benefits. You know as 
well as anybody in this room that Iraq and Afghanistan veterans 
in particular return with some pretty severe disabilities. The 
VA's rating process in my opinion is outdated. It really has 
not evolved with the modern technologies or the new kinds of 
injuries that our troops are facing, particularly neurological 
and psychological injuries.
    How do you plan to modernize the VA to meet the needs of 
those folks; and, furthermore, as brought up earlier, really 
tackle not only the neurological and psychological problems, 
but tackle the backlog in claims itself?
    Mr. Gould. Senator, this is a problem that has been long 
acknowledged. It is a problem that, to the best of my 
knowledge, has been studied in depth by a number of blue ribbon 
panels and by management teams for many years. The consistency 
of the recommendations in those documents is fairly clear, and 
I will talk about those in a minute.
    The thing that concerns me is the lack of execution against 
those recommendations, and, clearly, the ability to adopt them 
requires the agreement of this Committee, of the veterans 
service organizations, of veterans themselves and the 
contribution of VA employees to make it all work. But, for one 
reason or another, that has not happened.
    There are three levels of analysis that I think make sense, 
if I am confirmed, to conduct inside the VA:
    The first is to ask ourselves the question: Is this rule 
set too complex to manage effectively? Can the rules be 
changed?
    The second with respect to business process: Can we 
streamline the business processes that are currently being used 
at the VA so that, within the guidance of law, we more rapidly 
reach conclusion and can respond to veterans' needs?
    And last, I am very hopeful about the potential for the use 
of new technology such as the paperless environment that has 
been mentioned previously by the Chairman in his introductory 
remarks.
    Senator Tester. I look forward to your meeting those goals 
and do that assessment.
    My last question, and I have a bunch of them, and we may 
put some of them through, but I ultimately think that you are 
the right man for this job anyway.
    Mr. Gould. Thank you, sir.
    Senator Tester. Chairman Akaka asked a similar question 
about you being at the top of the team with General Shinseki 
and others. You have a pretty clear direction of where you are 
going to go from the experiences you bring to this position.
    I guess the question I have is how do you get your goals 
and your views and your vision for the VA to the ground where 
the people, for the most part, are doing some really good work, 
but every once in a while you guys and gals want to move in a 
different way, and it does not necessarily transfer to the 
ground? How do you get it to the ground?
    If you want me to clarify the question because it was a 
little vague.
    Mr. Gould. No, no. It is the question in transformation of 
any large organization. I just want to share with you the 
experience I had as Co-Chair of the Agency Review Team.
    I probably did 100 interviews, reviewed a lot of documents, 
and so on, got a little bit of a sense, initial sense over a 2-
month period of the VA. On a uniform basis, I have to say how 
impressed I was with the commitment, the passion, the belief 
that Federal employees have in the VA for doing the job that 
they are doing.
    In my view, that is the thing for which there is no 
substitute. Once it is there and you can enter into a 
conversation, a dialog with employees in much the fashion that 
I have described earlier, then I think you have the opportunity 
for finding, in the front line, creative ideas and innovations 
that can be brought forward and brought up the chain of command 
and engaged in that fashion.
    You asked an even harder question which is, what if you get 
to the nine out of ten that are ideas that are readily adopted, 
you got a tenth that has got to go through? Very simply, I 
would say you look to the incentives of the individuals 
involved. So, explain the value of what you are doing. Work to 
communicate, to develop understanding--frankly, to negotiate.
    This is a very, very large organization, lots of people 
involved. It is very, very rare that a ``my way or the 
highway'' type of approach will succeed.
    That said, when it comes to issues of accountability in the 
organization, I believe that Secretary Shinseki and, if 
confirmed, I will join him in the process of demanding that we 
hold people accountable for the results that they achieve.
    Senator Tester. All right. Very good. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Tester.
    Now I would like to call on our Ranking Member for his 
statement and his questions.
    Senator Burr. Mr. Chairman, aloha. Thank you.
    Chairman Akaka. Aloha. Good to see you.

        STATEMENT OF HON. RICHARD BURR, RANKING MEMBER, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. I apologize to you, and I apologize to Scott. 
My schedule had this starting at 10. I think you upped it, and 
when I found that out I could not reschedule the mayor of my 
home town who was going to do everything he could to see me 
today. So I apologize for that. [Laughter.]
    Mr. Chairman, let me say at the beginning I had the 
opportunity to spend some time with the nominee this week. I 
found it to be enlightening and fulfilling, and it is my belief 
that we should move this nomination as quickly as we can.
    As I sat here and heard you answer Senator Tester's last 
question, though, Scott, it made me realize in the South we 
like to make sausage. It is pretty easy to make, but as long as 
you stuff it in the traditional thin skin it is not as easy to 
make it into what we are accustomed for generations and 
generations and generations to serve.
    You know it sort of reminds me a little bit about 
government. We have a lot of good people and a lot of good 
ideas, but we consistently try to stuff it into the old 
framework of something that is antiquated and has proven time 
and time again will not allow innovation and creativity because 
it has no flexibility.
    Let me just ask you to drill down a little bit and, 
specifically, what recommendations would you make to General 
Shinseki with your knowledge of, one, where we need to go; and, 
two, a very good understanding of where we are here? How does 
it structurally have to change?
    Mr. Gould. Senator, you have asked a very challenging 
question.
    I have spent the last 4 years at IBM, leading an effort on 
innovation within the company, and I will just describe it to 
you briefly and then try to relate it to the prospective 
opportunity here.
    The company called IBM has been number 1 in the world in 
the creation of intellectual property for the last 13 or 14 
years in a row, does it very, very well, and it has done it 
primarily in the hardware and software arena.
    Some of the senior executives in the government practice 
recognized that they needed to figure out how to do innovation 
in the services industry. So we created something called the 
Global Leadership Initiative, identified a series of the 
toughest challenges and went about trying to solve those on a 
portfolio basis.
    Like that, in my view, innovation that gets outside the 
box--your point--that is not stuffed into the old sausage skin 
and looks like and comes in the same serving size as we are 
used to, really requires a dialog with front-line employees and 
with stakeholders about what those net new solutions could be.
    And then, you have to put a dedicated team on figuring out 
how to make that happen--developing the idea, building the 
business case to make sure the benefit net of cost is really 
going to sustain interest over time, and then engaging people 
in that process of maturing the idea and turning it into an 
investment-grade solution.
    Senator Burr. You have a huge challenge, and I think you 
will find all Members of this Committee more than willing to 
help remove any impediments that you might find because I 
believe the solution is in an architecture that we have yet to 
create. And our success is dependent upon our ability to begin 
to construct that architecture of the VA of the 21st Century.
    In your book, The People Factor, you note that it is ``very 
difficult to fire, demote, or even deny a pay raise to an 
individual who is not performing well'' in the Federal 
Government. This ``is one of the bigest complaints of Federal 
workers.''
    Well, I have to ask you. Is this a concern that you have at 
VA and, if so, how do you plan to address it?
    Mr. Gould. Thank you, Senator.
    As you may have noted or folks on your staff, one of the 
case studies that we presented in the book was an analysis of 
change within the strictures of Title 5, that is within the 
rules and regulations that exist today. And it is my view that 
entirely within Title 5 it is possible to do innovative and 
important work in government, using those requirements.
    Specifically, number 1, we need an improved labor-
management partnership at the VA. We need to reach out to our 
unions. We need to involve them in a process that will have 
them contributing their creativity and input into that 
strategic planning process I mentioned a moment ago.
    Number 2, we need leadership. There is a difference between 
leadership and management, and I believe that Secretary 
Shinseki is a leader, someone who is setting high goals for the 
organization, establishing a vision and working hard with 
Congress to make sure that there are adequate resources to make 
that happen.
    So those are two specific things. A partnership with the 
folks on the front line who make it all go and leadership at a 
high level, combined with the resources to be able to make that 
happen, make me confident that change can occur in the VA.
    Senator Burr. As I know from my conversation with you, you 
have been in and out of government, and you understand the 
difficulty, the cultural challenges within our workforce 
regardless of what agency you are in. I commend you for 
understanding that and encourage you not to back off from any 
attempts to begin to change it, because it is those that excel 
that should be rewarded and it is those that are complacent 
that we should find a means to either punish or reward, 
whichever is appropriate.
    Mr. Chairman, you have been awful kind. I am going to ask 
one last question, if I could; and again I apologize to you and 
to Scott and, more importantly, to his family on this day that 
I was not here at the beginning.
    You highlighted in your testimony the importance of 
transforming the VA into the 21st Century. What do you see as 
your greatest challenge in that transformation process?
    Mr. Gould. I think the greatest standard that we are 
seeking to achieve here is a standard that is in the hearts and 
minds of every veteran served by the VA. The future vision that 
the Secretary has outlined--having to do with people and 
results and a forward-looking organization--all turn around our 
capacity to meet the high expectations of the veterans that we 
serve.
    I would envision a VA that is much easier to access, that 
has higher quality health care and economic benefits to offer 
our veterans and that, ultimately, is more cost-effective and 
productive in how we do that work. The clear image of that is 
something, deliberately, we want to involve employees with, the 
veterans service organizations, and this body to come to a 
crystal clear understanding of what that will be, and that is 
out of deference to and appreciation for the consultative 
process that we are going to have to go through to commit to 
that firm goal.
    But the broad parameters are there. Secretary Shinseki has 
laid that out, and now the job of his Chief Operating Officer, 
if I am confirmed for that position, will be to implement, to 
execute, and to make that happen.
    Senator Burr. Well, I thank you for your willingness to 
serve the public, and I feel very confident, under the 
Chairman's leadership, the future of this nomination is not in 
question.
    I thank the Chair.
    Mr. Gould. Thank you, Senator.
    Chairman Akaka. Thank you. Thank you very much, Senator 
Burr.
    I would like to go back to the book, Mr. Gould. Your book 
suggests that 90 percent of initial claims for compensation are 
granted. I believe that actually the percentage of specific 
claims items is much lower.
    How would you suggest that VA compensate veterans if VA 
finds that roughly half of their claim conditions are not 
deemed service-connected at first look?
    Mr. Gould. Mr. Chairman, I would obviously defer to the 
Chairman's view of what that precise number is and offer to you 
the spirit in which that observation was made in the book. And 
that is that I share a belief along with my co-author, Harvard 
professor, Linda Bilmes, that there are opportunities in this 
process to streamline it, to make it better, to serve veterans 
more efficiently and effectively and that one of the ways that 
we can make that process more streamlined is to recognize when 
additional tasks add no value to a process.
    So, if it is the case that some significant percentage of 
applications that are put into a process where an individual 
has requested a particular outcome, in fact, have no additional 
value added provided by the organization reviewing them, that 
is a candidate--in my experience in a business process redesign 
world--to shed. It is to recognize that there is an opportunity 
to move that process forward more quickly because we do not 
have to expend the resources to make that happen.
    Chairman Akaka. That is great.
    Despite the historic increases in VA's budget and the need 
to quickly bring on new staff, I understand that all new hiring 
decisions in VHA are being reviewed by the incumbent VHA 
leadership through a human resources committee. I have been 
told that the local managers are being asked to provide lengthy 
justifications for new hires with a focus of potentially 
contracting the position out. What is your view of this 
process?
    Mr. Gould. Mr. Chairman, obviously, one of the most 
sensitive sets of decisions that can be made in an agency in 
government is who to hire and when, by what criteria we make 
that decision. And, under Title 5, there are a set of strict 
standards about how that should be done, particularly with 
respect to our career civil servants who, in my view, should be 
protected.
    You are raising new information to me. Frankly, I was 
unaware that there was that kind of control being exercised. 
And, with your permission, I would like to, if confirmed, have 
the opportunity to dig into that, get an answer back to you 
that would reflect more of the facts on the ground.
    Chairman Akaka. Thank you for that.
    Now let me move to training, Mr. Gould. Training and 
retraining staff is an absolutely necessary and worthy 
endeavor, but it is expensive both in terms of direct costs and 
opportunities lost. How do you believe VA's workforce should be 
trained, with these concerns in mind?
    Mr. Gould. Mr. Chairman, you have seen me levitate about 
six inches off the chair on that issue, and you would be right. 
I do not think many people in our country understand that 
government spends $700 billion a year--a year--on personnel. 
That is like one TARP going out of government every 12 months, 
and yet we spend about \1/3\ of the amount of money that the 
private sector does on training.
    To me, it stands to reason that if you are going to have 
all those people and you are going to ask them to do new things 
and respond to new technology and redesign and transform and 
you are really putting a lot of challenges at them, then, at a 
minimum, government--in our case, for our conversation here 
today, VA--has an obligation to invest in our career civil 
servants to provide them training.
    The point of the question, obviously, is how do you do that 
and where do you come up with the money to make that happen? 
That is where Congress comes in. And I hope and believe that 
Secretary Shinseki and I will have an opportunity, if 
confirmed, to make that business case.
    I would point out that in the book we make an economic 
argument on just those grounds. How is it that additional money 
to train can result in cost savings, cost avoidance and better 
performance down the road and that we ought to be making those 
investments now?
    It is the same logic that we use for our veterans for 
education and training and vocational rehab and so on. We are 
reaching out. We are investing in them, in the hope and belief 
that they will contribute back to society, have richer lives as 
a result of that. Analogously, I think a career civil servant 
is in that same position, that our investment in them can 
create value for our country down the road.
    Chairman Akaka. Thank you very much.
    Senator Tester, any further questions?
    Senator Tester. No further question. Thank you, Mr. 
Chairman.
    Chairman Akaka. Well, I want to thank you very much. You 
have responded real well. We are looking forward to moving you. 
I hear our Ranking Member about moving this as quickly as we 
can, and we certainly will.
    I thank you so much, and it is great to have your family 
here.
    It is good to be looking forward to the 21st Century and 
what we can do for our veterans, and that is what this 
Committee is all about too. As was mentioned by our Ranking 
Member, we certainly want to move the impediments or whatever 
obstacles there may be that would prevent improvement and 
progress and work together with you and Secretary Shinseki, the 
VSOs, and all those who are concerned about veterans.
    So, thank you very much for being here. Thank you and aloha 
to you and your family.
    Mr. Gould. Thank you so much. You made us feel very 
welcome.
    Thank you, Senator Burr.
    Thank you, Senator Tester.
    [Recess.]

    Chairman Akaka. The Senate Committee on Veterans' Affairs 
will be in order.
    We will move now to the nomination of Tammy Duckworth to be 
the Assistant Secretary for Public and Intergovernmental 
Affairs within the Department of Veterans Affairs.

         STATEMENT OF HON. DANIEL K. AKAKA, CHAIRMAN, 
                    U.S. SENATOR FROM HAWAII

    Chairman Akaka. I want to say aloha and welcome to you, Ms. 
Duckworth. You are no stranger to this Committee. You have been 
here many times, most recently in November 2007 when you 
offered your thoughts on the issue of seamless transition. As 
someone with deep roots in my home State of Hawaii, I know that 
you bring the spirit of aloha which will serve you well if 
confirmed by the Senate.
    As part of the newest generation of veterans, Ms. Duckworth 
continues to triumph over obstacles in her way. She 
demonstrates on a daily basis the strength and courage that 
marks the best of this new class of American servicemembers.
    In many respects, the Assistant Secretary for Public and 
Intergovernmental Affairs is the public face of VA. When there 
is good news to be shared, this person advises and represents 
the Secretary. When there is unpleasant news for which VA must 
take responsibility--and we all know that there will be--this 
is the person who must step forward and make every effort to be 
open and honest with the public. There must be trust and 
confidence in VA if it is to serve the veterans effectively.
    We recently heard of instances in Florida and Tennessee 
where thousands of veterans were potentially exposed to 
infections following colonoscopy procedures. There are serious 
situations, and these are serious. I have asked the Inspector 
General to investigate the facts and circumstances.
    As upsetting as such mistakes are, the public's trust in VA 
comes from its willingness to disclose those errors and to work 
to fix them. I have no doubt there are private sector health 
care institutions making the same types of mistakes, but we 
simply do not hear about them in the same way. When there is a 
problem at one or two VA facilities, it can tar the entire VA 
system.
    VA's constituency ranges from those who, like me, started 
during World War II, to the newest generation of veterans 
returning from Iraq and Afghanistan. VA beneficiaries live in 
urban areas, in remote and rural areas, and everywhere in 
between. Some veterans return from service with no scars. 
Others have lost limbs or suffer from the invisible wounds of 
PTSD. When we talk about reaching all veterans, there must be 
an effort to include their families as well.
    In addition to being the public face, the Assistant 
Secretary also represents VA across the entire Federal 
Government as well as with State and local governments. If 
confirmed, Ms. Duckworth will need to interact effectively with 
many agencies, from DOD to SBA, to represent the issues and 
interests of veterans including on matters such as 
homelessness, unemployment, housing, disability policy and 
health care.
    Undoubtedly, this is an important job, and I look forward 
to your testimony and hearing about your plans.
    At this time, I would like to yield to my Ranking Member, 
Senator Burr, for his opening statement.

        STATEMENT OF HON. RICHARD BURR, RANKING MEMBER, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. Thank you, Mr. Chairman.
    Major Duckworth, welcome. We look forward to the 
opportunity to share some time with you, and you could not have 
a more standup person, I think, to introduce you than the guy 
to your right and to our left. We welcome our colleague, Dick 
Durbin.
    The position you seek is one of the most important roles in 
ensuring that veterans and their families are being well served 
by the VA. As the Assistant Secretary of Public and 
Intergovernmental Affairs, one of your most important 
responsibilities is to provide veterans and, more importantly, 
their families with up-to-date information about VA activities, 
benefits, and services. This is critical because VA programs 
cannot help improve the lives of veterans if veterans do not 
know about them.
    In this role, you would be responsible for fostering 
partnerships with organizations around the country that are 
willing to work with VA in carrying out its noble mission. We 
have veterans in all corners of the Nation including very rural 
areas, and many could benefit tremendously from these efforts.
    Mr. Chairman, I intend to have several written questions 
that I am going to give Major Duckworth to clarify for me some 
things on the Committee questionnaire which I am not going to 
ask in today's hearing. I have some general questions that I 
will ask.
    I look forward to hearing more about your thoughts on how 
we take the VA forward, how we make sure that we share with the 
veterans and, more importantly, the communities that they come 
from of the wide array of services that the VA has provided for 
them, and, hopefully, that they can then utilize.
    I thank you for being here, and I thank you, Mr. Chairman.
    Chairman Akaka. Thank you.
    At this time, I would like to ask for the introduction of 
the Senators from Illinois, and I would like to now recognize 
the honorable and distinguished Assistant Majority Leader and 
Senior Senator from Illinois, who is joining us this morning to 
introduce the nominee to the Committee. I welcome Senator 
Durbin. We have had a long relationship beginning from the 
House, and it has been a good one.
    Senator Durbin. It sure has.
    Chairman Akaka. And I look forward to that continuing. So, 
Senator Durbin, aloha and welcome, and we look forward to your 
statement.

 STATEMENT OF HON. RICHARD J. DURBIN, A UNITED STATES SENATOR 
                   FROM THE STATE OF ILLINOIS

    Senator Durbin. Chairman Akaka, thank you very much for 
giving me this opportunity to introduce Tammy Duckworth as a 
nominee for the Veterans Administration Assistant Secretary of 
Public and Intergovernmental Affairs.
    Senator Burr, thanks for those kind words.
    And, to my colleague, Senator Burris, good to see you and 
Senator Tester. I would say to all of the Members of the 
Veterans' Affairs Committee, this is a rare opportunity to be 
part of the appointment of someone of real quality, who can 
serve this Nation as she has so many times before.
    Four years ago, in 2005, we had an occasion that President 
Bush gave the State of the Union Address. We each get a couple 
of tickets for people/visitors to sit in the gallery for that 
historic moment. We have made a tradition in our office to call 
Walter Reed hospital and ask: Are there any Illinois vets who 
can come in and take these seats? We would like to have them 
come by.
    And so, that night of the President's State of the Union 
Address, I was told that there were, in fact, two people coming 
from Illinois, Major Tammy Duckworth and her husband, Bryan 
Bowlsbey, both of whom were members of the Illinois National 
Guard. I had never met her before. She literally came rolling 
into the office in full dress uniform and then told me her 
story.
    Ten weeks before, Tammy Duckworth had been an activated 
member of the Illinois National Guard and was piloting a 
helicopter over Iraq when a rocket-propelled grenade was shot 
into the cockpit and exploded. As a result, Tammy lost both of 
her legs, and her right arm was shattered to the point there 
was a serious question as to whether or not she would be able 
to keep that arm and use it in the future.
    When I heard that story, I could not believe it because she 
was sitting in front of me with this big smile on her face, 10 
weeks after being shot down, after going through countless 
surgeries, and she seemed to be as happy and composed as any 
person I had ever seen--her husband right by her side pushing 
the wheelchair.
    I did not realize until long afterwards that she had an IV 
running under her dress uniform coat which was the only way 
that she could come and visit that night, and it had to be 
changed by Bryan during the course of the evening. But, for 
her, it was a big smile and a welcome to everyone.
    A reporter came in, Lynn Sweet of the Chicago Sun-Times and 
asked Major Duckworth a hard question. She said: Major 
Duckworth, what do you think of these people who are protesting 
against this war, who say it was a mistake, we should not have 
gone to war. After what you have been through, what do you 
think of these people?
    And she said, is not that why we are fighting this war, so 
that Americans can express their point of view and have freedom 
of speech?
    I was taken aback by that answer. I could not believe the 
insight and courage that that answer entailed that she gave, 
and I thought to myself, this is a special person.
    I did not know her full family background at the time, but 
she was born into a military tradition. She is the daughter of 
a Marine. She is a second generation Purple Heart recipient in 
her family.
    After completing his service, Tammy's father worked for the 
United Nations. Tammy spent her childhood, much of it, growing 
up in Southeast Asia before arriving in Hawaii at the age of 
16.
    She started her military career in 1990, joining the ROTC 
in graduate school. She was commissioned in the Army Reserve in 
1992. She completed helicopter flight school, joining the 
Illinois National Guard in 1996.
    In her civilian career, she has worked on lung cancer 
prevention at Northern Illinois University Center for Nursing 
Research and was a Global Manager for Rotary International. In 
2004, she was a doctoral student when she requested to be 
deployed to Iraq. And it was on the afternoon of November 12, 
2004, while she was on her last mission of the day in Baghdad 
when her helicopter was shot down.
    She made it out of that helicopter somehow. I have had a 
chance to meet her co-pilot that day. The whole crew was just 
heroic, bringing that helicopter down safely and transferring 
her. Her next memory, she says, was waking up at Walter Reed 
with her husband, Bryan, also a member of the Illinois National 
Guard, by her side.
    I told you about the grievous injuries which she suffered 
as a result of it. I met her while she was recovering, and I 
thought to myself, I want to know this person more. This is an 
exceptional person.
    I kept in touch with her. A few months later, in a very 
weak moment, I made a phone call to her and said, would you 
consider running for Congress?
    She did not say no. She said, I want to think about it.
    I said, OK.
    She talked it over with Bryan and called me back and said 
she was going to make the race.
    Well, she did not win that race, but she was heroic again 
in the effort that she made. Fortunately, for her, the Governor 
of our State turned to her and asked her if she would become 
the Director of the Illinois Department of Veterans Affairs, 
and then she took up that spot in November 2006.
    She has done some amazing things there: the Illinois 
Warriors Assistance Program, requiring additional screening for 
PTSD and Traumatic Brain Injury; the GI Loan for Heroes 
mortgage loan program; the Vetscash Grant Program, which 
provides over $5 million in grants to veterans service 
organizations; Veterans Adaptive Activities Day. The list goes 
on.
    She has been totally committed to her fellow veterans and 
to public service. She has been recognized with the Leadership 
Conference on Civil Rights Hubert Humphrey Award, a recipient 
in 2007 along with President William Clinton and the late 
historian, John Hope Franklin. She has received the Access 
Living Disability Leader of the Year Award in 2007, was the DAV 
Disabled Veteran of the Year in 2008 and received the AMVETS 
Silver Helmet Award in 2009.
    Now she has been called into service again by President 
Obama who is asking her join an extraordinary team at the 
Veterans Administration, facing extraordinary and historic 
challenges. She is a person for that job. I have known that 
from the minute that I met her. I know that she is going to 
fight for veterans with every ounce of her being and every 
ounce of her strength.
    I know that she, having seen her husband deployed after she 
returned, knows the sacrifices made by families. Here was Tammy 
living alone in her situation where she needs a helping hand. 
Her husband is deployed, and he goes without complaint. They 
understood what service meant, both in her life and in his 
life.
    He could not be here today because he is at Ft. Gordon, 
which Tammy will explain. He is on military assignment at this 
moment, and cannot be with her.
    I am just going to close by saying a few words in closing. 
She had the courage to serve. She had the courage to come home 
and battle her wounds. And, she has had the courage to carry on 
in a life of public service. We are blessed in America to have 
people like Tammy Duckworth.
    Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Durbin.
    Now I would like to recognize our newest Committee Member, 
Senator Burris, for any introductory remarks you would like to 
make on behalf of Major Duckworth.

              STATEMENT OF HON. ROLAND W. BURRIS, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Burris. Thank you, Mr. Chairman, Ranking Member 
Burr, colleague Tester. I would like to thank you for the time 
to address this Committee about a good fellow Illinoisan who 
settled in our great State, Major Tammy Duckworth.
    And, we are happy for it, Tammy.
    As we consider her nomination for Assistant Secretary for 
Public and Intergovernmental Affairs for the Department of 
Veterans Affairs, I would also like to thank my Senior Senator, 
Senator Durbin, for providing such a fine introduction.
    The Department of Veterans Affairs is at a crucial juncture 
in our history, transitioning from one generation to the next 
with changing demographics and shifting priorities. It is a 
mission of this Committee to ensure that in the nomination 
process we confirm nominees that will best serve the needs of 
America's veterans.
    I can think of no candidate more deserving of this position 
or more qualified to help lead the Department of Veterans 
Affairs than Major Tammy Duckworth. As a member of the ROTC 
since 1990, the Major has been instrumental in opening doors 
and leading the way.
    After becoming a commissioned officer in the U.S. Army 
Reserves, Major Duckworth decided to fly helicopters because it 
was one of the few combat jobs open to women, and she served 
her country with distinction. For her service in Iraq, Major 
Duckworth received a Purple Heart, and while recuperating at 
Walter Reed Center she was presented with an Air Medal and the 
Army Commendation Medal.
    Her service and her sacrifice alone recommend Major 
Duckworth to lead at the Department of Veterans Affairs, but it 
is the strength of her ideas and commitment to her fellow 
veterans that most strongly qualifies her for this post, Mr. 
Chairman.
    Her work as the Director of the Illinois Department of 
Veterans Affairs was marked by innovation and extraordinary 
outreach to make programs and resources more accessible for the 
veteran community, a commitment we will hear reinforced in 
Major Duckworth's statements today. While the head of the 
Department, she put in place State programs that offered tax 
credits for employers who hired veterans of Iraq, Afghanistan 
and Desert Storm, worked to provide State grants to service 
organizations benefiting veterans issues and secured backing 
for below-market mortgages for veterans.
    Major Duckworth was also honored by Chicago Access for 
Living for her extraordinary commitment to veterans with 
disabilities.
    This is the type of leader we need in the Department of 
Veterans Affairs today because there is just so much that we 
need to correct in that Department. I am grateful that 
President Obama has put his faith in Major Duckworth's 
candidacy, and I know the Department of Veterans Affairs will 
make great progress under her steady, capable, committed and 
unwavering leadership.
    Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Burris.
    Now I would like to call on Senator Tester for his 
statement.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Well, thank you, Mr. Chairman.
    I am going to start with an apology because I am going to 
have to leave before I get the opportunity to ask you 
questions. So I am going to ask you questions in my opening 
statement, and then we will catch it on the record.
    First of all, thank you for being here. Thank you for your 
service. Thank you for what I think will be outstanding service 
in the VA once you get confirmed.
    And, along those lines, Mr. Chairman, I have had Tammy in 
my front. We have talked about her vision for the VA, and I 
would hope that her and Dr. Gould's confirmations would be 
expedited with the Ranking Member's agreement to that.
    So, a couple things, the VA is pretty much a passive system 
as far as reaching out and letting people know what their 
benefits are. We have millions of veterans out there that are 
qualified for benefits that do not get them. I am curious to 
know how you are going to reach out to those veterans in rural 
areas--in a State like Montana, that is critically important--
female veterans, Native American vets, as there is a high 
number of them.
    The other issue that is very, very important to me is the 
number of embarrassing issues that have come up in the VA. 
Whether it is inaccurate suicide data--that comes to mind right 
off the top--or other things, how are you going to deal with 
those issues that are very, very uncomfortable and are you 
willing to tell the leadership in the VA? If they come down and 
say you know we want to soft pedal this, you say: Now, hold it. 
The truth will set you free. We need to tell the truth on this 
stuff.
    So I would hope that you would do that as you move forward 
and how you would integrate yourself into that.
    With that, Mr. Chairman, I do have to leave, but I just 
want to thank, once again, Ms. Duckworth for being here today, 
and I look forward to working with her for the benefit of 
veterans throughout this country.
    Chairman Akaka. Thank you very much, Senator Tester, for 
your statement.
    Now, Ms. Duckworth, I will administer the oath to you at 
this time and ask you to raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give, as well as any answers to any pre and post 
hearing questions, before the Senate Committee on Veterans' 
Affairs, will be the truth, the whole truth and nothing but the 
truth, so help you God?
    Major Duckworth. I do.
    Chairman Akaka. Let the record note that the witness 
answered in the affirmative.
    Major Duckworth, I would like to ask you at this time to 
introduce your family or your friends who are here.
    Major Duckworth. Thank you, Mr. Chairman.
    I have six members of what I call my extended family. They 
are my friends who are here with me: starting with Colonel 
Michael Yap, retired, a good friend from Hawaii originally. He 
and his wife started visiting me at Walter Reed when I was 
first injured.
    I have also Mr. Tom Porter, Korean War Veteran who started 
visiting me before I even woke up from my medically-induced 
coma at Walter Reed. He is a double amputee who is there to 
tell the troops at Walter Reed every single Tuesday and 
Thursday, without fail, that life goes on and you can have a 
wonderful, wonderful career after you lose your legs. So he was 
my beacon when I had no hope.
    Jim Mayer, the Milkshake Man, a Vietnam veteran, a double 
amputee, he has walked the halls of Walter Reed for many, many 
years. He is a former VA employee handing out milkshakes 
because he knows that when an American GI cannot keep down any 
food because of their medication, they will suck down a 
milkshake.
    Also, I have Mr. Brian Clauss and Mr. Joe Butler from the 
John Marshall Law School in Chicago where one of the last 
things we were able to do at the State of Illinois was 
establish a veterans legal assistance clinic with law 
students--a very successful program. They have recently written 
a textbook on how to establish similar programs across the 
country.
    Did I get everyone? I think so.
    Chairman Akaka. Thank you very much for those introductions 
and welcome to all of you to the Committee.
    At this time, I would like to ask you to proceed with your 
statement.

  STATEMENT OF L. TAMMY DUCKWORTH, DESIGNATE TO BE ASSISTANT 
SECRETARY OF VETERANS AFFAIRS FOR PUBLIC AND INTERGOVERNMENTAL 
            AFFAIRS, DEPARTMENT OF VETERANS AFFAIRS

    Major Duckworth. Thank you, Mr. Chairman, and aloha, mahalo 
nui loa.
    Chairman Akaka. Aloha.
    Major Duckworth. And Ranking Member Burr and distinguished 
Members of the Committee, thank you for the opportunity to come 
before you today. I am deeply honored and humbled that 
President Obama has given me this opportunity to serve our 
Nation's veterans.
    Since my time at Walter Reed, when this Committee first 
called on me to testify--while I was still a patient--on behalf 
of my fellow wounded warriors, I have been privileged to answer 
your questions and assist you in caring for our brave military 
men and women. I plan on continuing this important partnership 
with you in my new role at the U.S. Department of Veterans 
Affairs, should I be confirmed.
    A significant part of my duties will be to transform the 
public affairs function at the Department of Veterans Affairs 
to fulfill President Obama's and Secretary Shinseki's 
commitment to a 21st Century agency with candor, transparency 
and integrity. Not only will we be responsive to this 
Committee's concerns, we will also be proactive in 
communicating with you and with our Veterans.
    In order to become a 21st Century organization, we will 
have to change some past methods used in communicating with 
outside organizations whether they are other government 
agencies, the media, the legislature or, most importantly, our 
veterans.
    The things that VA already does well, we will continue. 
However, with the changing demographics of our veteran 
population, the VA will need to develop the communication 
strategies that best reach our newest veterans where they live, 
work and play. It is no longer enough to hand out brochures at 
demobilization ceremonies. We must develop social networking 
strategies, non-traditional outlets such as blogs and use a 
wide variety of new media available to get the message of 
available benefits out to our veterans.
    Just as our Nation learned from our Vietnam veterans that 
we must love the warrior regardless of our personal stand on 
the war, we must also learn the lesson of how Department of 
Veterans Affairs lost contact with so many Vietnam veterans and 
apply those lessons today. We are in a critical time when we 
still have the ability to reach out to the generation of post-
9/11 veterans. If we send the message incorrectly, we risk 
angering or disappointing these vets to the point of their 
turning their backs on the VA, as was the case of so many of 
the Vietnam generation.
    The upcoming roll-out of the Post-9/11 GI Bill is a 
critical example. If our vets are not given the correct 
information on qualifications and application processes, they 
will become frustrated and have their worst stereotypes of the 
VA bureaucracy reinforced. Most tragically, if we do not reach 
out in the correct way to our veterans suffering from Traumatic 
Brain Injury and Post Traumatic Stress Disorder, they will turn 
away and not access the care that they need for these wounds.
    The second component of my position at VA will be to 
develop partnerships with other Federal and State agencies as 
well as with non-governmental organizations. In my past work 
with Veterans, I recognize that the greatest frustration with 
the VA is not the quality of the care that is provided. In 
fact, VA medical care is among the best in the country. The 
frustration is with gaining access to that care.
    Local governmental agencies will become an ally with the 
Department of Veterans Affairs in helping our vets negotiate 
that process of accessing and qualifying for VA benefits. In my 
new job, I hope to use my past experience and relationships 
with the State Directors of Veterans Affairs, with county 
veteran service officers, with veteran service organizations as 
well as with organizations that have not traditionally had a 
relationship with the VA, such as community service 
organizations like Rotary International and Lions Clubs or 
faith-based organizations.
    If VA cannot be in every store front of every hometown 
across America, we will find partners who are and who can help 
us distribute the tools that our veterans need to gain access 
to the health care and benefits that they have earned through 
their service.
    No veteran should ever have his access to VA services 
blocked because of geography. If it did not matter where I 
lived and where my hometown was when I enlisted, where I live 
now should not prevent me from getting the VA services that I 
need and earned. Intergovernmental partnerships will be key in 
keeping our Nation's obligations to our veterans.
    In the Army, my job did not start and end with flying 
helicopters. My job was to carry out the mission assigned to me 
and to take care of my soldiers. I view this opportunity to 
serve in the Department of Veterans Affairs the same way. I am 
nominated to be Assistant Secretary for Public and 
Intergovernmental Affairs, but ultimately my job will be to 
support the mission of serving our veterans.
    I live every day knowing that I should have died in that 
dusty field north of Baghdad, and I am surviving only because 
my buddies would not leave me behind. I intend to honor their 
heroism by doing everything that I can to make sure that this 
Nation stands by those who serve and leaves no veteran behind.
    Thank you for this opportunity to come before you today, 
and God bless our troops who are in harm's way around the world 
today.
    Thank you, sir.
    [The prepared statement of Major Duckworth follows:]
   Prepared Statement of L. Tammy Duckworth, Nominee to be Assistant 
 Secretary of Veterans Affairs for Public and Intergovernmental Affairs
    Mr. Chairman and Distinguished Members of the Committee: Thank you 
for the opportunity to come before you today. I am deeply honored and 
humbled that President Obama has given me this opportunity to serve our 
Nation's Veterans. Since my time at Walter Reed, when this Committee 
first called on me to testify on behalf of my fellow Wounded Warriors, 
I have been privileged to answer your questions and assist you in 
caring for our brave military men and women. I plan to continue this 
important partnership with you in my new role at the US Department of 
Veterans Affairs.
    A significant part of my duties will be to transform the Public 
Affairs functions at the Department of Veterans Affairs to fulfill 
President Obama's and Secretary Shinseki's commitment to a 21st Century 
agency with candor, transparency and integrity. Not only will DVA be 
responsive to this Committee's concerns, the Department will also be 
proactive in communicating with you, and with our Veterans. In order to 
become a 21st Century organization, DVA will have to change some past 
methods used to communicate with other government agencies, the 
Congress, the media, and most importantly, our Veterans. The things 
that DVA already does well, we will continue. However, with the 
changing demographics of our Veteran population, we will develop the 
communication strategies that best reach our newest Veterans where they 
live, work and play. It is no longer enough to hand out brochures at 
demobilization ceremonies. We must develop social networking 
strategies, use non-traditional outlets such as blogs, and employ the 
wide variety of new media available to get the message of available 
benefits to our Veterans.
    Just as our Nation learned from our Vietnam Veterans that we must 
love the Warrior regardless of our personal stand on the war, we must 
also learn the lesson of how DVA lost contact with so many Vietnam 
Veterans and apply that lesson today. We are in a critical time when we 
still have the ability to reach out to the generation of post-9/11 
Veterans. If we send the message incorrectly, we risk angering or 
disappointing these Vets to the point where they turn their backs on 
VA, as so many did after Vietnam. The upcoming roll-out of the Post-9/
11 GI Bill is a critical example. If our Vets are not given the correct 
information on qualifications and application processes, they will 
become frustrated and have their worst stereotypes of the DVA 
bureaucracy reinforced. Most tragically, if we do not reach out in the 
correct way to our Veterans suffering from Traumatic Brain Injury and 
Post Traumatic Stress Disorder, they will turn away and not access the 
care that they need for these wounds.
    The second component of my position at DVA will be to develop 
partnerships with other Federal and state agencies as well as with non-
governmental organizations. As a result of my past work with Veterans, 
I recognize that the greatest frustration with DVA is not the quality 
of the care provided. In fact, DVA medical care is among the best in 
the country. The frustration is with gaining access to that care.
    Local governmental agencies should become allies with the 
Department of Veterans Affairs in helping our Veterans access their DVA 
benefits. In my new job, I will use my past experience and 
relationships with the State Directors of Veterans Affairs, with County 
Veteran Service Officers, with Veteran Service Organizations as well as 
with organizations that have not traditionally partnered with DVA, such 
as Rotary International or the Lions Clubs. If DVA cannot be in every 
storefront of every hometown across America, we will find partners who 
are and who can help us distribute the tools that our Veterans need to 
gain access to the healthcare and benefits that they have earned 
through their service. No Veteran should ever have his access to DVA 
services blocked because of geography. Just as it did not matter where 
my hometown was when I enlisted, where I live now should not prevent me 
from getting the DVA services that I need and earned. Intergovernmental 
partnerships will be key in fulfilling our Nation's obligations to our 
Veterans.
    In the Army, my job did not start and end with flying helicopters. 
My job was to carry out the mission assigned to me and to take care of 
my Soldiers. I view this opportunity to serve in the Department of 
Veterans Affairs the same way. I am nominated to be Assistant Secretary 
for Public and Intergovernmental Affairs, but ultimately my job will be 
to support the mission of serving our Veterans. I live every day 
knowing that I should have died in that dusty field north of Baghdad 
and am alive today only because my buddies would not leave me behind. I 
intend to honor their heroism by doing everything that I can to make 
sure that this Nation stands by those who have served and leaves no 
Veteran behind. Thank you for this opportunity to come before you 
today, and God Bless our troops who are in harm's way around the world.

    I am happy to answer any questions you may have.
                                 ______
                                 
Response to Pre-Hearing Questions Submitted by Hon. Daniel K. Akaka to 
   L. Tammy Duckworth, Nominee to be Assistant Secretary of Veterans 
            Affairs for Public and Intergovernmental Affairs
    Question 1. Have you discussed with Secretary Shinseki, and with 
Deputy Secretary-designate Gould, the duties and the role you would 
assume as Assistant Secretary for Public and intergovernmental Affairs 
if you are confirmed? If so, what specific areas of the job were 
discussed?
    Response. I have discussed the duties of my position with Secretary 
Shinseki. Specifically, the Secretary emphasized that in addition to 
being a key spokesperson for the Agency, my job also entails outreach 
to Veterans and intergovernmental groups. The Secretary stressed to me 
the importance of building relationships between the DVA and state and 
municipal governments as well as with non-governmental organizations. 
In my conversations with Deputy Secretary-designate Gould, we discussed 
my role in communicating the President's and the Secretary's message to 
Veterans that the DVA is here to serve them and to make them aware of 
all the benefits to which they are entitled.

    Question 2. Do you anticipate having a policymaking role if you are 
confirmed?
    Response. If asked by the Secretary or the Deputy Secretary to 
provide advice on policy, I will make sure to do so. I believe that I 
can be a valuable resource for the SECVA, DEPSEC, and the COS, 
especially when it comes to insight on our War Wounded, the needs of 
young Veterans, and partnerships with State governments.

    Question 3. Have you formulated any thoughts on what your new job 
responsibilities will be and how you will approach those 
responsibilities if confirmed?
    Response. If confirmed, my first responsibility will be to serve 
the President and the Secretary. I will take their lead as to my role 
and capacity within the Department. I see my role as an integral part 
of the senior management team consisting of two main components:
    a. Public Affairs and Intergovernmental Affairs. In this capacity, 
I see my main focus as emphasizing outreach to our Veterans, an effort 
just as important, if not more so, than outreach to media and other 
institutions. I understand that Public Affairs is responsible for all 
of the DVA's communications and is therefore the leader in efforts to 
communicate to our Veterans.
    b. Building Partnerships. I see the second critical component of my 
job as strengthening existing partnerships and forming new partnerships 
with organizations around the Nation that serve our Veterans. Under the 
direction of the Secretary, I plan to identify Federal agencies, local 
governments, and non-governmental organizations that share our goal of 
better serving Veterans, and then to work with these partners to 
achieve our shared goal.

    Question 4. If confirmed, what would you most like to accomplish in 
your new position? What would you hope your legacy to the Department 
would be?
    Response. If confirmed, I would most like to develop the DVA's 
methods for communicating with Veterans and to establish relationships 
with organizations that seek to better serve Veterans. I want to 
provide insight and guidance on how to develop the DVA's use of new 
media to bring our young Veterans into the DVA family. The Vietnam 
Veteran generation taught us the valuable lesson that we have a limited 
period of time when our Veterans return home to reach out to them and 
enroll them into DVA services. We must be careful in how we communicate 
so that we do not lose the latest generation of Veterans, as we lost so 
many Vietnam Veterans. We must never again miss the opportunities we 
lost after Vietnam. Finally, I hope that my legacy will be one of a 
facilitator, expanding services to our clients by bringing together 
organizations that may never have partnered with one another in their 
efforts to serve Veterans.

    Question 5. How would you describe your management style and how is 
it suited to this particular position?
    Response. My management style is based on my military training. It 
is my responsibility to make sure that members of my staff have the 
knowledge and tools to complete the tasks I delegate to them. While I 
will delegate authority to perform certain functions, the 
responsibility of all that occurs in my department remains with me. If 
confirmed, I intend to always give my staff a clear mission and intent 
for accomplishing that mission. As in my piloting days, I am a hands-on 
leader and manager, and I will roll up my sleeves to work alongside my 
people--without doing their jobs for them. Ultimately, a successful 
team is one with clear leadership as well as trust and confidence 
between and among all of the team members. As we say in the Army, ``One 
Team One Fight.''

    Question 6. How does your experience as Director of the Illinois 
Department of Veterans Affairs contribute to your qualifications for 
this new position?
    Response. My work at the State of Illinois gave me experience 
running a government agency. Prior to that job, my background has been 
in not-for-profit corporations and the military. Running one of the 
largest state Veterans' agencies in the country gave me a diverse tool 
set for work at the Federal level. The State of Illinois Dept. of 
Veterans Affairs had a budget of $105 million, 1200 employees, 51 
offices, four Veterans' Homes, a Homeless Veterans program, as well as 
numerous boards and advisory committees. In the two years that I served 
at IDVA, working with a bipartisan group of legislators, we implemented 
over $70 million in new initiatives, many of which were the first of 
their kind in the Nation. These included new programs for Mortgage 
Loans, Homelessness, PTSD, and TBI.
    I am also very proud of our work in reaching out to non-
governmental organizations. Using the revenue-neutral Vets Cash Grant 
Program, we gave out over 80 grants to organizations that assist 
Veterans with services ranging from free dental care to transportation 
and homeless programs. We used the grant program to help establish 
Veterans Legal Assistance services at the John Marshall Law School and 
at Southern Illinois University. As a result, John Marshall Law School 
has written a textbook explaining how to establish and run Veterans 
Legal Assistance Centers that will be used by other law schools across 
the country.
    One of my last projects as Director was to help establish a 
Veterans Court system in Chicago to divert Veterans suffering from PTSD 
and TBI into counseling and treatment programs instead of 
incarceration. We also turned to the state networks specializing in TBI 
and PTSD to create the Illinois Warrior Assistance Program. By 
partnering with the Rehabilitation Institute of Chicago and asking for 
assistance from the Illinois Brain Injury Association, we tapped into 
civilian expertise on these conditions and developed a training program 
on PTSD and TBI from military trauma that we then used to create our 
unique program to treat and screen Illinois' Veterans. The training 
program is used to train medical professionals throughout Illinois, 
which is a largely rural state, so that Veterans can access 
appropriate, trained care near their homes. The Illinois Warrior 
Assistance Program provides resources from counseling to 
pharmaceuticals and brain surgery to all Illinois Veterans who do not 
have access to Federal DVA resources, live more than 75 miles away from 
a VA facility, or must wait more than three weeks for a DVA 
appointment. The program now screens 100% of all redeploying National 
Guardsmen. Veterans or family members from any era can pick up the 
phone 24 hours a day to call our counseling hotline. When they do so, 
the phone is answered by a trained counselor with a Masters degree 
instead of a phone tree, as is the case with many hotlines.
    I am obviously proud of all that we have accomplished in Illinois. 
However, I understand that we can always do more to serve our Veterans. 
I intend to take what I learned in Illinois and bring it to the DVA. My 
job will be to use all my experiences to assist the Secretary as he 
carries out the transformation of the Department into a 21st century 
organization that provides services and benefits equal to our Veterans' 
sacrifices.

    Question 7. ``A VA for the 21st Century'' has been a rhetorical 
slogan for many in recent years. However, as we near the end of the 
first decade of the century, it seems that that goal is still quite far 
away. How do you view your role in moving VA forward in this regard?
    Response. If confirmed, I will view my role as a right hand of 
support for Secretary Shinseki and his Deputy Secretary. I will assist 
them in achieving the mission of moving the DVA forward into the 21st 
century. First, with the direction I am given I will present new forms 
of communication with Veterans, building on existing methods. We need 
to reach out to Vets where they live, work, and play. That will involve 
social networking, a more extensive web presence, as well as reaching 
into communities across America regardless of their size or isolation. 
In order to do so, the DVA can partner with local organizations that 
have a presence in these locations, whether they are a local post of a 
Veterans Service Organization or a branch of local government. Second, 
I will echo Secretary Shinseki's message that the DVA health care 
system is among the best in the Nation. Many perceive the DVA as overly 
bureaucratic and difficult to access. What is less known is the 
excellent quality of DVA health care and benefits. In my daily external 
communication, I intend make it common knowledge, especially among 
Veterans, that the DVA is above the best when it comes to caring for 
Veterans. The goal is to attract Veterans to reengage with the DVA and 
access the services that they have earned through their military 
service.

    Question 8. As the official who will be responsible for the public 
face of the Department, you most likely will need to deal with 
situations where an incident at one VA facility generates substantial 
negative press and public interest that seems to tarnish the entire 
Department. How would you respond to such an incident?
    Response. President Obama and Secretary Shinseki have made it clear 
that this administration will be transparent and accessible. I will 
work closely with my counterparts to make sure that there is an 
accurate and transparent accounting of any incident that may occur.

    Question 9. One of the issues which you sought to address during 
your time in Illinois was outreach to veterans in order to make sure 
that they were aware of their benefits and their eligibility for 
services. As the individual responsible for public affairs for VA you 
will be in the position to make a significant impact in this regard. 
Assuming that you agree that VA needs to be more aggressive in this 
area, what is your thinking as to what you will be able to accomplish 
as Assistant 
Secretary?
    Response. Under the guidance of SECVA, DEPSEC and the COS, I look 
forward to creating a forward-thinking strategic communications plan 
that includes outreach efforts with VSO's, various service 
organizations, traditional media, and new media.

    Question 10. I am particularly interested in addressing the needs 
of the members of the National Guard and Reserves who return from 
deployments and often return to their communities without being aware 
of the services and benefits to which they may be entitled and for 
which they may be in need of--for example, PTSD counseling. As a member 
of the National Guard, you surely are aware of the unique issues 
involved in reaching out to these men and women. What thoughts do you 
have on ways in which the VA can do a better job of meeting the needs 
of a Guard member returning to Kaua'I, for example?
    Response. One of my great frustrations as a state Director of 
Veterans Affairs was the difficulty in partnering with the DVA. It 
often appeared that the DVA was primarily interested in inspecting and 
making demands but was often unwilling or unable to lend a hand in 
making connections with DOD. Secretary Shinseki has already begun to 
remedy this, having had several meetings with Secretary Gates on this 
issue. My experience is that one of the best and easiest things that 
can be done is to enter into a partnership with the National Guard and 
Reserves. In Illinois, I was able to reach out to the Department of 
Military Affairs and enter into memorandums of agreement so that I 
could have Service Officers present at the reintegration events. We 
made it mandatory for 100% of all Illinois Guardsmen to take the 
Illinois Warrior Assistance TBI/PTSD screen. By making it mandatory, we 
eliminated the stigma of singling out individuals for the screening. 
Partnering with state and local institutions is vital to reaching out 
to serve our Guardsmen and Reservists. At one time, over 50% of the 
forces on the ground in Iraq were Guard or Reserves. Our Nation's 
military can no longer be effective without our Citizen Soldiers. In 
this new reality it is no longer acceptable to leave them without 
services simply because they do not live near a DOD or DVA facility. We 
must understand that though the DVA cannot be everywhere, we can 
certainly reach out to and partner with organizations that have a 
presence in hometowns across America.

    Question 11. As you are well aware, our shared home state of Hawaii 
has some isolated veteran communities on the neighbor islands. Other 
Members of the Committee represent states that have significant rural 
and isolated veteran populations. What new strategies do you believe 
could be implemented to ensure effective communication with veterans 
living in rural communities?
    Response. In addition to the existing communications programs, I 
feel strongly that we should look to new media solutions to communicate 
with our Veterans. The DVA's Web page could be updated and additional 
information incorporated on the site to answer questions that are not 
currently being answered. The goal would be to create a comprehensive 
Web site that will provide guidance on all DVA resources, and also help 
direct Veterans to other avenues they might want to explore. The DVA 
site could serve as a one-stop shopping location for our clients. I 
learned from my time in the State of Illinois that nothing beats having 
a real live human being present to answer questions and even to handle 
problems on the spot. Under the direction of Secretary Shinseki I plan 
to explore the possibility of having itinerant or periodic visits by 
DVA representatives to communicate the DVA's available services to 
isolated communities.

    Question 12. It is estimated that by 2010, women are expected to 
represent 14% of the veteran population. Although VA has been treating 
women veterans for many years, we know that some women veterans are 
reluctant to seek care at a VA facility. What thoughts do you have on 
how to communicate to women veterans that VA is prepared to provide 
gender-specific care?
    Response. I understand first hand what the ups and downs are for 
women within our DVA facilities. I can commiserate with women being 
reluctant to seek care at a DVA facility. But I also know the beauty 
and honor of recovering with your buddies--the men and women who 
understand firsthand what you experienced while at war and what you are 
going through in order to recover and reclaim your life. I look forward 
to being an advocate and helping identify how we can better serve the 
needs of our women Veterans.

    Question 13. There are various means of communicating with 
different generations of veterans and their families. How can VA best 
communicate with the broad spectrum of the American public that the 
Department serves, especially with the newest veterans who rely on an 
array of new modes of communications? Please describe specific media 
outlets and other communication media that you would seek to use.
    Response. Secretary Shinseki has made it clear that one of his 
goals is to speak to all of our Veterans. His vast experience and 
expertise prove that he is a tremendously effective communicator. I 
look forward to learning from and working with the Secretary to 
identify how we can best communicate the DVA's mission both internally 
and externally. As a previous Army Chief of Staff he knows better than 
most what it is going to take to communicate effectively with our 
younger generation of Veterans. He has made it clear that part of 
embracing and pursuing a 21st century DVA will be to identify the 
various ways our Veterans are receiving information and to ensure that 
the information they need is contained within those mediums. We will 
explore every alternative and method in order to improve communication 
with our clients.

    Question 14. As the individual with principal responsibility for 
Intergovernmental Affairs at VA, if confirmed you will have a major 
role in coordinating many issues, responses, initiatives, and a wide 
variety of things with many other Federal agencies--including but not 
limited to employment and training with the Department of Labor, the 
Indian Health Service within the Department of health and Human 
Services, the Small Business Administration, and many others. What are 
your expectations for how you will interact with these and other 
departments and agencies?
    Response. If confirmed, it will be my responsibility to follow the 
direction of President Obama, Secretary Shinseki, and the Deputy 
Secretary of Veterans Affairs. The President and the Secretary have 
created a mission to bring the DVA into the 21st century, and I would 
be honored to be a part of that change. As a Soldier, one of the most 
essential lessons I learned is that when you are charged with being the 
principle driver of an initiative you must move forward with clear 
objectives and goals that are defined by your superiors and in line 
with achieving the organization's overall mission. I look forward to 
the opportunity to become a valuable asset to the DVA and an advocate 
for effective communication between the DVA and various other 
departments and agencies.

    Question 15. What do you see as VA's role in working with other 
departments and agencies, especially HUD, through the Interagency 
Council on Homeless or otherwise, to address the needs of homeless 
veterans and their families?
    Response. Currently I am not privy to the specifics of how 
interaction works between the DVA and various departments and agencies. 
However, I believe one of my first critical tasks will be to learn how 
the various departments and agencies interact and engage with the DVA. 
Next, I will need to work with the SECVA, DEPSEC and COS to evaluate 
what potential changes need to be made. Under the direction of the 
Secretary, I believe one of my key roles will be to help facilitate 
open, clear, and effective communication in order better serve our 
homeless 
Veterans.

    Question 16. Secretary Shinseki has placed emphasis on improving 
the level of collaboration and cooperation between VA and DOD. What do 
you believe will be your role in dealing with areas of concern 
involving the two departments?
    Response. I look forward to taking direction from Secretary 
Shinseki, DEPSEC, and the COS to improve VA collaboration with DOD. I 
believe my role will be to work with the team to help provide potential 
solutions as to how we can improve internal and external communications 
that will foster better cooperation and collaboration between the two 
departments.

    Question 17. Do you agree to appear before the Committee at such 
times and concerning such matters as the Committee might request for so 
long as you serve in the position for which you now seek confirmation?
    Response. I welcome and encourage an open discussion with the 
Committee. If confirmed, I look forward to sharing a common goal with 
you--caring for our Veterans. A dialog between the Committee and the 
Department of Veterans Affairs will be essential. Together we can make 
the DVA a more effective organization that better serves our clients in 
a manner that our Nation expects and our Veterans 
deserve.
                                 ______
                                 
  Response to Pre-hearing Questions Submitted by Hon. Richard Burr to 
   L. Tammy Duckworth, Nominee to be Assistant Secretary of Veterans 
            Affairs for Public and Intergovernmental Affairs

    Question 1. As you know, the Senate Committee on Veterans' Affairs 
(Committee) received two versions of your ``Questionnaire for 
Presidential Nominees,'' the form that the Committee requires every 
nominee to complete and submit. Certainly, we all make mistakes. But, 
given that both versions of the questionnaire were signed and notarized 
and will become part of the Committee's official record, I think it's 
worth asking you to clarify, for the record, the status of each of 
these versions.

    A. Would you please explain why two different versions of the 
questionnaire were submitted to the Committee?
    Response. When I first submitted the questionnaire, I was unaware 
of the level of detail that was being requested. When Committee staff 
followed up with a request for more information, I wanted to be as 
responsive as possible, so I submitted the second form with more 
detailed answers.

    B. Is there any information in either of these versions (Part I or 
Part II) that, on a second look, you believe is not accurate? If so, 
would you please explain?
    Response. I believe all my submissions have been accurate. However, 
the follow-up versions have a level of detail that the first version 
did not.

    Question 2. In the March 18, 2009, version of the questionnaire, 
you responded ``YES'' to this question: ``State whether you will sever 
all connections with your present employer, business firm, association, 
or organization if you are confirmed by the Senate.''

    Given that you also serve as a safety officer for the Illinois 
State Army Aviation Office, would you please also clarify whether you 
intend to resign from that position if confirmed?
    Response. I am currently in the Illinois National Guard, and I 
drill as required. I currently do not receive pay from the National 
Guard because of restrictions with my disability pension, but I do 
receive retirement points toward my military retirement. I do not 
intend to resign from this position. I have consulted with the 
Department's ethics officials, and I have been advised that this does 
not present a conflict of interest.

    Question 3. On that questionnaire, you listed three organizations 
for which you were a board member during the past five years. In your 
letter to the Assistant General Counsel and Designated Agency Ethics 
Official at the Department of Veterans Affairs, you stated that you 
have already resigned from or will, if confirmed, resign from 
leadership and/or board positions of two of those organizations. Your 
status as to the third organization was not indicated.

    A. Would you please clarify whether you are currently a board 
member/leader of any organizations and, if so, whether you intend to 
remain in any such role if confirmed?
    Response. If confirmed, I plan to resign from all boards of 
organizations I serve on, including those I serve in a purely honorary 
role.

    B. If you do intend to remain in any such role, would you please 
explain the anticipated nature of your continued involvement?
    Response. I do not intend to remain in such a role.

    Question 4. Recently, you were a defendant in a lawsuit filed by 
two individuals who worked for the Illinois Department of Veterans 
Affairs while you were the Director. In light of the fact that the 
court dismissed that case without ruling on the merits, it may be 
helpful for the Committee to hear directly from you about what took 
place, so that we will have all the right facts. Would you please 
explain the circumstances surrounding that lawsuit?
    Response. While I was Director of the State of Illinois Department 
of Veterans Affairs, a lawsuit was filed in Federal court against me 
and an administrator of one of the Illinois State Veterans Homes. The 
suit was brought by two employees who claimed they were punished for 
reporting perceived wrongdoing. They alleged First Amendment 
retaliation violations, state ethics violations, and intentional 
infliction of emotional distress. A Federal court dismissed the 
lawsuit, denying the First Amendment claim on the merits, and 
dismissing the other claims for procedural reasons. Butler v. 
Duckworth, 2008 U.S. Dist. LEXIS 100747; 2008WL5221103 (S.D. Ill. 
2008). Plaintiffs then filed a similar lawsuit in Illinois state court, 
but without the First Amendment claim. The State has filed a motion to 
dismiss that is pending. Christine Butler and Denise Goins v. Tammy 
Duckworth, unpublished Illinois Circuit Court case # 09L2.

    Question 5. In the March 18, 2009, version of the questionnaire, 
you answered ``NONE'' to this question: ``Describe any lobbing activity 
during the past 10 years in which you have engaged for the purpose of 
directly or indirectly influencing the passage, defeat, or modification 
of any Federal legislation or for the purpose of affecting the 
administration and execution of Federal law or policy.'' I understand 
that this question may have been a little unclear (and I will work with 
Chairman Akaka to address that situation). In the meantime, to make 
sure the Committee's record is complete, I'd like to follow up briefly.

    A. Would you please clarify whether your answer was meant to convey 
that you did not engage in any such activities solely in your personal 
capacity or whether it also was meant to convey that you did not 
perform any such activities as a representative or board member of any 
organization?
    Response. I have never been a registered lobbyist, and to the best 
of my knowledge, I have not worked for or advocated on behalf of any 
registered lobbyist organization in any capacity.

    B. Although you may not have been acting as a registered lobbyist 
(as the questionnaire may have suggested we were inquiring about), were 
there any activities you engaged in to attempt to influence Federal 
policy over the past 10 years? If so, would you please describe any 
such activities?
    Response. Ever since I fought and was wounded in Iraq and then 
spent a year in Walter Reed Army Medical Center, I have been an 
advocate on behalf of Veterans. I have testified in front of Congress 
four times. As a candidate for Congress and as the Director of Illinois 
Department of Veterans Affairs I continued to advocate on behalf of 
Veterans in any way possible so that our current and returning Veterans 
receive the best services possible.

    Question 6. During 2008, you were mentioned as a possible candidate 
to be appointed to the U.S. Senate by former Governor Blagojevich. 
Given the controversy surrounding the filling of that Senate seat, 
would you please describe any discussions or involvement you had 
regarding the filling of that Senate seat?
    Response. I had no conversations with former Governor Blagojevich 
regarding filling the Senate seat. I was informed by his then-chief of 
staff that I was under consideration, but I was never called for an 
interview. I have not had any contacts with former Governor Blagojevich 
in over seven months.

    Question 7. According to a March 11, 2009, Associated Press report, 
``[s]ince 2005, numerous reports and even an unsuccessful attempt by 
[former Governor] Blagojevich to fire two personnel workers for alleged 
illegal hiring have revealed efforts by his administration to hire 
friends and contributors by skirting the high court ruling and laws 
giving military Veterans first chance at jobs.'' I have no doubt that 
any such hiring practice would have been offensive to you as a 
decorated, severely wounded combat Veteran. Would you please describe 
any actions you took as Director of the Illinois Department of Veterans 
Affairs to protect the employment rights of Veterans?
    Response. One of my first acts as the Director of the Illinois 
Department of Veterans Affairs (IDVA) was to promote absolute Veterans 
Preference in the Illinois Department of Transportation (IDOT). This 
was an agency that often received complaints regarding the 
discrimination against hiring Veterans. Within the first week of taking 
over as Director, I had partnered with the Director of IDOT to promote 
a Veterans hiring event. Throughout my time at the State of Illinois, I 
promoted Veterans employment and pursued many avenues to ensure that 
both Veterans and employers were educated on Veterans' employment 
rights. I also advised state legislators on Veterans employment 
programs such as the employers' tax credit for hiring Gulf War-era 
Vets. Finally, I partnered with the John Marshall Law School and 
Southern Illinois University Law School to create pro-bono Veterans 
legal assistance centers that help Veterans fight for their rights.
                                 ______
                                 
 Response to Post-Hearing Questions Submitted by Hon. Richard Burr to 
   L. Tammy Duckworth, Nominee to be Assistant Secretary of Veterans 
            Affairs for Public and Intergovernmental Affairs
    As you know, the Senate Committee on Veterans' Affairs requires all 
nominees to complete a two-part questionnaire. From you, we received 
two versions of Part I of the questionnaire and three versions of Part 
II. Certainly, I could understand if mistakes were made in filling out 
these fairly complicated forms and you needed to submit new forms to 
correct errors. But, in response to pre-hearing questions, you made 
this statement: ``I believe all my submissions have been accurate.''

    Question A. Are you saying that all of the information contained in 
all three versions of the questionnaire is correct?
    Response. The information contained in each version of the 
questionnaire was correct to the best of my knowledge at the time I 
submitted it. I submitted more than one version in order to immediately 
respond to the Committee's requests for more information. In addition, 
the revised questionnaire incorporates information from year-end 
summaries I only recently received from my financial advisors.

    Question B. If so, I would ask you to explain how that is so, given 
that the most recent submissions appear to list assets and income 
streams that were not identified in the original submission and the 
amounts listed for certain assets, liabilities, and income streams were 
changed in the later versions?
    Response. Initially I completed the questionnaire on my own without 
any guidance. Because the Committee questionnaire did not include 
instructions, I based my answers on my understanding of the requested 
information. After the Committee requested more information, I 
clarified my answers according to the Committee's guidance. In some 
instances, I listed the same assets but in different categories. In 
other instances, I included more detailed figures based on the 
Committee's requests and updated information I received from my 
financial advisors. On March 26, 2009, I met with majority and minority 
Committee staff and explained these issues in 
detail.

    [The Committee questionnaire for Presidential nominees from 
Ms. Duckworth, submitted twice, follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ------                                

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [A letter from the Office of Government Ethics follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    [Letter from Ms. Duckworth to the Office of General 
Counsel, U.S. Department of Veterans Affairs:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Akaka. Thank you very much, Major Duckworth, for 
your testimony.
    I certainly appreciate the enthusiasm and creativity that 
you will be bringing to your new position if you are confirmed 
by the Senate.
    In your appearances before this Committee and in other 
public forums, you have sometimes been critical of VA. In your 
new position, you will be called on to defend VA when others 
express their criticism. How will you handle this situation?
    Major Duckworth. Sir, I plan on approaching my job with the 
utmost level of transparency and accessibility. One of the 
great frustrations I had as a State Director, as someone from 
outside the VA organization, was that complete opaqueness. 
Oftentimes, when I wanted information or when I asked simple 
questions, I could not get the answer, and I think that is one 
of the greatest criticisms. That was certainly something that I 
had, which was just tell me what I am asking so that I can go 
about the business of helping veterans.
    I know that is a great frustration, and so I hope to 
approach my job with openness, transparency. and just being 
always available to be asked questions. And, if I do not know 
the answer, I am going to tell you I do not know the answer. I 
am certainly not going to hide that, but I am going to get back 
to you, do the research and get that information back out.
    Chairman Akaka. Thank you for that response.
    I am aware of many initiatives that States have undertaken 
to address the needs of veteran residents, and I know that you 
have said that coordination and outreach to the States will be 
one of your top priorities. Do you have specific ideas, for 
example, for ways in which the States and Federal agencies can 
collaborate to address the needs of veterans with TBI or PTSD?
    Major Duckworth. Yes, sir. In Illinois, we started the 
Illinois Warrior Assistance Program, and that was out of the 
recognition that so many Illinois veterans who deployed were 
National Guardsmen and Reservists who did not live near a large 
military installation like in many other States and that once 
they came home they then returned to very rural communities 
that were far away from the nearest installation.
    So, with the Illinois Warrior Assistance Program, we 
accessed our local network of mental health providers, and we 
partnered with nongovernmental organizations--the Illinois 
Brain Injury Association and the Rehabilitation Institute of 
Chicago--and developed a teaching program on military-caused 
trauma, brain trauma and PTSD that we then implemented to the 
network of local providers across the State.
    So, under the Illinois Warrior Assistance Program, the 
servicemember who either does not want to go to a Federal 
facility or who lives more than 1 hour's drive, 75 miles, or 
has to wait more than 3 weeks for an appointment with the VA, 
will get full access to care from his local provider who has 
been trained on military trauma. And so, it is that partnership 
between State government, not-for-profit organizations like the 
Illinois Brain Injury Association, and also with 
nongovernmental entities like the Rehabilitation Institute of 
Chicago, coming together to reach out and have those services.
    And then we advertised it through partnerships, not just 
with our own offices but with county organizations, with 
veterans service organizations. Sometimes the first word of 
advice a young vet gets occurs when he walks into the local VFW 
post and talks to a Vietnam veteran. And so, part of my job 
will be to make sure we have those partnerships across all of 
the organizations that are interested in caring for vets.
    Chairman Akaka. Major Duckworth, in responses to my pre-
hearing questions, you indicated an interest in looking at 
improved ways of communicating with this newest generation of 
veterans. Could you please describe in more detail what you 
envision?
    Major Duckworth. Yes, sir. The VA does some things very 
well. It does a great job, a wonderful job of sending out 
newsletters, monthly publications, taping video messages that 
get played on Armed Forces channels, those very traditional 
methods of reaching World War II and Korean War vets.
    The largest population of internet users among the veterans 
communities are actually Vietnam veterans, and I would like to 
see the VA move forward in that realm of the internet--Facebook 
pages, blogs, social networking sites--accessing our partners 
in the veterans service organization community and just getting 
the word out--so, accessing nontraditional media; basically 
going to where the vets live, work and play.
    You know, if military recruiting has moved toward using 
NASCAR and blogs and video games, well, that is because it is 
effective. The VA needs to think along the same lines in terms 
of reaching our veterans where they live and where their family 
members live, because the other group that often gets the 
information to the veteran is his family members.
    Chairman Akaka. Thank you very much.
    Senator Burr.
    Senator Burr. Thank you, Mr. Chairman.
    Major, I am going to go to a similar area in your testimony 
because you were very clear, and I will quote you: ``No veteran 
should ever have his access to DVA services blocked because of 
geography. Just as it did not matter where my hometown was when 
I enlisted, where I live now should not prevent me from getting 
the DVA services that I need and earned.'' I think that is an 
extremely important point.
    And, you covered what you did as the State Director to 
expand services and the criteria that was used: geographical 
distance, length of time for an appointment. Let me ask you, 
honestly, should we not extend this across the Department of 
Veterans Affairs?
    I happen to represent a State that, if you look at it, 50 
percent of it is very rural. There are many areas where we have 
yet to reach an outpatient facility within a reasonable 
distance of where veterans live, yet I have the highest 
percentage increase of retired military in my State of any 
State in the country. So we know what is coming down the road.
    And, I have to say that the past Secretary and the current 
Secretary are working aggressively to make sure that we address 
the facility needs that we have. But, in the interim, there are 
services that you cannot provide at every outpatient facility, 
mental health is one of them.
    There are certain specialties that, once you get outside of 
the hospital, you might not be able to provide, but could be 
done if a health care professional is contracted with. Should 
we expand our contract basis care in this country to be able to 
take care of rural veterans?
    Major Duckworth. Sir, well, my position, should I be 
confirmed, will be to make sure that veterans know of all the 
options that are available to them.
    In my own case, I go to Hines VA for most of my care, but I 
actually go to a contractor for my prosthetics care, as an 
example, because I use very high-tech prostheses, very much on 
the cutting edge and I, personally, was not satisfied with what 
was provided at the prosthetic department when I first came out 
of Walter Reed because Walter Reed has this really high 
standard. So I actually go to a contractor for my prosthetics 
care.
    Part of my job is going to be to make sure that our 
veterans, wherever they are, understand that there is that 
combination available, that there are some things the VA does 
very, very well, that I would never go anywhere else for--
spinal cord rehabilitation, blind rehabilitation, for example. 
And, there is an intangible of being served by people who work 
with veterans and being taken care of next to one another, so 
you can sit there and tell war stories in the waiting room. So, 
there is that combination.
    My job, my position will be to make sure that we access 
community providers, that we enter into partnerships with 
nongovernmental organizations, whether they are veterans 
service organizations that are willing to drive veterans to 
appointments, or working with State government.
    I hope to really look very closely, should I be confirmed, 
at exploring all of those possibilities. We had a similar 
challenge in Illinois also. You know, you think of Illinois, 
you think of Chicago, but that is only 50 percent. The rest of 
my veterans live in places like Anna, Illinois and Plano, 
Illinois and El Paso, Illinois, with very small populations and 
great, great challenges with accessing care.
    Senator Burr. Though the policy side is not necessarily 
under your role in the capacity that you are going to serve in, 
I think it is a unique opportunity to have somebody that has 
been there, done this, that can be the voice of not just reason 
from a standpoint of our policy but can also help us to focus 
on that future, that 21st Century that I truly believe that 
General Shinseki is focused on and how we structure it 
architecturally so that we deliver that same quality of care in 
a way that veterans can geographically access it, and sometimes 
that will be out of the box.
    Major Duckworth. Yes, sir.
    Senator Burr. It will be out of the VA facility. It will be 
with somebody who meets the standards that we set but may not 
receive a government paycheck week in and week out, and I hope 
you will be that voice.
    You also said earlier in your testimony, ``In order to 
become a 21st Century organization, DVA will have to change 
some past methods used to communicate with other government 
agencies, the Congress, the media, and most importantly, our 
veterans.''
    And you listed a couple. You talked about social 
networking. You talked about blogs. Are there any others that 
come to your mind right now which are areas that we do not 
utilize but that veterans and, more importantly, their families 
have become reliant on and we need to consider tapping into?
    Major Duckworth. Yes, sir. Well, at the State, those 
partnerships were really important with those nongovernmental 
organizations. I worked with everybody from your traditional 
veterans service organizations to churches. Oftentimes, when a 
veteran's family is getting into where they need counseling, 
they turn to their local pastor. A lot of times, it is going to 
schools and letting school counselors know of programs so that 
they can keep their eyes on the veteran's children if they see 
behavioral problems. So you really need to reach out across the 
entire broad spectrum of our society.
    And, a lot of times, the information, you cannot get it 
directly to the veteran because our veterans, God bless them, 
are stubborn; and they would not be good American GIs if they 
were not stubborn because that is what gets the mission 
accomplished. But, a lot of times, they are the last person to 
admit that they need help and that they have a problem.
    By getting information through whatever form that you can--
to their family members, their employers, the community--you 
increase the likelihood that the veteran will eventually get 
that information when he needs it. When he sits down and he 
thinks, oh, I really need to go get some counseling, his wife 
will have the flyer that was handed out at Sunday School or his 
employer will ask if he knows that there are these services 
from the State because the State has reached out to the 
employer.
    Senator Burr. I would urge you to be very imaginative as 
you enter into this role as to how we communicate, again, not 
just with veterans but with veterans' families who are 
absolutely crucial in every case to the healing process, both 
physically and mentally.
    Let me assure you, in the professions we are in, if we are 
called stubborn, that would be a generous thing than some of 
the things we are typically called. [Laughter.]
    Mr. Chairman, I will have several additional questions that 
I will ask in writing to help clarify some of the information 
on Committee's questionnaires, but at this time I would yield 
the floor.
    Chairman Akaka. Thank you very much, Senator Burr.
    And now I would like to call on Senator Burris for your 
questions.
    Senator Burris. Thank you, Mr. Chairman.
    Just a couple questions, Major. I think that this may not 
necessarily fall under your jurisdiction or your title, but I 
know that you have that aggressiveness and you and General 
Shinseki are going to run that Department. Are you familiar 
with the situation in Joliet, Illinois, where that hospital is 
being vacated by the hospital owners, and the veterans are now 
trying to get that hospital turned over to the Department of 
Veterans Affairs so that those veterans in that area do not 
have to go to Hines or to Jesse Brown or, God forbid, North 
Chicago?
    Are you familiar with that problem in Joliet at all?
    Major Duckworth. I am familiar with it from my work as a 
State Director but not from the Federal VA perspective.
    Senator Burris. Would you be able to assist in any way in 
your capacity, should you be confirmed, in seeing whether or 
not we can get that hospital in Joliet turned into a veterans 
hospital?
    I understand it is a very modern facility. It is an updated 
facility, and a lot of the veterans organizations are seeking 
to have that hospital made into another veterans hospital so 
that they will not have to commute those hour and 2 hours to 
Hines or to Jesse Brown.
    Major Duckworth. Well, the position that I am nominated 
for, should I be confirmed, sir, will involve me aiding in the 
discussions with the veterans in that community and 
communicating the VA's criteria for new hospitals and also 
getting input from them and having them have a source of 
expressing their concerns. So I will certainly be glad to help 
in that process of dialog.
    Senator Burris. And, of course, coming from Illinois and 
with your expertise, I am pretty sure you could get to the 
other colleagues in the Department of Veterans Affairs and give 
them a little nudge in that direction.
    Second, I ran across another issue, Major, when I was 
visiting Jesse Brown the other day--which this does not fall 
under your category either--but the information that the 
veterans do not have, and that is the dental care issue. This 
question seems to come up, of how do we get information to the 
veterans about what benefits they get in dental care. That 
seems to be a major problem.
    You might want to look at how you can promote, should you 
get confirmed, better information to the veterans on what 
dental care is available, because what your primary physicians 
will tell you is that lack of dental care leads to other types 
of medical problems. If you do not take care of your teeth, 
then it is going to lead to all types of other health ailments.
    And, third, we have a piece of legislation that is coming 
about, and, Mr. Chairman, I do not know where we are with that 
legislation, but it deals with the family, the care of how we 
can get money to the those families also giving care to those 
veterans, similar to the other caregivers. If a family member 
has to leave his or her job to take care of that veteran, then 
that family member should also be compensated as any other 
caregiver would be compensated. We are hoping that we can get 
that legislation passed.
    So, I just hope that you would be instrumental in assisting 
us in getting information out to veterans when we are working 
on that piece of legislation to help those caregivers that, as 
you said in your testimony, are so much needed and taking care 
and giving them some peace of mind too, where someone is home 
who is able to take care of them and keep them in their 
environment.
    Major Duckworth. Thank you, sir.
    Senator Burris. Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Burris.
    Major Duckworth, Senator Tester asked this in his opening, 
and I want to give you an opportunity to answer it. How will 
you handle those times when you personally disagree with a 
policy under consideration by the Secretary?
    Major Duckworth. Sir, should I be confirmed, I will become 
an advisor to the Secretary, and I will be very up-front and 
honest in expressing my opinion when asked on issues. When I 
was Director of the State of Illinois Department of Veterans 
Affairs, I valued most my advisors who said, here is what I see 
as the reality, and I may not agree with you, but I am going to 
stand up for what I think is right. And I hope to play that 
role within the Secretary's cabinet.
    I think one of the great things about being able to work 
with General Shinseki--when he was nominated, I said I would go 
mop floors for him if he asked me to--is that he is that kind 
of a leader. He is that kind of a leader who wants input. He is 
that kind of a leader who wants you to stand up and express 
your frank opinion so that we can come to the best decision for 
our veterans, and I hope to continue in that capacity with him.
    Chairman Akaka. Thank you.
    In your pre-hearing responses, Major Duckworth, you wrote 
not only about how updated web-based resources are essential 
but also how important it is to have a real live person 
available to help. Do you believe that VA can do both and, if 
so, how?
    Major Duckworth. Yes, sir. There are many approaches that 
the VA can take.
    At the State level, we started our own hotline for Post 
Traumatic Stress Disorder and Traumatic Brain Injury. When you 
call that hotline at the State level, you actually reach a real 
live counselor with a master's degree. You do not get a phone 
tree. You do not get ``push nine,'' or whatever.
    That is critical when veterans are calling these hotlines 
asking for help because it is so easy to turn them off. And so, 
we need to make sure that we train anybody that has direct 
customer service contact working with veterans to make sure 
that they understand the sensitivity of some of these issues.
    I hope, should I be confirmed, to be part of that program 
to review how the VA does things with customer service, review 
how we interact with our veterans and make sure that we provide 
the information that they need in the way that they need it 
because you know we learned this from the Vietnam generation.
    We had a whole generation of vets who came in, were not 
treated with respect, perhaps did not get the message 
correctly, so they turned around, and they walked away from the 
VA for 30 years. For 30 years they suffered, and that is simply 
not acceptable. If I am confirmed, I am going to make sure that 
we do not do that to the post-9/11 vets.
    Chairman Akaka. Just yesterday, the President signed into 
law a new Serve America Act which expands the mission of the 
Corporation for National and Community Service in a number of 
ways. The new law includes the Veteran Service Corps that is 
designed to help Active Duty servicemembers and veterans. Would 
you please report back to the Committee within 30 days on your 
efforts to reach out to the Corporation and your involvement in 
this new program?
    Major Duckworth. I will be happy to do so, sir.
    Chairman Akaka. Well, thank you very much. This has been a 
great hearing for the Committee.
    Let me ask Senator Burris whether you have further 
questions.
    Senator Burris. I am fine, Mr. Chairman.
    Chairman Akaka. Well, I want to thank you very much, Major 
Duckworth.
    Senator Burris. Just to congratulate our new nominee, and 
we are going to make sure she gets confirmed, sir.
    Major Duckworth. Thank you.
    Chairman Akaka. Thank you very much. This Committee will 
try its best to move your nomination and try to confirm it. We 
will let the Committee and the Senate do that.
    But thank you again for your full and open participation in 
today's hearing. Your service to this country is greatly 
appreciated, and we truly believe you will be an outstanding 
voice for the Nation's veterans and their families in the role 
of Assistant Secretary for Public and Intergovernmental Affairs 
in the VA.
    With this in mind, I would like to bring Major Duckworth's 
nomination before the Committee and full Senate as soon as 
possible.
    As I said previously for Mr. Gould's nomination, I ask that 
any post-hearing questions for Major Duckworth be sent to the 
Committee's legislative clerk by this afternoon.
    This has been a great hearing for us and for the country 
and for the veterans. And I want to say thank you, mahalo nui 
loa, for what you are and the responses you made and what you 
will be for our veterans.
    Major Duckworth. Thank you.
    Chairman Akaka. This hearing is adjourned.
    [Whereupon, at 11:20 a.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


   Letter from Japanese American Veterans Association in Support of 
                        Major L. Tammy Duckworth

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                          PENDING NOMINATIONS

                              ----------                              


                         WEDNESDAY, MAY 6, 2009

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:01 a.m., in 
room SR-418, Russell Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Committee, presiding.
    Present: Senators Akaka, Burris, Burr, Isakson, and 
Johanns.

     OPENING STATEMENT OF HON. DANIEL K. AKAKA, CHAIRMAN, 
                    U.S. SENATOR FROM HAWAII

    Senator Akaka. For the information of all of you here 
today, we have a long series of votes beginning around 10:40 
this morning and I want to ensure that we have a full hearing. 
This is the reason we are starting sooner than we had planned.
    These nominations are important to us. With the Ranking 
Member's cooperation, we are starting early here this morning. 
It is my hope that we will be able to finish before the votes, 
and that is my intent. Should we need additional time, I will 
work with Senator Burr on finding another opportunity, 
preferably this week. But, otherwise, we will try to do it 
within the time before the votes.
    That said, let me say good morning, aloha, and welcome to 
today's hearing to consider four nominations for positions 
within the Department of Veterans Affairs. This hearing will 
come to order.
    Roger W. Baker, to be Assistant Secretary for Information 
and Technology; Will A. Gunn to be VA's General Counsel; Jose 
D. Riojas to be Assistant Secretary for Operations, Security, 
and Preparedness; John U. Sepulveda to be Assistant Secretary 
for Human Resources and Management.
    I am delighted to welcome all four nominees, and also your 
families and friends that are here today.
    Just a housekeeping note. After we have completed our 
opening statements, I will introduce each of the nominees in 
turn. Following my introduction, I will ask each to introduce 
family and friends who are here today and then to make his 
statement. Then, once all four nominees have been introduced 
and have made their statements, we will begin with our 
questions.
    Each nominee, if confirmed, will play an integral role in 
the overall management and day-to-day operations of VA, and we 
are making every effort to put together the VA leadership team 
so that you can begin to work on VA matters.
    Mr. Baker, if confirmed, you will be VA's Chief Information 
Officer. VA has suffered with continued failures in the ability 
to deliver functional computer programs. Your challenge will be 
to reverse that course. You will also need to work with the 
Department of Defense to create a unified lifetime electronic 
health record for members of the armed services, and you will 
be responsible for resolving any IT issues as VA works to 
implement the Post-9/11 GI Bill.
    Mr. Gunn, if confirmed, you will be responsible for 
proactive legal advice and representation of the Department. 
Given your experience in the Judge Advocate General Corps, I am 
confident that you possess the leadership ability to manage the 
decentralized VA legal system. You will be looked upon to 
provide a comprehensive evaluation of legislation both 
introduced in the Congress and proposed by VA for its legal 
basis and impact.
    Mr. Riojas, if confirmed, you will be responsible for 
coordinating VA's emergency management, preparedness, security, 
and law enforcement activities. These activities affect 
veterans on a daily basis, providing for the security of VA 
facilities, employees, veterans receiving care, and visitors 
alike. The important task of preparing and coordinating VA's 
response to war, terrorism, national security matters, and 
natural disasters while ensuring continued service to veterans 
will also be yours. VA has a fine record of emergency 
preparedness. I trust this will remain the case under your 
watch.
    Mr. Sepulveda, if confirmed, you will have the task of 
managing VA's human resources activities during a period when 
there are many VA employees who are retirement-eligible. Your 
experience at the Office of Personnel Management, coupled with 
your general management experience, suggests that you have the 
qualifications for taking on the massive challenges of this 
office. When carrying out your responsibility with regard to 
VA's labor-management relations, I ask that you appreciate the 
unique relationship that VA employees have with the veterans 
they serve. This relationship goes beyond the bottom line and 
is based upon maintaining a workforce, many of whom are 
veterans themselves, that has a sense of service and 
dedication.
    I thank you all for being here today and look forward to 
your testimony.
    I have the privilege this morning to introduce the four 
nominees.
    Roger W. Baker is the President's nominee for Assistant 
Secretary for Information and Technology. Mr. Baker has 30 
years of experience working in the field of information and 
technology, including as Chief Information Officer at the 
Department of Commerce from 1998 to 2001. Prior to joining the 
Federal Government, Mr. Baker had an extensive career with 
software and IT firms, including leading the development of 
Internet and online banking systems at VISA International. He 
has also been a senior technology management executive at CACI 
and at General Dynamics. In addition to his B.S. degree in 
Computer Science, he has a Master's in Business Administration 
from the University of Michigan.
    Mr. Baker, please introduce your family and friends who are 
here today, and when you are done, please begin with your 
statement.
    Mr. Baker. Thank you, Mr. Chairman. I am joined by my wife, 
Karen, and my son, Alex, currently in college at Old Dominion; 
friends Bob and Ruth Guerra, Robin and Dan Matthews, Phil 
Kiveat. And I would really like to thank the members of the 
Department of Veterans Affairs, in particular, the Office of 
Information Technology that have joined us today to listen to 
the testimony and the hearing.
    Senator Akaka. Thank you. Welcome, and good to have your 
family and friends here.

STATEMENT OF ROGER W. BAKER, NOMINEE TO BE ASSISTANT SECRETARY 
  FOR INFORMATION AND TECHNOLOGY, U.S. DEPARTMENT OF VETERANS 
                            AFFAIRS

    Mr. Baker. Thank you Chairman Akaka and Members of the 
Committee on Veterans' Affairs. It is an honor to appear before 
you today and to have been asked by Secretary Shinseki and 
President Obama to serve our Nation's veterans.
    I am a technologist and a technology manager. I attended 
one of our country's finest universities and have worked for 
some of our country's best companies. Most of my professional 
career has been in the private sector, where I have had the 
opportunity to work at the forefront of high-technology 
industries, including in software development and Internet 
banking, as you have mentioned.
    While many of my friends and members of my family have 
served in our country's military, I reached military age during 
a time of peace. I have been blessed throughout my life to live 
in the comfort and security made possible by the service and 
sacrifices of our Nation's veterans. I was honored to accept 
President Obama's nomination to work for Secretary Shinseki and 
Deputy Secretary Gould and, if confirmed by the Senate, to use 
my skills to serve the veterans whose sacrifices have made the 
good life I lead possible.
    The Assistant Secretary for Information and Technology at 
the Department of Veterans Affairs is a challenging position. 
VA IT is one of the largest single consolidated IT 
organizations in the world, rivaling or exceeding that of most 
of the Fortune 20 largest companies. Veterans Affairs has faced 
a number of highly public technology challenges over the last 
few years, including the loss of veterans' information and 
failed systems development programs.
    The consolidation of VA's IT assets into a single 
organization, which has largely been completed over the last 2 
years, provides a starting point for addressing those 
challenges, but the road ahead is long and is unlikely to be 
incident free. If confirmed, I recognize that I will probably 
have many ``bonding opportunities,'' as we call them in the 
private sector, with the Members of this Committee and your 
staff. Mr. Chairman, I commit to you that you will find me 
open, earnest, and honest when we have those opportunities to 
have frank discussions.
    President Obama and Secretary Shinseki have expressed a 
compelling vision of a 21st century VA: a VA that delivers 
proactive, efficient services to veterans when, where, and how 
they want them; a virtual lifetime electronic record that 
supports a seamless transition from servicemember to veteran; 
an electronic VA that uses all the information available to it 
to maximize benefits and minimize waiting times and backlog; 
and a transformed VA that turns the veterans' experience from 
one of delay to one of delight.
    To achieve the President's and the Secretary's vision, VA 
must have a strong information technology capability. The VA IT 
organization must be able to reliably develop and operate the 
technology solutions that will enable the transformation of VA 
business processes.
    I know there is no easy path, no simple answer, and no 
shortcut solution to creating a strong IT capability at VA. 
Achieving this will require hard work, disciplined management, 
and honest communications. But with the IT consolidation as a 
starting point, I believe that VA can achieve a substantial 
strengthening of its IT capabilities over the next 4 years. My 
guiding vision is that VA, and the veterans we serve, should 
have the best IT organization in the Federal Government.
    In conclusion, if this Committee chooses to confirm me, I 
am committed to doing my utmost to transform the Department 
into a 21st century organization, focused on the Nation's 
veterans as its clients, and providing them with the level of 
service that they have earned through their service and 
sacrifices they have made to our country.
    Thank you.
    [The prepared statement of Mr. Baker follows:]
Prepared Statement of Roger W. Baker, Nominee to be Assistant Secretary 
   of Information and Technology, U.S. Department of Veterans Affairs
    Thank you Chairman Akaka, Senator Burr, and distinguished Members 
of the Committee on Veterans' Affairs. It is an honor to appear before 
you today, and to have been asked by Secretary Shinseki and President 
Obama to serve our Nation's veterans.
    I am a technologist and a technology manager. I attended one of our 
country's finest universities, and have worked for some of our 
country's best companies. Most of my professional career has been in 
the private sector, where I have had the opportunity to work at the 
forefront of high-technology industries including software development 
and Internet banking.
    While many of my friends and members of my family have served in 
our Country's military, I reached military age during a time of peace. 
I have been blessed throughout my life to live in the comfort and 
security made possible by the sacrifices of our Nation's veterans. I 
was honored to accept the President's nomination to work for Secretary 
Shinseki and Deputy Secretary Gould, and, if confirmed by the Senate, 
to use my skills to serve the veterans whose sacrifices have made the 
good life I lead possible.
    The Assistant Secretary for Information and Technology at the 
Department of Veterans Affairs is a challenging position. VA has faced 
a number of highly public technology challenges over the last few 
years, including the loss of veteran's information and failed systems 
development programs. While the consolidation of IT assets completed 
over the last two years, provides a starting point for addressing those 
challenges, the road ahead is long and unlikely to be incident free. If 
confirmed, I recognize that I will have the opportunity for many 
``bonding opportunities,'' as we say in the private sector, with the 
Members of this Committee. Mr. Chairman and Members of this Committee, 
I commit to you that you will find me earnest, open, and honest when 
those ``opportunities'' arise.
    President Obama and Secretary Shinseki have expressed a compelling 
vision of a 21st Century VA:

    <bullet> a VA that delivers pro-active, efficient services to 
veterans where, when, and how they want them;
    <bullet> a virtual lifetime electronic record that supports a 
seamless transition from servicemember to veteran;
    <bullet> an electronic VA that uses all the information available 
to it to maximize benefits and minimize waiting times and backlog;
    <bullet> a transformed VA that turns the veterans' experience from 
one of delay to one of delight.

    To achieve the President's and the Secretary's vision, VA must have 
a strong information technology capability. The VA IT organization must 
be able to reliably develop and operate the technology solutions that 
will enable the transformation of VA business processes.
    There is no easy path, no simple answer, and no short-cut solution 
to creating a strong IT capability at VA. Achieving this will require 
hard work, disciplined management, and honest communications. But, with 
the IT consolidation as a starting point, I believe that VA can achieve 
a substantial strengthening of its IT capabilities. My guiding vision 
is that VA, and the veterans we serve, should have the best IT 
organization in government.
    In conclusion, if this Committee chooses to confirm me, I am 
committed to doing my utmost to transform the Department into a 21st 
century organization, focused on the Nation's veterans as its clients, 
and providing them with the level of service that they have earned 
through their service and sacrifices for our country.

    Thank you.
                                 ______
                                 
Response to Pre-Hearing Questions Submitted by Hon. Daniel K. Akaka to 
 Roger W. Baker, Nominee to be Assistant Secretary of Information and 
            Technology, U.S. Department of Veterans Affairs
    Question 1. Please describe your vision for VA's Information and 
Technology system. How do you plan to integrate the competing desires 
of the separate Administrations within the framework of an overall VA 
strategic IT plan?
    Response. To achieve the Secretary's vision and transform the 
Department into a 21st century organization, VA must have a strong 
information technology capability. VA must be able to create and 
operate technology solutions that enable the Administrations to 
transform their business processes and deliver pro-active, efficient 
services to veterans where, when, and how they want them. My guiding 
vision for IT's role in that transformation is that VA should have the 
best IT organization in government, and should constantly benchmark 
itself with industry-leading organizations.
    As a former private sector CEO, dealing with competing interests 
has been a daily occurrence for me. A fundamental first step is 
ensuring that my organization can be relied upon to deliver on the 
commitments it makes to its internal customers. A second step is to 
look for synergistic investments that benefit multiple customers. 
Finally, hard decisions inevitably have to be made. My approach to 
making the hard decisions is to communicate with all affected parties, 
to discuss tradeoffs, to make a decision if consensus can be reached, 
and to recommend a decision if the decision needs to be elevated.

    Question 2. If confirmed, what will be your top priorities for the 
office you will oversee, and what can Congress do to assist you in your 
new role?
    Response. If confirmed, my recommendation to Secretary Shinseki and 
Deputy Secretary Gould is that my top priorities should be:

    <bullet> Ensure that a customer service culture exists within IT, 
clearly communicating that IT exists to help VHA, VBA, and NCA serve 
our veterans.
    <bullet> Continuously increase operational systems reliability and 
security, eliminate operational errors, and establish and publish 
metrics for all systems that can impact the business;
    <bullet> Address and correct the systems development process so 
that it can be relied upon to deliver functional systems on time and on 
budget.
    <bullet> Communicate with employees and internal customers; ensure 
that an open, constructive communication environment exists both inside 
IT and with internal customers;
    <bullet> Value employee skills and abilities; ensure employees are 
valued based on their abilities, and that skill gaps are addressed 
through appropriate training.
    <bullet> Ensure that our vendor partners are treated as partners, 
helping IT bring the best private sector technologies to bear on the 
problems faced by VA.

    If confirmed, I plan to communicate extensively with Congress, both 
about ongoing issues and about opportunities and approaches that my 
organization may be considering. I will appreciate your candid feedback 
as I work to create a stronger IT capability at VA.

    Question 3. What lessons did you learn during your tenure as Chief 
Information Officer at the Department of Commerce that you hope to 
bring to your new position at VA?
    Response. For a private sector executive coming into government, 
there are numerous surprises encountered in learning an entirely 
different ``system.'' Acquisition, personnel, hiring and other 
processes are substantially different from the private sector, and 
create real barriers to progress until they are understood. Clearly, my 
tenure at Commerce gave me the opportunity to learn those lessons so 
that I can apply them immediately, if confirmed, at VA.
    At Commerce, I also learned how to move a large governmental 
organization toward accepting changes that are needed. Working with 
people throughout the Department, I was able to gain acceptance and 
approval of a new IT management structure that was needed to address 
security and other gaps existent at the time.
    Finally, I learned that the key asset I could bring to the 
organization is a high level of expectation of how things should be. By 
not accepting the status quo, and by consistently pushing programs to 
research and understand the market-leading approaches to solving 
similar problems, I was able to elevate the quality of solutions 
provided across the organization.

    Question 4. How has your private sector work experience prepared 
you for the position for which you are now nominated?
    Response. The most important thing I bring from my private sector 
experience is an expectation level for the role IT can play in 
organizational success. In my private sector experience, IT has been 
key to bringing new opportunities to the business, and was frequently 
the instigator of positive change. As a member of Secretary Shinseki's 
team at VA, one of my roles will be to understand and describe the art 
of the possible with technology, and how it can be used to improve the 
services VA provides.

    Question 5. How would you describe your management style and how is 
it suited for this particular position?
    Response. I have a collaborative management style. I believe in 
management by walking (and traveling) around. I believe that the 
combined knowledge of the organization I manage is greater than my own, 
and that my job is to get the best results possible from that 
knowledge. I am a customer service oriented manager, and I like to talk 
to the customers and clients of my organization to understand how our 
work and policies are affecting them.

    Question 6. While working in the private sector, did you, or the 
companies that employed you, ever directly work with VA? Are there any 
residual connections with prior employers that could present an 
appearance of a conflict of interest? If yes, what will you do to 
remove any such apparent conflicts?
    Response. CACI, General Dynamics, and Dataline all have or have had 
business dealings with VA. Because my employment with Dataline was 
within the last two years, I will recuse myself from any issues in 
which Dataline is involved. Other than friendships with former co-
workers, I have no ties to any of my former employers.

    Question 7. The position of Assistant Secretary for Information and 
Technology requires cross-Departmental collaboration with the Under 
Secretaries, Assistant Secretaries, and other key officials. Can you 
please describe previous experiences that have prepared you for this?
    Response. Most of my professional career has been spent in 
positions that required extensive collaboration in order to succeed. As 
an executive in high-technology, high-growth companies, my success, and 
the success of the company, often hinged on the ability of the 
executive team to work through difficult issues together despite 
frequent sharp disagreements.
    My collaborative management style was clearly on display at the 
Department of Commerce, as we worked through tough technology 
management issues with the Census, the Weather Service, and numerous 
other organizations. While I clearly expressed my views, and frequently 
made decisions that were not what my peers had argued for, my open 
style and clear ``good government'' agenda avoided creating animosity 
that would hinder future working relationships.

    Question 8. The Assistant Secretary for Information and Technology 
has responsibility for Department-wide IT budget formulation. How would 
you take into account the needs of the three Administrations while 
formulating the budget and ensure that the amounts requested are 
aligned with the Department's IT strategic plan? How would you gather 
input from the various Under Secretaries?
    Response. As a partner with the Under Secretaries in delivering 
effective services to veterans, I anticipate frequent discussions on 
how my organization can better serve their needs and help them serve 
their clients. I anticipate soliciting their input throughout the year 
and using that input, along with their formal input during the budget 
cycle and the established governance and selection processes of the 
Department, to help shape the IT investments recommended to Secretary 
Shinseki and Deputy Secretary Gould. During the budget cycle, I will 
work with all concerned to establish a prioritized list of investments 
for each Administration, and across VA.

    Question 9. The Assistant Secretary for Information and Technology 
oversees the cyber and information security program. After the highly-
publicized data theft in May 2006, and the Unisys computer loss in 
August of that same year, there continue to be ongoing incidents 
reported monthly to Congress. What changes do you believe can be made 
to better protect the security of veterans' personal information?
    Response. Information security is fundamentally a matter of 
processes, controls, and awareness. VA has made great strides since the 
IT centralization toward controlling access to sensitive information, 
strengthening the controls over the processing, storage, and 
transmission of that information, and increasing awareness of 
information security responsibilities among the employees of VA.
    At General Dynamics and at Visa, I was responsible for 
organizations that had very strong information security programs. These 
programs constantly reviewed evolving threats and vulnerabilities, 
researched the best available approaches to reducing the threat, and 
implemented solutions that worked for the business. If confirmed, I 
anticipate looking at the IT security programs at other large 
organizations, in healthcare, insurance, technology, government, and 
other areas, and incorporating many of the approaches of these 
organizations into what VA does.

    Question 10. VA has attempted to manage its IT functions in various 
ways over the years. What is your vision of the appropriate way to 
most-effectively manage VA's IT functions?
    Response. Effective IT is essential to the success of VHA, VBA, and 
NCA in their mission to provide services to our Nation's veterans. I am 
not ``married'' to any particular structure for managing IT, but will 
always look for ways in which the organizational structure can better 
support efforts to improve the results of our IT investments.
    With that said, I believe that the centralization of IT at VA was 
essential to improving the results of VA's IT expenditures. 
Centralization provides a starting point that allows institution of 
standards, processes, and disciplines that will increase the control, 
innovation, and results of IT investments. If confirmed, one of my main 
tasks will be to advise Secretary Shinseki and Deputy Secretary Gould 
on changes, organizational or other, that will improve the results of 
VA's IT investments.

    Question 11. On April 9, 2009, President Obama stated that VA and 
DOD ``have taken a first step toward creating one unified lifetime 
electronic health record for members of our armed services that will 
contain their administrative and medical information--from the day they 
first enlist to the day that they are laid to rest.'' What is your 
evaluation of the current state of VA and DOD's ability to deploy 
electronic medical records that are interoperable, bidirectional, and 
standards-based? How do you intend to work with DOD to ensure that a 
streamlined transition of health records from DOD to VA becomes a 
reality?
    Response. It is my understanding that a substantial amount of 
electronic records, both personnel and health, are currently exchanged 
between DOD and VA. I believe that the measure of success in this area 
is whether all needed information is available to the service provider, 
in a usable format, at the point of service. In other words, the 
purpose of interoperable records is not to exchange information, but to 
improve our services to the servicemember and veteran.
    If confirmed, I will work closely with members of the DOD, the 
Joint Executive Committee, the Senior Oversight Committee, Secretary 
Shinseki and Deputy Secretary Gould, and others, to ensure that 
appropriate technologies are brought to bear as we work to create a 
lifetime electronic health record.

    Question 12. VA faces a number of substantial issues as it works to 
implement the Post-9/11 GI Bill, a great many of which are related to 
IT. What will your role be in terms of both the short-term and long-
term initiatives that VA has developed?
    Please conduct a quick review of the status of VA's efforts to 
implement the new program and report back to the Committee within 30 
days of your installation as to whether you have identified any 
additional IT needs or any problems that need to be addressed.
    Response. If confirmed, I will use my experience in building and 
delivering financial transaction systems to suggest steps that can 
further increase our confidence in our success. However, with less than 
90 days remaining, my contributions to meeting that date will be 
limited. If confirmed, I will provide the Secretary and Congress, 
within 30 days, with my best assessment of any issues that may arise 
and possible mitigation strategies.
    Longer term, I will review the approach to the proposed ``long-
term'' solution, and pay close attention to the project plan for the 
on-time delivery of that system to VA.

    Question 13. Earlier this month, VA leadership briefed Secretary 
Shinseki and congressional staff on the failure of the Replacement 
Scheduling Application (RSA) Development Program. This is just one 
example of many IT programs that VA invested millions of dollars and 
years of work into and has arguably nothing to show for it. If 
confirmed, what would you do to get this and other failed programs on 
track and fully operational?
    Response. The technology organizations I ran at Visa and General 
Dynamics had substantial success in delivering new programs on time and 
on budget. While the approach to achieving that success should vary 
depending on organizational needs, three aspects common to a successful 
development organization are schedule discipline, frequent deliveries 
to internal customers, and well understood development and delivery 
processes.
    I understand that Secretary Shinseki has ordered a full review of 
the programs in the VA development portfolio. If confirmed, I expect to 
quickly contribute to and review the results of the ongoing review, 
establish a plan, consult with stakeholders, brief Secretary Shinseki, 
Deputy Secretary Gould, and congress, and take any actions required to 
ensure that failures like the RSA Development Program cannot happen.

    Question 14. Some of the reasons that VA wasted 8 years and more 
than $120 million before admitting failure with RSA were the use of 
time-and-materials contracts and the divergence between business 
requirements and project outcomes. What do you see as the appropriate 
way to plan, manage, and monitor projects that are worked on by 
contractors?
    Response. Contractors must be managed and held to the same 
schedule, delivery, and process discipline required of a successful 
internal program. The contract vehicles through which contractor 
products and services are obtained must provide the government with the 
ability to monitor, motivate, reward, and terminate the contractor's 
work based on the quality of their performance. From my brief exposure 
to the RSA system issue, a primary contributing factor to its failure 
appears to be the Department's unwillingness to openly and honestly 
deal with the fact that it was failing. With the support of Secretary 
Shinseki and Deputy Secretary Gould, I am committed to establishing a 
culture of open communication, a program management process that 
exposes failing programs early, and to dealing with problem programs 
expeditiously.

    Question 15. Secretary Shinseki has said that he is committed to 
fulfilling President Obama's vision for transforming the Department of 
Veterans Affairs into a 21st century organization. Historically, VA has 
had one of the worst IT records in government and is criticized for 
using outdated technology. As Assistant Secretary, in support of the 
Secretary's commitment, what would you do, that has not already been 
done, to achieve this goal?
    Response. With the help of the Senate, VA has consolidated its IT 
capabilities over the last two years. That consolidation provides the 
starting point to address the IT issues created over the last 50 years. 
There is no quick fix that will rapidly resolve all of VA's IT issues. 
However, if confirmed, I will provide consistent, experienced IT 
management; communicate and enact a simple yet strong improvement 
program; focus on creating an open and honest work environment; and 
require constant improvement as key parts of my effort to have a long-
term positive effect on the results of the VA IT organization.

    Question 16. Secretary Shinseki identified that reshaping the way 
VA handles IT is key to transforming VA. However, multiple reports and 
investigations over the last few years have stated that within VA there 
is a culture of resistance to change. If confirmed, what do you believe 
you will be able to do to overcome this resistance to change so as to 
promote the success of this transformation?
    Response. Communication is key to helping an organization change. 
If confirmed, I intend to proactively support and communicate Secretary 
Shinseki's and Deputy Secretary Gould's vision of a 21st Century VA, 
communicate the role IT plays in that vision, help the people in the IT 
organization understand the role they play in achieving that vision, 
and help the organization understand the positive impact that vision 
can have on the lives of our Nation's veterans. Through management 
actions, I will also compel change in certain areas of IT where the 
lack of change is impacting the quality of services we provide.

    Question 17. At my request, the VA's Office of the Inspector 
General is in the midst of an investigation of alleged mismanagement 
and illegal hiring practices within OIT. What do you believe you might 
be able to do so as to address personnel problems within OIT?
    Response. My previous experience with addressing personnel issues 
has been that leadership must communicate and enforce high expectations 
for ethics, interpersonal interaction, and professional conduct. If 
confirmed, and within the bounds of the applicable personnel systems, I 
intend to hold myself and my staff to high standards.

    Question 18. Do you agree to supply the Committee with such non-
privileged information, materials, and documents as may be requested by 
the Committee in its oversight and legislative capacities for so long 
as you serve in the position of Assistant Secretary for Information and 
Technology?
    Response. Yes. If confirmed, I will be providing Secretary 
Shinseki, Deputy Secretary Gould and the VA Chief of Staff with regular 
briefings on the issues facing VA IT, and will work to make sure that 
information requested by the Committee is provided in a timely manner.

    Question 19. Do you agree to testify before the Committee at 
hearings if the Committee requests your presence?
    Response. Yes.
                                 ______
                                 
  Response to Pre-hearing Questions Submitted by Hon. Richard Burr to 
 Roger W. Baker, Nominee to be Assistant Secretary for Information and 
            Technology, U.S. Department of Veterans Affairs

    Question 1. In testimony for his nomination hearing earlier this 
year, now Deputy Secretary Gould stressed the importance of 
transforming VA into a 21st century organization and the important role 
information technology solutions will play in that process.

    A. What do you see as the greatest challenges in this 
transformation?
    Response. As with changing any large organization, the greatest 
challenge in VA's transformation will be organizational change 
management. Training and convincing staff to embrace new ways of 
working will have impacts across the organization, including in IT. The 
greatest IT challenge will be establishing a strong IT capability that 
can reliably deliver the technologies needed for transformation on 
schedule and on budget.

    B. How has your background prepared you to deal with those 
challenges?
    Response. I have dealt with transformational technologies at a 
number of organizations, including at Visa and General Dynamics. I 
understand that communicating a vision of the transformed organization, 
and helping individuals understand their role in both the 
transformation and in the new environment, is key to achieving 
acceptance for new technologies. I also understand how to build a 
strong IT organization, including the disciplines required to bring 
programs in on schedule.

    C. In general, what would you hope to accomplish during your 
tenure?
    Response. My goal is that, by the time I leave, the VA IT 
organization is recognized as being well along the path to becoming the 
best IT organization in government. As part of this progress, we will 
have delivered many of the technology improvements to help transform 
the operations of the VA to meet the Secretary's vision of a 21st 
Century VA.

    Question 2. A 2008 Industry Advisory Council Transition Study Group 
report that you co-authored contains this statement: ``Today, 
government is challenged to keep pace with the private sector, lagging 
an average 10 to 15 years behind in incorporating the latest 
technologies and processes to improve mainstream operations.''

    A. What is your general assessment of the state of the technology 
at VA?
    Response. VA is significantly behind where I would expect a similar 
size private sector organization to be. Like most Federal 
organizations, VA is slow to embrace new technologies and processes, 
and does not benchmark itself versus good private sector organizations 
to determine where gaps exist. As noted in question 3 below, VA has a 
track record of poor performance on development programs, and has only 
recently (within two years) begun implementation of a robust IT 
security program. Only since the IT consolidation have they begun to 
consolidate their data center operations from numerous small centers 
into a few large ones. In short, there are many areas where VA can use 
existing technologies already proven in good private sector 
organizations to improve itself.

    B. What steps would you take to improve the information technology 
at VA and how would you prioritize any necessary changes?
    Response. If confirmed, my recommendation to Secretary Shinseki and 
Deputy Secretary Gould is that my top priorities and initial steps 
should be:

    <bullet> Ensure that a customer service culture exists within IT, 
clearly communicating that IT exists to help VHA, VBA, and NCA serve 
our veterans.
    <bullet> Continuously increase operational systems reliability and 
security, eliminate operational errors, and establish and publish 
metrics for all systems that can impact the business;
    <bullet> Address and correct the systems development process so 
that it can be relied upon to deliver functional systems on time and on 
budget.
    <bullet> Communicate with employees and internal customers; ensure 
that an open, constructive communication environment exists both inside 
IT and with internal customers;
    <bullet> Value employee skills and abilities; ensure employees are 
valued based on their abilities, and that skill gaps are addressed 
through appropriate training.
    <bullet> Ensure that our vendor partners are treated as partners, 
helping IT bring the best private sector technologies to bear on the 
problems faced by VA.

    Question 3. VA has experienced significant information technology 
problems in recent years. In fact, it recently came to light that VA 
has spent over $120 million on the Replacement Scheduling Application 
and has produced nothing of value.

    A. What precautions do you believe are necessary to prevent 
taxpayer dollars from being wasted on failed information technology 
initiatives?
    Response. All systems development programs must be constantly 
measured for adherence to schedule. Any variances must be communicated 
and understood, along with their long-term impact. The organization 
must deal honestly with its failures, and be willing to stop work on 
programs where results are no longer certain.

    B. How has your background prepared you to institute and uphold 
policies to prevent these types of failures in the future?
    Response. In my private sector positions, I have been consistently 
held responsible for meeting my commitments to my management, our 
customers, and our employees, and for communicating honestly about my 
status toward achieving those commitments. I expect to hold the VA IT 
organization to the same expectations. For example, at General 
Dynamics, I committed to my management that we would cut internal IT 
costs by 20% in one year without impacting service. I reported monthly 
on our progress to the President of the company, and was expected to 
provide a detailed review of where costs had been cut and how. I 
understood that if I provided misleading information, I would be 
removed from my position, and probably fired.
                                 ______
                                 
Response to Post-Hearing Questions Submitted by Hon. Daniel K. Akaka to 
 Roger W. Baker, Nominee to be Assistant Secretary of Information and 
            Technology, U.S. Department of Veterans Affairs
    Question 1. The Senate Committee on Veterans' Affairs received an 
update briefing from OIT at the end of March 2009 regarding VA (CPRS) 
compliance with Section 508 of the Rehabilitation Act. Please report 
back to this Committee in the next 60 days with what you determine to 
be the latest status of the 508 compliance issue.
    Response. I will do so.
    [See follow-up letter dated June 18, 2009, below.]

    Question 2. In an answer to one of my pre-hearing questions, you 
stated that one of your top priorities is, to ``[c]ommunicate with 
employees and internal customers,'' ensuring that an open, constructive 
communication environment exists both inside IT and with internal 
customers. How do you plan to create that type of environment?
    Response. The most important aspect will be to demonstrate a 
personal openness to discussion, soliciting views from employees and 
customers and incorporating them into my thinking. I will also work to 
foster a management environment where we don't ``shoot the messenger,'' 
allowing staff to self-report on bad news without fearing 
repercussions.
    Finally, I will identify management techniques that ensure that IT 
staff are motivated to communicate with customers and ensure that they 
are being well served.

    Question 3. As Chairman of the Subcommittee on Oversight of 
Government Management and the Federal Workforce of the Homeland 
Security and Governmental Affairs, I am deeply committed to making far 
greater use of telecommuting opportunities throughout the Federal 
workplace. What are your thoughts on how IT may factor into a plan, 
especially ensuring the security of sensitive information, if VA 
expands its telecommuting policy?
    Response. I am a strong supporter of telecommuting and virtual 
workforce capabilities, and will work within VA to ensure that we 
provide the technical capabilities that allow anyone who is authorized 
to work remotely to do so. Having worked for a number of ``virtual 
companies'' in the private sector, I will be an internal advocate for 
allowing employees to work remotely. While much of the mission of VA 
must be accomplished in its hospitals and clinics, IT can provide the 
tools to allow many parts of the organization to work from remote 
locations on a permanent, regular, occasional, or emergency basis.
    Standard practice for securing sensitive information for remote 
workers is to require that they be issued government-owned equipment, 
subject to standard encryption and protection rules, in order to be 
able to access government networks. Security, while always an area of 
significant focus, should not be an obstacle that limits telework 
opportunities.

    Question 4. Committee Staff recently conducted a prosthetics 
oversight visit at the Richmond VAMC. One of the topics discussed 
during this visit was the staff's use of IT in the day to day 
operations. The prosthetics' staff finds the databases they use to 
update the National Prosthetics Patient Data base (NPPD), track work 
orders, and monitor inventory are cumbersome and not very ``user-
friendly.'' In some cases, they claim they have to input the same 
information into multiple places which is time consuming and tedious. 
Since you have stated that you are a ``consumer service oriented 
manager,'' do you plan to talk with the staff at the VAMCs, like 
Richmond, and listen to their concerns with the current systems?
    Response. Yes. If confirmed I plan to make regular visits to VA 
field facilities to talk to front-line employees and customers. My goal 
is to stay as grounded as possible in the reality that our employees 
and customers face every day.

    [Mr. Baker's follow-up to Question 1 from Hon. Daniel K. 
Akaka follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [The Committee questionnaire for Presidential nominees from 
Mr. Baker follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [A letter from the Office of Government Ethics follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    [Letter from Mr. Baker to the Office of General Counsel, 
U.S. Department of Veterans Affairs:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



    Senator Akaka. Thank you very much, Mr. Baker.
    I want to now welcome Will A. Gunn. Colonel Gunn has been 
nominated to be VA's General Counsel and is currently an 
attorney representing military members and veterans in private 
practice in Northern Virginia.
    Colonel Gunn is a graduate of the United States Air Force 
Academy and graduated with honors from Harvard Law School. He 
also has a Master of Law degree in Environmental Law from the 
George Washington University School of Law and a Master of 
Science degree in National Resource Strategy from the 
Industrial College of the Armed Forces.
    We welcome you, Colonel Gunn, and would ask you to 
introduce your guests. When you are done, please begin with 
your statement.
    Colonel Gunn. Thank you, Chairman Akaka. I believe, if I am 
not mistaken, my guests are en route for the most part. 
However, one of my fellow alumni from the Academy, Mr. Gary 
Kao, joins me today. So, I am pleased with respect to that.
    Senator Akaka. Welcome.

  STATEMENT OF WILL A. GUNN, COLONEL (RET.), U.S. AIR FORCE, 
  NOMINEE TO BE GENERAL COUNSEL, U.S. DEPARTMENT OF VETERANS 
                            AFFAIRS

    Colonel Gunn. Chairman Akaka and other Members, I would 
just like to thank you for scheduling this hearing today.
    I am honored by President Obama's and Secretary Shinseki's 
choice to nominate me for the position of General Counsel in 
the Department of Veterans Affairs. I greatly appreciate the 
confidence that they have in me to help accomplish their vision 
of transforming this Department into a 21st century 
organization. I look forward to the opportunity, and I consider 
it a sacred trust.
    I believe my professional and life experiences have well 
prepared me to serve as the General Counsel for Veterans 
Affairs. You see, veterans hold a special place in my heart. I 
am named after one of my mother's brothers who died in the 
Korean War, and my wife, Dawn, she and I are both veterans, and 
veterans do hold a very special place in our hearts. Her 
father, for instance, was an enlisted man in the Army during 
World War II, and he served as an officer in the Korean War. In 
addition to that, a lot of other family members have also 
served in the military.
    Chairman, I put on the military uniform for the first time 
33 years ago when I entered the Air Force Academy in the summer 
of 1976. At that time I was part of the class of 1980, which 
was the first Academy class with women. I graduated 4 years 
later with military honors and was commissioned as a second 
lieutenant. I then served as an admissions advisor in the 
Academy's Office of Minority Affairs, and I later spent 2 years 
as a contract negotiator. I was then blessed to attend Harvard 
Law School, and while I was there, I was elected President of 
the Harvard Legal Aid Bureau, an organization that provided 
legal services to low-income individuals.
    After graduating from Harvard in 1986, I spent the next 19 
years in a variety of challenging and rewarding assignments as 
a member of the Air Force JAG Corps. I prosecuted cases; I 
defended military members; I represented the Air Force in 
Federal court; and I served as a White House Fellow. I also 
taught as a JAG School instructor and served as a supervising 
attorney in several settings. For example, I was the staff 
judge advocate for Pope Air Force Base in North Carolina, and I 
served as Chief Defense Counsel for Air Force defense counsel 
over an 11-State area. I then went on to serve as the Executive 
Officer to the Air Force Judge Advocate General, which 
essentially meant that I was the chief of staff for a 
department with over 1,000 attorneys.
    I concluded my military career as the first ever Chief 
Defense Counsel in the Office of Military Commissions with the 
responsibility of establishing a defense function and 
effectively representing the detainees at Guantanamo Bay, 
Cuba--those that were brought before military commissions.
    In addition to my military service, last year I established 
my own law firm to focus on military law so that I could 
provide service to military members and veterans.
    My first exposure to the Department of Veterans Affairs 
came in 1990 when, as a White House Fellow, I was assigned as a 
White House liaison to VA's Office of the Secretary. During 
that year, I gained an appreciation for several issues 
affecting the Department, and I have followed these issues from 
afar over the years.
    If confirmed, I will join President Obama and Secretary 
Shinseki in their efforts to transform VA into a 21st 
organization that is more people-centric, results-oriented, and 
forward-looking than ever before. In addition to my being a 
veteran and my awareness of some of the issues affecting the 
Department, I would like to say that I am also committed to 
developing leaders--a function that will be critical to 
transforming the Department. Moreover, when I served in the Air 
Force, the service endorsed the values of integrity first, 
service to others before self, and excellence in all we do. I 
went on to adopt those values as my own personal guide stars, 
and I am going to bring those values with me to the Department 
of Veterans Affairs.
    In conclusion, if I am confirmed, I will join a Department 
that has, for more than 75 years, cared for the men and women 
who have fought this Nation's battles. I look forward to 
working closely with the Members and staff of this Committee to 
address issues affecting veterans and their families. I also 
look forward to working with the Veterans Service Organizations 
and VA's other stakeholders in order to advance the President's 
and the Secretary's vision for a 21st century VA.
    Thank you very much.
    [The prepared statement of Mr. Gunn follows:]
     Prepared Statement of Will A. Gunn, General Counsel Nominee, 
                  U.S. Department of Veterans Affairs
    Chairman Akaka, Senator Burr, Distinguished Members of the Senate 
Committee on Veterans' Affairs: Thank you for scheduling this hearing 
so expeditiously to consider my nomination as General Counsel of the 
Department of Veterans Affairs.
    I am honored and humbled by President Obama's appointment to serve 
as VA's General Counsel and I greatly appreciate the confidence that 
the President and Secretary Shinseki have in me to help accomplish 
their vision of transforming VA into a 21st century organization. I 
consider this a sacred trust.
    I believe my professional and life experiences have prepared me 
well to serve as the Department's general counsel. The military and 
veterans hold a special place in my heart and in the hearts of my 
family members. I am named for one of my mother's brothers who died in 
the Korean War. My wife's father served as an Army enlisted man in 
World War II, and as an officer in Korea. In addition, many other 
family members have served this Nation through military service. I 
first put on a United States military uniform in the summer of 1976 
when I graduated from high school and entered the Air Force Academy as 
part of the class of 1980--the Academy's first class with women. Four 
years later, I graduated with military honors and was commissioned as a 
second lieutenant. I then served as an admissions advisor in the 
Academy's Office of Minority Affairs and later spent two years as a 
contract negotiator. I was then blessed to attend Harvard Law School 
through the Air Force's Funded Legal Education Program and I graduated 
cum laude from Harvard in 1986.
    After law school, I was proud to spend the next 19 years in a 
variety of challenging and rewarding assignments as a member of the Air 
Force JAG Corps. I prosecuted cases, defended military members, 
represented the Air Force in Federal court in military personnel 
disputes, served as a White House Fellow, taught as a JAG School 
instructor, and served as a supervising attorney in several settings. I 
was the staff judge advocate (principal legal advisor and supervising 
attorney) for Pope AFB in North Carolina, Chief Defense Counsel for Air 
Force defense counsel over an eleven state area in the center of the 
country, Executive Officer (Chief of Staff) for the Air Force Judge 
Advocate General, and in my last military assignment I was asked to 
serve as the first Chief Defense Counsel in the Office of Military 
Commissions with the responsibility of establishing a defense function 
and providing effective representation for Guantanamo detainees brought 
before military commissions.
    Since retiring from the military in 2005, I have served as 
President and CEO of Boys and Girls Clubs of Greater Washington, one of 
the largest affiliates of Boys and Girls Clubs of America. In addition, 
last year, I established my own modest law firm to focus on military 
law and I have represented members of the military, veterans, and 
civilians working for or with the Federal Government.
    My first exposure to the Department of Veterans Affairs occurred in 
1990 when, as a White House Fellow, working in the White House Office 
of Cabinet Affairs, I was assigned responsibility to serve as a liaison 
to the VA's Office of the Secretary. Over the course of that year, I 
gained an appreciation for a wide range of issues affecting the 
Department. I have followed many of these issues from afar in recent 
years and am excited to be considered to serve as the Department's 
senior lawyer and as the Secretary's chief legal advisor.
    If confirmed, I will join President Obama and Secretary Shinseki in 
their effort to transform VA into a 21st century model of veteran care, 
a VA that is more people-centric, results-oriented, and forward-looking 
than ever before. Due to the nature of the General Counsel function, 
lawyers will be involved in virtually all aspects of the Department's 
transformation initiatives. Becoming a 21st century Department will 
take communication and transparency, as well as commitment. In addition 
to my being a veteran, and my awareness and familiarity with some of 
the issues affecting veterans, I am also committed to developing 
leaders--another function that will be critical to transforming the 
Department. Moreover, I served in the United States Air Force, where 
the values of integrity, service, and excellence were my guidestars. I 
long ago adopted these values as my own and will bring them with me to 
VA.
    In conclusion, if I am confirmed, I will, with enthusiasm and sense 
of purpose, join a Department that has, for more than 75 years, cared 
for the men and women who have borne the battle. I look forward to 
working closely with the members and staff of this Committee to address 
issues affecting veterans and their families. I also look forward to 
working with the Veterans Service Organizations and VA's stakeholders 
in order to advance the President's and Secretary Shinseki's mission 
for a 21st century VA. Thank you.
                                 ______
                                 
Response to Pre-Hearing Questions Submitted by Hon. Daniel K. Akaka to 
 Will A. Gunn, Nominee to be General Counsel of the U.S. Department of 
                            Veterans Affairs
    Question 1. Have you and Secretary Shinseki discussed the role he 
would like you to assume as General Counsel if you are confirmed? Will 
you be a key member of the Secretary's management team?
    Response. Secretary Shinseki and I have briefly discussed the role 
he would like me to assume if I am confirmed. He has asked me to not 
only lead the Department's legal staff but to serve as a key advisor to 
him and to the rest of his leadership team.

    Question 2. What role do you believe the General Counsel plays in 
evaluating legislation, both introduced in Congress and proposed by VA, 
for legal sufficiency and impact? While the various program offices can 
provide valuable information on the intent, background, or 
implementation of a particular bill, I believe that it is vital for the 
General Counsel to provide an expert analysis on the legal 
implications. Do you agree?
    Response. I believe that it is appropriate for the Office of 
General Counsel to provide advice on the legal implications of proposed 
legislation but I am not fully familiar with the role VA's General 
Counsel currently plays in this regard. It is my understanding that 
lawyers in the General Counsel's office work closely with the Office of 
Congressional and Legislative Affairs to coordinate on and review 
pending legislation. Should I be confirmed, I will make it a priority 
to evaluate the effectiveness of OGC's activities, and the 
effectiveness of the processes in this area.

    Question 3. The General Counsel must send a clear message to 
Regional Counsels that they must work with and support field program 
personnel. I urge you to consider a proactive type of interaction that 
will prevent problems and litigation, rather than waiting until 
lawsuits are filed. How might this be accomplished?
    Response. During my career as a lawyer in the Air Force JAG Corps, 
I sought to emphasize preventive law in every position that allowed me 
the opportunity. Similarly, I believe that it is appropriate for OGC to 
be involved in preventive law activities. By being proactive, 
identifying risks and communicating preventative strategies with 
clients and customers we may be able to reduce costs, save time, avoid 
liability and provide better service. If I am confirmed, and 
subsequently discover that this approach is lacking within OGC, I would 
seek to advance this philosophy by using a variety of methods to 
communicate it to VA's regional counsels and to our clients.

    Question 4. Should VA have another data security breach, similar to 
the May 2006 incident, do you have a clear idea of what the General 
Counsel's role is in VA's response? In the event of a significant data 
breach, risk analysis plays a critical role in how VA will respond. 
What is your understanding of the role the General Counsel plays in 
VA's risk analysis process?
    Response. The protection of personal privacy is always paramount, 
particularly in this age of electronically-stored and transmitted data. 
As VA's General Counsel, should I be confirmed, I will have that 
philosophy front and center in all matters related to security 
breaches. Veterans' information--their privacy--must be protected. 
Likewise, in security matters of concern to VA employees, their privacy 
must also be respected. I am not certain how I would apply a risk-
analysis process to such matters, so I would like to defer a fuller 
answer to your question until I have the opportunity to examine first-
hand OGC's practices. However, I see two related roles for a General 
Counsel in these matters. The first would be to provide legal advice to 
ensure that the law and regulations detailing VA's duties for 
responding to these situations are followed. The second would be to 
advise Department officials on how to mitigate any potential legal 
liability that could arise from the breach.
    [See revised comments in Attachment A following Question 18.]

    Question 5. What do you see as the biggest challenges facing the 
General Counsel's office at this time?
    Response. As a career Air Force lawyer, I know Government counsel 
must constantly adjust to evolving client needs and ever-changing legal 
frameworks. New laws, regulations and court precedents come on the 
books every day, challenging counsel to not only keep current but to be 
able to clearly communicate sound advice to clients regarding the 
increasingly complex legal guidelines within which they must operate. 
If I am confirmed as General Counsel at VA, I would ensure the office 
is organized so as to be able to timely communicate both within OGC and 
to clients any significant changes in law.

    Question 6. Last year, VA was involved with the issue of providing 
voting registration services to veterans in the Department's care. What 
are your views on VA's role in assisting veterans who are residing in 
long-term care facilities with voting?
    Response. Veterans take their civic responsibilities very 
seriously. It was, after all, our veterans who protected our rights--
including our right to vote--with their lives. I am sure their sense of 
civic duty does not diminish when they become VA patients. VA should do 
what it can to ensure that veterans who wish to vote are able to 
exercise that right while residing in its long-term-care facilities.

    Question 7. Currently VA submits VBA records on veterans determined 
to be mentally incompetent to the FBI for inclusion in the National 
Instant Criminal Background Check System (NICS). What are your views of 
VA's responsibility, under current laws and regulations, to report 
names to Justice for inclusion in NICS?
    Response. I am not yet sufficiently familiar with the law and 
regulations involving the ``NICS'' or with the Government's 
implementation of it to offer an opinion of VA's responsibilities in 
this regard. If confirmed, I would ask for an early briefing on this 
issue.
    [See revised comments in Attachment A.]

    Question 8. The former General Counsel expressed the view that 
GSA's overall authority to prescribe policies and methods of 
procurement and supply of personal property for VA, despite delegating 
several Federal Supply health care-related schedules to VA, is not open 
to debate. And that, in light of that, GSA must approve any changes 
contemplated by VA that might impact the Federal Supply program from a 
policy standpoint. Do you agree with this position?
    As part of your answer, please review IG Report No. 05-01670-04, 
Final Report--Special Review of Federal Supply Schedule Medical 
Equipment and Supply Contracts Awarded to Resellers.
    Response. This is another issue with which I am unfamiliar, but if 
confirmed I would seek to obtain a thorough briefing in short order.
    [See revised comments in Attachment A.]

    Question 9. Are you more of a ``hands-on'' manager or do you tend 
to rely on significant delegation? Do you seek to achieve consensus 
with those on your management team before making a decision or do you 
generally gather relevant information and input, and then make a 
decision?
    As an example, please describe the degree to which you anticipate 
actively managing the work of Regional Counsels.
    Response. During the last ten years of my Air Force career, I 
served in a variety of positions and in which I employed varied 
management and leadership strategies. My duties went from serving as 
the senior lawyer for a single military installation (1996-99), to 
serving as Chief Defense Counsel for Air Force Bases in the central 
United States with attorneys assigned at more than 20 bases over an 
eleven state area (1999-2001), to serving as Executive Officer for the 
Air Force Judge Advocate General (2002-2003). In this last position, I 
served essentially as the JAG Corps' Chief of Staff and coordinated 
policy for more than a thousand lawyers spread out all over the world. 
Those that I have supervised and worked with in these positions 
generally describe me as a manager and leader who likes to be kept 
well-informed of matters within my purview but also as one who believes 
in empowering members of my team so that they can do their jobs and 
grow as leaders. With that in mind, I seek to listen to a variety of 
views and seek consensus whenever possible. I anticipate that I would 
employ these same strategies in overseeing the work of the Regional 
Counsels. Nevertheless, I understand that if I am confirmed I would be 
ultimately responsible and accountable for the activities of OGC.

    Question 10. What are your first impressions of Professional Staff 
Group VII's representation of the Department in cases before the Court 
of Appeals for Veterans Claims?
    Response. I have not yet formed an opinion of the quality of 
Professional Staff Group VII's work.
    [See revised comments in Attachment A.]

    Question 11. If confirmed, how do you envision collaborating with 
the Board of Veterans' Appeals, and specifically, with its Chairman?
    Response. I am not fully familiar with how the Board of Veterans' 
Appeals and OGC currently collaborate. As a result, I have not formed 
an opinion as to how such collaboration should proceed in the future. 
However, if I am confirmed I will make it a priority to evaluate this 
relationship.
    [See revised comments in Attachment A.]

    Question 12. What role do you believe the Office of General Counsel 
should play in ensuring that VA understands and complies with decisions 
of the U.S. Court of Appeals for Veterans Claims and other courts?
    Response. The General Counsel is the chief legal officer of the 
Department. As such, he or she is the ultimate VA authority with regard 
to the correct legal interpretation of court decisions. If confirmed, I 
would work to ensure that those interpretations are promptly and 
clearly communicated to all within VA who have a need to know.

    Question 13. What role should the Office of General Counsel play in 
determining whether a specific disease or illness should be presumed 
service-connected?
    Response. Before responding substantively to this question, I would 
have to become aware of and study whatever laws and regulations may 
apply to this issue. I have not yet had that opportunity.
    [See revised comments in Attachment A.]

    Question 14. The Committee has a strong interest in improving 
collaboration and cooperation between VA and DOD. As far as you are 
aware, are there any existing legal impediments to the two Departments 
engaging in comprehensive sharing?
    Response. I know that Secretary Shinseki is a strong advocate for a 
VA/DOD collaboration that will ease the active-duty-to-veteran-status 
transition with respect to the electronic sharing of health records. I 
am not aware of any legal impediments to such a VA/DOD collaboration in 
matters affecting the healthcare of veterans or the sharing of their 
health records. If I become aware of any, I would advise the Secretary 
and, as he would direct, work toward enactment of appropriate 
legislation.

    Question 15. In recent years, there have been situations in which a 
significant issue has been under review by the Court of Appeals for 
Veterans Claims or, after appeal from that court, by the Court of 
Appeals for the Federal Circuit. Meanwhile, claims involving the same 
issue continue to come to VA. Do you have any recommendation on how to 
manage claims that are pending a court decision?
    Response. This is another issue with which I am currently 
unfamiliar. If I am confirmed, I would be very diligent in coming up to 
speed on the issue.
    [See revised comments in Attachment A.]

    Question 16. With ever-increasing numbers of older veterans in VA 
long-term care facilities, do Regional Counsels have any role in 
working with these veterans to assist them with estate planning or 
referring them to local attorneys who might provide such assistance?
    Response. I agree with the premise of the question, which is that 
it would be useful to veterans in long-term care facilities if VA could 
at least help them access community resources for purposes of estate 
planning. During my JAG career, I found that the ``legal assistance'' 
on personal legal matters we provided to military members and their 
families (in such matters as simple contracts, estate planning, and 
family law) was highly valued by them and was greatly appreciated. I'm 
certain that our veterans in long-term care facilities would also 
appreciate this type of assistance. I would have to know more about 
VA's current statutory authority before I could offer an opinion on the 
feasibility of its providing estate-planning services in-house.
    [See revised comments in Attachment A.]

    Question 17. Do you agree to supply the Committee with such non-
privileged information, materials, and documents as may be requested by 
the Committee in its oversight and legislative capacities for so long 
as you serve in the position of General Counsel?
    Response. Yes.

    Question 18. Do you agree to appear before the Committee at such 
times and concerning such matters as the Committee might request for so 
long as you serve in the position of General Counsel?
    Response. Yes.
                                 ______
                                 
                              Attachment A
   Full Responses to Certain Pre-Hearing Questions Submitted by Hon. 
   Daniel K. Akaka to Will A. Gunn, at his Nomination Hearing to be 
       General Counsel of the U.S. Department of Veterans Affairs
    Question 4. Should VA have another data security breach, similar to 
the May 2006 incident, do you have a clear idea of what the General 
Counsel's role is in VA's response? In the event of a significant data 
breach, risk analysis plays a critical role in how VA will respond. 
What is your understanding of the role the General Counsel plays in 
VA's risk analysis process?
    Response. The Office of the General Counsel assists in the response 
to VA data breaches in several ways. VA is required by information-
security statutes to respond to a data breach by arranging for an 
independent risk analysis (IRA) by the VA Office of Inspector General 
or a non-VA entity to determine the potential for misuse of any 
sensitive personal information compromised by the incident. If the 
analysis indicates that there is a reasonable risk of harm, the 
Department must provide credit-protection services in accordance with 
VA regulations.
    VA regulations also authorize VA to provide an accelerated response 
without an IRA if an immediate and substantial risk of identity theft 
or other harm to individuals is identified. In those cases, OGC staff 
assist the Office of Information Technology (OIT) in conducting risk 
analyses, interpreting the results, and responding to incidents as soon 
as feasible through notices to affected individuals and, if 
appropriate, credit-protection services.
    OGC serves as a member of the Incident Response Governance Board 
(IRGB) of OIT's Office of Protection and Risk Management, which 
provides oversight and policy direction for data-breach analysis and 
reporting. As a member of the Data Breach Response Team of the IRGB, 
OGC helps determine whether a data breach has occurred and sensitive 
personal information has been compromised. OGC also assists in the 
documentation of VA's responses to breaches and the retention of 
relevant records.

    Question 5. What do you see as the biggest challenges facing the 
General Counsel's office at this time?
    Response. After briefings by OGC managers and supervisors, I 
believe the answer I initially provided remains a valid statement of 
the office's principal challenges. OGC attorneys must constantly adjust 
to evolving client needs and to ever-changing legal requirements. New 
laws, regulations and court precedents are constantly coming on the 
books, challenging counsel to not only keep current but to be able to 
clearly communicate sound advice to clients regarding the increasingly 
complex legal framework within which they must operate. OGC is 
challenged to find the necessary information and clearly communicate 
needed legal advice when it is needed. Good intra-office collaboration 
among OGC staff across the country is critical to 
success.

    Question 7. Currently VA submits VBA records on veterans determined 
to be mentally incompetent to the FBI for inclusion in the National 
Instant Criminal Background Check System (NICS). What are your views of 
VA's responsibility, under current laws and regulations, to report 
names to Justice for inclusion in NICS?
    Response. Federal law (18 U.S.C. Sec. 922(g)) renders nine 
categories of individuals ineligible to receive or possess firearms, 
including:

        ``(4) any person . . . who has been adjudicated as a mental 
        defective . . .''

    The ``Brady Handgun Violence Protection Act'' (Brady Act) requires 
the Attorney General to compile and maintain a list of names of 
ineligible persons in a National Instant Criminal Background Check 
System (NICS), which gun dealers are required to query before selling 
firearms. The Brady Act authorizes DOJ to request that Federal agencies 
provide any information they possess regarding such individuals, and 
mandates agency compliance with DOJ's requests (``On request of the 
Attorney General, the head of such department shall furnish such 
information to the system.'').
    DOJ's Bureau of Alcohol, Tobacco and Firearms has promulgated 
regulations which define ``adjudicated as a mental defective'' for this 
purpose to mean:

          A determination by a court, board, commission, or other 
        lawful authority that a person, as a result of marked subnormal 
        intelligence, or mental illness, incompetency, condition, or 
        disease:

          (1) is a danger to himself or to others; or
          (2) lacks the mental capacity to contract or manage his own 
        affairs.

    27 CFR 478.11. At DOJ's request, VA has since 1998 been supplying 
it information about persons eligible for VA cash benefits who VA has 
administratively adjudged to be ``mentally incompetent'' and is 
therefore paying benefits on their behalves through fiduciaries. VA's 
determinations of incompetency are made pursuant to 38 U.S.C. 
Sec. 5502, which authorizes payment of monetary benefits to fiduciaries 
on behalf of mentally incompetent or insane VA beneficiaries. VA's 
definition of mental incompetency for this purpose closely tracks the 
DOJ definition of mental defectives:

          A mentally incompetent person is one who because of injury or 
        disease lacks the mental capacity to contract or to manage his 
        or her own affairs, including disbursement of funds without 
        limitation.

    38 CFR Sec. 3.353(a). VA is fulfilling its responsibilities under 
the Brady Act by supplying this information to DOJ as requested, and 
would be without legal authority to withhold it.

    Question 8. The former General Counsel expressed the view that 
GSA's overall authority to prescribe policies and methods of 
procurement and supply of personal property for VA, despite delegating 
several Federal Supply health care-related schedules to VA, is not open 
to debate. And that, in light of that, GSA must approve any changes 
contemplated by VA that might impact the Federal Supply program from a 
policy standpoint. Do you agree with this position?
    As part of your answer, please review IG Report No. 05-01670-04, 
Final Report--Special Review of Federal Supply Schedule Medical 
Equipment and Supply Contracts Awarded to Resellers.
    Response. The written delegations from GSA to VA, under which VA 
manages several health care-related schedules of the GSA Federal Supply 
Schedules Program (FSS), generally reserve to GSA the authority to make 
policy for the schedules. Consequently, after being briefed on this 
matter by OGC staff, I agree with my predecessor that GSA must approve 
any changes contemplated by VA for its schedules that might impact the 
FSS Program from a policy standpoint.

    Question 10. What are your first impressions of Professional Staff 
Group VII's representation of the Department in cases before the Court 
of Appeals for Veterans Claims?
    Response. I have received briefings on Group 7's operations, to 
include its procedures for case preparation and supervisory approval of 
its pleadings. My first impressions are that their procedures are 
sound, and I am impressed with their dedication to duty and level of 
effort. However, theirs is a very big area of our practice and I need 
to see more of their work product and learn more from various sources, 
including CAVC judges, before I will have a well-informed opinion of 
their overall effectiveness.

    Question 11. If confirmed, how do you envision collaborating with 
the Board of Veterans' Appeals, and specifically, with its Chairman?
    Response. The Office of the General Counsel provides legal advice 
and assistance to the Board of Veterans' Appeals as needed to support 
the Board's ability to make accurate, consistent, and timely decisions 
on appeals. OGC advises the Board on the requirements of statutes, 
regulations and judicial precedents and when requested by the Chairman, 
provides formal legal opinions that may be designated as having 
precedential effect throughout the Department. We assist the Board in 
preparing regulatory amendments to improve its appellate processes and 
in addressing legislative proposals affecting its mission. 
Collaboration among OGC, the Board, and other VA components is 
essential to ensuring the benefit-adjudication process works 
efficiently and provides fair and consistent results. To that end, 
senior OGC managers regularly meet with the Chairman and other Board 
officials as well as with senior members of the Veterans Benefits 
Administration and the Veterans Health Administration to discuss 
significant matters concerning the benefit-adjudication system. I will 
continue and build upon this collaborative process and work closely 
with the Chairman to ensure that the Board functions as Congress 
intended.

    Question 13. What role should the Office of General Counsel play in 
determining whether a specific disease or illness should be presumed 
service-connected?
    Response. As the General Counsel, I am responsible for advising the 
Secretary regarding the requirements of any statutes or other legal 
authorities that may guide or constrain the Secretary's discretion in 
establishing presumptions of service connection by regulation and for 
assisting in preparation of any needed legislative proposals. Beyond 
those functions, the General Counsel historically has collaborated 
closely with other VA officials to ensure that the Secretary is given 
the best possible demographic, medical and scientific information 
concerning potential presumptions of service connection. For example, 
existing statutes require that the Secretary periodically determine 
whether new presumptions are warranted for specific diseases or 
illnesses based on an association with exposure to herbicides used in 
Vietnam or with exposure to hazards associated with Gulf War service. 
The General Counsel serves with other senior VA officials on a task 
force charged with evaluating the relevant evidence in relation to the 
statutory standards and making recommendations to the Secretary based 
on those evaluations. I look forward to participating in that process.

    Question 15. In recent years, there have been situations in which a 
significant issue has been under review by the Court of Appeals for 
Veterans Claims or, after appeal from that court, by the Court of 
Appeals for the Federal Circuit. Meanwhile, claims involving the same 
issue continue to come to VA. Do you have any recommendation on how to 
manage claims that are pending a court decision?
    Response. I believe the Secretary needs considerable latitude to 
hold claims in abeyance during the pendency of legal challenges to 
court precedents having wide application. For example, VA prudently 
held in abeyance a large number of claims of blue-water Navy veterans 
while it pursued an appeal of CAVC's decision in the Haas case. Had it 
not done so, and instead awarded benefits based upon the CAVC opinion 
which would later be reversed, it would not only have unnecessarily 
caused the Department to have to revisit and correct those decisions 
but also sowed unnecessary confusion among veterans.

    Question 16. With ever-increasing numbers of older veterans in VA 
long-term care facilities, do Regional Counsels have any role in 
working with these veterans to assist them with estate planning or 
referring them to local attorneys who might provide such assistance?
    Response. VA is not currently authorized to provide estate-planning 
services to veterans. However, Regional Counsels and other VA employees 
can and do refer veterans and their fiduciaries to resources within the 
community capable of providing this and other social services.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
  Response to Pre-Hearing Questions Submitted by Hon. Richard Burr to 
    Will A. Gunn, Nominee to be General Counsel, U.S. Department of 
                            Veterans Affairs

    Question 1. Under the Gun Control Act, individuals ``adjudicated as 
mental defective'' are prohibited from purchasing a firearm. This 
definition includes those with mental illnesses who are a danger to 
themselves or others, or lack the mental capacity to manage their own 
affairs. The Brady Act gives the Attorney General discretion to request 
of any Federal agency the names of individuals who fall under this 
definition for inclusion on the National Instant Criminal Background 
Check System. Under an agreement with the FBI, VA sends to the FBI the 
names of individuals whom VA determines need help managing their own 
financial affairs. I am concerned about the arbitrariness of the 
existing process and fact that veterans have been singled out among all 
Federal beneficiaries. But I'm also concerned that the Attorney General 
could request that VA send the names of additional categories of 
persons who have been ``adjudicated as a mental defective,'' and I'd 
like to know what your legal analysis on the matter is.

    A. Is it your judgment that a person ``adjudicated as a mental 
defective'' could, at some future point, be construed as encompassing 
individuals who have been rated by the Veterans Benefits Administration 
as service-disabled for a mental illness, such as Post Traumatic Stress 
Disorder?
    Response. My limited understanding of the ``NICS'' issue at this 
point is that VA currently sends FBI the names of all veterans on its 
benefit rolls that VA has determined lack the mental capacity to 
contract or manage their own financial affairs due to injury or disease 
of any kind. I further understand that under current law, VA is legally 
obligated to comply.

    B. What, in your judgment, would be the effect on veteran's 
willingness to file a claim or seek treatment for mental illness if 
their 2nd Amendment rights were compromised as a result?
    Response. If confirmed, I hope to learn more about Veterans' needs 
and what may either motivate them to seek VA benefits and services or 
operate as a disincentive to their doing so. However, in principle I 
would be very skeptical of any policy that would interfere with 
individuals' ability to exercise their constitutional rights.

    Question 2. Your biography mentions that, as part of your private 
law practice, you currently represent veterans.

    A. What type of veterans' cases have you handled?
    Response. I have primarily represented veterans in attempts to 
correct their military records. The representation has been provided 
before the Board for Correction of Military Records and other 
administrative bodies related to DOD. For example, I have represented 
individuals seeking to obtain a military retirement, an individual 
seeking to upgrade a military officer grade determination, and an 
individual seeking to have an Officer Evaluation Report removed from 
his records.

    B. Have you assisted any veterans who were seeking benefits from 
VA?
    Response. Since opening my law firm last summer, I have consulted 
with several individuals who were at various stages of seeking 
disability benefits from VA. While I have not taken any of these cases, 
I have had a number of discussions with veterans and their family 
members who were seeking legal representation.

    C. If so, did you learn any lessons from that experience that would 
aide you in serving as General Counsel?
    Response. In the cases in which I have consulted with potential 
clients, I have learned that individuals are often frustrated with the 
disability benefits process. Among other things, potential clients have 
talked to me about what they perceived to be the arbitrariness of some 
rating decisions and about the length of time it has taken them to get 
a decision. Another frustration that individuals have voiced to me is 
that they have been frustrated by not being able to get timely feedback 
on where they were in the claims process. I believe that all of the 
feedback I have received will be helpful to me in serving as General 
Counsel. Secretary Shinseki has indicated that he wants to transform VA 
into 21st Century organization that is people-centric, results 
oriented, and forward looking. If VA is to be ``people-centric'' we 
have to change perceptions among some of our customers to the extent 
they believe we are not providing high quality customer service.
    [The Committee questionnaire for Presidential nominees from 
Mr. Gunn follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [A letter from the Office of Government Ethics follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    [Letter from Mr. Gunn to the Office of General Counsel, 
U.S. Department of Veterans Affairs:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Akaka. Thank you very much, Mr. Gunn.
    Before I introduce Mr. Riojas, I am going to call on the 
Ranking Member, Senator Burr, for his opening statement.

        STATEMENT OF HON. RICHARD BURR, RANKING MEMBER, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. Mr. Chairman, I am going to ask that my 
opening statement be made a part of the record. But I would say 
to the Chair, and for the purposes of other Members, that I had 
an opportunity this morning to sit down with all four of our 
nominees, to look extensively into their backgrounds, their 
experience, to see the areas that they will fill at the VA. I 
feel extremely confident that we are the most fortunate at VA 
to have four incredibly qualified and passionate individuals 
chosen to be at the VA. And I look forward to this Committee 
moving these nominations as quickly as possible.
    Thank you.
    [The prepared statement of Senator Burr follows:]
       Prepared Statement of Hon. Richard Burr, Ranking Member, 
                    U.S. Senator from North Carolina
    Thank you, Mr. Chairman. Welcome to you and our colleagues. I also 
want to welcome our four nominees and their families. Congratulations 
on your nominations and thank you all for your willingness to serve our 
Nation's veterans in the important and challenging roles you have been 
nominated to fill.
    If confirmed, you would carry out one the noblest missions in 
government--caring for the men and women who have served and sacrificed 
on behalf of us all. But, as we'll discuss today, you would face many 
challenges in carrying out that mission. Our job is to make sure you 
are aware of the upcoming challenges and are prepared to meet them, so 
that our veterans and their families will be well-served by VA, now and 
in the future.
    For you, Mr. Baker, if confirmed as the Assistant Secretary for 
Information and Technology, one of your most pressing tasks would be to 
make sure VA has the IT solutions it needs to get the new GI Bill 
program up and running by this fall. At a minimum, this means that VA 
must be able to pay the benefits that veterans have earned on time and 
without frustrations or delays.
    On top of that, you would play a critical role in VA's efforts to 
transform its paper-based claims process into a modern, electronic 
system. It's clear that the current process causes frustrations and 
confusion among veterans--including many from back home in North 
Carolina. So, if you are confirmed, I hope you will aggressively move 
toward a modern benefits system that will better meet the needs of 
veterans and their families.
    Turning to you, Colonel Gunn, if you are confirmed as General 
Counsel, your responsibilities would touch on virtually every facet of 
VA. You would be called on to interpret the law, evaluate proposed 
legislation, and advise on health care and benefits issues. You would 
also be responsible for representing VA before the Court of Appeals for 
Veterans Claims. With the court's caseload at record levels, one of 
your challenges will be to help make sure veterans get timely and fair 
decisions on their cases.
    General Riojas, if confirmed as the Assistant Secretary for 
Operations, Security, and Preparedness, one of your most critical 
functions would be to keep veterans and their families safe while they 
are receiving care at VA facilities. Clearly, VA cannot fulfill its 
mission of caring for those who have served, if veterans are hesitant 
to come to VA when they are in need.
    On a broader scale, you would be responsible for coordinating VA's 
efforts to help the Nation deal with public emergencies, like the H1N1 
flu outbreak we are confronting today. The issue of our Nation's 
preparedness has been a priority of mine for a long time. So, I look 
forward to hearing your thoughts on whether VA could take on a larger 
role in providing medical support to the Nation during an emergency.
    Finally, Mr. Sepulveda, if confirmed as Assistant Secretary for 
Human Resources and Administration, your charge would be among the most 
critical at VA--fostering a high-quality, dedicated, and well-trained 
workforce. VA employees are, without question, the backbone of the 
health care and benefits systems. They will be vital in making sure 
veterans are getting the benefits and services they need in a quick, 
effective, and hassle-free way. So, if confirmed, one of your 
challenges would be to ensure that VA has a robust plan for recruiting, 
training, and retaining the necessary workforce.
    Mr. Chairman, these are just a few of the challenges these nominees 
would face, if confirmed. I look forward to hearing more about how they 
would tackle those and other challenges. Also, I look forward to 
working with you to ensure that VA has a full complement of leaders who 
will work every day to improve the lives of our Nation's veterans and 
their families.

    I thank the Chair.

    Senator Akaka. Thank you very much, Senator Burr.
    Let me welcome Jose D. Riojas, the President's nominee for 
Assistant Secretary for Operations, Security, and Preparedness. 
After graduating from the United States Military Academy at 
West Point, his 30-year military career included numerous and 
significant operational assignments throughout the world, 
including the U.S. Army War College. I say with pride that 
General Riojas spent part of his career with the 25th Infantry 
Division in Hawaii.
    General Riojas, aloha and welcome to today's hearing. 
Please take a moment to introduce your guests, and when you are 
done, please begin with your statement.
    General Riojas. Thank you, Mr. Chairman. I would like to 
introduce my wife of nearly 28 years, Susan, sitting in red to 
my left.
    Senator Akaka. Welcome.

 STATEMENT OF JOSE D. RIOJAS, BRIGADIER GENERAL, (RET.), U.S. 
    ARMY, NOMINEE TO BE ASSISTANT SECRETARY FOR OPERATIONS, 
SECURITY, AND PREPAREDNESS, U.S. DEPARTMENT OF VETERANS AFFAIRS

    General Riojas. Mr. Chairman, thank you for the kind 
introduction. Mr. Chairman, Mr. Burr, and other Members of the 
Committee, I am a veteran, and I am honored to be before you 
today seeking your endorsement to become the Assistant 
Secretary for Operations, Security, and Preparedness for the 
Department of Veterans Affairs.
    I consider it a privilege to have been nominated by 
President Obama to serve at VA, and I appreciate the confidence 
that he and Secretary Shinseki have in me to help provide the 
best service possible to our veterans and to help transform the 
Veterans Affairs Department.
    I fully support President Obama's vision for change and 
Secretary Shinseki's effort to transform the Department of 
Veterans Affairs into a 21st century organization. I also fully 
support Secretary Shinseki's operating principles that call for 
VA to be people-centric, results-driven and forward-looking. I 
believe my leadership experience in transforming organizations 
and using these principles in the past would serve me well 
should I be confirmed.
    I appreciate the time and attention you and your staff 
members have shown me in the past several weeks. I have given 
and will continue to give your guidance very serious 
consideration. It is clear to me that we jointly share a 
passion for serving veterans. If confirmed, I look forward to 
working continuously with you to constantly improve the care 
and attention that our veterans deserve.
    My life has been shaped by those who have worn the military 
uniforms of our Nation. Family members who are veterans, 
including my father, instilled in me a sense of patriotism and 
love of country which caused me to want to serve and protect 
this great Nation of ours. I was fortunate to have been able to 
wear the uniform of a soldier for over 30 years. During that 
time I was awed by the sacrifice of countless men and women who 
performed remarkable feats during extraordinary conditions in 
peacetime and in combat.
    Today my wife, Susan, and I have a son, Joshua, who is an 
Army Captain serving in the Special Forces community at Fort 
Bragg, North Carolina. On the 28th of this month, I will 
commission our daughter, Christina, as an Army Captain, and she 
will soon thereafter begin her service as a surgeon at Fort 
Gordon, Georgia. So, my past has been and my future is being 
influenced by those who have, are, and will be serving our 
great Nation. Veterans have served me well and, quite frankly, 
made me successful. I would consider it an honor to play even a 
small role in serving them and would consider it a highlight of 
my professional life.
    Should I be confirmed, I would like veterans to know that I 
would be committed to ever improving the operations, security, 
and preparedness within the VA so that continuous support can 
be given regardless of the conditions, to include before, 
during, and after any natural or manmade disaster. The VA must 
be at its best during times of extreme circumstances.
    I would like all the members of the VA team to know that I 
would be committed to providing positive leadership to improve 
the efficiency and effectiveness within the Department so that 
support to veterans can be maximized.
    And I would like members of the interagency community to 
know that I would seek to establish open lines of communication 
and maximize collaboration and integration between our 
organizations.
    Finally, I would like all the Members of this Committee to 
know that I would be committed to working with you as a partner 
in serving veterans.
    Please know that, if confirmed, I am prepared to serve as 
the Assistant Secretary of Operations, Security, and 
Preparedness with the utmost of dedication, commitment, and 
passion. In short, if this Committee sees fit to recommend my 
confirmation, I look forward to serving veterans in the best 
manner possible.
    Chairman Akaka and distinguished Members of this Committee, 
thank you again for your consideration, and I look forward to 
any questions that you may have for me.
    [The prepared statement of Mr. Riojas follows:]
Prepared Statement of Jose D. Riojas, Designee for Assistant Secretary 
for Operations, Security, and Preparedness, U.S. Department of Veterans 

                                Affairs
    Chairman Akaka, Senator Burr, Distinguished Members of the 
Committee on Veterans' Affairs: I am a Veteran and I am honored to be 
before you today seeking your endorsement to become the Assistant 
Secretary for Operations, Security, and Preparedness for the Department 
of Veterans Affairs.
    I consider it a privilege to have been nominated by President Obama 
to serve at VA and I appreciate the confidence that he and Secretary 
Shinseki have in me to help provide the best service possible to our 
Veterans and to help transform the VA into a 21st Century organization.
    I fully support President Obama's vision for change and Secretary 
Shinseki's effort to transform the Department of Veterans Affairs into 
a 21st century organization. I also fully support Secretary Shinseki's 
operating principles that the Department of Veterans Affairs be; 
people-centric, results-driven and forward-looking. I believe my 
leadership experience in transforming organizations and using these 
principles in the past would serve me well should I be confirmed.
    I appreciate the time and attention you and you staff members have 
shown me in the past several weeks. I have given and will continue to 
give your guidance very serious consideration. It is clear to me that 
we jointly share a passion for serving Veterans. If confirmed, I look 
forward to working continuously with you to constantly improve the care 
and attention that our Veteran's deserve.
    My life has been shaped by those who have worn the military 
uniforms of our Nation. Family members who are Veterans, including my 
father, instilled in me a sense of patriotism and love of country which 
caused me to want to serve and protect my country. I was fortunate to 
have worn the uniform of a Soldier for over thirty years. During that 
time I was awed by the sacrifice of countless men and women who 
performed remarkable feats during extraordinary conditions in peacetime 
and in combat.
    Today my wife Susan, also a Veteran and I have a son, Joshua who is 
an Army Captain serving at Fort Bragg, N.C. On the 28th of this month 
our daughter Christina will be commissioned as an Army Captain and 
begin her service as an Army Surgeon at Fort Gordon, GA. So my past has 
been and my future is being influenced by those who have, are and will 
be serving our great Nation. Veterans have served me well and quite 
frankly, made me successful and I would consider it an honor to play 
even a small role in serving them and would consider it a highlight of 
my professional life.
    Should I be confirmed, I would like:

    <bullet> Veterans, to know that I would be committed to 
continuously improving the operations, security and preparedness within 
the VA so that continuous support can be given regardless of the 
conditions: to include before, during and after any natural or man-made 
disaster. The Department of Veterans Affairs must be best prepared to 
perform during times of extreme circumstances.
    <bullet> I would like all the professional members of the VA team 
to know that I would be committed to providing positive leadership to 
improve the efficiency and effectiveness within the Department so that 
support to Veterans can be maximized.
    <bullet> I would like all the Members of this Committee to know 
that I would be committed to working with you as a partner in serving 
Veterans.
    <bullet> And I would like members of the interagency community to 
know that I would seek to establish open lines of communication and 
maximize collaboration and integration between our organizations.

    Please know that if confirmed, I am prepared to serve as the 
Assistant Secretary of Operations, Security and Preparedness with the 
utmost of dedication, commitment and passion. If this Committee sees 
fit to recommend my confirmation, I look forward to serving Veterans in 
a very positive manner.

    Chairman Akaka and distinguished Members of this Committee thank 
you again for your consideration and I look forward to any questions 
that you may have for me.
                                 ______
                                 
Response to Pre-Hearing Questions Submitted by Hon. Daniel K. Akaka to 
   Jose D. Riojas, Nominee to be Assistant Secretary for Operations, 
    Security, and Preparedness, U.S. Department of Veterans Affairs
    Question 1. How would you define the job of Assistant Secretary for 
Operations, Security, and Preparedness?
    Response. I believe the job of the Assistant Secretary for 
Operations, Security, and Preparedness is to ensure that the Department 
of Veterans Affairs is able to perform its mission of support to 
Veterans on a continuous basis regardless of the conditions. This 
includes having a leading role in ensuring that VA is an agile and 
adaptive organization particularly before, during and after the 
occurrence of any potential man-made or natural disaster. The job also 
calls for helping the VA set the standard in continuous, efficient and 
effective inter-agency collaboration.

    Question 2. Have you and Secretary Shinseki discussed the duties 
and the role you would assume if you are confirmed? If so, what 
specific areas of the job were discussed?
    Response. Secretary Shinseki and I have worked together over the 
years and most recently during his last two and a half years as Chief 
of Staff of the Army. If confirmed, I look forward to being an active 
member of the VA leadership team. I would be in charge of the 
coordination and development of Department policies and implementing 
those polices regarding the Department's inter-agency role in emergency 
management, continuity of operations, domestic incident management and 
national security emergency programs. I would be responsible for the 
oversight of the transformation of the Department's operations center 
into a 21st Century organization improving the leadership team's 
situational awareness and operational decisionmaking. Additional 
responsibilities would include developing training and exercises that 
enhance VA's preparedness programs and security mission.

    Question 3. How do you believe your background has prepared you for 
this job?
    Response. I had the privilege of serving as a Soldier for over 30 
years. I spent the majority of that time in command and operational 
leadership positions, in peacetime and in combat. For the past year and 
a half, I have served as the Executive Director of the Department of 
Homeland Security's, National Center for Border Security and 
Immigration--a job that has called for extensive work in voluntary 
institutional collaboration and cooperation. I believe these 
experiences have prepared and would serve me well for this job.

    Question 4. Regarding training and medical response, please 
describe how you anticipate working in a complementary manner with VHA, 
and in such a manner that your efforts will not unnecessarily overlap 
or interfere with the VHA activities.
    Response. One of my first priorities would be to assess the 
efficiency and effectiveness of ongoing operations and collaboration 
between the Office of Operations, Security, and Preparedness and other 
members of the VA team to include the VHA. I would begin this process 
by ensuring that an open line of communication exists between OSP and 
other offices including VHA. This assessment would take place without 
interrupting ongoing operations. The goal would be to identify how OSP 
could help other members of the VA team do their jobs better. Any 
potential improvements as a result of that assessment that would 
increase efficiencies and effectiveness would be made at my level if I 
had the authority or if necessary be recommended to the Secretary or 
the Deputy Secretary for decision.

    Question 5. Regarding the Office of Security and Law Enforcement, 
please describe how you will ensure that VA police officers are trained 
and equipped to meet the needs of Veterans Health Administration 
facilities. As part of your answer, please indicate how you expect to 
work with the Under Secretary for Health to define VHA's needs in this 
regard.
    Response. Police officers would undergo training at the Law 
Enforcement Training Center in accordance with well established 
standards so that the officers could best perform for the Veterans 
Health Administration. An open line of communication would be 
established and maintained with the Under Secretary for Health 
Administration to ensure that officers were meeting his needs.

    Question 6. What are your thoughts on the ability of VA to deal 
with increasing numbers of retirees over the next several years and 
what will you do to prepare for the loss of experienced personnel?
    Response. I believe this question is one relevant to all of VA. I 
look forward to working with my colleague, the Assistant Secretary for 
Human Resources and Administration, in addressing the issue. In 
general, I believe that potential personnel shortfalls should be 
identified as soon as practical. Then succession programs should be put 
into place in order that well qualified individuals inside or outside 
VA could be identified to fill those shortfalls.

    Question 7. What do you believe are the most pressing challenges 
confronting the Office of the Assistant Secretary for Operations, 
Security, and Preparedness?
    Response. One of my first priorities would be to conduct an 
assessment of the Office in order to identify any challenges. However, 
any action that would improve our efficiency and effectiveness and 
supports the Secretary's, people-centric, results-driven, and forward 
looking, and transformation principles would be a top priority. 
Additionally, I believe that VA has a critical operational and 
preparedness role in supporting the other Departments such as 
Department of Homeland Security mission requirements.

    Question 8. How would you describe your management style and how is 
it suited to this particular position?
    Response. I have a participative leadership style. I seek and value 
the opinions and recommendations of the entire team. I also give 
guidance and empower team members to make decisions within that 
guidance. I retain authority to make high risk decisions. This style 
would be important because of the diversity of duties and 
responsibilities of the position.

    Question 9. Do you anticipate having a policymaking role if 
confirmed?
    Response. I am familiar with and admire Secretary Shinseki's 
leadership style and I am confident that I would be able to participate 
in senior leader discussions about VA policy on a routine basis. I am 
confident that I would be asked for my professional opinions and be 
able to make recommendations in a timely manner. I am also confident 
that I would be expected to be an active member of the inter-agency 
community representing VA's interests. I am comfortable in the inter-
agency environment and I welcome that opportunity.

    Question 10. What are your immediate and long-term priorities for 
the office?
    Response. I would immediately work to establish open lines of 
communication and develop trust and confidence between the Office and 
our stakeholders. I would also immediately review operational plans and 
procedures and conduct an assessment of the Office to identify any 
short falls in efficiencies and effectiveness in support of Veterans 
for which the Office has responsibility. My long-term priorities would 
include: operating the Office so that support to Veterans is maximized 
regardless of conditions; having a significant role in the 
transformation of the VA in becoming a model 21st century Department: 
and having a significant role in VA being seen as a model Department of 
inter-agency collaboration and cooperation.

    Question 11. How do you view the Assistant Secretary's role in 
dealing with VA responsibilities, under section 8111A of title 38, to 
furnish health care services to members of the Armed Forces during a 
time of war or national emergency?
    Response. The Assistant Secretary would have a leading role in 
helping VA achieve one of its key strategic objectives. ``Improve the 
Nation's preparedness, for response to war, terrorism, national 
emergencies, and natural disasters by developing plans, and taking 
actions to ensure continued service to Veterans as well as support to 
national, state, and local emergency management and homeland security 
offices.''

    Question 12. What do you see as VA's principal challenges in 
recruiting, training, and retaining a high quality police force?
    Response. We would be committed to providing excellent training to 
prospective and current members of the police force. From my past 
experience, equalities in pay, authorities and entitlement systems are 
important factors in recruiting and retaining a high quality work 
force.

    Question 13. In reading your resume, I noticed that, although you 
have years of experience in emergency preparedness and management, you 
do not have significant background in either law enforcement or 
security. What do you view as the biggest challenges of assuming 
responsibility for VA's Police Service and Law Enforcement Training and 
Security Investigation Center?
    Response. I believe that the fundamentals of successful emergency 
preparedness and management, and law enforcement and security are 
basically the same. The keys to success are good leadership, 
establishing clear metrics for success, identifying quality 
individuals, training them and rewarding performance. I am confident 
that the VA's Police Service and Law Enforcement Training and Security 
Investigation Center will serve as an outstanding organization for 
other institutions to 
emulate.

    Question 14. Secretary Shinseki has placed an emphasis on improving 
the level of collaboration and cooperation between VA and DOD. What do 
you believe will be your role in dealing with areas of concern 
involving the two departments?
    Response. Secretary Shinseki's vision for greater collaboration 
between VA and DOD, notably with respect to a single electronic health 
care record, represents real transformation in the way our Nation cares 
for its Veterans and active-duty personnel. The importance of secure 
inter-agency communications between VA and DOD under all conditions is 
critical to the success of that transformation. I would welcome all 
opportunities to improve that communication bond--that transformation--
and I would be committed to making that happen.

    Question 15. Do you agree to supply the Committee with such non-
privileged information, materials, and documents as may be requested by 
the Committee in its oversight and legislative capacities for so long 
as you serve in the position of Assistant Secretary for Operations, 
Security and Preparedness?
    Response. Yes, I would work with Secretary Shinseki and VA 
leadership to ensure that any information requested by the Committee 
would be provided in a timely manner. I can promise to be forthright 
and direct with you in our joint efforts to put Veterans first.

    Question 16. Do you agree to appear before the Committee at such 
times and concerning such matters as the Committee might request for so 
long as you serve in the position for which you now seek confirmation?
    Response. Yes, I would consider our priority to be the same, to do 
what is right for our Veterans, and I would welcome the opportunity to 
work with this Committee as a partner in that endeavor.
                                 ______
                                 
  Response to Pre-hearing Questions Submitted by Hon. Richard Burr to 
   Jose D. Riojas, Nominee to be Assistant Secretary for Operations, 
    Security, and Preparedness, U.S. Department of Veterans Affairs
    Question 1. The Assistant Secretary for Operations, Security, and 
Preparedness has a wide range of important responsibilities.

    A. What do you see as the key responsibilities of this position?
    Response. I believe that my key responsibilities will include 
ensuring that the VA will be able to provide support to Veterans 
regardless of the conditions--particularly prior to, during and after 
any man-made or natural disaster. I also believe that I will have a 
leading role in helping VA set the standard in inter-agency 
collaboration and partnership formation.

    B. How do you believe your background has prepared you to take on 
each of those responsibilities?
    Response. I believe I have been well prepared for this position. I 
was blessed to have served as a Soldier for over 30 years. Most of that 
time was in command and operational positions in peacetime and in 
combat. Additionally, for the past year and a half, I have served as 
the Executive Director of the Department of Homeland Security's, 
National Center for Border Security and Immigration--a job that has 
called for extensive work in voluntary institutional collaboration and 
cooperation

    Question 2. As you know, VA has over 1,000 sites of care across the 
Nation, with medical personnel already on the ground at these sites 
and, importantly, existing relationships with other community 
providers.

    A. Do you believe that VA's role in the overall Federal effort to 
respond to natural disasters, chemical or biological agent attacks, or 
flu pandemics, like we are seeing now, is sufficiently appreciated?
    Response. In the last several weeks, I became aware for the first 
time of several great VA success stories from previous emergency 
situations. If confirmed, I would look forward to helping to tell such 
stories of VA capabilities and successes.

    B. Could VA take on a larger role in providing medical support to 
the Nation during an emergency or perhaps take on a lead role?
    Response. I do not have detailed information as to VA capabilities 
relative to other organizations charged with medical support nor do I 
have an opinion as to whether lead responsibilities are properly 
assigned. I am confident that if confirmed I would have an active role 
in the Department's inter-agency role in emergency management, 
continuity of operations, domestic incident management and national 
security emergency programs.

    Question 3. You may have read recent news accounts of a VA law 
enforcement officer who was fired based on an accusation of using 
excessive force against an elderly veteran.

    A. What steps do you believe are necessary to ensure that 
situations of this type are avoided?
    Response. I am not familiar with this particular situation. In 
general, training individuals in accordance with clear standards and 
then supervising and appropriately recognizing their level of 
performance relative to those standards can serve to significantly 
minimize sub-performance.

    B. What in your background has prepared you to effectively handle 
this type of problem?
    Response. I believe that my experience as a Soldier for over thirty 
years--having trained and led individuals in countless operational 
situations--will serve me well in this position if confirmed.
                                 ______
                                 
Response to Post-Hearing Questions Submitted by Hon. Daniel K. Akaka to 
   Jose D. Riojas, Nominee to be Assistant Secretary for Operations, 
     Security and Preparedness, U.S. Department of Veterans Affairs
    Question 1. In response to one of my pre-hearing questions, you 
stated that one of your first priorities would be to assess the 
efficiency and effectiveness of ongoing operations and collaboration 
between the Office of Operations, Security, and Preparedness and other 
members of the VA team to include the VHA. Within 60 days, please give 
me your assessment regarding that efficiency and effectiveness.
    Response. Yes, I will.
    [See follow-up letter dated June 23, 2009, below.]

    Question 2. How do you envision the Office of Operations, Security, 
and Preparedness will support the Departments of Homeland Security and 
Health and Human Services?
    Response. I believe this would be accomplished by the Office of 
Operations, Security, and Preparedness ensuring that both departments 
are aware of VA capabilities, and ensuring that VA is included in any 
planning, training or exercises related to emergency management, 
continuity of operations, domestic incident management and national 
security emergencies.

    Question 3. What actions will you take to determine the most 
pressing challenges confronting the Office of Operations, Security, and 
Preparedness?
    Response. I would determine the most pressing challenges 
confronting the Office of Operations, Security, and Preparedness (OSP) 
by soliciting input from various individuals and stakeholders. These 
would include individuals from within the OSP team, stakeholders within 
VA such as VHA, VBA and NCA and stakeholders outside of VA such as, but 
not limited to, the Department of Homeland Security and the Department 
of Health and Human Services.

    Question 4. How do you envision playing a significant role in 
transforming the VA into becoming a model 21st century department?
    Response. I believe Secretary Shinseki would count on me being an 
active member of the VA leadership team. Specifically, I would be 
responsible for the oversight of the transformation of the Department's 
operations center into a 21st Century organization by improving the 
leadership team's situational awareness and operational decisionmaking. 
I would be in charge of the coordination and development of Department 
policies and the implementation of those policies regarding the 
Department's inter-agency role in emergency management, continuity of 
operations, domestic incident management and national security 
emergency programs. Additional responsibilities would include 
developing training and exercises that enhance VA's preparedness 
programs and security mission.

    Question 5. The VA Office of Operations, Security, and Preparedness 
performs a number of very important services for this country. To most 
effectively do so, it is important for you to work hand-in-hand with 
other government agencies. What would you do as Assistant Secretary to 
ensure that all other relevant agencies are aware of and can trust the 
capabilities of the VA Office of Operations, Security and Preparedness?
    Response. I would first establish open lines of communications with 
other government agencies. I would then work to maintain those open 
lines of communication by exchanging routine information and ensuring 
that VA is an integral part of inter-agency planning, training and 
exercises. Operating in this manner will help to maximize VA's inter-
agency effectiveness prior to, during and after times of 
emergency.

    [Follow-up to Question 1 of Post-Hearing Questions from 
Hon. Daniel K. Akaka]

               U.S. Department of Veterans Affairs,
          Office of Operations, Security, and Preparedness,
                                     Washington, DC, June 23, 2009.
Hon. Daniel K. Akaka,
Chairman,
Committee on Veterans' Affairs,
U.S. Senate, Washington, DC.

    Dear Mr. Chairman: This letter is in response to the Committee's 
direction during my confirmation hearing that I provide an assessment 
of the efficiency and effectiveness of ongoing operations and 
collaboration between the Office of Operations, Security and 
Preparedness (OSP) and other members of the VA team including VHA. I 
appreciate the opportunity to provide the results of my assessment.
    My initial (?) assessment of OSP is that it is a team filled with 
very talented and dedicated professionals.
    As a result of numerous conversations I have had with Under 
Secretaries (VHA included), Assistant Secretaries, Medical Center 
Directors and other leaders within VA, I have found that there is an 
overall satisfaction with the level of performance by OSP with respect 
to VA's emergency management, preparedness, security and law 
enforcement activities. Additionally, all of them were supportive of 
our mission to prepare and coordinate VA's response to war, terrorism, 
national security matters and natural disasters, while ensuring 
continued service to Veterans. I consider these initial conversations 
to be the foundation for an effective and ever improving working 
relationship between me and each of these leaders as well as between 
our teams.
    My assessment of the efficiency and effectiveness of ongoing 
operations and collaboration between my office and other VA 
organizations is most encouraging. I believe we have established a 
strong foundation of mutual respect and mission focus that will result 
in continued growth of our efforts to improve Veteran care.
            Sincerely yours,
                                            Jose D. Riojas,
                                               Assistant Secretary.
    [The Committee questionnaire for Presidential nominees from 
Mr. Riojas follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [A letter from the Office of Government Ethics follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    [Letter from Mr. Riojas to the Office of General Counsel, 
U.S. Department of Veterans Affairs:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Akaka. Thank you very much for your statement.
    Finally, we turn our attention to John U. Sepulveda, who 
has been nominated for Assistant Secretary for Human Resources 
and Administration. Mr. Sepulveda brings over 25 years of 
experience as an innovative leader in the public and private 
sectors. He served as Deputy Director of the Office of 
Personnel Management, a position for which he was nominated in 
1998 by President Clinton. I can share that I served as Ranking 
Member of the Subcommittee of the Governmental Affairs 
Committee that considered his nomination back then. It goes 
without saying that our Committee, now Homeland Security and 
Governmental Affairs, favorably reported his nomination to the 
full Senate at that time. Mr. Sepulveda earned two Master's 
degrees from Yale University and a B.A. degree from Hunter 
College.
    Welcome again, and please share with us those accompanying 
you this morning. When you are done, please begin with your 
statement.
    Mr. Sepulveda. Thank you, Mr. Chairman. I am proud to 
introduce my wife, Awilda Rodriguez-Sepulveda, who is here, as 
well as several friends: Jody Greenblatt, Danielle Johnson 
Kutch, Candace Reddy, and Joe Mancias.
    Senator Akaka. We welcome your family and friends.

    STATEMENT OF JOHN U. SEPULVEDA, NOMINEE TO BE ASSISTANT 
    SECRETARY FOR HUMAN RESOURCES AND ADMINISTRATION, U.S. 
                 DEPARTMENT OF VETERANS AFFAIRS

    Mr. Sepulveda. Thank you. Chairman Akaka, Senator Burr, 
thank you for the honor and privilege of testifying before you 
today.
    I am deeply honored to be nominated by President Obama to 
serve as Assistant Secretary for Human Resources and 
Administration at the Department of Veterans Affairs. I am also 
honored to have Secretary Shinseki's trust and confidence to 
serve in this important position. I would also like to express 
my profound gratitude to my wife Awilda Rodriguez-Sepulveda, 
who has encouraged and supported my love and passion for public 
service for many years.
    To better serve those who have served this country with 
courage, dedication, and sacrifice--our Veterans and their 
families--President Obama and Secretary Shinseki have called 
for the transformation of the Department of Veterans Affairs 
into a 21st century organization.
    Key to achieving the VA's transformation will be the 
strategic development and management of the Department's human 
capital--the more than 280,000 employees at VA who work to 
serve our veterans and their families every day. In other 
words, we must make sure that we have the right people doing 
the right job at the right place at the right time, at all 
times. If confirmed as Assistant Secretary, I will be 
responsible for providing leadership and management of the 
Department's human capital assets and policies, working closely 
with the Deputy Secretary and the executive team.
    As Deputy Secretary Gould has already testified, VA must 
invest in its workforce to better serve our veterans and to 
support the transformation of the Department. This investment 
must include taking the following steps:
    First, increasing professional training opportunities for 
employees, including managers.
    Second, greater use of automation and technology to 
efficiently and securely process and manage all personnel 
actions, including hiring, performance evaluations, employee 
benefits and records.
    Third, promoting new and existing work-life initiatives 
within VA to increase productivity and morale.
    And, fourth, expanding succession planning and executing 
new and creative recruitment strategies to better prepare for 
the large numbers of retirements that will impact the 
Department in the coming years.
    If confirmed, these are some of the specific aspects of the 
human capital investment agenda at VA that I look forward to 
addressing.
    VA must continue to strive to be a model employer of choice 
for veterans, people with disabilities, women and minorities. 
Indeed, increasing efforts to expand the numbers of veterans 
employed at VA is and will continue to be a top priority.
    I have been a public servant for much of my adult life, 
having served at the local, State, and Federal levels. I know 
firsthand how our public servants carry out their jobs each day 
with dedication and professionalism. Consequently, I will 
ensure that all VA employees are treated with the respect that 
they deserve.
    I also hope to lead the Department's efforts to provide 
customer service training to all employees, especially those 
providing direct services to our veterans. We must make sure 
that all veterans seeking informational services from the 
Department are always treated with the consideration and 
respect that they have earned and that they deserve.
    I know that changing an organization as complex and as 
large as VA will be difficult, especially given that the 
Department has to, in the short term, launch several major new 
programs and initiatives. However, if given the opportunity to 
serve, I would bring the necessary Government experience and 
leadership skills in human resources and change management to 
contribute substantially to accomplishing the goal of a 21st 
century VA.
    While serving as the Deputy Director of the U.S. Office of 
Personnel Management, the Federal Government's primary human 
resources agency, I had the opportunity to lead or work on 
several internal and governmentwide civil service reform 
initiatives.
    My nearly 5 years of service on an advisory panel to the 
intelligence community--which focused on diversity and human 
resources issues--familiarized me with many of the current 
human capital challenges facing Federal agencies, including VA.
    My experience in Federal program transformation includes my 
participation and leadership in the successful modernization of 
two major programs at the Federal Housing Administration in the 
early 1990s, including the restructuring of 81 field offices 
and the creation of two processing centers.
    If confirmed, I look forward to working with this Committee 
to ensure that the Department of Veterans Affairs successfully 
meets our Nation's obligations to our veterans and their 
families no matter who they are and no matter where in our 
great country they may live.
    Thank you.
    [The prepared statement of Mr. Sepulveda follows:]
    Prepared Statement of John U. Sepulveda, Nominee for Assistant 
 Secretary for Human Resources and Administration, U.S. Department of 
                            Veterans Affairs
    Chairman Akaka, Senator Burr and Distinguished Members of the 
Committee on Veterans' Affairs, Thank you for the opportunity to 
testify before you to today.
    I am deeply honored to be nominated by President Obama to serve as 
Assistant Secretary for Human Resources and Administration at the 
Department of Veterans Affairs. I am also honored to have Secretary 
Shinseki's trust and confidence to serve in this important position. I 
would like to also express my profound gratitude to my wife Awilda 
Rodriguez-Sepulveda, who has encouraged and supported my love and 
passion for public service these many years.
    To better serve those who have served this country with courage, 
dedication and sacrifice, our Veterans and their families, President 
Obama and Secretary Shinseki have called for the transformation of the 
Department of Veterans Affairs into a 21st century organization. Such 
an organization would be completely and exquisitely focused on meeting 
the needs of our Veterans; deploying state-of-the-art technology, 
efficient delivery systems and dedicated and well-trained employees to 
provide to our former warriors comprehensive, effective and expedited 
benefits, mental health programs and medical services whenever and 
wherever they are needed.
    Key to achieving the transformation of Veterans Affairs is the 
effective and strategic management and development of the Department's 
human capital: the 280,000 employees at VA who work hard each day to 
serve our Veterans and their families. In other words, we must make 
sure that we have the right people doing the right job at the right 
place at the right time, at all times. If confirmed as Assistant 
Secretary for Human Resources and Administration, I will be responsible 
for providing leadership, direction and management of the Department's 
human capital assets and human resource policies, working closely with 
the Deputy Secretary and executive team.
    As Deputy Secretary Gould has already testified, VA must invest in 
our civil servants to better serve our veterans now and to support the 
transformation of the Department. This investment must include 
expanding training opportunities for employees, including managers, 
using a broad spectrum of delivery systems and media. Greater use of 
automation and technology to efficiently, expeditiously and securely 
process and manage all personnel actions, including hiring, performance 
evaluations, employee benefits and records. Promoting new and existing 
work-life initiatives within VA to help maintain productivity and 
morale. Preparing for the large numbers of VA employee retirements that 
will be coming with effective succession planning and proactive 
recruitment strategies must also be part of this overall investment 
agenda. These are among the specific areas of human capital development 
that I look forward to addressing if confirmed.
    Moreover, VA must continue to strive to be a model employer of 
choice for veterans, people with disabilities, women and minorities. 
Indeed, strengthening efforts to increase the numbers of veterans 
employed at VA is and will continue to be a priority.
    I have been a public servant for much of my adult life, having 
served at the local, state and Federal levels. So I know first hand how 
our public servants strive each day to carry out their jobs with 
dedication, professionalism and integrity. If given the opportunity to 
serve as Assistant Secretary, an ongoing priority for me will be to 
make sure that all VA employees are treated with the respect that they 
deserve.
    Working with the Deputy Secretary, my colleagues on the executive 
team, and VA H.R. teams throughout the country, I will help lead 
efforts to make available appropriate and updated customer service 
training to all employees, especially those providing direct services 
to Veterans and their families. We must make sure that all Veterans 
seeking information or services from the VA are treated, at all times, 
with the respect and consideration that they have earned and deserve.
    I am under no illusion that changing an organization as large and 
complex as Veterans Affairs will be easy, simple and quick, especially 
given that the Department must, in the short-term, also accomplish 
several major new programs and initiatives, including implementing the 
New GI Bill this summer; successfully integrating hundreds of thousands 
of Priority Group 8 and OEF and OIF Veterans into the disability claims 
and health care systems; and significantly improving the quality and 
timeliness of claims processing; among other immediate challenges. 
However, I believe if given the opportunity I would bring the necessary 
experience and leadership skills in human resources and change 
management to contribute significantly to accomplishing the goal of a 
21st century VA set by President Obama and Secretary Shinseki.
    While serving as the Deputy Director of the U.S. Office of 
Personnel Management, the Federal Government's primary human resources 
agency, I had the opportunity to lead or work on several internal and 
governmentwide civil service reform initiatives.
    My nearly five years of service on an advisory panel to the 
Intelligence Community focused on diversity and human capital issues 
helped to familiarize me with many of the current human resources 
challenges facing virtually all Federal agencies, including Veterans 
Affairs.
    My experience in Federal program transformation includes my 
participation and leadership in the successful modernization in the 
early 1990s of two major programs at the Federal Housing 
Administration, including the restructuring of 81 field offices and the 
creation of two processing centers achieved with the support of HUD's 
labor unions.
    Deputy Secretary Gould noted in his earlier testimony before this 
Committee that among his first steps would be ``synchronizing the 
people, process and technology'' in order to achieve the people 
centric, results oriented and forward looking VA that Secretary 
Shinseki is committed to delivering to the American people. If given 
the opportunity, I look forward to being part of the Secretary's 
executive team that will no doubt achieve this synchrony on behalf our 
Veterans.

    I would like to close by again thanking this distinguished 
Committee for giving me the opportunity to testify. If confirmed, I 
look forward to working with this Committee to ensure that the 
Department of Veterans Affairs successfully meets our Nation's 
obligation to our Veterans no matter where they may live.
                                 ______
                                 
Response to Pre-Hearing Questions Submitted by Daniel K. Akaka to John 
U. Sepulveda, Nominee to be Assistant Secretary for Human Resources and 
          Administration, U.S. Department of Veterans Affairs
    Question 1. Have you and Secretary Shinseki discussed the duties 
and the role you would assume as Assistant Secretary for Human 
Resources and Administration if you are confirmed? If so, what specific 
areas of the job were discussed?
    Response. Yes. Secretary Shinseki expressed to me his strong 
commitment to making VA a high-performing, 21st century organization, 
focused on the mission of effectively serving Veterans and their 
families, and that the role of human capital at VA is critical to that 
mission. He expects the Assistant Secretary for Human Resources and 
Administration, working with the Deputy Secretary, to take the lead in 
transforming VA's workforce into the most efficient client-oriented, 
veteran-centric, and forward looking Department it can possibly be. 
Should I be confirmed, my priorities will be: improving recruitment, 
hiring and retention procedures, staff training, and performance 
evaluation. The Secretary will also look to me to establish initiatives 
for achieving a high-quality and diverse management team to help 
position VA to better meet its responsibilities to veterans and their 
families.

    Question 2. Do you anticipate having a policymaking role if you are 
confirmed?
    Response. While I look forward to providing policy advice and 
recommendations to the Secretary and Deputy Secretary, especially 
concerning human resources and administration, I will not have a 
policymaking role independent of the Secretary, since he is the only 
one authorized to make policy decisions on behalf of the Department of 
Veterans Affairs. At the point at which the Secretary makes a decision 
on a specific policy, particularly in the area of human resources, my 
job will be to ensure that the policy is fully executed to the best of 
my abilities.

    Question 3. Have you formulated any thoughts on what your job 
responsibilities will be and how you will approach those 
responsibilities if confirmed?
    Response. The Assistant Secretary for Human Resources and 
Administration at VA has responsibilities for administration, human 
resources management, diversity management and EEO, labor-management 
relations and resolution management. My first priority will be to 
ascertain what resources and changes the Secretary and Deputy Secretary 
will require from those program areas to support the transformation of 
VA, which will include the modernization of VHA, VBA and NCA, the 
upgrading and centralization of the agency's IT system, etc.
    As part of that effort, I will assess the current state of VA's 
human capital, including personnel levels, recruitment and hiring 
procedures, training programs, staff evaluations and overall morale to 
determine what gaps need to be filled to ensure a work force fully 
capable of carrying out the transformation of the department.

    Question 4. If confirmed, what would you most like to accomplish in 
your new position? What would you hope your legacy to the Department 
would be?
    Response. Generally speaking, I look forward to helping the 
Secretary and Deputy Secretary make the personnel, organizational, 
structural and cultural changes needed to assure our Veterans and their 
families that VA of the 21st century will always be able to meet their 
needs. To support this transformation, VA will need a proactive, 
innovative and strategic human resources team. My goal is to leave such 
a team in place to benefit VA's clients, employees and programs for 
years to come.

    Question 5. How would you describe your management style and how is 
it suited to this particular position?
    Response. In my more than 25 years of leadership and management 
experience in the public and private sectors I have had to employ 
various management styles, guided by these principles: 1) respecting 
employees working for me, trying to understand their concerns and 
seriously considering their suggestions; 2) stressing a collaborative 
team approach to problem solving; 3) delegating authority and trusting 
in the team to carry out its core responsibilities; 4) leading by 
example and by walking around; 5) providing my staff with clear 
direction and support so they can get their jobs done; and 6) accepting 
full responsibility for whatever happens in my area on my watch.
    Given my extensive public sector experience and strong leadership 
abilities, if I am confirmed, I am confident that I will implement a 
management approach best suited to help Secretary Shinseki achieve his 
vision of a VA positioned to effectively serve our country's Veterans 
and their families for decades to come.

    Question 6. How does your experience at the Office of Personnel 
Management contribute to your qualifications for this new position?
    Response. My experience at OPM and elsewhere, including as a member 
of an advisory panel to the Director of National Intelligence 
concerning diversity and human capital issues, has helped familiarize 
me with many of the strategic human resources challenges facing all 
Federal agencies, including VA. Serving as the deputy director at OPM, 
the chief human resources agency for the entire Federal Government, I 
had the opportunity to serve on or lead various major civil service 
reform initiatives. I also had responsibility for labor issues, 
facilities management at headquarters, diversity recruitment, 
succession planning, and much more, including policy and program areas 
pertinent to the responsibilities of the Assistant Secretary for Human 
Resources and Administration at VA. I have developed considerable 
management experience with effecting structural change in government 
programs. This experience will help me support the Secretary's 
transformation and modernization of VA in the coming months and years.

    Question 7. ``A VA for the 21st Century'' has been a rhetorical 
slogan for many in recent years. However, as we near the end of the 
first decade of the century, it seems that that goal is still quite far 
away. How do you view the role of the Office of Human Resources and 
Management in moving VA forward in this regard?
    Response. I see the Office of Human Resources Management playing a 
crucial role in virtually all transformational activities, including 
recruiting and hiring the appropriately skilled staff to carry out 
existing program and restructuring activities, and securing needed 
technical and management training to support transition to a truly 21st 
century VA. Ensuring that successful transformation of the Federal 
Government's second-largest department begins and ends with the 
department's personnel. With the right levels of staffing, training, 
performance evaluations and incentives, organizational efficiencies and 
streamlining, forward leaning leadership among all middle and senior 
managers, state-of-the-art, user-friendly technology, and an outward 
looking culture that always centers on veterans, a 21st century VA is 
an achievable goal.

    Question 8. As the official who will be responsible for managing 
the human resources of the Department, you most likely will need to 
deal with delicate situations that impact the lives of many. What 
skills do you bring with you to this new position that will help you 
handle such cases?
    Response. As a result of many years of leading and managing diverse 
workforce populations in the public and private sectors, I believe I 
have developed a range of skills that will enable me to successfully 
address a wide range of delicate personnel issues. Should I be 
confirmed, I will bring sensitivity, compassion, discretion, and strong 
communications abilities to my job. I have an unshakeable respect for 
public servants, acquired over the many years that I served in local, 
state and Federal agencies. I always approach any delicate individual 
or department-wide human resources matter with clearly expressed 
respect for the employee or employees involved. I have found over the 
years that by beginning with open and respectful communication, most 
situations can be negotiated or otherwise resolved quickly and without 
long-term difficulties or rancor.

    Question 9. What strategies that might be implemented to ensure 
effective communication with all VA employees?
    Response. If confirmed, I will actively support efforts of the 
Secretary and Deputy Secretary to promote communication and synchrony 
among and across all of VA's administrations. VA is already employing a 
variety of media to communicate with its employees across the country, 
including the VA Web site, video newscasts, emails, and a variety of 
publications. I am certain that the new Assistant Secretary for Public 
Affairs will soon establish new methods and channels for communicating 
with veterans, VSOs, other Federal, state, and local agencies, and the 
general public that can also be used to strengthen communication with 
employees within VA.

    Question 10. What are your thoughts on the ability of VA to deal 
with increasing numbers of retirees over the next several years and 
what can the Department do to prepare for the loss of experienced 
personnel?
    Response. Succession planning is a crucial element of any Federal 
department's Human Resources strategy; there is no question that we 
must be proactive in assuring that the Federal workforce remains 
vibrant and refreshed at every level. While I am not familiar, 
specifically, with the internal capacities of VA to be able to comment 
on its ability to meet the challenge of mass retirements in the coming 
years, if confirmed, I will assess the quality of the department's 
current centralized and/or unit-level succession and workforce planning 
efforts to determine whether they are adequate to meet this challenge.

    Question 11. Secretary Shinseki has placed an emphasis on improving 
the level of collaboration and cooperation between VA and DOD. What 
role do you see for Office of Human Resources and Management in dealing 
with areas of concern involving the two departments, such as at the 
proposed new Federal Health Center in Chicago?
    Response. While I am aware of VA and DOD collaborative efforts to 
share health care resources, I am not familiar enough with such joint 
projects to comment on the HRM issues related to them. Should I be 
confirmed, I will come up to speed very quickly on this topic because I 
know Secretary's Shinseki is committed to achieving a seamless health 
care system that will serve both active-duty personnel and veterans. 
I'm sure that the H.R. issues, though they may be complex, are well 
within the abilities of VA's and DOD's HRM offices to resolve jointly, 
to the mutual benefit of the men and women both departments serve.

    Question 12. Are there any specific problems or challenges that you 
have already identified that you would like to tackle in this new 
position?
    Response. Supporting Secretary Shinseki's goal of a truly 21st 
century VA requires addressing a number of short- and long-term 
challenges. If confirmed I would work closely with the Deputy Secretary 
and the other assistant secretaries, to determine what specific human 
resources support will be needed to: 1) move expeditiously on filling 
critical vacancies to improve delivery of vital services to veterans 
and their families; and 2) to assist in the overall transformation of 
VA.

    Question 13. This position puts you in a position of being 
responsible for a vast array of issues, an enormous numbers of 
problems, and a virtual army of personnel all attempting to meet the 
needs of more than 23 million veterans and their families--and ideally 
do it all with compassion, caring and committed attitude. How will you 
approach this challenge?
    Response. Veterans have sacrificed much to protect our country. 
They have earned our respect, gratitude and support to help them live 
their lives as fully and productively as possible. They, and their 
families, rightfully expect much of VA, and we have to deliver on our 
promise to care for them. Because I believe in the ``walking around,'' 
principle of management, if confirmed, I will visit VA medical centers, 
clinics, regional offices and national cemeteries, and meet with VSOs 
and individual veterans in order to better understand the scope of my 
work. I will listen carefully to the concerns and recommendations of 
veterans and VA staff who are working hard each day to serve them. With 
that knowledge in hand, I will be better prepared to lead the Office of 
Administration and Human Resources, and provide our employees with the 
H.R. services they need to get their jobs done.

    Question 14. What emphasis do you place on having a diversified 
workforce?
    Response. I fully agree with the Secretary's goal of having a high-
quality and diverse workforce as part of his vision for a new, people-
centric, result-driven and forward-looking VA. Indeed, for most of my 
Federal career I have worked on various efforts to promote greater 
diversity within the civil service in order to ensure a government that 
reflects the richness of our country. At OPM I led various initiatives 
to increase diversity within that and other agencies. During the past 
five years I served on an advisory panel under the Director of National 
Intelligence that focused on identifying human capital strategies, 
programs and policies to increase diversity throughout the Intelligence 
Community.
    If confirmed, I will work with my colleagues at VA to ensure that 
the department is seen as a highly visible employer of choice for 
veterans, people with disabilities, women and minorities from all parts 
of the United States.

    Question 15. Veterans are afforded specific protections under the 
Uniformed Services Employment and Reemployment Rights Act. What 
emphasis will you place on striving to make VA the model employer at 
the Federal level so that veterans who have fought for the Nation do 
not have to come home and fight for their jobs and benefits?
    Response. I will make certain that our veterans know that VA is, in 
fact, a model employer, and that, under Secretary Shinseki's 
leadership, veterans will always be respected and encouraged to join 
the VA workforce. Already, veterans make up nearly 30 percent of all VA 
employees, and I will, if confirmed, make sure that our doors remain 
wide open to our Nation's defenders. Wherever, and whenever, issues 
arise that could impede any veteran's opportunity to work for VA, I 
will aggressively seek resolution of those issues with all the 
authority of my office.

    Question 16. The Committee has been advised that every new hire in 
the Central Office is currently being examined by the Secretary's 
office as part of a ``top to bottom'' review that is currently in 
place. Once the Deputy Secretary for Human Resources position has been 
filled, what changes do you foresee in the current hiring process and 
structure?
    Response. Secretary Shinseki transformation vision for the 21st 
century VA is ``People-centric, Results driven, and Forward looking.'' 
I support this vision and the current effort of ``top to bottom'' 
review of hiring, especially in light of the unprecedented growth of 
the organization over the past year and a half. More than 25,000 new 
employees joined VA in 2008, with another 17,000 expected to be hired 
in 2009. The hiring review allows VA to ensure that the right people 
with the right skills to support the delivery of benefits and services 
to our Nation's Veterans and their families are where they can do their 
best work.

    Question 17. During a Congressional briefing on VA's current hiring 
practices, a VA official mentioned that an initial review revealed that 
a number of available policies are not currently being implemented. For 
example, VA has the ability to hire immediately veterans who are rated 
at least 30% service-connected disabled. How do you plan to ensure that 
managers are not only aware of this authority, but that they will 
utilize it in appropriate situations?
    Response. As I have studied VA's accomplishments, I have learned 
that VA has a long and distinguished record of achievement as it 
pertains to Veterans' employment. VA is second only to the Department 
of Defense both in the raw number of Veterans in our workforce, as well 
as the overall percentage--As of 30 March, 85,556 (29.74%) of our 
287,672 employees are Veterans and 23,473 (8.15%) are disabled 
Veterans. If I am confirmed, I will be firmly committed to hiring 
veterans not just because regulations encourage it, but because it is 
the smart thing to do for the department. If VA is not applying all 
available authority to bring veterans on board, I will work to remedy 
that deficiency.

    Question 18. What will your emphasis be on using VA's special 
hiring authorities--for example, veterans' preference, Veterans 
Readjustment programs, Disabled Veterans affirmative action programs, 
and others--to facilitate the employment of veterans?
    Response. As I have stated, if I am confirmed, I will be committed 
to hiring veterans not just because regulations encourage it, but 
because it is the smart thing to do for the department. If VA is not 
applying all available authority to bring veterans on board, I will 
work to find out why, and address the problem.

    Question 19. There have been reports from former Committee staff 
that in certain cases, employees who have left the Committee and joined 
VA have experienced lengthy delays in effecting the transition between 
the two workplaces, including long waits for crediting prior service, 
no telephone or computer availability, and non-transfer of benefits. I 
am concerned not only by these specific reports but also interested to 
know if these types of situations are typical of other new hires within 
VA. Please comment on what you believe should be the normal experience 
for new VA employees?
    Response. I believe that any new hire--in any Federal department--
should be accorded a timely and respectful process. When a new employee 
comes on board, he or she should be able to work productively from day 
one. This means they should have all the tools available to them, and 
that includes the support systems as well as the usual computers, 
phones, and supplies. It also means helping them meet with their 
colleagues and their managers from the first day and letting them know 
that they can access all the services they need to do their job to the 
fullest.

    Question 20. How will you ensure that field H.R. offices are 
familiar with, and utilize, all of VA's programs providing recruitment 
and retention incentives for health care providers?
    Response. While I don't know enough about this issue or any actions 
being taken at VA to address it in detail, from my own H.R. 
experiences, I believe that any program that deals with recruitment and 
retention must have a good communications component. That includes 
providing the most timely training materials and other media 
appropriate to educating managers and staff in the best practices of 
attracting, hiring, and retaining the best possible employees. If 
confirmed, I will look into this matter to determine, in consultation 
with the Deputy Secretary and the Under Secretary of Health, the 
appropriate course of action that Human Resources Management should 
take to help achieve the needed level of health providers throughout 
the VA system.

    Question 21. How will you make potential applicants aware of 
recruitment and incentive programs such as the Health Professional 
Scholarship Program, the Nurse Education Tuition Reimbursement Program, 
the Employee Incentive Scholarship Program, the Education Debt 
Reduction Program, VA Nursing Academy, the VALOR Program, and the 
Travel Nurse Corps Program?
    Response. As I understand it, VA currently communicates information 
to potential applicants regarding these programs in a variety of ways 
to include press releases to the news agencies, VA internet Web sites; 
national recruitment advertising campaigns both online and print; and 
as topic areas in recruitment brochures and literature that target both 
new graduates and mid career professionals; and where programs apply, 
information is contained in job announcements. I will, if confirmed, 
build on the most successful elements of VA's recruitment strategies, 
and seek out other communications channels to improve VA's outreach to 
potential employees in these critical areas.

    Question 22. Currently, offers of employment for health care 
providers do not routinely include determinations as to whether VA can 
offer them loan repayment through the Education Debt Reduction Program. 
How can this program work as a recruitment incentive if such a 
guarantee is not included in an initial offer of 
employment?
    Response. I agree that hiring incentives are valuable tools for 
bringing individuals with much-needed healthcare skills into the 
Federal workforce, particularly VA. As I understand the EDRP, 
applicants for VA employment in critical needs, or hard-to-recruit 
areas, are advised that EDRP may be offered, though they still must 
complete an EDRP application. If confirmed, I will look into how 
information about the proper use of this tool can be better 
disseminated among hiring officials and potential eligible candidates.
                                 ______
                                 
  Response to Pre-hearing Questions Submitted by Hon. Richard Burr to 
 John U. Sepulveda, Nominee to be Assistant Secretary, Human Resources 
        and Administration, U.S. Department of Veterans Affairs
    Question 1. The Department of Veterans Affairs (VA) is our 
country's largest civilian agency. If confirmed, you would have the 
enormous task of overseeing personnel and administrative issues for 
nearly 300,000 employees.

    A. How do you plan to approach that challenge?
    Response. If confirmed, I will draw on my more than 25 years of 
leadership and management experience in the private and public sector 
to carry out my responsibilities. I will work within the priorities and 
strategic parameters set by the Secretary to carry out those duties, 
especially concerning the transformation of the VA. I will work closely 
and consistently with the Deputy Secretary, the executive team and VA's 
career staff to build on the successful management systems already in 
place, and to reform policies and practices that are ineffective or 
obsolete. Whenever possible I will ensure that new and readily 
available technology and training resources are leveraged to support 
effective management and administration of VA's human capital assets. 
Finally, I will work with the executive team to meet the current hiring 
priorities and ensure that significant attention is given to planning 
for the mass retirements that will affect VA in the years to come.

    B. What lessons would you bring with you from your experience at 
the Office of Personnel Management?
    Response. At OPM I had the opportunity to work on various human 
resources policy issues and civil service reform initiatives that 
provided me with experience in such relevant areas as: labor-management 
relations; alternative dispute resolution; diversity management; 
succession planning, especially concerning the Senior Executive 
Service; the development of new management training; the need for 
greater technology to streamline the recruitment, selection, hiring and 
retention of mission critical employees; and emergency and contingency 
planning.
    Among the lessons I would bring from OPM include the importance of 
having all of the key stakeholders at the table before developing and 
launching a major organization restructuring or reform initiative; 
ensuring that vital (actionable) information is fully and consistently 
shared with employees at all levels; being consistently clear with all 
employees who the agency's ultimate customer is (e.g., the veterans for 
VA); making sure that consideration and respect are shown to all 
employees at all times; understanding, respecting and complying with 
the letter and spirit of any legislation passed by Congress at all 
times; and the importance of always respecting the executive oversight 
responsibilities of the Congress.

    C. What would you hope to accomplish during your tenure?
    Response. I look forward to helping the Secretary and Deputy 
Secretary make the personnel, organizational, structural and cultural 
changes needed to achieve a 21st Century VA that will effectively and 
efficiently meet the needs of Veterans and their families. To support 
this transformation in short and long-term, a proactive, creative and 
strategic human resources team at VA will be needed. I hope to leave 
such a team in place when I leave VA.

    Question 2. My staff from the U.S. Committee on Veterans' Affairs 
has been briefed about a top-to-bottom review of personnel procedures 
that Secretary Shinseki initiated. It is my understanding that, during 
this review, new personnel will not be hired without approval from the 
Office of the Secretary.

    A. Have you discussed this review with Secretary Shinseki?
    Response. No.

    B. If so, what are your thoughts about this approach?
    Response. I generally believe it is always appropriate to conduct a 
careful review of resources, programs and policies whenever a new 
leadership team takes over at an agency or company. Given that VA has 
hired 25,000 new employees in 2008 and expects to hire another 17,000 
in 2009, a careful review of hiring is appropriate to ensure that 
sufficient personnel are hired and deployed to carry out the specific 
priorities of Secretary Shinseki. Nevertheless, I do not have enough 
information on this particular process outlined above to offer any 
additional opinion.

    [The Committee questionnaire for Presidential nominees from 
Mr. Sepulveda follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [A letter from the Office of Government Ethics follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    [Letter from Mr. Sepulveda to the Office of General 
Counsel, U.S. Department of Veterans Affairs:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Akaka. Thank you very much for your testimony.
    Before we begin with our questions, let me ask you, Colonel 
Gunn, to introduce your family.
    Colonel Gunn. Thank you, Chairman. We have been joined by 
my wife, Dawn Latham Gunn; by my parents, Willie and Elizabeth 
Gunn; by my son, Latham Gunn; my daughter, Arena Gunn; as well 
as by my pastors, Pastor Rosemary Bonner and Apostle Crosby 
Bonner.
    Senator Akaka. Well, thank you very much. Welcome to the 
hearing this morning.
    I will ask the nominees to please stand for the 
administration of the oath. Will you please raise your right 
hand? Do you solemnly swear or affirm that the responses you 
are about to give to questions, as well as your testimony and 
any answers to any pre- or post-hearing questions before the 
Senate Committee on Veterans' Affairs will be the truth, the 
whole truth, and nothing but the truth, so help you God?
    Mr. Baker. I do.
    Colonel Gunn. I do.
    General Riojas. I do.
    Mr. Sepulveda. I do.
    Senator Akaka. Thank you. Let the record note that the 
nominees answered in the affirmative.
    Mr. Baker, in your written testimony, you acknowledge the 
challenges you are inheriting in the position. Of course, if 
confirmed, these will be your challenges. You note that there 
is no easy path, no simple answer, and no shortcut solution to 
creating a strong IT capability at VA.
    That being said, where do you plan to begin to fix the 
problems and create solutions?
    Mr. Baker. Thank you, Mr. Chairman. In my view, this is a 
large-scale management problem. You know, key areas to focus on 
in the beginning are: to address the issues with failed 
programs and the environment that allows programs to continue 
on for 10 years before being identified as failed programs; and 
fixing that from a management standpoint.
    Clearly, a focus on continued good operational delivery of 
services to the internal customers (the Veterans Health 
Administration, the Veterans Benefits Administration); working 
with the people in the VA IT organization to improve skills and 
address skills gaps; to do training; and working with the 
partners at the Department--the vendors that work with the 
Department that are probably half again as many staff as we 
have employees--to make certain that we are getting the real 
benefit of the work that they do in a timely fashion. I think 
those are probably the four starting points.
    There will be many, many challenges as we go along, and I 
think it is probably safe to observe that, as soon as we say 
here is where we want to start strategically, things will start 
to pop up that we have to deal with, to make certain that they 
are being appropriately dealt with from an urgent standpoint.
    Senator Akaka. You mention in your testimony ``seamless 
transition.'' My question to you at this point is: How do you 
intend to work with the Defense Department on records so that 
they can become seamless from Defense to Veterans?
    Mr. Baker. Mr. Chairman, I have a high expectation of what 
``seamless transition'' means. The servicemembers, when they 
join the military, do not expect that they are going to have to 
change complete organizations when they move from military 
servicemember to veterans. They, I believe, see themselves as 
working for the same Government.
    The records that DOD has about the servicemember's service 
and about their health are vital to the VA being able to 
provide what appears to the veteran as something that means 
they have never left the same Government. Potentially, they can 
log into the same Web sites with the same log-in IDs that they 
used to when they were in the DOD at VA, see the same sorts of 
information, and have an environment where it is clear that we 
are supporting them.
    Working with DOD, we will recognize that we currently 
exchange a fair amount of information both in the bidirectional 
health information exchange and on the benefits side with 
information coming from the personnel information at DOD.
    But there is a lot more that can be done and a lot of work 
that needs to be done just make certain that that information 
comes to VA in a usable form. It is one thing to receive the 
information; it is another to be able to really use it and 
apply it to maximize benefits and minimize wait times.
    I have numerous friends at the Defense Department. I know 
that, if necessary, we can utilize General Shinseki and Deputy 
Secretary Gould's good contacts there to help leverage things. 
And in the long term, I guess I would just tie that question--
How do we create a seamless transition?--to the President's 
vision of that lifetime electronic record, because that is the 
key part. When you have that lifetime electronic record, when 
you can access that information at any time that you want to 
serve the veteran, that is going to provide much of what is 
needed for that seamless transition.
    Senator Akaka. Yes, well, thank you. We will have another 
round here. I will turn to our Ranking Member for his 
questions.
    Senator Burr. Thank you, Mr. Chairman. It looks like we 
will do this together today, which is advantageous to us.
    A couple of housekeeping questions, if I can, for all of 
you, and I would just ask for a quick response, if you would.
    As Ranking Member, I have some obligations to do oversight 
that I think all of you can understand. Do you pledge to submit 
timely answers to my questions? Let me start on that side. 
Roger?
    Mr. Baker. Yes, sir.
    Colonel Gunn. I do, sir.
    General Riojas. I do.
    Mr. Sepulveda. Yes.
    Senator Burr. Do you pledge to submit testimony before the 
Committee on time and agree to submit follow-up questions for 
the record in a timely manner?
    Mr. Baker. Yes, sir.
    Colonel Gunn. Yes, Senator.
    General Riojas. Yes, I do.
    Mr. Sepulveda. Yes, sir.
    Senator Burr. Each of you stressed in your testimony the 
importance of the VA moving to a 21st century organization, 
which I think we all want it to. What do you see as the 
greatest challenges in this transformation? And how are you 
prepared to successfully tackle them?
    Mr. Baker. I guess I will start, Senator. Thank you.
    As we discussed this morning when we met, the change 
management, you know, the organizational change is certainly 
the largest challenge that we will face. One of the things you 
learn as a technologist is that you can create wonderful 
systems that no one wants to use because they either have not 
been trained, the interfaces to them are unfriendly, or the 
information there is not of any use or the processes there are 
not of use to them. So, I think that organizational change 
piece--making sure that we are serving the organizations from 
an IT perspective, that we are serving the organizations that 
directly serve the veterans, our job is to partner with VHA, 
VBA, and CA to help provide that service to the veteran. So 
from that technology standpoint, I think that is the challenge.
    How am I prepared? I would say I have taken my whole career 
to prepare for this one. As a CEO you deal with these kinds of 
problems all the time--not on the same scale. There are a few 
organizations that are the same scale as the Department of 
Veterans Affairs. But this is what my career has really 
prepared me for, both as a technologist and as a manager.
    Senator Burr. Great. Colonel?
    Colonel Gunn. Senator, as you know, the Office of the 
General Counsel has over 400 attorneys spread out over 22 
regional offices with about one-third of those attorneys being 
here in Washington, the others spread out all over the country. 
Because of that, because of that decentralized aspect, 
communication will be a challenge. The Office of the General 
Counsel I see as being involved in all aspects of 
transformation. We are going to have a piece in it--if nothing 
else, from an advisory standpoint--to make sure that we are 
complying with law and with regulations and to provide advice 
with respect to what areas there need to be changes in order to 
effect transformation.
    I see that, when you are talking about transformation, one 
of the biggest challenges is simply that of communications. I 
think it is impossible to overcommunicate. The decentralized 
structure that we have places some special demands on 
communication, particularly when, as I see it--I have seen the 
organization chart--if I am confirmed, I will be the only 
political appointee in the Office of the General Counsel. So 
there are many people, as we discussed earlier, who could just 
wait me out if they wanted to.
    So, if we really want to effect change, we are going to 
have to--I would have to work very closely with the people that 
are already there, and I would have to listen to them; because 
I believe that there are a lot of good ideas that are just not 
housed here in Washington, but they are spread out all over the 
country and all over the organization.
    In terms of my preparation, my background is one where I 
have been blessed with the opportunity to serve in some 
positions at organizations in which I have been in 
decentralized environments. I think that, again, as Roger Baker 
just stated, the scale does not compare, but I have been in 
that situation, and I am up to the challenge.
    Senator Burr. Great. General?
    General Riojas. Senator, thank you for the question. I 
believe I would have several responsibilities relative to the 
transformation of the organization. One of them would be 
establishing and maintaining an operations center that 
facilitates the flow of information and communications within 
the VA team so that predictive analysis can be made, and 
recommendations can be made so that decisionmakers can make 
timely decisions for the organization.
    Just as importantly, I think that operations center would 
need to be an integral part of the interagency community so 
that VA as a Department is seen as an asset to the National 
Government as a whole, both before, during, and after times of 
crisis, emergencies, manmade or natural disasters.
    Senator Burr. Great. John?
    Mr. Sepulveda. Yes, Senator, I have some experience in 
change management, and I can tell you probably the most complex 
challenge is motivating the people at the Department to go in 
one direction. As my colleagues mentioned, people are resistant 
to change, and because there are changes in administrations, 
some people decide that they can wait out this administration 
if they do not like the direction that the Department may be 
going.
    So, the biggest challenge--working with the Deputy 
Secretary, working with my colleagues, and working with the 
staff there--is to motivate, direct, and lead the staff in a 
direction that helps to support the transformation. And one of 
the ways that I would do that is, first and foremost, get an 
assessment of where the gaps are in terms of training, in terms 
of resources, and in terms of leadership. The next is to really 
communicate the Secretary's vision to the lowest level and the 
highest level, so that we are going in the right direction and 
everybody has a stake in the transformation. Because, 
ultimately, the transformation is meant to do one thing, and 
one thing alone: it is to serve our Veterans, and that is 
really the thing that is supposed to unite us. And I am hopeful 
that it will.
    Senator Burr. Great. Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much, Senator Burr.
    Colonel Gunn, I understand that it will take you some time 
to get up to speed on issues that are facing the General 
Counsel's office. Some of the questions that I submitted for 
your response, prior to this hearing, were left unanswered 
because of your lack of familiarity with the issues.
    Will you agree to respond to those questions within the 
next 60 days so that they can be made part of the record of 
this hearing?
    Colonel Gunn. Absolutely, Mr. Chairman.
    [Mr. Gunn's follow-up responses are posted as Attachment A 
on page 195.]
    Senator Akaka. Thank you very much, Colonel.
    General Riojas, from the answers to your pre-hearing 
questions, it seems clear that you believe interagency 
collaboration and cooperation are important. Give me a few 
examples of how you will work with other Government agencies to 
accomplish the mission of the Office for which you are 
nominated.
    General Riojas. Mr. Chairman, thank you for the question. 
If confirmed, I think establishing and maintaining open lines 
of communications--specifically so that trust and confidence 
can be established and shared among the agencies--is a bedrock 
for that particular operation and that capability. And once 
those are established, information sharing among organizations 
is very, very important so that each organization can look at 
the capabilities and see that all the pistons in the engine can 
function and serve the Nation as a whole. This would be my 
overall approach to establishing that collaboration and 
partnership in the interagency community.
    I have had experience in the past doing that. I currently 
serve as the Executive Director for the National Center for 
Border Security and Immigration, a Center of Excellence for the 
Department of Homeland Security, where I have the opportunity 
to work in the interagency community. I am very comfortable in 
that environment and believe that I could serve in the position 
very well in establishing that capability for Veterans Affairs.
    Senator Akaka. Thank you, General.
    Mr. Sepulveda, a major concern of mine is that VA should be 
a model employer when it comes to the important protections 
afforded by the Uniformed Services Employment and Reemployment 
Rights Act. I do not believe that an individual who has left 
their job to fight for this country should, under any 
circumstances, come home and have to fight to get their job 
back.
    Can you expand on what you intend to do to make sure that 
VA is fully compliant with USERRA?
    Mr. Sepulveda. Thank you, Mr. Chairman, for that question. 
You are absolutely right that when we have employees who are 
deployed, they should not have to worry about whether or not 
the job is still there waiting for them when they return. The 
fact of the matter is that when Congress passed USERRA in 1994, 
the intent was to ensure that the Federal Government would 
always be a model employer, and if there is any agency within 
the Federal Government that should be a model employer for 
veterans and redeployed employees, it should be the Department 
of Veterans Affairs.
    So a couple of things that I would specifically look to do: 
One would be to make sure that all of our managers and 
supervisors and executives are fully aware and fully compliant 
with USERRA and understand what their responsibilities are--
there are specific responsibilities that they have--and 
understand that they have to carry them out.
    The second thing that I would look to do is to have H.R. 
staff work with these individuals so that when employees are 
indeed deployed, the supervisors and managers are already 
planning for their return, so that they already know that 
within a period of time--3 months, 6 months, 1 year--they are 
going to be returning. And the manager and the executive have 
made plans to have that individual integrate quickly, 
seamlessly back into the workforce, without any loss of 
benefits, without any loss of seniority, without any loss of 
stature within the organization.
    So those are two specific things that I would look to do, 
if confirmed.
    Senator Akaka. Thank you very much. I would like to call on 
Senator Isakson for any opening statement or questions he may 
have for our nominees.

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Thank you, Mr. Chairman. I will not make 
an opening statement, but I do have a couple of--well, one 
question and one point to make.
    General Riojas--is that the correct pronunciation?
    General Riojas. Yes, sir, it is.
    Senator Isakson. How are you today?
    General Riojas. I am doing fine. Thank you.
    Senator Isakson. Since you are going to be over Operations, 
Security and Preparedness, I would assume that would mean the 
VA hospital facilities operations and preparedness. Is that 
correct?
    General Riojas. Yes, sir.
    Senator Isakson. I would appreciate it, when you are 
confirmed, which I am sure will take place with your sterling 
reputation and record, I wish you would take a look at the 
Clairmont facility on Clairmont Road in Decatur, Georgia, which 
is the VA hospital there, which is going through extensive 
renovations thanks to the help of the Ranking Member and the 
Chairman when we got the authorization a couple of years ago. 
But as a part of that, almost all the parking has been lost for 
a period of time, and a number of the VA patients who are 
coming, they actually have to get in line to have their car 
parked, and some of the ones who are on oxygen are having to 
walk extensive distances to get to the facility because of a 
logistical problem with the VA.
    Now, the hospital is doing a great job of working. They 
have leased some parking spaces downtown for all the employees 
so they can shuttle them back and forth to leave as much 
available as possible. But, just yesterday I had a conference 
call with veterans in the State, and one of them who is on 
oxygen was talking about how he has to take two extra tanks of 
oxygen just to go to the VA hospital in Atlanta to be able to 
get from where he is let off to where he goes.
    So, if you would look into that, I would appreciate it very 
much.
    General Riojas. I will, sir.
    Senator Isakson. And, Mr. Baker, if you get--and I am a 
hometown guy, so I am bragging about Georgia for a second, I 
will have to apologize. I hope, as you look at examples of IT 
and success in the VA, that you will look at the Eisenhower 
Army Medical Center at Fort Gordon and Augusta VA Medical 
Center's uptown facility. They are the ones that developed the 
seamless transition from DOD health care to veterans health 
care and, in particular, have a paperless transfer in terms of 
the medical side now. On ``NBC Nightly News'' about 2 weeks ago 
there was a feature on that facility and what they are doing. I 
am a big believer in medical IT, and I think that the VA is 
probably leading all health facilities in getting medical IT 
right. But there is an awfully good example of it there at 
Augusta at the Eisenhower Medical Center and the uptown VA 
facility. So I urge you to take a look at that as soon as you 
can.
    Mr. Baker. Thank you, sir. I will do that.
    Senator Isakson. Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much, Senator Isakson.
    Let me turn to the Ranking Member for further questions 
that he has.
    Senator Burr. Thank you, Mr. Chairman.
    Roger, in pre-hearing questions, you said that the VA, and 
I quote, ``does not benchmark itself versus good private sector 
organizations to determine where gaps exist.''
    A very simple question: What type of private sector 
companies would you look to, to go through that benchmark 
comparison?
    Mr. Baker. Thank you, Senator. I think there are two sets 
of those. In the first case, we should be looking at other 
health providers, other insurance providers, understanding how 
they do business and how they use technology to best provide 
services to their clients.
    The second thing is in areas like IT infrastructure, 
information security: we should understand who the best 
organizations in industry at doing those things are and learn 
from them and benchmark ourselves against them. There are lots 
of services that will help us understand where our policies, 
procedures, and results rank against other organizations, and 
in that process, we can learn a lot about how and where could 
we improve just by benchmarking ourselves.
    Senator Burr. What specific areas would you feel are most 
appropriate to try to benchmark?
    Mr. Baker. Certainly, operational metrics. I personally 
would want to look at what are organizations like Kaiser 
Permanente and other folks doing relative to up time for the 
systems in hospitals or what are insurance companies like USAA 
doing relative to insurance benefits and their ability to help 
those benefits processors move the paper along, move the 
process along. So those are two relative areas.
    I have a lot of experience in information security. I 
really want to look at how other very large organizations like 
some of the major banks and some of the folks that have had 
substantial incursions and losses like we have, have responded 
to those and have they done things that we could learn from in 
making ourselves better.
    Senator Burr. Great. I do hope, as you do that, you will 
share that with the Committee, as I am sure you will with the 
Secretary.
    Colonel Gunn, the VA General Counsel's office is 
responsible for representing the Secretary before the U.S. 
Court of Appeals for Veterans Claims. In February 2009, one of 
the judges from the Court testified before this Committee that 
parties from both sides ``have time-management problems, but 
the Secretary has the greater number of requests for extension 
of time.''
    What steps could you take, if confirmed, to reduce any 
time-management problems within the General Counsel's office?
    Colonel Gunn. Well, sir, of course, I have not had the 
opportunity to study--I believe it is Group 7 that deals with 
representation before the court. However, upon taking the 
position, if I am confirmed, I would go in and launch a 
comprehensive study of the entire office, including Group 7.
    I think that when you talk about requests for time delays 
having been involved in representation before Federal courts, 
both at the trial level and also at the appellate level, you 
first of all have to ask if the resources that you have match 
the caseload that you have. And so, one of the considerations 
is if we have the necessary resources in order to accomplish 
the job in an effective manner.
    The other consideration is, do we have the training in 
place in order to provide the representation that needs to be 
provided? I would be looking at both of those issues going 
forward.
    Senator Burr. Thank you. I hope that, if you find 
especially that there are assets that are needed, you will 
share them with the Committee.
    Colonel Gunn. Yes, sir.
    Senator Burr. We have a tremendous backlog within the 
appellate court, as I am sure you are aware of, and in a 
bipartisan approach we have tried to do everything we can to 
alleviate that backlog. And, as I said to you this morning and 
to your colleagues, we can never forget the human face behind 
the VA, which is the veteran that is there for the services. 
And it disturbs me when the Secretary seeks an extension of 
time because we are forcing a veteran then to drag out the 
conclusion of their appeal. And I think we owe it to them to do 
it as expeditiously as we can. So, I look forward to any 
comments that you might have later on as to how we speed that 
up.
    Colonel Gunn. Yes, sir.
    Senator Burr. Last question, General. Your office has the 
oversight responsibilities for the VA's internal police force. 
In 2009, the VA's goal was to see that 89 percent of field 
police units were determined to be operating at ``satisfactory 
levels.''
    One, what does ``satisfactory level'' mean?
    And, two, would you agree with me that our expectation 
should be that 100 percent of that police force meet 
satisfactory levels?
    General Riojas. Senator, thank you for the question. I am 
not familiar either with the number or that particular 
categorization of ``satisfactory level,'' so I do not know what 
type of metrics were established and then how individuals were 
assessed against those metrics. So I am not prepared to answer 
that.
    Senator Burr. Well, let me ask the question in a different 
way. Regardless of what that definition of ``satisfactory'' 
would be, would you not have expectations that 100 percent of 
those officers would meet that level?
    General Riojas. Sir, that is a very high number, and I am 
not sure that anyone would set themselves up for success by 
establishing 100 percent. But, I would say that it is incumbent 
upon us to select the right individuals, to train them, to lead 
them, to assess their performance along the way, and to reward 
their performance, good or bad, along the way. And we would 
seek to achieve the highest level of performance by those law 
enforcement officers.
    Senator Burr. I appreciate your reluctance to necessarily 
commit to a high number. I hope that is a goal that we can 
shoot for, though. And I would mention that that field police 
unit is the law enforcement mechanism on that footprint, that 
VA footprint. And it is absolutely essential that we train 
those individuals to know the population that they are dealing 
with day in and day out. I think all of us up here can speak 
from experience that not a day passes that we do not have a 
veteran that has a problem with the delivery of care. It may be 
a real one, or it may be a problem as they see it. 
Unfortunately, if they confront somebody that does not have the 
skills or the understanding of the population, a police unit 
could react in a way that is not beneficial to the veteran, to 
the facility, or to the VA. And I know we want to try to 
minimize any confrontations that exist like that. I appreciate 
it.
    Again, I look forward to a very quick process of 
confirmation for all of you.
    Thank you, Mr. Chairman.
    Senator Akaka. Thank you, Senator Burr.
    Mr. Baker, following the recent failure of the new patient 
scheduling application, Secretary Shinseki ordered a top-to-
bottom review. My concern is that the individuals conducting 
this review are some of the same people who were integrally 
involved in the patient scheduling project.
    Please report back to me within 60 days of your 
confirmation with your personal assessment of how much of the 
patient scheduling is salvageable. In the meantime, do you have 
any initial thoughts about this latest failure or why VA seems 
to have repeated these failures?
    Mr. Baker. Thank you, Senator. I certainly will look at 
that when I report back to you within 60 days.
    As I said in my response to a pre-hearing question, while I 
have not had a chance to look in-depth at this one, from the 
briefing I was able to attend, my view is that a lot of the 
issue with the patient scheduling and other failures is an 
environmental one of dealing honestly with recognizing the fact 
that you are failing.
    The program certainly showed evidence of having problems 
well before the 10-year mark and well before it was marked as a 
red program in the project schedule. And it is important to 
accept those things top to bottom, deal honestly with them, 
and, if necessary, admit to yourself that you are failing and 
that substantial correction is required, not just incremental 
correction.
    It is a common-sense management discipline that from my 
standpoint I would plan to apply throughout, and maybe the most 
common sense is to create an environment where people in the 
organization feel they can be honest about where things are and 
have that be viewed as a positive and not a negative. So that 
is just kind of an overall view of the environmental factor. I 
certainly will report back on more detail when I have it.
    [Mr. Baker's follow-up letter is on page 180.]
    Senator Akaka. Thank you.
    Colonel Gunn, in your testimony, you noted that while you 
were a White House Fellow, you served as a liaison to the VA 
Secretary.
    Colonel Gunn. Yes, sir.
    Senator Akaka. And since that time, you stated that you 
have followed many of the issues affecting VA from afar. From 
your perspective, what are the issues that you have followed 
that will require your immediate attention, if confirmed as 
General Counsel?
    Colonel Gunn. Sir, issue number 1 goes to the heart of the 
Secretary's vision for transforming the organization into a 
21st century organization, and that is the issue of being 
people centric.
    In both my time in the military, my time since I retired in 
2005, and most particularly during the course of the last year 
since opening my law firm, I have had the opportunity to talk 
to many veterans and their families about the perception among 
many that the VA has a long way to go in terms of being a truly 
people-centric, customer-friendly organization. And I see that 
as really the heart of the matter because if we get there, a 
place where the VA is considered a model of being customer 
friendly, then from my vantage point, everything else follows 
from that.
    So, while I have looked at issues in terms of the level of 
benefits and the various processes, all of those really pale in 
comparison to that central issue of being focused on the people 
and making those people feel like that they are what this 
Department is most concerned about.
    Senator Akaka. Thank you.
    Let me call on Senator Burris. Do you have any statement or 
questions for the nominees? This is your time.

              STATEMENT OF HON. ROLAND W. BURRIS, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Burris. Thank you, Mr. Chairman, Mr. Ranking 
Member, fellow Senators. I would like to congratulate the 
panel. I have interviewed three of them, really, and--did I see 
you, Mr. Baker?
    Mr. Baker. Yes, sir.
    Senator Burris. Well, I have interviewed all of them. 
[Laughter.]
    I had so many coming at me. I am just trying to figure out 
whether or not I covered them all. I do want to say that I 
found it very, very informative in our interviews of these 
gentlemen; and I also found out, Mr. Chairman, that the 
paperwork that is involved in what they are doing is just 
tremendous. There are just so many different forms that have to 
be filled out and so much vetting has to be done; I was advised 
that they were definitely looking at that vetting process. But 
I would just like to check with Mr. Baker and see if when he 
becomes confirmed, he will definitely look at the information 
that is being misplaced and lost and records cannot be found, 
so they hope that the information technology system will 
improve that somewhat. I am pretty sure you have not had a 
chance to go in there and look at anything, but I wonder if you 
had any type of views on what the situation is currently prior 
to your going on.
    Mr. Baker. Thank you, Senator. As you can imagine, I have 
not had a chance to look at that closely, and so I think the 
best response is that I will come back to you with some answers 
on that when I have had a few weeks to take a look at where 
things are.
    Senator Burris. Please check that out, because the report 
from my veterans is that they send some paperwork in and it 
gets lost, it gets misplaced, the computer systems are not 
talking to computer systems. Some of it, which will go to an 
H.R. question, is the resources, that we do not have the 
personnel to really handle the volume and workload. Is that 
correct, Mr. Sepulveda, to your knowledge?
    Mr. Sepulveda. To my knowledge, we have some challenges 
there. We have a great staff. People are working really hard, 
but the reality is that the H.R. staff clearly needs some 
additional training and resources to help them do their job and 
to work in concert with the other departments within the 
agency. So you are absolutely right. There is a lot that needs 
to be done, but I am pleased, from what I have seen so far, 
that we have very dedicated people, good people. I think they 
just need some additional resources.
    One challenge that I just want to mention about the H.R. is 
that the retirement issue is going to be a major challenge 
because my understanding is that 50 percent of our H.R. team 
throughout the Department is eligible for early retirement or 
regular retirement. So there is going to be that challenge that 
we are going to have to be facing and planning for very soon.
    Senator Burris. We will have to find a reason to extend the 
time, because given the current planning, some of them may have 
to stay on. But I think the Federal pension is probably pretty 
good.
    I would like to just point out to Colonel Gunn, I have 
known this young man for years. We were on the ABA Committee 
together when he was in JAG and I was Attorney General working 
with those issues. And I ran across the Colonel when he came 
in, and I was wondering whether or not that was the same Gunn I 
had seen during those years, and, Colonel, it is certainly good 
to see you again, to have you come back and make your 
acquaintance. We had a great time at the ABA taking care of 
those issues.
    Colonel Gunn. Yes, sir.
    Senator Burris. And being a seasoned veteran and a lawyer--
I am sorry you graduated from Harvard and not Howard, but----
    [Laughter.]
    Colonel Gunn. I understand.
    Senator Burris. Being a seasoned lawyer, I am sure you will 
take care of the legal matters. And, of course, I want to 
compliment General Riojas, because I was chatting with him the 
other day, and I said, ``What rank are you?'' And he says, ``I 
am a Brigadier General.'' I said, ``Wow.'' I had to salute him.
    So, we are looking forward to you all joining, especially 
with the knowledge that you all have, you are veterans, you 
know what is going to be needed. Please go in there and be 
committed to our men who made this country what it is.
    My favorite expression to all you military personnel--and 
I've never served in the military--is, ``The only way we can do 
in America what we do is because you all have done what you all 
did--protecting us and this country and giving us this quality-
of-life.'' And we owe a great debt to all of those individuals 
who served this country. Now that you are all in a position as 
civilians to help them, take care of them. They took care of 
us.
    Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much, Senator Burris.
    Now I would like to call on Senator Johanns for any 
statement and questions he may have.

                STATEMENT OF HON. MIKE JOHANNS, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Johanns. Well, I will pass on the statement, Mr. 
Chairman, and I will just jump right into questions.
    First, to the entire panel, congratulations. I think just 
to be here is an important thing. Having been through a 
nomination process and confirmation process as a member of 
President Bush's Cabinet, 
I think it is just a great honor to serve your Nation in this ca
pacity.
    Second, congratulations on outstanding resumes. All of you 
are enormously qualified to do what you are heading out to do.
    Let me, if I might, start out with General Riojas. We have 
been--and still are--going through the issues relating to the 
flu. Of course, that has gotten a lot of attention not just 
here but all across the world, really.
    Give me your impression of how well prepared the Veterans 
Administration would be to deal with something of pandemic 
circumstances, what you would like to focus on. How do we 
ensure that our veterans are able to get the care they need? I 
would just like you to cover kind of the bailiwick here in 
terms of that kind of very, very drastic situation.
    General Riojas. Senator, thank you for the question. If 
confirmed, those are exactly some of the questions that I plan 
on asking as I conduct my assessment about our internal 
capabilities. I think it is very important that we 
consistently, constantly focus on the veterans so that no 
matter what the circumstances may be, prior to a flu challenge 
such as we have right now, or other manmade or natural 
disasters, that we be properly prepared for that internally.
    I think that it is also very, very important that the 
organization as a Department be integrated fully with other 
departments in our Government so that proper integration in 
planning, preparation, and actually during or after a 
particular situation is effective and efficient, maintaining 
that service to our veterans but shifting it a bit perhaps to 
service to the Nation.
    I am not well briefed or completely knowledgeable about 
what our exact capabilities are, but I do know assembling that 
information so that our decisionmakers within the Department 
and, an appropriate, outside the Department so that Secretary 
Shinseki can take recommendations to the national departments 
would be very, very important, and I would take that lead in 
that particular development.
    Senator Johanns. I really urge you do to that. When I was a 
Cabinet member, we worked on avian influenza, and the 
conclusion I reached is: this is just a matter of time.
    General Riojas. Yes.
    Senator Johanns. The viruses, as you know, ebb and flow, 
and in the influenza of 1918, it actually started out and it 
did not look like it was going to be so bad.
    General Riojas. Yes, Senator.
    Senator Johanns. And then it came back with a vengeance, 
and I just think we have to be prepared and very mindful that 
we have been lucky for a long time. So I encourage you to put 
that at the top of your list.
    Colonel Gunn, I am going to ask you some questions here 
about veterans claims.
    Colonel Gunn. Yes, sir.
    Senator Johanns. I think everybody on this Committee has 
heard from veterans about the painfully slow claims process and 
trying to get through that. Give us some ideas on how you might 
address that and how we can--I do not know if we streamline or 
whatever. Give me some ideas on how we can improve the 
situation there for our veterans.
    Colonel Gunn. Senator, thank you very much for the 
question. In preparation for the hearing, I talked a bit with 
the Deputy General Counsel of VA, Jack Thompson, who has been 
there for many years, and he informed me that there is a 
working group underway to look at exactly how the General 
Counsel's office can help in that particular area.
    Directly answering your question, though, the first answer 
that I have really goes to my colleague here at my right, and 
that----
    Mr. Baker. Thanks. Absolutely.
    [Laughter.]
    Senator Johanns. You can say that. We are going to hold you 
both accountable.
    [Laughter.]
    Colonel Gunn. Fair enough. In all sincerity, Senator, I do 
see information technology as playing a major role, and it is 
in this sense, in the course of the last year--well, actually 
last summer--I opened my own law practice to provide service to 
veterans and military members. Ironically, even though that was 
my goal and I envisioned that I would be representing people 
who were trying to obtain VA benefits. It just never worked 
out, and so the practice went in a different direction.
    I talked to, though, many people that were in that 
situation, and one of the frustrations that they had was the 
lack of transparency with respect to the claims process in the 
sense of: they would submit a package asking for, say, a 
disability rating, and then they would just wait. And they 
would try to find out information, and they found it extremely 
difficult and frustrating to just get information in terms of 
where they stood. And I would like to think that there are ways 
to get around that so that, at a minimum, an individual would 
be able to have more information in terms of, well, your 
package was submitted here, it is now at this particular level. 
That is reassuring--that in any process, if you know where you 
stand and how long it is likely to take after that point, that 
helps tremendously.
    Senator Burris also asked a question about how do we get 
beyond lost documents and such, and again, looking at, OK, are 
there impediments right now to our using our existing 
technology or developing new technologies so that we are not 
depending upon a paper record in that regard. Then I think that 
those are things that certainly will help.
    And then just finally, more germane to my responsibilities, 
if I am confirmed as General Counsel, I just think we have an 
ongoing responsibility to make sure that the people that are 
working with the claims out in the field, that they know what 
the impact of the latest law, as well as court decisions are. 
So, we have an ongoing responsibility just to educate, and we 
cannot get beyond that.
    Senator Johanns. I encourage you to work on this because 
you know as well as I do that delay feels like unfairness. You 
know, you sit there day after day. You feel you need these 
benefits and services. And, you know, to the average veteran 
out there, as each day goes by, as each week goes by, it feels 
unfair. So, whatever you can do to deal with that delay--you 
know, the Veterans Administration has done some great things 
with technology. I remember getting a briefing a couple of 
years ago on medical records, and some of it is really trend-
setting. My hope is that we can move this technology to another 
level because I do think it is important. So, I encourage all 
of you to work on that.
    Boy, if there was one thing that you could come back in a 
couple of years and say, ``Hey, we have done better here,'' I 
think the whole Committee would applaud; this would be the 
area.
    Thanks.
    Senator Akaka. Thank you very much, Senator Johanns.
    Mr. Sepulveda, in your testimony, you refer on several 
occasions to Deputy Secretary Gould's vision of an updated 
workforce with well-trained employees. Could you please give us 
now your preliminary thoughts on what specific steps you might 
take to help this vision become a reality?
    Mr. Sepulveda. Thank you, Mr. Chairman, for that question. 
I think that first and foremost the vision that we are 
operating with is the vision articulated by the Secretary and, 
of course, the Deputy Secretary's job is to provide some 
detail, and then the rest of us, if confirmed, are to provide 
some operational details to that strategic plan.
    Clearly, the area that I would be focusing on is human 
capital, and that means several things because we have several 
challenges facing this Department. One is the retirements, the 
large number of retirements that are going to be coming in the 
next several years. When you have over 30 percent of your 
employees eligible to retire and when you are talking about a 
Department of 280,000, you are talking about significant 
numbers of people that you are going to have to plan to 
replace. That is one challenge that is going to have to be 
focused on. So, in other words, what we are talking about is 
transforming the Department, but at the same time focusing on 
the operational issues to keep it running efficiently right 
now. So, succession planning is one.
    The other is training. Again, it is incredibly important to 
provide the appropriate kinds of training at all levels so that 
service can be delivered efficiently. And I would like to 
include in that the customer service training that I mentioned 
before because I think it is important that we all get grounded 
continually in why we are there. We are there to serve the 
Veterans. We are there to provide the best service possible, 
with respect, with consideration, with compassion. And that is 
another part that I would be focusing on.
    In addition, we have some major programs that have to be 
implemented, the new GI bill, the Priority 8 Veterans, the OEF 
and OIF Veterans that have to be integrated into the system. 
And we have also the need to accelerate the quality and the 
timeliness of the processing of our benefits. So, there are lot 
of challenges that are occurring right now.
    So, in many ways, we have to, frankly, walk and chew gum at 
the same time. We have to transform the Department with a focus 
on the strategic vision that the Secretary articulated and the 
President articulated, but at the same time operationally 
address the needs right now. That is a big challenge, and I see 
myself playing a very supportive role there, working with my 
colleagues and the Deputy Secretary to make that happen.
    Senator Akaka. Thank you, and for the record, can you 
please report back to the Committee with a preliminary plan of 
action within 60 days?
    Mr. Sepulveda. Yes, sir.
    [Mr. Sepulveda's response follows:]
 Response to Request for 60-Day Follow-up Plan by Hon. Daniel K. Akaka 
   to John U. Sepulveda, Nominee to be Assistant Secretary for Human 
   Resources and Administration, U.S. Department of Veterans Affairs
How do you plan to implement Deputy Secretary Gould's vision for 
        training of VA employees?
    Since my confirmation hearing and swearing-in ceremony I have had 
several opportunities to meet with Deputy Secretary Gould to learn more 
about his vision for investing in human capital. I share the Deputy 
Secretary's views on the importance of training and how it is linked to 
the Department's ability to deliver on the Nation's commitment to 
Veterans. An investment in VA's human capital is also critical to 
President Obama's and Secretary Shinseki's pledge to transform VA into 
a 21st century organization.
    VA has the challenging task of transforming a complex 
infrastructure of 290,000 people and a vast network of systems, 
processes, and protocols, into an integrated, forward-looking, results-
oriented, Veteran-focused workforce essential to serving Veterans. It 
is of paramount importance that the Department not only recruit, hire 
and retain the best people possible to ensure that quality care and 
services to Veterans continue, but that the workforce is trained and 
developed to sustain and continuously improve services to Veterans. 
Therefore, training that develops and empowers our workforce must be at 
the center of our transformation efforts.
    Since joining the Department, I have reviewed the Department's 
Strategic Human Capital Plan, which is a roadmap to developing a 
workforce fully capable of meeting the demands associated with the 
provision of quality health care and the timely delivery of benefits to 
Veterans and their families. I will implement the cross-cutting 
objectives and strategies of the plan, which include developing leaders 
who will inspire our workforce and transforming VA into an organization 
capable of meeting the demands of Veterans in the 21st century.
    I will use the Plan to guide strategies to recruit the best talent, 
to acquire and train entry and mid-level employees, to deploy and 
enhance learning management systems, to strengthen the Department's 
leadership pool, and to improve service delivery to Veterans. There is 
an obvious connection between the quality of VA's workforce and the 
quality of VA programs and services. I will work with the staff offices 
and administrations to develop, deploy, and evaluate training in the 
following areas:

    1. Leadership and Management Training supports the development of a 
corporate culture and cadre of agency-wide leadership norms and 
behaviors, and breaks down stovepipes.
    2. Supervisory Training bolsters the critical role that supervisors 
play between the organization's goals and the employees' capability to 
deliver.
    3. Technical Training aligns competencies and skills with employee 
performance and organizational goals.
    4. Transformation Training provides strategic focus and change 
management skills development--including leveraging the inherent value 
of diversity and inclusion--that establishes an agency's ability to 
deliver forward-looking, Veteran-centered, and results-driven service 
as well as establish a reputation as the kind of employer that will 
attract and retain outstanding, diverse, and energized talent.

    Finally, I will work to ensure that the Department's training 
efforts support VA's workforce planning and succession strategies. I 
will also create an evaluative framework to assess the efficacy and 
impact of training on the workforce's ability to serve Veterans.

    Senator Akaka. Mr. Baker, from what you have learned in the 
short time since you have been nominated, do you have any 
initial thoughts about what is working in the Office of 
Information and Technology today and what is definitely not 
working?
    Mr. Baker. Senator, thank you very much for that question, 
because I think sometimes publicly the Department gets focused 
on what is not going well, and I think there are a number of 
things that are going very well. You know, every day since I 
have been advising the Secretary here for a few weeks, I have 
seen the operational reports coming through from the IT 
operations piece. And every day the systems at the hospitals, 
the systems at the benefits organization run well, provide good 
response time, and support the operations of the Department.
    Clearly, the Department has made major strides forward in 
the last few years on information security and moved from one 
where I think, rightly, they lived most days in fear of what 
was going to happen next to one which is a much more controlled 
environment.
    As Senator Burris points out, it is not perfect, and there 
are continued issues to look at with information loss. But I 
think the way to phrase it is, ``Knock wood, we have not seen 
another laptop loss or unencrypted piece of information go 
out.'' So there are good things going on in there.
    On the negative side, I think it is very clear that the VA 
has a systems development issue in delivering successful 
programs. Had one failed, it would be one item, but there has 
been a string of those. And so the question that I have to 
enter with is: How do you solve that problem? First, how do you 
stop the failures from taking so long to surface? Because in 
any organization with 300 or more programs ongoing, there are 
going to be failures. The question is: Can you stop them before 
they become runaway failures? So, that is an area.
    Certainly I think just having the right people in the right 
place with the right skills to provide the services is 
something that I want to look at. Do we have the right amount 
of staff? Are we meeting appropriate metrics for an 
organization of our type in responding to trouble calls, in 
providing services to the organizations that are meeting the 
veterans' needs?
    So, just a couple of examples of positive things and 
negative things that I think are aspects of the organization at 
this point.
    Senator Akaka. Thank you. Before I call on Senator Burris 
for any other questions, Colonel Gunn, in a recent oversight 
visit to the Board of Veterans Appeals, Committee staff found 
that there is no tracking system to ensure that claims remanded 
from the Court of Appeals for Veterans Claims or the Board of 
Veterans Appeals comply with the statutory mandate that some 
claims be adjudicated more quickly than others. Will you please 
report back to the Committee within 60 days with what can be 
done to rectify this issue?
    Colonel Gunn. Yes, Senator.
    [Mr. Gunn's follow-up responses are posted as Attachment A 
on page 195.]
    Senator Akaka. Thank you. Let me complete with Mr. 
Sepulveda. As Chairman of the Subcommittee on Oversight of 
Government Management and the Federal Workforce of the Homeland 
Security and Governmental Affairs Committee, I am committed to 
making far greater use of telecommunicating opportunities 
throughout the Federal workplace.
    What are your thoughts on how VA might expand these 
opportunities? And what emphasis will you place on 
telecommunicating?
    Mr. Sepulveda. Thank you, Mr. Chairman, for that question. 
Obviously, when we are talking about the numbers of facilities 
and staff spread out around the country serving a growing 
number of veterans and their families that are located in all 
parts of the country, including rural areas that are not being 
served adequately, this telecommunications becomes extremely 
important, particularly in terms of telemedicine and in terms 
of training, distance learning. There is a whole variety of 
activities that can fall under that category, and I think that 
it is essential that we focus on it.
    I personally believe that we have to do that and we have to 
do it with greater strategic attention and in a much more 
coordinated way. Certainly, I am going to look forward to 
working with my colleagues here, particularly Mr. Baker, in how 
do we do that. And the other----
    [Laughter.]
    Mr. Sepulveda. He gets all the issues.
    But, also, the other part of this is part of the cultural 
change in the training to get managers and supervisors to also 
feel comfortable in being able to delegate authority to staff 
in other parts of the country and be able to provide the 
supervision and the direction over great distances. That is a 
cultural change that has to be part of the transformation that 
we are talking about at the Department, and certainly I am 
going to be working very closely with the executive team and 
the deputy to make that happen.
    Senator Akaka. Thank you very much.
    Senator Burris?
    Senator Burris. Thank you, Mr. Chairman. Just one last 
point, and then I might have a comment if I collect my thoughts 
on it. But I would just like to follow up with a question to 
Colonel Gunn in reference to his views on the rulemaking 
process.
    If we aim to build a 21st century organization, as you 
said, VA will need to adapt quickly to various needs that 
arise. The current rulemaking process is burdensome and takes 
an inordinate amount of time to complete. How do you propose to 
improve the process about changing rules and implementing new 
ones? What are your thoughts along those lines, Colonel?
    Colonel Gunn. Senator, thank you very much for the 
opportunity. I must say I have not devoted a great deal of 
thought to that at this point in time. However, certainly, as I 
go into the Department and transition, I will focus on that.
    The little bit that I know right now is that there is a 
group within the Office of the General Counsel that is focused 
on, I would say, handling the rulemaking process and being the 
shepherds of that for the Department, and that is a relatively 
new development. And the limited discussions that I have had 
thus far suggested that has proven to be a success. So, I am 
going to look into it and see what we can do in order to 
enhance it and improve it.
    Senator Burris [presiding]. Just a comment, Mr. Chairman--
oh, I am also the Chairman.
    Having been in Government for so many years--I even worked 
in the Federal Government for a while, but I did not go through 
the confirmation process--but being in Government in a large 
State, when you go into these agencies with your plans and your 
ideas and your commitments, there is a thing called ``inertia 
in the bureaucracy.'' And you have all these great ideas and 
plans, and you get in there and you want to try to deliver 
them. You have been questioned by us, and you want to try to 
report back to us, but the staff really is not attuned to--they 
were not up here answering these questions. They do not want 
what you all are trying to bring about. They have been there 
for 20 years and know all the answers; so you are going to come 
up against some of that.
    I just hope that you all are prepared--I know some of you 
all have been in Government before, so you are familiar with 
that. I am pretty sure the General and the Colonel are, in 
dealing with the military chain of command; and unfortunately, 
the civilians do not operate like the military. And you are 
going to find that those opportunities or those ideas and the 
answers that you have given us and the desires and the hopes of 
making change is not going to be easy.
    I just hope that you all would prepare to deal with that 
and keep your goals in mind, keep the focus in mind of how you 
can move the agency. This is no bad mark on the employees. 
There is a thing called ``protecting their turf'' and 
``protecting their jobs.'' And innovation is something that 
they just do not adhere to very easily. It is like trying to 
turn a battleship around, you know, in the middle of the lake, 
if you ever got it in the lake. And you will find that the 
employees are not on the same page as you are.
    So just a little word of wisdom from an old Government 
employee, a person who spent all of his life in Government. 
Just be mindful of how you can move your people to get your 
ideas and your agenda into place along with your superiors, 
because, you know, there is a Deputy Secretary and you have got 
Secretary Shinseki whom you are going to have to also report. 
You are also going to have to try to carry out those plans and 
those ideas to try to improve the system. And the only reason 
why we have jobs primarily is because there are problems. If 
there are no problems, there would be no jobs. So when you even 
create a new position--I mean a new idea or a new program--that 
creates new problems, which means some more jobs.
    So I just hope that you all will keep that in mind as you 
go into these great responsibilities that the President has 
nominated you for, and I hope and pray that you will get 
confirmed for, and you will go in there and not let your ideas 
and your commitment to us get pushed aside by the bureaucracy 
and the people who do not want to move, because it is going to 
be difficult. And I want you all to be aware of that and just 
hope and pray that you can deal with it.
    That is my advice to four distinguished appointees. I am 
honored to know you all.
    Thank you, Mr. Chairman.
    Senator Akaka [presiding]. Thank you very much, Senator 
Burris.
    To all our panelists today, I just want to tell you that I 
appreciate very much your desire to serve our Nation's 
veterans. For the information of members and staff, I would 
like to move these nominations as soon as possible. To that 
end, I ask that any post-hearing questions be sent to the 
Committee's legislative clerk by the close of business 
tomorrow. And I again thank you for bringing your families and 
your friends, and I look forward to working with you in this 
21st century course that we are taking. It looks good, and we 
have lots of work to do. But we can do it very well together.
    Thank you. This hearing is adjourned.
    [Whereupon, at 10:34 a.m., the Committee was adjourned.]
  

                                  <all>

</pre></body></html>
